1a
APPENDIX A
IN THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

No. 17-3111
UNITED STATES OF AMERICA, et al.,
Plaintiffs-Appellees,
v.
DISH NETWORK, L.L.C.,
Defendant-Appellant.

Appeal from the United States District Court
for the Central District of Illinois.
No. 09-3073 — Sue E. Myerscough, Judge.

ARGUED
SEPTEMBER 17, 2018

—

DECIDED
MARCH 26, 2020

Before EASTERBROOK, KANNE, and BRENNAN,
Circuit Judges.
EASTERBROOK, Circuit Judge. After a bench trial
that lasted five weeks and produced 475 typed pages
of findings, a district judge concluded that DISH

2a
Network and its agents committed more than 65
million violations of telemarketing statutes and
regulations. 256 F. Supp. 3d 810 (C.D. Ill. 2017) (183
printed pages). The penalty: $280 million. DISH does
not challenge any finding of fact. This simplifies the
appellate task, but legal issues remain.
DISH sold its satellite TV service through its own
staff plus third parties. These fell into three
categories. DISH hired “telemarketing vendors” to
conduct campaigns on its behalf. It used thousands of
“full service retailers” that sold, installed, and
serviced satellite gear and service in their areas.
Finally, it had some 50 “order-entry retailers”, which
used phones to sell nationwide. The order-entry
retailers took orders from customers and entered
them directly into DISH’s computer system. DISH
was responsible for installing the necessary
equipment and received payments from the
customers, remitting to the order-entry retailers a
commission for each new customer. This appeal
concerns the acts of DISH and four order-entry
retailers: Dish TV Now, Star Satellite, JSR, and
Satellite Systems Network.
The United States, California, North Carolina,
Illinois, and Ohio filed suit against DISH, alleging
violations of federal and state laws. The district court
found that DISH and its agents violated the
Telemarketing Sales Rule, 16 C.F.R. §310
(propagated under 15 U.S.C. §45, part of the Federal
Trade Commission Act), the Telephone Consumer
Protection Act, 47 U.S.C. §227, and related state laws.
The appeal concerns the extent to which DISH had to
coordinate do-not-call lists with and among these

3a
retailers or was otherwise responsible for their acts.
The Telemarketing Sales Rule prohibits (i) calls to
people who placed their names on the National Do
Not Call Registry, (ii) calls to people who placed their
names on a vendor’s internal do-not-call list, and (iii)
“abandoned” calls (so named because a system that
fails to put the consumer in contact with a live person
within two seconds of the call connecting is deemed
“abandoned”). See 16 C.F.R. §310.4(b)(1)(iii)(B), (A),
and (b)(1)(iv). Those prohibitions give rise to most of
the issues.
The district judge found that DISH caused
violations of the Rule by engaging other entities to sell
its service. As a fallback, the judge concluded that the
order-entry retailers were DISH’s agents, which
made DISH responsible whenever any of these
retailers called a person on any other retailer’s do-notcall list (or on DISH’s own). The district judge added
that DISH was liable for having provided substantial
assistance to one order-entry retailer, Star Satellite,
in making abandoned calls. The judge found that
DISH itself placed calls that violated the Rule. In
addition, the district court deemed DISH liable for the
order-entry retailers’ violations of the state statutes.
The
Telephone
Consumer
Protection
Act,
§227(b)(1)(B), (c), and some state laws, which the
district court’s opinion collects, prohibit many
prerecorded calls and calls to persons on the FTC’s donot-call registry.
We start with DISH’s challenge to the district
court’s conclusion that it caused violations of statutes
and regulations just by hiring others to sell its
services. One provision in the Rule makes it unlawful

4a
for a seller to “cause a telemarketer to engage in”
violations. 16 C.F.R. §310.4(b). Neither the regulation
nor any judicial decision addresses what “cause”
means. Plaintiffs maintain, and the district court
found, that “cause” occurs whenever an act plays any
role in the chain of acts leading to a violation. On this
understanding the very existence of DISH “causes” all
violations by anyone who, in the absence of satellite
TV, would be in some other line of work. DISH
maintains, to the contrary, that “cause” means
“proximate cause,” a phrase that excludes some
effects that are remote from the violation. See Hemi
Group, LLC v. New York City, 559 U.S. 1 (2010)
(applying a proximate-cause approach to civil RICO).
We are skeptical about both approaches. To
engage a contractor is to cause calls, but not
necessarily violations, and it is violations that the
Rule prohibits a seller from causing. It may be that
some retailers will make forbidden calls, but others
will exceed the speed limit when driving, violate the
minimum wage laws, or steal customers’ funds.
Would it make sense to say that DISH caused those
offenses just by trying to sell TV service? The central
question should be “cause what?” rather than “cause”
in the abstract. This is a distinction that has been
tackled for other bodies of law. For example,
recovering damages for a violation of the securities
law depends on establishing that the fraud caused a
loss, not just caused the transaction in which a loss
occurred. See, e.g., Stoneridge Investment Partners,
LLC v. Scientific-Atlanta, Inc., 552 U.S. 148 (2008);
Dura Pharmaceuticals, Inc. v. Broudo, 544 U.S. 336
(2005). The plaintiffs do not argue, and the district
judge did not find, that DISH “caused” all violations

5a
in this sense, as opposed to causing efforts to sell its
services.
We need not come to a conclusion about the
meaning of “cause”, however, because the district
court also found that the order-entry retailers were
DISH’s agents, making DISH liable for their acts as a
matter of state agency law. Liability in favor of the
state plaintiffs depends on the agency finding: the
state statutes and rules do not have a clause parallel
to 16 C.F.R. §310.4(b), so we cannot avoid deciding
whether the order-entry retailers were DISH’s
agents. If we agree with the district judge that they
were, that resolves most issues of liability under both
state and federal law. The debate about “cause” would
be dispositive only if we were to reject the district
judge’s agency ruling.
And DISH’s decision not to contest any of the
district judge’s findings of fact greatly simplifies this
analysis, because the existence of an agency relation
is a question of fact. As with many factual issues the
outcome depends on the application of legal rules to
facts—in legal jargon agency is a “mixed question of
law and fact”—but that does not open the subject to
the sort of plenary review available to questions of
law. See, e.g., Pullman-Standard v. Swint, 456 U.S.
273 (1982) (the existence of “discrimination” is a
question of fact even though the decision depends on
legal rules).
We have held that existence of an agency relation
is a question of fact reviewed for clear error. See Spitz
v. Proven Winners North America, LLC, 759 F.3d 724,
732 (7th Cir. 2014); Moriarty v. Glueckert Funeral

6a
Home, Ltd., 155 F.3d 859, 864 (7th Cir. 1998). These
decisions accord with the Supreme Court’s view, most
recently expressed in U.S. Bank, N.A. v. Village at
Lakeridge, LLC, 138 S. Ct. 960, 967–68 (2018), that
deferential rather than “legal” appellate review is
appropriate when case-specific factual considerations
dominate. See also Monasky v. Taglieri, 140 S. Ct.
719, 730 (2020).
DISH maintains that the district court legally
erred when it interpreted the contract between the
order-entry retailers and DISH. Interpretation
presents a legal question in the absence of extrinsic
evidence, of which there is none, but this does not
assist DISH because the district judge got it right.
The contract asserts that it does not create an agency
relation, but parties cannot by ukase negate agency if
the relation the contract creates is substantively one
of agency. Restatement (Third) of Agency §1.02 (2006).
This contract (materially identical for all orderentry retailers) gave DISH the right to control their
performance. Section 7.3 requires that “Retailer shall
comply with all Business Rules”. Section 1.6 provides
a definition: “‘Business Rule[]’ means any term,
requirement, condition, condition precedent, process
or procedure associated with a Promotional Program
or otherwise identified as a Business Rule by
[DISH] … [DISH] has the right to modify any
Business Rule at any time and from time to time in
its sole and absolute discretion for any reason or no
reason, upon notice to Retailer.” These provisions
gave DISH complete control over the order-entry
retailers’ performance. What’s more, these retailers
acted directly for DISH, entering orders into DISH’s

7a
system; they did not have their own inventory and
were not resellers of any kind. Under normal
principles, they were DISH’s agents notwithstanding
the contractual disclaimer.
Next in line: is DISH liable as a principal for
failing to ensure that it and all of its agents shared a
single internal do-not-call list? The relevant portion
of the Telemarketing Sales Rule, 16 C.F.R.
§310.4(b)(1)(iii)(A), forbids calling a person who
“previously has stated that he or she does not wish to
receive an outbound telephone call made by or on
behalf of the seller whose goods or services are being
offered”. Because the order-entry retailers were
DISH’s agents, DISH and the order-entry retailers
were collectively one “seller whose goods or services
are being offered”. This meant that they had to act
collectively; otherwise any household could receive
endless calls peddling DISH’s service, as long as each
came from a different order-entry retailer. (The calls
from the order-entry retailers were made within the
scope of their agency; we need not consider whether
coordination is required when someone who is not
acting as a traditional agent places a call.)
The same analysis applies to the Ohio statute. It
makes liable any party who either directly or as a
result of a third party acting on its behalf engaged in
unfair, deceptive, and unconscionable consumer sales
practices. Ohio Rev. Code §§ 1345.02(A), 1345.03(A).
Calling people on internal do-not-call lists violates
this rule, and as with the Telemarketing Sales Rule,
the order-entry retailers were the sort of agents
required to coordinate lists with DISH. The order-

8a
entry retailers were acting on behalf of DISH for this
purpose.
DISH contends that, if it is liable for failure to
coordinate the do-not-call lists, this is a continuing
violation whose penalty is capped by 15 U.S.C.
§45(m)(1)(C): “In the case of a violation through
continuing failure to comply with a rule or with
[subsection (a)(1)], each day of continuance of such
failure shall be treated as a separate violation”. The
district court disagreed with this contention and
treated each call, rather than each day, as a violation.
The Supreme Court has not yet examined this
provision, nor has any court of appeals in a published
opinion. The Court has held that a similar provision,
§45(l), allows the government to seek a daily penalty
for a continuing violation of a consent order to not
acquire other bakeries (the defendant acquired a
bakery and retained it). United States v. ITT
Continental Baking Co., 420 U.S. 223 (1975). That
conclusion offers limited aid for our situation, as it’s
not clear whether a failure to coordinate lists is at all
like a failure to divest a bakery.
Let us return to the text of the Rule. It prohibits
sellers from “causing” a telemarketer to initiate “any
outbound telephone call to a person” who “previously
has stated that he or she does not wish to receive an
outbound telephone call made by or on behalf of the
seller whose goods or services are being offered”. 16
C.F.R. §310.4(b)(1)(iii)(A). This tells us that the
violation is the call, not the failure to coordinate
internal do-not-call lists. Lack of coordination may
lead to forbidden calls, but the absence of coordination
is not itself a legal wrong. As long as sellers do not call

9a
people who have asked not to be called, they have
satisfied their legal obligation. This implies that
“such failure” in §45(m)(1)(C) refers to each call. A call
that lasted multiple days would count as one violation
per day; otherwise there is one violation per call. Cf.
National Railroad Passenger Corp. v. Morgan, 536
U.S. 101 (2002) (distinguishing between discrete
violations of Title VII of the Civil Rights Act and
continuous “hostile work environment” violations).
No one has sought enhanced penalties for multi-day
calls, and because the call is the violation
§45(m)(1)(C) does not cut down liability to one penalty
per day.
Some of the order-entry retailers’ calls were
wrongful independent of the list-coordination issue.
These include calls to people on the National Do Not
Call Registry, calls to people on the order-entry
retailers’ own internal lists, and abandoned calls, as
well as some calls that violated state though not
federal rules. The norm of agency is that a principal
is liable for the wrongful acts of the agent taken
within the scope of the agency—that is, the authority
to complete the task assigned by the principal. See
Restatement (Third) of Agency §7.08. A principal that
learns of illegal behavior committed by its agents,
chooses to do nothing, and continues to receive the
gains, is liable for the agent’s acts. See NECA-IBEW
Rockford Local Union 364 Health & Welfare Fund v.
A & A Drug Co., 736 F.3d 1054, 1059 (7th Cir. 2013).
The order-entry retailers were authorized to sell
DISH’s service by phone nationwide. In exercising
that authority the order-entry retailers violated the
prohibitions mentioned in the preceding paragraph,

10a
and the district court found that DISH knew about
these retailers’ wrongful acts (a factual finding not
challenged on appeal). This is enough to make DISH
liable as the principal.
Its primary argument against liability is that the
contracts told the order-entry retailers to follow all
applicable laws. DISH points to Bridgeview Health
Care Center, Ltd. v. Clark, 816 F.3d 935 (7th Cir.
2016), as support for its position that such an
instruction averts liability. In Bridgeview a small
business explicitly told a marketing firm to send
unsolicited fax ads to about 100 entities around Terre
Haute. The firm sent, in addition to the local faxes,
more than 4,500 faxes to businesses around Indiana
and surrounding states without the small business’s
knowledge or permission. We held that the small
business was liable for the 100 authorized faxes but
not for the unauthorized ones.
Bridgeview does not stand for the proposition that
generic instructions to follow the law immunize a
principal from liability resulting from its agent’s
illegal acts, taken within the scope of authority.
Instead it shows that acts outside of an agent’s
authority do not generate liability for the principal.
The faxes were not unauthorized because they were
illegal (the authorized faxes were also illegal). They
were unauthorized because the principal did not give
the agent authority to send them and lacked any
knowledge of the agent’s unauthorized actions. We
added that the extra faxes did not benefit the small
business, which did not sell its products outside of
Terre Haute. Principals are not liable for acts that
gratify an agent’s desires at the principals’ expense.

11a
DISH’s agents, by contrast, acted within their
authority to sell TV service using phone calls, and
those acts benefitted DISH. The district court found
that DISH knew what the order-entry retailers were
doing. That is enough for DISH to be liable for the
order-entry retailers’ illegal calls under those federal
and state laws that extend beyond the failure to
coordinate internal do-not-call lists.
We have one remaining question of liability. The
district court found DISH liable under §310.3(b) of the
Telemarketing Sales Rule for “substantially
assisting” Star Satellite in making abandoned calls.
This effectively means that the district court held
DISH liable twice per abandoned call: once for making
the call (through an agent) and once for assisting that
agent. Then the district court declined to count the
calls twice in calculating the penalty, so it is not clear
why DISH bothers to protest.
To the extent that the “substantial assistance”
finding affected the district court’s exercise of
discretion in selecting the penalty, however, the
finding may matter—and it was mistaken. Section
310.3(b) says: “It is a deceptive telemarketing act or
practice and a violation of this Rule for a person to
provide substantial assistance or support to any seller
or telemarketer when that person knows or
consciously avoids knowing that the seller or
telemarketer is engaged in any act or practice that
violates [other provisions of the Rule].” While DISH is
a “person” as defined in §310.2 of the Rule, context
shows that the sort of “person” to which this
prohibition applies is one that assists a “seller” or
“telemarketer.” Yet DISH is the seller for this

12a
purpose; as the principal to the order-entry retailers,
it is treated as the seller for all of their calls.
Section 310.3 does not create liability for assisting
oneself. Such liability is possible in theory: Employee
A could assist Employee B of the same entity to make
a wrongful call. Longstanding principles require
treating the employer and its employees as one entity,
however. Copperweld Corp. v. Independence Tube
Corp., 467 U.S. 752 (1984). When an entity is
vicariously responsible for another’s acts (as a
corporation is vicariously for the acts of its employees,
and DISH is vicariously responsible for the acts of the
order-entry retailers), it makes little sense to treat
the entity as assisting itself. It would take clearer
language than §310.3(b) to support such a conclusion.
The district court therefore should not have held
DISH liable for “substantially assisting” its own
agents.
We move to DISH’s statutory defenses. Liability
is possible under 15 U.S.C. §45(m)(1)(A) only if a
violator of regulations promulgated under the Federal
Trade Commission Act (such as the Telemarketing
Sales Rule) has either “actual knowledge or
knowledge fairly implied on the basis of objective
circumstances that such act is unfair or deceptive and
is prohibited by such rule.” DISH contends that it
cannot be liable under this standard for three
reasons. First, it did not know of each individual call
placed by the order-entry retailers (a mistake of fact).
Second, it did not know that it would be liable for the
actions of the order-entry retailers (another mistake
of fact, given our holding that agency is a factual
matter). Third, it did not know that it lacked an

13a
“established business relationship” with customers
who had stopped paying their bills before DISH
disconnected their service (a mistake of law).
The mistake-of-fact defense is weak. The
knowledge of the agent is imputed to the principal. As
the district court found, the order-entry retailers
knew that they were making millions of calls, and
they were making those calls to gain customers for
DISH. Therefore, DISH knew of the calls as well.
Restatement (Third) of Agency §5.03; National
Production Workers Union Insurance Trust v. Cigna
Corp., 665 F.3d 897, 903 (7th Cir. 2011). And DISH’s
failure to understand this rule of agency law—that is,
its mistaken belief that a disclaimer in the contract
could avoid liability—does not provide a defense
under this statutory language.
Can a party avoid liability under the Federal
Trade Commission Act for a mistake of law?
Traditionally, ignorance of the law is no excuse. But
§45(m)(1)(A) includes a variation on an ignorance-ofthe-law defense; a business can be liable only if it
either knew that the act was unlawful or if it should
have known the act was unlawful (“knowledge fairly
implied”). See Jerman v. Carlisle, McNellie, Rini,
Kramer & Ulrich L.P.A., 559 U.S. 573, 583–84 (2010).
See also United States v. National Financial Services,
Inc., 98 F.3d 131, 139 (4th Cir. 1996).
But the state of DISH’s knowledge is yet another
factual question, and DISH has not challenged any
finding of fact. The district court found that DISH had
at least implied knowledge that the order-entry
retailers were its agents and therefore would be liable

14a
for their actions. The district court concluded that
DISH knew that it had control over the order-entry
retailers and knew, too, that they were making
unlawful calls. That was enough for DISH to be aware
that it could be liable. A large national corporation
with the ability to hire sophisticated counsel is
deemed to know basic principles of agency law.
Still, DISH argues, it did not know the legal
definition of an “established business relationship”
under 16 C.F.R. §310.2(q)(1). A business can call a
customer with whom it has an “established business
relationship” without regard to the National Do Not
Call Registry or its internal do-not-call lists. 16 C.F.R.
§310.4. An “established business relationship”
depends on “the consumer’s purchase, rental, or lease
of the seller’s goods or services or a financial
transaction between the consumer and seller, within
the eighteen (18) months immediately preceding the
date of a telemarketing call”. 16 C.F.R. §310.2(q)(1).
DISH asserts that the regulation treats a business
relation as “established” through the last date a
product was delivered. DISH points to this comment,
which accompanied the Rule:
The amended [Telemarketing Sales] Rule
allows for an 18-month time limit where there
has been a purchase, rental or lease, or other
financial transaction between the customer
and seller. The 18-month time limit for an
“established business relationship” based on a
purchase, lease, rental, or financial
transaction runs from the date of the last
payment or transaction, not from the first
payment. In instances where consumers pay

15a
in advance for future services (e.g., purchase
a two-year magazine subscription or health
club membership), the seller may claim the
exemption for 18 months from the last
payment or shipment of the product.
68 Fed. Reg. 4361, 4593 (Jan. 29, 2003). DISH
contends that this entitled it to start the 18-month
period on the date it disconnected a customer’s
service, even if that date came after the customer’s
subscription expired for lack of payment. The district
court, by contrast, used the customer’s final payment
as the start of the 18-month window.
We agree with the district court: the Rule shows
that DISH needed to use the last date of payment. The
text of the Rule starts the 18-month clock from the
date a consumer purchases, rents, or leases the
seller’s goods or services. This makes 18 months from
the last payment the terminal date. The contrary
statement in the Federal Register (if it really is
contrary) does not purport to interpret any of the
Rule’s text. An agency’s reasonable interpretation of
ambiguous regulations may be entitled to deference.
Kisor v. Wilkie, 139 S. Ct. 2400 (2019). But this Rule
is not ambiguous. To the extent that the Federal
Trade Commission’s comments are inconsistent with
the Rule’s text, the text prevails.
Finally, we move to damages.
DISH argues that the federal and state
telemarketing laws violate the Due Process Clause of
the Fifth Amendment because they fail to provide
notice of potentially whopping penalties. This

16a
argument supposes that government must provide
some notice on top of the statutes and rules
themselves, but why? There’s nothing ambiguous
about them. If there is a problem, it isn’t lack of
notice.
DISH’s other constitutional contention is that the
maximum penalties allowed by the Telemarketing
Sales Rule, the Telephone Consumer Protection Act,
and the related state laws, substantively violate the
Due Process Clause because they are too high. The
maximum penalty is $10,000 per violation. Multiply
this by the 66 million violations the district judge
found and you get $660 billion. That’s a huge number,
but it is not possible to evaluate it separately from the
penalty per violation, which is a normal number for
an intentional wrong. Legislatures have “a wide
latitude of discretion” to set civil penalties. St. Louis,
Iron Mountain & Southern Ry. v. Williams, 251 U.S.
63, 66 (1919). Someone whose maximum penalty
reaches the mesosphere only because the number of
violations reaches the stratosphere can’t complain
about the consequences of its own extensive
misconduct.
A complaint about how the district judge
exercised her discretion could in principle fare better.
An award of $660 billion for the conduct in which
DISH engaged would be impossible to justify—though
a court of appeals could say that without reaching any
constitutional argument. (Prudential arguments,
such as a contention that a judge abused her
discretion, come ahead of constitutional points. See,
e.g., New York City Transit Authority v. Beazer, 440
U.S. 568, 582 (1979).) But the district court did not

17a
award $660 billion or anything close to it. The award
is $280 million, closer to $4 than to $10,000 per
improper call. This could be a constitutional problem
only if a combination of compensatory and punitive
damages adding to $4 violated the Due Process
Clause. Yet if an unwanted call causes even $1 of
harm, the “punitive” multiplier (around 3) likely
comes within the Constitution’s limit. See State Farm
Mutual Auto Insurance Co. v. Campbell, 538 U.S. 408,
425 (2003) (questioning whether a punitive damages
multiplier beyond nine can satisfy the Due Process
Clause).
Still, as we have mentioned, statutory questions
and an evaluation of the judge’s use of discretion must
precede any constitutional decision. The Federal
Trade Commission Act requires that “[i]n
determining the amount of such a civil penalty, the
court shall take into account the degree of culpability,
any history of prior such conduct, ability to pay, effect
on ability to continue to do business, and such other
matters as justice may require.” 15 U.S.C.
§45(m)(1)(C). The Telephone Consumer Protection
Act does not include a provision that a court should
consider a violator’s ability to pay. One of the state
statutes (Cal. Bus. & Prof. Code §17206) instructs
courts to consider the violator’s ability to pay, but the
others do not. Yet the district court based the penalty
entirely on DISH’s ability to pay, setting it at 20% of
a year’s profits. That’s a problem, especially under
statutes that do not include ability to pay as even a
permissible factor.
Normally the legal system bases civil damages
and penalties on harm done, not on the depth of the

18a
wrongdoer’s pocket. Legislatures can change this
norm, and two of the statutes underlying this penalty
permit consideration of wealth—though none permits
it to be the sole factor. It is hard for us to see a
justification, even under these two statutes, for
starting from the defendant’s wealth rather than
harm. We appreciate that the district judge tried to
ensure that the penalty was within a constitutionally
allowable range, but the best way to do this is to start
from harm rather than wealth, then add an
appropriate multiplier, after the fashion of the
antitrust laws (treble damages) or admiralty (double
damages), to reflect the fact that many violations are
not caught and penalized. See, e.g., Exxon Shipping
Co. v. Baker, 554 U.S. 471 (2008) (admiralty); Reiter
v. Sonotone Corp., 442 U.S. 330 (1979) (antitrust);
Beard v. Wexford Health Sources, Inc., 900 F.3d 951,
956 (7th Cir. 2018); Zazú Designs v. L’Oréal, S.A., 979
F.2d 499, 505–06 (7th Cir. 1992).
The judgment of the district court is affirmed,
except for its holding that DISH is liable for
“substantially assisting” Star Satellite and its
measure of damages. With respect to those matters,
the judgment is vacated, and the case is remanded for
further proceedings consistent with this opinion.

19a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF ILLINOIS
SPRINGFIELD DIVISION
UNITED STATES OF
AMERICA, and the
STATES of CALIFORNIA,
ILLINOIS, NORTH
CAROLINA, and OHIO,
Plaintiffs,
v.
DISH NETWORK LLC,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)

No. 09-3073

FINDINGS OF FACT AND
CONCLUSIONS OF LAW
SUE E. MYERSCOUGH, U.S. District Judge:
This matter came before the Court on January 19,
2016, for a bench trial. The first phase of the bench
trial was completed on February 17, 2016. The trial
resumed on October 25, 2016. The Court heard
testimony on October 25-27, 2016 and November 2,
2016. The Plaintiff United States appeared by
Assistant United States Attorneys Patrick Runkle,
Lisa Hsiao, and Sang Lee, and also by Federal Trade
Commission Attorney Russell Deitch and Gary Ivens;
the Plaintiff State of California appeared by Assistant

20a
Attorneys General Jinsook Ohta, Jon Worm, and
Adelina Acuna; the Plaintiff State of Illinois appeared
by Assistant Attorneys General Paul Isaac, Elizabeth
Backston, and Philip Heimlich; the Plaintiff State of
North Carolina appeared by Assistant Attorney
General David Kirkman and Teresa Townsend; and
the Plaintiff State of Ohio appeared by Assistant
Attorneys General Erin Leahy and Jeff Loeser. The
Defendant Dish Network, LLC (Dish) appeared by
attorneys Peter Bicks, Elyse Echtman, John Ewald,
Jamie Shookman, Shasha Zou, Louisa Irving, Joseph
Boyle, and Lauri Mazzuchetti.1 Dish’s in-house
counsel Stanton Dodge, Larry Katzin, and Brett Kitei
also appeared. On November 2, 2016, the parties and
the witness appeared by videoconference, except that
Dish in-house counsel Dodge’s and Kitei’s and
California’s counsel Ohta and Acuna appeared by
telephone.
The Plaintiffs alleged twelve counts against Dish
for violations of federal and state laws and
regulations
prohibiting
certain
outbound
telemarketing calls (Do-Not-Call Laws). The term
“Do-Not-Call” is also sometimes referred to as “DNC.”
The Plaintiffs allege that Dish violated the
Telemarketing Consumer Fraud and Abuse
Prevention Act (Telemarketing Act), 15 U.S.C. § 6101
et seq.; the Telephone Consumer Protection Act
(TCPA), 47 U.S.C. § 227; the Telephone Sales Rule
(TSR) promulgated by the Federal Trade Commission
(FTC) pursuant to the Telemarketing Act, 16 C.F.R.
Part 310; the Rule (FCC Rule) promulgated by the
Federal
Communications
Commission
(FCC)
1

Not all counsel appeared at every day of trial.

21a
pursuant to the TCPA, 47 C.F.R. 64.1200 et seq.; the
California Do-Not-Call Law, Cal. Bus. & Prof. Code §
17592(c); the California Unfair Competition Law, Cal.
Bus. & Prof. Code § 17200; the North Carolina DoNot-Call Law, N.C. Gen. Stat. § 75-102(a); the North
Carolina Automatic Telephone Dialer Law, N.C. Gen.
Stat. § 75-104; the Illinois Automatic Telephone
Dialers Act (IATDA), 815 ILCS 305/1 et seq.; and the
Ohio Consumer Sales Protection Act, Ohio Rev. Code
§§ 1345.02 and 1345.03. Third Amended Complaint
(d/e 483), Count I-XII. For a detailed discussion of the
applicable statutes and rules, see Opinion entered
December 14, 2014 (d/e 445) (Opinion 445), at 10-32
and 215-25, 75 F.Supp.3d 942, 954-62, 1026-31 (C.D.
Ill. 2014), vacated in part on reconsideration, 80
F.Supp.3d 917 (C.D. Ill. 2015). The Court entered
partial summary judgment on some the Plaintiffs’
claims. Opinion 445, at 231-38.
For the reasons set forth below, this Court enters
judgment in favor of the Plaintiffs United States and
the States of California, Illinois, North Carolina, and
Ohio and against Defendant Dish on Counts I, II, III,
V, VI, VII, VIII, IX, X, and XII of the Third Amended
Complaint and judgment in favor of Plaintiff United
States and against Defendant Dish on the claim that
Defendant provided substantial assistance to Dish
Order Entry Retailer Star Satellite as alleged in
Count IV of the Third Amended Complaint, and
judgment in favor of Defendant Dish and against the
United States on the claim that Dish provided
substantial assistance to Dish Order Entry Retailer
Dish TV Now as alleged in Count IV of the Third
Amended Complaint. The Court enters judgment in

22a
favor of Defendant Dish and against Plaintiff State of
Illinois on Count XI of the Third Amended Complaint.
The Court awards civil penalties and statutory
damages in favor of the Plaintiffs United States and
the States of California, Illinois, North Carolina, and
Ohio and against Defendant Dish in Counts I, II, III,
IV, V, VI, VII, VIII, IX, X, and XII of the Third
Amended Complaint in the total sum of
$280,000,000.00. The amount awarded in each Count
is set forth below in the Conclusion.
The Court also enters a Permanent Injunction in
favor of the Plaintiffs and against Defendant Dish
Network, L.L.C. in the manner set forth in the
separate Permanent Injunction Order filed with this
Findings of Fact and Conclusions of Law.
The following constitutes findings of fact and
conclusions of law for the issues remaining for trial.
Fed. R. Civ. P. 52(a).
This case is complex and covers years of
telemarketing by Dish and numerous related entities.
The Court organizes the findings of fact under various
headings. The organizational structure does not limit
any findings to any particular issue. Unless otherwise
indicated, all findings of fact may be relevant to all
issues.
JURISDICTION
This Court has jurisdiction to hear the United
States’ claims in Counts I-IV pursuant to 28 U.S.C.
§§ 1331, 1337(a), 1345, and 1355; Federal Trade

23a
Commission Act (FTC Act), 15 U.S.C. §§ 45(m)(1)(A),
53(b), 56(a), and 57(b); and the Telemarketing Act, 15
U.S.C. § 6105(a) & (b). The FTC authorized the
Attorney General to commence this action on behalf
of the United States pursuant to FTC Act § 56(a). This
Court has jurisdiction to hear the Plaintiff States’
TCPA claims in Counts V & VI pursuant to 28 U.S.C.
§§ 1331, 1337(a), 1345, and 1355; and exclusive
jurisdiction pursuant to TCPA, 47 U.S.C. § 227(g)(2).
This Court has supplemental jurisdiction to hear the
Plaintiff States’ state law claims in Counts VII-XII
pursuant to 28 U.S.C. § 1367(a).
Dish argues that the Plaintiff States lack
standing to bring the TCPA claims alleged in Counts
V and VI. A lack of standing is jurisdictional. Steel Co.
v. Citizens for a Better Environment, 523 U.S. 83, 93
(1998). To establish standing, a plaintiff must have
“(1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant,
and (3) that is likely to be redressed by a favorable
judicial decision.” Spokeo, Inc. v. Robins, __U.S.__,
136 S.Ct. 1540, 1547 (2016).
The TCPA § 227(g) authorizes the Plaintiff States
to bring this action. Section 227(g)(1) states that when
the State Attorney General, “has reason to believe
that any person has engaged or is engaging in a
pattern or practice of telephone calls or other
transmissions to residents of that State in violation of
this section or the regulations prescribed under this
section,” then “the State may bring a civil action on
behalf of its residents.” 47 U.S.C.A. § 227(g)(1). The
Plaintiff States, therefore, are bringing the claims in
Counts V and VI in parens patriae to protect the well-

24a
being of each Plaintiff State’s populace. The Plaintiff
States must demonstrate Article III standing. The
Plaintiff States must demonstrate some concrete
injury to its residents by Dish that can be redressed
by the claims in Counts V and VI. Alfred L. Snapp &
Son, Inc., v. Puerto Rico ex rel. Barez, 458 U.S. 592,
602-05 (1982). The Congressional grant of a right to
statutory damages in the TCPA § 227(g) is not
sufficient by itself to establish standing. The Plaintiff
States must show some injury in fact from the
unwanted telemarketing calls. Spokeo, 136 S.Ct. at
1543.
Several District Courts have considered whether
unwanted calls made in violation of the TCPA cause
concrete injury necessary to establish standing. Many
of these District Courts have found that the
annoyance and distress caused by unwanted calls
established concrete injuries sufficient to establish
standing. E.g., Krakauer v. Dish Network, L.L.C., 168
F.Supp.3d 843, 845 (M.D. N.C. 2016); Wilkes v.
CareSource Management Group Co., 2016 WL
7179298, at *3 (N.D. Ind. December 9, 2016);
Mbazomo v. Etourandtravel, Inc., 2016 WL 7165693,
at *2 (E.D. Cal. December 8, 2016); Griffith v.
ContextMedia, Inc., 2016 WL 6092634, at *1-2 (N.D.
Ill. October 19, 2016); LaVigne v. First Community
Bancshares, Inc., 2016 WL 6305992, at *3 (D. N.M.
October 19, 2016); Espejo v. Santander Consumer
USA, Inc., 2016 WL 6037625, at *9 n.3 (N.D. Ill. Oct.
14, 2016); Dolemba v. Illinois Farmers Insurance
Company, 2016 WL 5720377 (N.D. Ill. September 30,
2016); Juarez v. Citibank, N.A., 2016 WL 4547914, at
*3 (N.D. Cal. September 1, 2016); Aranda v.
Caribbean Cruise Line, Inc., 2016 WL 4439935, at *5-

25a
*7 (N.D. Ill. August 23, 2016); A.D. v. Credit One
Bank, N.A., 2016 WL 4417077 (N.D. Ill. August 19,
2016). The Court in Aranda described how unwanted
telephone calls cause concrete injuries by invading
the privacy of the home:
In any event, section 227 establishes
substantive, not procedural, rights to be free
from telemarketing calls consumers have not
consented to receive. Both history and the
judgment of Congress suggest that violation
of this substantive right is sufficient to
constitute a concrete, de facto injury. As other
courts have observed, American and English
courts have long heard cases in which
plaintiffs
alleged
that
defendants
affirmatively directed their conduct at
plaintiffs to invade their privacy and disturb
their solitude. See, e.g., Mey v. Got Warranty,
Inc., ––– F.Supp.3d ––––, ––––, 2016 WL
3645195, at *3 (N.D.W.V.2016) (“[T]he TCPA
can be seen as merely liberalizing and
codifying the application of [a] common law
tort to a particularly intrusive type of
unwanted telephone call.”); Caudill v. Wells
Fargo Home Mort., Inc., No. 5:16-066-DCR,
2016 WL 3820195, at *2 (E.D.Ky. July 11,
2016) (“[The] alleged harms, such as invasion
of privacy, have traditionally been regarded
as providing a basis for a lawsuit in the
United States.”).
Aranda, 2016 WL 4439935, at *6. The Aranda Court
noted that, “Congress enacted the TCPA to protect
consumers from the annoyance, irritation, and

26a
unwanted nuisance of telemarketing phone calls,
granting protection to consumers’ identifiable
concrete interests in preserving their rights to privacy
and seclusion.” Id.
Each Plaintiff State further presented testimony
from residents who personally suffered injury from
unwanted calls by Dish or its related entities. E.g.,
Deposition David Slaby, at 6, 52-53, 69-70 (California
resident); T 613: 24-26 (Skala (Illinois resident)); T
618:856-66 (Krakauer (North Carolina resident)); T
617: 574 (Kitner (Ohio resident)).2 The Plaintiff States
have demonstrated that the calls at issue caused
concrete injury necessary to establish standing.
Dish has cited a District Court that found that
receipt of unwanted telephone calls did not cause
concrete injury necessary to established standing.
Romero v. Department Stores National Bank et al. v.
Defendants, 2016 WL 41484099 (S.D. Cal. August 5,
2016). The Court respectfully disagrees with the
reasoning in the Romero decision and agrees with the
reasoning in the Aranda decision, the Krakauer
decision, and the other cases cited immediately above.
The Plaintiff States therefore have standing to
proceed.

The Court references the trial transcript as follows: the
letter T, the docket entry number of the relevant portion of the
transcript, the page number, and the last name of the witness in
parentheses. The Court references exhibits by the exhibit
number used at trial. The deposition excerpts cited have been
admitted into evidence in lieu of live testimony.
2

27a
FINDINGS OF FACT
Background
In 1980, Charles Ergen and James DeFranco
formed Dish’s predecessor corporation called
Ecosphere Corporation (Ecosphere). Ecosphere sold
and distributed large satellite dishes 12 feet in
diameter designed to receive television signals. T 621:
1478-79 (DeFranco); T 625: 2073 (Neylon). Ecosphere
later changed its name to Echostar Communications
Corporation (Echostar). Echostar developed a
network of local retailers to sell, distribute, and
install satellite dishes. T 621: 1487 (DeFranco). In
1995, Echostar made an initial public offering of
stock. T 621: 1445 (DeFranco). As discussed below, in
1996, Echostar started a satellite television service
called Dish Network. In 2008, Echostar reorganized
its business structure. Echostar became the
Defendant business entity Defendant Dish Network,
LLC. Dish Network, LLC continued the business of
selling and providing Dish Network programming. A
business entity called Echostar continued to exist as
a separate corporation. Both became owned by a
holding company, Dish Network Corporation (Dish
Corp.). Echostar currently operates satellites used to
transmit Dish Network programming. See Opinion
445, at 2; PX1093, Dish Annual Report dated
December 31, 2011, at 6-7; T 621: 1482 (DeFranco).
The Court hereafter uses the term “Dish” to refer the
business entity selling Dish Network programming
(Echostar before 2008 and Dish Network, LLC
thereafter).

28a
In 1996, upon launching Dish Network, Dish went
into direct competition with DirecTV, another
provider of residential satellite pay television
services. DirecTV started this type of service two
years before Dish. T 621: 1488 (DeFranco). Dish also
competed with cable television services and over-theair broadcast services. T 621: 1488-89 (DeFranco). By
1999, Dish was offering a 500 channel satellite
television service. T 621: 1442 (DeFranco).
Dish marketed Dish Network programming
through various means, including direct outbound
telemarketing by Dish employees. Dish also retained
companies to perform outbound telemarketing
services for Dish (Telemarketing Vendors). T 617: 664
(Davis). Outbound telemarketing means making
telephone calls to existing or prospective customers to
sell products and services. Inbound telemarketing
involves advertising through various media (e.g.,
television, radio, print, direct mail) to generate
inbound calls from consumers seeking information
about the possible purchase of goods and services.
Dish engaged in both inbound and outbound
telemarketing. See T 627: 2517 (Dexter). The
Plaintiffs’ claims all relate to outbound telemarketing
only. Unless otherwise indicated, the Court uses the
term “telemarketing” to refer to outbound
telemarketing.
Dish divided its marketing structure into direct
and indirect marketing, sometime referred to as
direct and indirect “channels.” The direct channel
consisted of Dish in-house, or direct marketing, and
marketing by Dish’s Telemarketing Vendors. The
Telemarketing
Vendors
were
telemarketing

29a
companies hired by Dish to perform telemarketing
services for Dish. The indirect channel consisted of
marketing by all other entities authorized by Dish to
market Dish Network programming. Within the
indirect channel, Dish continued to use its network of
retailers, called TVRO or Full Service Retailers, to
sell Dish Network programming.3 TVRO Retailers
generally sold, installed, and serviced satellite dishes
and related equipment. Some TVRO Retailers
engaged in telemarketing. T 626: 2294-95 (Ahmed).
The indirect channel also included national
retailers and telecommunications companies that
marketed Dish Network programming, such as Radio
Shack, Sears, and AT&T. T 625: 2113 (Neylon).4
Dish also developed an indirect marketing
program called the Order Entry Program. Through
this program, Dish authorized marketing businesses
to market Dish Network programming nationally.
These marketing businesses secured consumers’
offers to purchase Dish Network programming. Dish
completed the sales solicited by these businesses.
Dish provided and installed the satellite dishes and
related equipment, and Dish provided the
programming and related services. Dish called these
marketing businesses Order Entry Retailers or OE
Retailers. See T 626: 2358, 2283, 2296 (Ahmed); T
621: 1632 (Mills).

TVRO stands for Television Receive Only. See Opinion
445, at 57.
4 The national telephone company accounts were also called
“Telco” accounts. See e.g., T 625: 2113 (Neylon).
3

30a
The Plaintiffs’ claims arise from: (1) Dish’s direct
telemarketing; (2) the telemarketing activities of
Dish’s Telemarketing Vendors EPLDT (also known as
Libertad), and eCreek Solutions Group (eCreek); and
(3) telemarketing activities of certain Order Entry
Retailers.
Telemarketing by Dish and its Telemarketing
Vendors
A. Telemarketing Practices Before 2003
In 1998, Dish began telemarketing Dish Network
programming. Dish used an automatic dialer called a
predictive dialer to make outbound telemarketing
calls. DTX-650, Timeline Email dated December 10,
2007 (Timeline Email). An automatic dialer, or
autodialer, can call large numbers of telephone
numbers automatically and can distinguish between
possible results of each call: either no answer, a busy
signal, a response by an answering machine, or an
answer by a person. See T 627: 2527-28 (Dexter).
When a person answers the call, the automatic dialer
can connect the call recipient either to a prerecorded
message or a live sales person. See T 627: 2655
(Bangert). Dish direct marketing had a policy to
connect answered telemarketing calls to live sales
persons and not prerecorded messages. T 627: 269091 (Bangert); T 617: 624 (Davis).
At the time that Dish began telemarketing in
1998, the TSR and FCC Rule prohibited sellers and
telemarketers from initiating telemarketing calls to
individuals who previously stated that they did not
wish to be called (a “Do-Not-Call Request”). The FCC

31a
Rule required sellers and telemarketers to maintain
an internal, or entity-specific, Do-Not-Call List of the
people who previously asked not to be called again
(”Internal Do-Not-Call List”). The FCC Rule required
telemarketers and sellers to honor a Do-Not-Call
Request. The TSR prohibited making calls to persons
who made a Do-Not-Call Request stating that they
did not wish to receive telemarketing calls by or on
behalf of the seller. The TSR stated that sellers or
telemarketers that wished to comply with the TSR
safe harbor provision had to maintain an Internal DoNot-Call List.5 See Opinion 445, at 11, 26. The Court
refers to calls made to persons who previously made
an Internal Do-Not-Call Request as “Internal List
Calls.”
Dish maintained an Internal Do-Not-Call List.
Individuals could have their telephone numbers
placed on Dish’s Internal Do-Not-Call List by calling
or writing Dish; by telling a Dish telemarketer during
a sales call; by telling a Telemarketing Vendor
telemarketer during a sales call; by registering on
Dish’s Internal Do-Not-Call List on Dish’s website; or
by calling a toll-free number. If the automatic dialer
failed to connect a call recipient to a sales person
within two seconds of the recipient’s answer of the
call, the automatic dialer played a prerecorded
message that provided the toll-free number. T 629:
3024-26 (Montano). Dish eventually developed a
PowerPoint presentation to explain how to handle an
Internal Do-Not-Call Request. Dish made the
PowerPoint presentation available to all employees
An Internal Do-Not-Call List is also called an “entityspecific do-not-call list.”
5

32a
who came in contact with consumers, including
telemarketing employees and customer service
employees. DTX 14, PowerPoint Presentation; see T
627: 2504-16, 2590 (Dexter).
The FCC Rule also restricted making outbound
telemarketing calls that played prerecorded sales
messages to recipients of telemarketing calls. Calls
that play prerecorded messages are called by several
different names, including “robocalls,” “prerecorded
calls,”
“prerecorded
messaging,”
“message
broadcasting,”
“automated
messaging,”
“automessaging,” “AM,” and sometimes “autodialer
calls.”6 The Court refers to such calls as “Prerecorded
Calls.”
The FCC Rule allowed Prerecorded Calls to call
recipients
who
had
Established
Business
Relationships with the seller or telemarketer making
the call, unless the recipient’s telephone number was
on the seller or telemarketer’s Internal Do-Not-Call
List. See Opinion 445, at 25-26.7 The FCC Rule
defined Established Business Relationship as:
The term established business relationship
for purposes of telephone solicitations means
At least one witness used the term “autodialer” calls to
refer to prerecorded calls. See T 622: 1871 (Goodale). Most
witnesses used the term autodialer call to refer to any call made
by automatic dialing equipment regardless of whether the
autodialer played a prerecorded message or connected the call
recipient to a live sales representative.
7 The FCC amended the FCC Rule in 2012 to eliminate the
Established Business Relationship exception. See Opinion 445,
at 25.
6

33a
a prior or existing relationship formed by a
voluntary two-way communication between a
person or entity and a residential subscriber
with or without an exchange of consideration,
on the basis of the subscriber’s purchase or
transaction with the entity within the
eighteen (18) months immediately preceding
the date of the telephone call or on the basis
of the subscriber’s inquiry or application
regarding products or services offered by the
entity within the three months immediately
preceding the date of the call, which
relationship has not been previously
terminated by either party.
47 C.F.R. § 64.1200(f)(5). Under this provision, a
telemarketer
had
an
Established
Business
Relationship with a call recipient who was a
residential telephone subscriber under one of two
conditions: (1) the call recipient made a purchase or
engaged in a transaction with the seller within 18
months of the date of the call (Transaction-based
Established Business Relationship); or (2) the call
recipient made an inquiry or application for the
seller’s good or services within three months of the
date of the call (Inquiry-based Established Business
Relationship).
In 1987, States began establishing Do-Not-Call
registries for state residents. See Telemarketing Sales
Rule, Statement of Basis and Pupose, 48 Fed. Reg.
4580, 4629 n. 592 (January 29, 2003) (citing Fla. Stat.
Ann. § 501.059) (2003 TSR Statement of Basis and
Purpose); Marguerite M. Sweeney, Do Not Call: The
History of Do Not Call and How Telemarketing has

34a
Evolved, NAGTRTI J., Vol.1, No. 4 (August 2016)
available
at
http://www.naag.org/publications/
nagtri-journal/volume-1-number-4/do-not-call-thehistory-of-do-not-call-and-how-telemarketing-hasevolved.php. Residents registered their telephone
numbers on the state registry if the residents did not
wish to receive unsolicited telemarketing calls. The
state laws restricted sellers and telemarketers from
making certain telemarketing calls to telephone
numbers on the state registries (State Do-Not-Call
Lists). Dish began purchasing State Do-Not-Call Lists
in 2001. DTX 650, Timeline Email, at 1.
Dish directed almost all of its outbound
telemarketing campaigns at residences rather than
businesses. T 628: 2810 (Bangert); T 627: 2555, 2639,
2641 (Dexter) (most campaigns to residences, but some
directed to businesses); T 617: 633-34 (Davis) (same);
see T 614: 450-51 (Yoeli); PX 38, Declaration of Dr.
Erez Yoeli dated December 18, 2013, Appendix C,
Revised Rebuttal Report of Dr. Erez Yoeli dated
December 14, 2012 (Yoeli December 14, 2012 report),
at 7-8 (Dish’s calling records from September 2007 to
March 2010 indicate that .2% of Dish’s direct
telemarketing calls which Dr. Yoeli opined were
violations of the TSR were answered by businesses.).8

Dish employee Joey Montano testified that Dish ran
several calling campaigns directed at businesses. T 628: 2960
(Montano). Montano did not testify that Dish directed a
significant portion of its telemarketing campaigns at businesses.
To the extent that Montano attempted to give the impression
that campaigns directed at businesses made up a significant
portion of Dish’s outbound telemarketing, the Court finds that
testimony not to be credible. The overwhelming evidence shows
8

35a
Dish organized its telemarketing into different
types of calling campaigns, depending on Dish’s
relationship with the intended recipients of the calls
and the purposes of the calls. Campaigns that Dish
intended to direct at current customers were called
Average Revenue Per Unit (ARPU), Upsell, and
Premium Upsell campaigns. These campaigns offered
additional or upgraded programming or services to
existing customers. See PX 0477, Email dated May 9,
2002; T 628: 2708-09 (Bangert); T 617: 592 (Davis).
Through approximately July 2010, Dish presumed
that it had a Transaction-based Established Business
Relationship with the recipients of these calls. See PX
1248, Project Scope Document dated February 2, 2010,
(request by Outbound Operations to modify PDialer to
use last payment dates); DTX 972, Email thread dated
June 30, 2010 to July 2, 2010 between Dish and
PossibleNOW representatives; T 633: 3297-99
(Taylor); DTX 670, PDialer Meeting Minutes dated
July 1, 2010, at 2 ¶ 7 (indicating change to last
payment date); T 629: 3014-15, 3130-34 (Montano).
Dish’s calling records from September 2007 through
March 2010, however, show that the lists of telephone
numbers called (calling lists) in these campaigns
included numbers for individuals who had not paid for
any programming services from Dish for more than
18 months at the time that Dish called them. The
records are discussed in detail below.
Campaigns directed at former customers were
called “winback” campaigns. As the name implied, the
campaigns sought to win back former customers. The
that Dish directed almost all of its outbound telemarketing
campaigns at residential households.

36a
calling lists in winback campaigns were supposed to
consist of the telephone numbers of former customers
who had their Dish service disconnected on the same
day. Dish used disconnect dates to determine when
the customer relationship ended. T 633: 3297-99
(Taylor); T 629: 3014-15, 3130-34 (Montano). Dish
dialed winback campaign calling lists periodically at
certain intervals after the disconnect date, e.g., 48
hours, 30 days, 60 days, 6 months, 12 months, 18
months, and so on up to as long as 61 months after
the termination. Dish called winback campaigns
“trailing campaigns” because of the periodic calling
process. T 627: 2637 (Dexter); see DTX 626A through
626D, Summary Table of Dish Campaigns prepared
by Dish Expert John Taylor (Taylor Tables). Until
approximately July 2010, Dish presumed that it had
a
Transaction-based
Established
Business
Relationship with the recipients of these calls if the
campaign calls were made 18 or fewer months after
the disconnect date for the particular campaign. See
T 628: 2969 and 629: 3130 (Montano); PX 1248,
Project Scope Document dated February 2, 2010
(requesting modification of PDialer to use last
payment date); DTX 972, Email thread dated June 30,
2010 to July 2, 2010 between Dish and PossibleNOW
representatives; DTX 670, PDialer Meeting Minutes
dated July 1, 2010. The calling records from
September 2007 to March 2010 discussed below,
however, show that winback calling lists included
many individuals who had not paid for any
programming services from Dish for more than 18
months before the date of the calls. The call records
are discussed in detail below.

37a
Dish also directed calling campaigns at
individuals
who
purchased
Dish
Network
programming, but Dish did not complete installation
and activation of the services. Some of these calling
campaigns were called Canceled Work Order (CWO)
campaigns. T 617: 588 (Davis); T 628:2708 (Bangert).
Dish conducted Canceled Work Order campaigns to
reschedule the canceled work orders in order to
complete activation of service. T 629: 3075-76
(Montano). Dish employees and former employees
sometimes characterized these calling campaigns as
telemarketing campaigns and sometimes as nontelemarketing scheduling calls or non-telemarketing
calls to collect information. See T 628: 2708-09
(Bangert); T 617: 591 (Davis); T 627: 2522 (Dexter); T
629: 3075-76 (Montano).9 Dish produced no scripts for
any of these campaigns in discovery and presented no
scripts at trial. The limited evidence presented
establishes that these calling campaigns were
directed at individuals who initially agreed to
purchase Dish Network programming, but who
canceled the installation. Dish ran Canceled Work
Order campaigns to reschedule the canceled work

During discovery, Montano told Plaintiffs’ representatives
that Canceled Work Order campaigns were telemarketing
campaigns. Montano testified at trial that he changed his
opinion during discovery and decided that the campaigns were
not for the purpose of telemarketing. T 629: 3055-56 (Montano).
Dish submitted a letter that Dish attorneys wrote to Plaintiffs’
attorneys during discovery alerting Plaintiffs’ attorneys that
Montano had changed his opinion regarding these calls. DTX
1015, Letter from Mazzuchetti to Hsiao dated November 28, 2012.
The Curt considers the as evidence of notice to Plaintiffs
regarding Montano’s change in opinion.
9

38a
orders and complete the installation of Dish Network
programming.
Dish also conducted No Line of Sight (NLOS) and
Held Work Order (HWO) calling campaigns. No Line
of Sight campaigns were directed at individuals who
agreed to purchase Dish programming, but the
installer could not find a place to install the satellite
dish that had a line of sight to receive the signal. Dish
ran these calling campaigns to schedule a time for a
field service manager to come out and see if he could
find a line of sight to complete installation. T 627:
2544 (Dexter). Held Work Order campaigns were
directed to an individual who agreed to purchase Dish
programming, but whose work order was placed on
hold. Dish made Held Work Order calls to reschedule
the Work Order to complete activation of service. T
627: 2546-47 (Dexter); T 629: 3075-76 (Montano).
Dish employees also sometimes characterized these
campaigns as telemarketing campaigns and
sometimes as non-telemarketing scheduling calls. Id.
Campaigns directed at individuals who never
indicated any interest in Dish programming or
services were called “Cold Call” or “Target Marketing”
campaigns. See PX 0477, Email dated May 9, 2002; T
628: 2708-09 (Bangert); T 617: 592 (Davis); T 629:
3117 (Montano).
Campaigns called LTS or Lead Tracking System
campaigns were directed at individuals who were not
Dish customers, but who came into contact with Dish
and provided contact information.

39a
Dish presented very little competent evidence on
how the Lead Tracking System was formulated or
how calling lists were derived from the Lead Tracking
System. Dish’s Database Marketing Department
maintained the Lead Tracking System and created
the Lead Tracking System (or LTS) calling lists. T.
627: 2680 (Bangert).10 Dish presented no testimony
from any representative of Database Marketing or
anyone else who had personal knowledge of the
working of the Lead Tracking System.
Several witnesses summarily testified that Lead
Tracking System calling lists were made up of people
who inquired about Dish Network programming.
Dish presumed that it had an Inquiry-based
Established Business Relationship with the
recipients of these calls. See T 627: 2681-82 (Bangert);
T 628: 2709-10, 2808 (Bangert); T 627: 2643-44
(Dexter); T 617: 590 (Davis); T 629: 3163-64
(Montano). Dish failed to establish that any of these
witnesses had sufficient personal knowledge to testify
regarding the operation of the Lead Tracking System
or the make-up of the calling lists derived from the
Lead Tracking System. None of these witnesses
worked in Database Marketing or had any
involvement in the formulation of the Lead Tracking
System or the Lead Tracking System calling lists.
The only evidence from Database Marketing cited
by the parties that discussed the make-up of the Lead
Dish may have changed the name of Database Marketing
to Data Analytics or Marketing Analytics. Data Analytics and
Marketing Analytics may have also been different departments.
The evidence is unclear. The Court refers to this Department as
Database Marketing.
10

40a
Tracking System consisted of two emails from
Database Marketing employees in a single email
thread from August 2004. PX117, Email thread
regarding Dish Taking a DTV Sale dated August 11,
2004, at PX117-001, 005-006. These two emails
indicate that the Lead Tracking System collected the
contact information of any individuals who came into
contact with Dish and provided such information.
According to these two emails, the Lead Tracking
System included individuals who requested
information about Dish Network programming, but
also included individuals who already received a
telephone sales pitch for Dish programming and
services and did not buy, and individuals who began
ordering Dish programming online, but did not
complete the purchase. See PX117, Email thread
regarding Dish Taking a DTV Sale dated August 11,
2004, at PX117-001, 005-006. At one point, the Lead
Tracking System included contact information for
certain individuals that Order Entry Retailers
contacted to sell Dish Network programming, but who
decided not to buy. Dish discontinued this latter
practice when Order Entry Retailers complained that
Dish direct marketing was taking the Order Entry
Retailers’ leads. See PX 117, Email thread regarding
Dish Taking a DTV Sale dated August 11, 2004; T
629: 2711-12 (Bangert). The Court finds that Dish
failed to prove that the Lead Tracking System
consisted of contact information for the individuals
who inquired about Dish Network programming.
Rather, the sparse evidence in these two emails seems
to indicate that the Lead Tracking System included
the contact information for anybody who came in

41a
contact with Dish for almost any reason and provided
contact information.
By May 2002, Dish had developed a process to
scrub certain calling lists. A calling list (or call list)
was a list of numbers to be called for a calling
campaign. The term “scrubbing” or “scrub” referred to
removing from a calling list telephone numbers that
could not legally be called under the particular
circumstances. In 2002, Dish scrubbed certain calling
lists against its Internal Do-Not-Call List and State
Do-Not-Call Lists. See T 627: 2660-61; T 628: 2703-04
(Bangert); DTX 650, Timeline Email, at 1; T 617: 66263 (Davis).
Dish had some problems with that scrubbing
system. In May 2002, Dish was not scrubbing its
calling lists against the Oregon State Do-Not-Call
List and was still researching the requirements of the
other States. Dish in-house attorneys knew that
Oregon
officials
were
investigating
Dish’s
telemarketing. Dish in-house attorneys knew that the
Oregon statute authorized a $25,000.00 per call
penalty on willful violations. In May 2002, Dish
temporarily stopped all telemarketing in Florida,
Illinois, Oregon, and Colorado. PX0477, Email from
Vice President PJ Weyforth dated May 9, 2002 3:36
p.m.; PX1430, Email dated May 3, 2002, at 004.
In June 2002, Dish limited its outbound
telemarketing to residents in 25 states that did not
have State Do-Not-Call Lists in effect. PX0473, Email
dated June 12, 2002 3:19 p.m. Dish employees who
conducted the scrubbing process in Dish’s Outbound
Operations Department testified that Dish could

42a
remove telephone numbers of residents of particular
states because Dish maintained residential address
information associated with the telephone numbers
on its various calling lists. See T 628: 2740-41
(Bangert); T 629: 3209-10 (Montano); T 627: 2639-40
(Dexter); T 617: 630 (Davis).
B. Dish Telemarketing Practices Beginning in
October 2003
In 2001, Congress authorized the FTC to
promulgate regulations to establish a National DoNot-Call Registry (Registry), and to prohibit
initiating outbound telemarketing calls to persons
whose telephone numbers were registered on the
Registry. TSR, 16 C.F.R. § 310.4(b)(1)(iii)(B); see
Opinion 445, at 14, 26-27. In 2003, the FTC
established the Registry. Individuals registered their
telephone numbers on the Registry if they did not
wish to receive telemarketing calls. The FTC and the
FCC amended the TSR and FCC Rule to prohibit
calling a person whose number was on the Registry
(Registry Call). The prohibition did not apply if the
person had an Established Business Relationship
with the seller or telemarketer. The TSR defined
Established Business Relationship as follows:
(o) Established business relationship means a
relationship between a seller and a consumer
based on:
(1) the consumer’s purchase, rental, or lease
of the seller’s goods or services or a
financial
transaction
between
the
consumer and seller, within the eighteen

43a
(18) months immediately preceding the
date of a telemarketing call; or
(2) the consumer’s inquiry or application
regarding a product or service offered by
the seller, within the three (3) months
immediately preceding the date of a
telemarketing call.
TSR 16 C.F.R. § 310.2(o); see Opinion 445, at 18, 75
F.Supp.3d at 957. Like the FCC Rule, the TSR
definition
established
a
Transaction-based
Established Business Relationship and an Inquirybased Established Business Relationship. The TSR
definition also used an 18-month time period from the
last purchase, rental, lease or financial transaction
for the Transaction-based Established Business
Relationship and a three-month time period from the
last inquiry or application for the Inquiry-based
Established Business Relationship.
On September 29, 2003, Congress ratified the
establishment of the Registry. Pub. L. 108-82, 117,
codified at 15 U.S.C. § 6151. The Registry was
scheduled to begin operations on October 1, 2003, but
the start of operations was delayed to October 17,
2003. See F.T.C. v. Mainstream Marketing Services,
Inc., 345 F.3d 850, 860-61 (10th Cir. 2003); see also
Mainstream Marketing Services, Inc. v. F.T.C., 358
F.3d 1228, 1250-51 (10th Cir. 2004).
The TSR and FCC Rule contained safe harbor
provisions. Sellers and telemarketers who followed
the safe harbor procedures would not be liable for
certain illegal calls that resulted from errors or

44a
mistakes. The safe harbor provisions required, among
other things, written procedures for implementing the
requirement not to call persons whose telephone
numbers were on the Registry, and maintenance of
records documenting the use of a process to prevent
telemarketing to persons whose numbers were on the
Registry. The TSR safe harbor applied to Internal List
Calls and Registry Calls. The FCC Rule safe harbor
only applied to Registry Calls. 16 C.F.R. § 310.4(b)(3);
47 C.F.R. § 64.1200(c)(2)(i); see Opinion 445, at 16466, 210-11, 75 F.Supp.3d at 958, 961. Neither safe
harbor provision applied to Prerecorded Calls.
The 2003 amendments to the TSR also prohibited
abandoning calls. An outbound telemarketing call is
abandoned if the person answering a telemarketing
call is not connected to a sales representative within
two seconds of the person’s completed greeting. 16
C.F.R. § 310.4(b)(1)(iv). A Prerecorded Call that is
answered by a person is an abandoned call under the
TSR because the person receiving the call is not
connected to a sales representative, but to a
recording. See Opinion 445, at 21-22. This Court
refers to Prerecorded Calls that are answered by a
person as “Abandoned Prerecorded Calls.” The FTC
Statement of Basis and Purpose accompanying the
final TSR stated that connecting the call recipient to
a prerecorded telemarketing message violated the
abandonment provisions:
[Under] the prohibition of abandoned calls, …
telemarketers must connect calls to a sales
representative within two seconds of the
consumer’s completed greeting to avoid a
violation of the Rule.

45a
Clearly, telemarketers cannot avoid liability
by connecting calls to a recorded solicitation
message rather than a sales representative.
The Rule distinguishes between calls handled
by a sales representative and those handled
by an automated dialing-announcing device.
The Rule specifies that telemarketers must
connect calls to a sales representative rather
than a recorded message.
2003 TSR Statement of Basis and Purpose, 68 Fed.
Reg. at 4644.
On November 17, 2004, the FTC issued a Notice
of Proposed Rulemaking (2004 Notice) to amend the
TSR to add an additional safe harbor provision to
allow some Abandoned Prerecorded Calls under
limited circumstances. 69 Fed. Reg. 67287 (November
17, 2004). The proposed safe harbor amendment
would have allowed a seller or telemarketer to make
an Abandoned Prerecorded Call to a person with
whom the seller or telemarketer had an Established
Business Relationship only if the prerecorded
message: (1) presented the person with the
opportunity to communicate that he or she did not
want to be called again within two seconds of the
person’s completed greeting (e.g., by pushing a
number on the telephone keypad); (2) provided all
required disclosures; and (3) otherwise complied with
all applicable state and federal laws. 69 Fed. Reg. at
67289; see Opinion 445, at 21-22.
The FTC further stated in the 2004 Notice that
the FTC would forbear from bringing enforcement
actions for prerecorded calls that resulted in

46a
abandoned calls if the telemarketer complied with the
proposed amendments to the safe harbor provisions:
Therefore, the Commission has determined
that, pending completion of this proceeding,
the Commission will forbear from bringing
any enforcement action for violation of the
TSR’s call abandonment prohibition, 16 CFR
310.4(b)(1)(iv),
against
a
seller
or
telemarketer that places telephone calls to
deliver prerecorded telemarketing messages
to consumers with whom the seller on whose
behalf the telemarketing calls are placed has
an established business relationship, as
defined in the TSR, provided the seller or
telemarketer conducts this activity in
conformity with the terms of the proposed
amended call abandonment safe harbor.
69 Fed. Reg. at 67290. The FTC ultimately amended
the TSR to allow Abandoned Prerecorded Calls only
to persons with whom the seller had an Established
Business Relationship and only with prior written
consent. Final Rule Amendments, 73 Fed. Reg. 51164
(August 29, 2008); see Opinion 445, at 22, 75
F.Supp.3d at 958.
Dish witness Russell Bangert opined that the
TSR abandonment provisions did not clearly apply to
Abandoned Prerecorded Calls. T 627: 2690 (Bangert).
The Court finds this testimony to be of no probative
value. Bangert conceded at his deposition that he had
only a rudimentary understanding of the federal DoNot-Call Laws and regulations. T 627: 2686
(Bangert). Bangert’s attempt to embellish his

47a
knowledge of these laws and regulations at the trial
was not credible. Further, FTC publicly stated the
2003 TSR Statement of Basis and Purpose and the
2004 Notice that the TSR abandonment provision
applied to Abandoned Prerecorded Calls. Dish
employed highly qualified attorneys internally and
externally. These attorneys would have been well
aware that the TSR abandonment provision applied
to Abandoned Prerecorded Calls.
In addition, Dish employees understood that
Prerecorded Calls were prohibited. T 627, 2565-66,
2625 (Dexter) (Dish had a policy not to make
prerecorded telemarketing calls); T 617: 624-25
(Davis) (Dish representatives understood that such
calls were illegal.). See also PX523, Email from
Dexter to Davis dated May 3, 2010, regarding FTC.gov
statement regarding abandonment and safe harbor
provisions; DTX 662, Email dated March 23, 2010
from Dexter (prerecorded telemarketing calls
prohibited); T 619: 985 (Werner) (same).
In 2002, Dish began planning to adjust its
telemarketing practices in light of the upcoming
launch of the Registry. T 627: 2658 (Bangert). Dish
representatives expected the Registry to increase the
volume of telephone numbers affected by the Do-NotCall Laws. Dish put together a group of individuals
from interested departments (Working Group) to
develop a process to comply with the new regulations
and to deal with the expected increase in the size and
scope of the process. See T 627: 2658-61 (Bangert).
In April 2003, Dish entered into a settlement with
the state of Indiana for violations of Indiana’s Do-Not-

48a
Call Law. In connection with that settlement, Dish
entered into a court-approved Assurance of Voluntary
Compliance (AVC). PX 908, Indiana AVC dated April
11, 2003, and Court Order of Approval dated April 15,
2003. Dish thereafter scrubbed lists to remove calls
to Indiana residents from its outbound telemarketing.
T 628: 2742 (Bangert).
In August 2003, the state of Missouri filed suit
against Dish for violation of the Missouri Do-Not-Call
Law. PX 52, Missouri Complaint. The Missouri action
was settled in 2005. Dish executed an Assurance of
Voluntary Compliance and agreed to pay $50,000.00.
PX 544, Missouri ex rel. Nixon v. Echostar
Communications Corp., St. Charles County, Mo.,
Circuit Ct. Case No. 03CV129088, Petition for
Approval of Assurance of Voluntary Compliance dated
May 4, 2005, attached Assurance of Voluntary
Compliance ¶ 16; see PX 53, Email dated April 19,
2006 between Dish Corporate Counsel Steele and Dish
SVP Deputy General Counsel Dodge.
In August and September 2003, the Working
Group continued to put together a system to comply
with the scheduled launch of the Registry on October
1, 2003. Dish in-house counsel Steve Novak suggested
not making any outbound telemarketing calls to any
number on the Registry, even if Dish had an
Established Business Relationship with the potential
call recipient. PX 689, Email dated September 4, 2003
from Steve Novak. The suggestion was not adopted.
Another participant suggested automating the
process of determining whether to scrub a calling list
against a particular restricted list such as the
Registry, Dish’s internal Do-Not-Call List, or a state

49a
Do-Not-Call List. This suggestion was also rejected.
PX1176, Email from Dish Employee Brian Pacini
dated September 16, 2003; T 627: 2667-68 (Bangert).
In September 2003, Novak stated in an email that “no
call center disconnected from the DNC list [i.e., the
Registry] should be making any outbound calls.”
PX688, Email September 10, 2003 from Steve Novak.
Dish cited no evidence that the Working Group
ever discussed the safe harbor provisions of the TSR
or FCC Rule or developed a plan to comply with those
provisions.
Ultimately, Dish established two separate
systems to address the launch of the Registry and the
amended Do-Not-Call Laws generally. The first
system addressed calling campaigns aimed at
individuals who had Dish account numbers (Account
Number Campaigns). The second system addressed
campaigns aimed at individuals who never had an
account with Dish, primarily Cold Calls and Lead
Tracking System Calls.
1. Account Number Campaigns
The Account Number Campaigns included
campaigns to existing Dish customers, such as
Average Revenue Per Unit, Upsell, and Premium
Upsell; campaigns to former customers, such as
Winback; and campaigns to individuals who had
agreed to purchase Dish Network programming, but
did not complete the installation or activation. The
last category included Canceled Work Order, No Line
of Sight, and Held Work Order campaigns. See Tr.
627: 2680 (Bangert).

50a
Bangert was in charge of scrubbing Account
Number Campaign call lists. In 2006, Account
Number Campaign scrubbing operations were
organized into the Outbound Operations Department
(Outbound Operations). T 628: 2949 (Montano). For
simplicity, the Court refers to the Dish personnel who
performed scrubbing operations for Account Number
Campaigns both before and after 2006 as Outbound
Operations. Outbound Operations scrubbed lists for
Dish’s call centers in Englewood, Colorado; El Paso,
Texas; Pinebrook, New Jersey; and the Philippines;
and also for Telemarketing Vendors eCreek and
EPLDT. Employees at the Dish call center in
Bluefield, West Virginia scrubbed the Account
Number Campaign lists for calls made for that call
center.
Dish employees who scrubbed lists in
Bluefield reported to the manager of Outbound
Operations. T 617: 647, 680-811 (Davis); T 628: 2949
(Montano). In 2008, Dish moved all Account Number
Campaign scrubbing operations to Outbound
Operations at Dish corporate headquarters in
Englewood, Colorado. T 617: 647, 680-81 (Davis); T
628: 2951 (Montano).11
Outbound Operations also operated Dish’s
automatic telephone dialers in Englewood, Colorado,
and Bluefield, West Virginia. T 627: 2499-2500
(Dexter); T 617: 647-48 (Davis); T 628: 2947-49
(Montano). In 2008, Dish also moved all dialing
operations to Outbound Operations in Englewood,
Dish headquarters is sometimes referred to as the
Meridian or Englewood campus, or Meridian. T 628: 2952
(Montano). The offices are located on Meridian Boulevard in
Englewood, Colorado.
11

51a
Colorado. T 617: 680 (Davis); T 628: 2951 (Montano).12
Outbound Operations also maintained current,
updated copies of the Registry, Dish’s internal DoNot-Call list, state Do-Not-Call lists, and lists of
wireless numbers. See Tr. 627: 2677-78 (Bangert); T
628: 2948-49 (Montano).
Other Dish departments sent proposed Account
Number Campaigns to Outbound Operations with
descriptions of the planned calling campaigns,
proposed calling lists, and scripts. T 627: 2518-19
(Dexter); T 617: 640-41 (Davis); see e.g., DTX 964,
Outbound Campaign Request Form. Outbound
Operations did not develop proposed calling lists or
scripts. Dish’s Data Analytics Department developed
the calling lists for Account Number Campaigns. T
627: 2551, 2607, 2610 (Dexter); see T 629: 3021
(Montano).13 Dish cited no material evidence to the
Court on the process by which Dish departments
developed proposed Account Number Campaigns,
how departments developed proposed scripts, or how
Data Analytics prepared the proposed calling lists. No
employee from the Data Analytics Department
testified at trial.

A few campaigns were dialed manually. T 627: 2636
(Dexter); PX 86, email thread dated August 2011 between Dish
Latino Marketing Group, Outbound Operations and Dish Legal
Department. The evidence indicates that manually dialed calls
were rare aberrations in Dish procedures.
13 Montano elsewhere referred to the Marketing Analytics
Department. It is unclear whether these were two different
departments, or whether the name changed at some point in
time. It is also unclear whether Database Marketing is related
to Data Analytics.
12

52a
Outbound Operations personnel reviewed the
campaign descriptions and scripts to determine the
type of campaign and the particular scrubbing process
to use to remove telephone numbers that could not be
called under the particular campaign. See DTX-964,
Outbound Campaign Request Form; T 627: 2679
(Bangert); T 627: 2518-21, 2525-26, 2531-32 (Dexter);
T 617: 628 (Davis). Outbound Operations consulted
with Dish’s legal department, if necessary, to
determine the appropriate scrubbing process to use. T
627: 2684 (Bangert); T 2533: 2564-65 (Dexter); T 628:
2958 and T 629: 3022-23 (Montano).
At some point, Outbound Operations required two
individuals in Outbound Operations to approve a
campaign. Outbound Operations instituted this policy
because a situation occurred in which a telemarketing
campaign was allowed to make Prerecorded Calls.
PX46, Email dated November 9, 2007; T 617: 673-75
(Davis); see T 629: 3044 (Montano). Prerecorded Calls
were not allowed. T 629: 3045 (Montano). Prerecorded
messages could be used in non-telemarketing calling
campaigns, such as payment reminders, or
informational calls that did not involve the sale of
additional services. T 629: 3042 (Montano).
Outbound Operations had no written policies or
procedures for scrubbing lists for compliance with DoNot-Call Laws. T 628: 2807 (Bangert); T 627: 2596-97
(Dexter); see PX0302, Email thread between Joey
Montano and Amy Dexter, dated July 28, 2010. Dish
also did not produce in discovery any evidence of
written scrubbing procedures or documentation of
scrubbing results. See Opinion 445, at 163-64. Dish
maintained a written Do-Not-Call Policy, but the

53a
Policy did not include any procedures for selecting
telephone numbers to call in compliance with the TSR
and FCC Rule. See Opinion 445, at 164.
In practice, Outbound Operations used three
categories of scrubs: (1) “All DNC” or “All Scrub;” (2)
“No DNC” or “No Scrub;” and (3) “Standard Scrub.”
The “All DNC” or “All Scrub” scrubbed proposed
calling lists against all restricted lists, including
Dish’s Internal Do-Not-Call List, the Registry, State
Do-Not-Call lists, and wireless telephone numbers. A
separate provision of the TCPA not at issue in this
case generally prohibited using an autodialer to call
wireless telephone numbers without prior written
consent. 47 U.S.C. § 227(b)(1)(A)(iii). Outbound
Operations intended to apply the All Scrub to
telemarketing campaigns directed to individuals with
whom Dish concluded that it had no Established
Business Relationship.
The “No DNC” or “No Scrub” only scrubbed calling
lists for wireless numbers. Outbound Operations
intended to apply the No Scrub to non-telemarketing
campaigns such as collection calls, payment reminder
calls, informational calls, or calls to schedule service.
T 627: 2638-39, 2648-49 (Dexter); T 617: 633-34
(Davis); T 629: 3096, 3117, 3207 (Montano).
The “Standard Scrub” scrubbed calling lists to
remove telephone numbers on the Dish Internal DoNot-Call List; numbers of residents in states in which
the state law did not allow for an Established
Business Relationship exception for calls to numbers
on State Do-Not-Call Lists; and wireless numbers.
Outbound Operations applied the Standard Scrub to

54a
telemarketing campaigns directed to current or
former customers with whom Dish concluded that it
had
Transaction-based
Established
Business
Relationships. T 627: 2668-69 (Bangert); T 617: 638,
682-83 (Davis); T 629: 3096 (Montano). Outbound
Operations scrubbed Canceled Work Order, No Line
of Sight, and Held Work Order campaigns with the
Standard Scrub. T 6278: 2546-47 (Dexter).
Dish employees manually reviewed the Dish files
to determine whether Dish had a Transaction-based
Established Business Relationship with current and
former customers whose telephone numbers were
listed in Account Number Campaigns. Dish
formulated calling campaign lists based on this
manual review. Dish employees, however, did not use
the last dates that consumers paid for Dish Network
programming to calculate the 18 month Established
Business Relationship time period. Rather, Dish used
“the disconnect date that was associated with the file
name” to formulate these lists. T 629: 2969, 3130
(Montano). These lists of former customers then
became the basis for the trailing winback campaign
calling lists. Dish assumed that a person was a
current customer if his or her account did not have a
disconnect date regardless of when the person last
paid for Dish Network programming. Outbound
Operations presumed that Dish had Transactionbased Established Business Relationships with
persons whose numbers were on calling lists directed
to current customers and trailing winback calling
lists until the lists were more than 18 months old. T
629: 3014-15 (Montano); see T 627: 2608-09, 2624
(Dexter); T 617: 596-98 (Davis). Dish used this manual
process until approximately July 2010. See PX 1248,

55a
Project Scope Document dated February 2, 2010
(requesting modification of PDialer to use last
payment date); DTX 972, Email thread dated June 30,
2010 to July 2, 2010 between Dish and PossibleNOW
representatives; DTX 670, PDialer Meeting Minutes
dated July 1, 2010, at 2 ¶ 7; T 628: 2969 and T 629:
3130 (Montano).
Dish ran some recurring outbound telemarketing
campaigns. The largest recurring telemarketing
campaigns were the trailing winback campaigns.
Dish also ran recurring Average Revenue Per Unit
campaigns to market premium channels or other
additional services to current customers. Outbound
Operations did not require detailed script reviews of
these recurring campaigns. T 627: 2637 (Dexter).
Outbound Operations used software called
“PDialer” to scrub Account Number Campaign calling
lists. Tr. 627: 2669-70 (Bangert); T 629: 3010
(Montano). The PDialer software compared proposed
calling lists to the set of restricted lists included in the
selected scrub (All DNC, No DNC, or Standard Scrub)
and removed from the proposed calling lists numbers
that were also on the applicable restricted lists. An
employee in Outbound Operations manually selected
the applicable scrub. The PDialer also formatted the
calling lists so that they could be loaded into the
automatic dialer. T 627: 2670-71 (Bangert). After
completing the scrub, Outbound Operations then
either: (1) loaded the scrubbed lists into the automatic
dialer, and the automatic dialer made the calls for the
various Dish call centers; or (2) sent the scrubbed list
to a Dish Telemarketing Vendor such as eCreek. T
627: 2678-79 (Bangert); T 628: 2969 (Montano); T 627:

56a
2581 (Dexter); T 617: 664-66 (Davis). Telemarketing
Vendor eCreek used its own automatic dialer.
Telemarketing Vendor EPLDT used Dish’s automatic
dialer. See T 627: 2602 (Dexter).
Outbound Operations’ unwritten practices
allowed a scrubbed calling list to be called for a 15day period from the date of the scrub. The 15-day limit
addressed the possibility that the list would become
out-of-date. A person who had a telephone number on
a calling list could register that number on the
Registry. The TSR and FCC Rule safe harbor
provisions required a telemarketer to honor a
registration on the Registry no later than 31 days
after the registration was made. TSR 16 C.F.R. §
310.4(b)(3); FCC Rule 47 C.F.R. § 64.1200(c)(2)(i).
Outbound Operations used a 15-day time limit to
decrease the possibility that a telephone number on
the scrubbed calling list would have been placed on
the Registry more than 31 days before the call. See T
627: 2580 (Dexter).
Outbound Operations checked scrub results
manually. Outbound Operations inserted into
proposed calling lists numbers that should be
scrubbed by the process. Outbound Operations
checked the results to confirm that the scrub properly
removed those numbers. T 627: 2678-79 (Bangert); see
T 627: 2542 (Dexter). Outbound Operations personnel
testified that they tried to fix any problems to improve
the system. E.g., T 617: 649 (Davis); T 629: 3137
(Montano).
Outbound Operations used disposition codes to
keep track of responses to calls such as no answer,

57a
busy signal, answering machine, or answered call. See
T 627: 2552-53 (Dexter); DTX 671, Email dated March
16, 2011, attached glossary of response acronyms. The
PDialer
recorded
some
disposition
codes
automatically such as no answer or busy signal. Dish
sales representatives (customer service agents)
recorded some disposition codes at the time of the call
such as wrong number or business answered. See T
627: 2554 (Dexter).
Outbound Operations was responsible for
reviewing
and
approving
Account
Number
Campaigns to customers interested in foreign
language programming. Between 2007 and 2010,
Dish employees made prerecorded calls to market
foreign language programming in 15 Account Number
Campaigns. The telemarketing messages were
recorded in the language of the programming offered
for sale. The translations of the message scripts show
that the prerecorded messages were directed to
existing Dish customers. The messages offered
additional foreign language programming options. A
total of 98,054 of these prerecorded calls were
answered by individuals and resulted in Abandoned
Prerecorded Calls in violation of the TSR. See Opinion
445, at 127, 193-94, 75 F.Supp.3d at 996-97, 1019.14

Outbound Operations had other problems with the
departments that conducted foreign language telemarketing. In
March 2008, the foreign language marketing department had to
be instructed that all calling lists had to be scrubbed by
Outbound Operations. T 617: 611-12, 614-17 (Davis); PX 85,
email dated March 14, 2008 (stating that all calling lists must be
scrubbed by Outbound Operations); DTX 626E, Dish Taylor
Table, at 2.
14

58a
Outbound Operations also monitored eCreek’s
operations. T 629: 3033 (Montano); see DTX-19, Email
thread dated March 9-10, 2010.15 Outbound
Operations kept in daily communication with eCreek.
See T 629: 3028, 3205 (Montano). ECreek performed
an additional scrub on the lists it received from Dish.
T 617: 666 (Davis). ECreek also collected names for
its internal Do-Not-Call list and for Dish’s internal
Do-Not-Call list. T 627: 2581 (Dexter). eCreek sent
Outbound Operations feedback nightly. The feedback
included a “DNC” notation on those call recipients
who wanted to be on Dish’s internal Do-Not-Call list.
T 617: 666-67 (Davis); see T 629: 3026-27 (Montano).
Outbound Operations responded to consumer
complaints regarding eCreek’s telemarketing, but did
not otherwise check eCreek for Do-Not-Call Law
compliance. T 627: 2612 (Dexter). Problems existed
with eCreek’s Do-Not-Call Law compliance in 2009,
2010, and 2011. If Outbound Operations became
aware of problems in eCreek’s telemarketing
procedures, Outbound Operations tried to correct the
problem. See T 617: 603 (Davis); T 627: 2617-19
(Dexter); PX59, Email from Montano dated January
28, 2010 regarding eCreek DNC call; PX1079, Email
from Montano to eCreek dated January 11, 2011
regarding Call Research.
In July 2010, Outbound Operations asked eCreek
for a copy of its Do-Not-Call Law policy and
procedures. Outbound Operations employee Dexter
ECreek was operated by a former Dish employee Scott
Larson. Larson had run Dish’s call center operations. T 629:
3034 (Montano).
15

59a
sarcastically questioned whether eCreek had policies
and procedures. See PX302, Email from Dexter dated
July 28, 2010, regarding Request for DNC/TCPA
Policies and Procedures; T 627, 2571-72 (Dexter). That
same day, eCreek provided a Do-Not-Call Policy
consisting of two pages of text and a flow chart. DTX
7, Email from eCreek dated July 28, 2010 regarding
Request for DNC/TCPA Policies and Procedures. The
two-page document did not include procedures for
scrubbing calling lists to comply with the TSR or the
FCC Rule.
2. Cold Call and
Campaigns

Lead

Tracking

System

Dish’s second Do-Not-Call Law compliance
system addressed Cold Call campaigns and Lead
Tracking System campaigns. Database Marketing
was responsible for operating the Do-Not-Call Law
compliance system for these campaigns. Database
Marketing also formulated the calling lists for these
campaigns. Bangert testified Database Marketing
incorporated the Do-Not-Call Law compliance process
into the process that it used to formulate these calling
lists. Tr. 627: 2680 (Bangert).
Neither party presented any meaningful evidence
on the process Database Marketing used to comply
with the Do-Not-Call Laws. The scant evidence in the
record indicates that Database Marketing may have
used a lead management system referred to as CRM
or a computer system called a Teradata System to

60a
perform these tasks.16 No one from Database
Marketing testified, and no exhibits cited by the
parties or other competent testimony explained how
this process worked. See T 628: 2780 (Bangert) (used
CRM to scrub LTS leads); PX 471, Email from Tobias
Plumley dated December 29, 2005 (did not use CRM
to scrub LTS leads); DTX 650, Timeline Email, at 4;
see also PX482, Email from Wade Osborne dated April
17, 2003 regarding DNC Database (DNC scrubbing
must be done within CRM tool). Database Marketing
did not use the PDialer to scrub lists; the PDialer
could only be used to scrub lists of telephone numbers
associated with Dish account numbers. See DTX 670,
PDialer Meeting Minutes dated July 1, 2010, at 5-6
¶ 29 PDialer Bypass (New contact and lead calling
lists bypassed the PDialer because the PDialer deleted
any telephone number not associated with an account
number).
Dish witness Russell Bangert testified that
Database Marketing used the same scrubbing options
as Outbound Operations. Bangert testified that Cold
Call campaigns received an ALL DNC scrub and that
Lead Tracking System campaigns received a
Standard scrub. T 627: 2680-82 (Bangert). Dish failed
to establish that Bangert had personal knowledge on
which to base these assertions. Bangert worked in
Outbound Operations, and so, did not participate in
Database Marketing compliance processes. Database
Marketing did not use the PDialer because the
PDialer required account numbers. The Court finds
The term CRM apparently means “Customer Relations
Management.” See e.g., U2Logic, Inc. v. American Auto Shield,
LLC, 2014 WL 4852094, at *1 (D. Colo. September 30, 2014).
16

61a
that Bangert’s testimony about the process used by
Database Marketing was not based on sufficient
personal knowledge and has no probative value. The
Court finds an absence of proof on the methods used
by Database Marketing to process Lead Tracking
System calling lists and Cold Call lists to comply with
the TSR, TCPA, FCC Rule, or any other Do-Not-Call
Law. As noted above, the Court also found an absence
of proof on the methods used to formulate the Lead
Tracking System calling lists.
Database Marketing sent the finished Lead
Tracking System and Cold Call calling lists to
Outbound Operations.
Outbound Operations
bypassed scrubbing these files with the PDialer and
loaded the lists into the automatic dialer or sent these
lists to eCreek. T 629: 3088 (Montano); see DTX 670,
PDialer Meeting Minutes, at 5-6 ¶ 29 PDialer Bypass.
Outbound Operations received Lead Tracking System
campaign lists on a daily basis. T 629: 3165
(Montano). Outbound Operations dialed Lead
Tracking System campaign calling lists within 24 to
48 hours of receipt. Dish presumed that it had
Inquiry-based Established Business Relationships
with the recipients of Lead Tracking System
campaigns because the calls were made within 24 to
48 hours of receipt. T 629:3087-88 (Montano).
C. PossibleNOW
In December 2007, Dish retained a company
called PossibleNOW, Inc. (PossibleNOW) to assist it
in complying with Do-Not-Call Laws. T 617: 649-52
(Davis); see Opinion 445, at 71. PossibleNOW
operated a number of web-hosted services to sellers

62a
and telemarketers to help them comply with the DoNot-Call Laws. Beginning in early 2008, Outbound
Operations used PossibleNOW’s scrubbing services.
See DTX 144, Master Services Agreement dated
December 14, 2007. Outbound Operations scrubbed
lists with the PDialer and then sent the scrubbed lists
to PossibleNOW for a second scrubbing. See e.g., T
617: 655 (Davis); T 628: 2967-68 (Montano).17
PossibleNOW scrubbed and returned the scrubbed
lists, and Outbound Operations loaded the lists into
the automatic dialer or sent the list to eCreek. T 627:
2539 (Dexter); T 617: 652-55 (Davis); T 628: 2967-68,
and T 629: 3129 (Montano).
PossibleNOW also maintained Dish’s Internal
Do-Not-Call List, Dish’s copy of the Registry, and
Dish’s copies of State Do-Not-Call Lists. T 617: 653
(Davis); T. 628: 2966-67, 2972-76 (Montano).
PossibleNOW also maintained lists of wireless
numbers. Dish used PossibleNOW’s services to scrub
against all these lists. T 617: 634 (Davis); see T 628:
2972 (Montano).
Beginning in April 2008, PossibleNOW began
maintaining a combined Internal Do-Not-Call List for
Dish, eCreek, and certain Order Entry Retailers.
Dish, eCreek, and participating Order Entry
Retailers uploaded Internal Do-Not-Call Lists to
PossibleNOW. T 617: 654-55 (Davis); T 627: 2573
PossibleNOW customers usually used logins and
passwords to access PossibleNOW products and services to
conduct list scrubbing or other processes. In rare instances,
PossibleNOW performed the scrubbing. See T 618:746-48
(Stauffer). Outbound Operations personnel testified that
PossibleNOW performed the scrubbing services for Dish.
17

63a
(Dexter); T 628: 2975-76, 3027 (Montano); T 622: 1842
(Mills). Dish required Order Entry Retailers making
50 activations a month to submit Internal Do-NotCall Lists to PossibleNOW. T 619: 1018-19 (Werner).
PossibleNOW kept an Internal Do-Not-Call List for
Dish, an Internal Do-Not-Call List for eCreek, and a
combined Internal Do-Not-Call List for all
participating Order Entry Retailers. Dish began
scrubbing its own calling lists against all three Lists
in 2008. T 628: 2975-80 (Montano). Dish also required
Order Entry Retailers with 600 activations a year to
use PossibleNOW’s scrubbing services. T 622: 184143 (Mills).
PossibleNOW’s scrubbing services also checked
calling lists to determine whether telephone numbers
were associated with individuals who had
Established Business Relationships with Dish. PX1248, Project Scope Document dated February 2, 2010.
PossibleNOW did not use Dish’s manually prepared
lists of current customers and lists of former
customers based on disconnect dates to identify
telephone numbers associated with individuals who
had Established Business Relationships with Dish.
Instead, PossibleNOW required Dish to add two
additional fields to calling lists before conducting
scrubs: (1) the last payment date; and (2) the date that
a person inquired about Dish programming. During
the scrubbing process, PossibleNOW identified
numbers with whom Dish had: (1) a Transactionbased Established Business Relationship if the last
payment date was within 18 months of the campaign
calling date, or (2) an Inquiry-based Established

64a
Business Relationship if the inquiry date was within
three months of the campaign calling date. Id.18
In approximately July 2010, Dish modified the
PDialer to also use the last payment date to check for
Transaction-based
Established
Business
Relationships. Dish stopped presuming that it had a
Transaction-based
Established
Business
Relationship with all persons whose numbers were on
campaigns directed to current customers and winback
campaigns that were less than 18 months old. Dish
added a field to its calling lists for a last payment
date. Dish modified the PDialer to check for this field
in a manner similar to the PossibleNOW process. T
629: 3011-15 (Montano); see T 633: 3297-99 (Taylor);
PX 1248, Project Scope Document dated February 2,
2010 (request by Outbound Operations to modify
PDialer to use last payment dates); DTX 972, Email
thread dated June 30, 2010 to July 2, 2010 between
Dish and PossibleNOW representatives regarding use
of last payment dates; DTX 670, PDialer Meeting
Minutes dated July 1, 2010, at 2 ¶ 7 (indicating
change to last payment date).
Dish did not add a field for inquiry dates to the
PDialer. Dish employee Montano testified that one
field was added for simplicity. Montano testified that
inquiry dates, if applicable, were entered into the Last
Payment Date field. T 629: 3015-16 (Montano). The
Court finds this testimony not to be credible. The
Some states had shorter time periods for determining
Established Business Relationships. PossibleNOW scrubbed for
those shorter time periods also, when applicable. T 628: 2969
(Montano); PX-1248, Project Scope Document dated February 2,
2010.
18

65a
Court finds that Dish only added a Last Payment
Date because Dish only used the PDialer to scrub
Account Number Campaigns. Account Number
Campaigns were addressed to current and former
customers, not individuals inquiring about Dish
Network programming. Thus, Dish did not need to
add a field for inquiry dates to campaigns run through
the PDialer. See T 628: 2780 (Bangert); DTX 670
PDialer Meeting Minutes, at 6 ¶ 29.19
It is unclear whether Dish used PossibleNOW to
scrub Lead Tracking System and Cold Call calling
list. Witnesses testified that Outbound Operations
scrubbed lists with the PDialer and then sent lists to
PossibleNOW for a second scrubbing. See e.g., T
617:655 (Davis); T628:2967-68 (Montano). Outbound
Operations only scrubbed Account Number Campaign
calling lists through the PDialer. This testimony
tends to indicate that Outbound Operations only sent
Account Number Calling Lists to PossibleNOW.
PossibleNOW’s process, however, included a field for
inquiry dates. PX 1248, Project Scope Document dated
February 2, 2010. Inquiry dates would be used to
determine Inquiry-based Established Business
Relationships in Lead Tracking System and Cold Call
The testimony is also not credible because it makes no
sense to enter an inquiry date into a last payment date field. The
length of time that Dish had a Transaction-based Established
Business Relationship with a former customer was 18 months
from the last payment, and the time that Dish had an Inquirybased Established Business Relationship was only three months
from the inquiry. Placing an inquiry date in the field would
erroneously indicate that Dish had an Established Business
Relationship with the inquiring party for 18 months. Montano’s
testimony on this point is not credible.
19

66a
calling campaigns. Dish, however, never provided any
inquiry dates to either its expert Taylor or to the
Plaintiffs. See T 633: 3300 (Taylor); T 614: 333-35
(Yoeli) (Dish provided activation dates to Plaintiffs,
not inquiry dates). The Court finds that the scant,
ambiguous evidence does not establish whether Dish
used PossibleNOW to scrub Lead Tracking System
calling lists or Cold Call calling lists.
D. Safe Harbor
The Court found at summary judgment that Dish
did not comply with the TSR or FCC Rule safe harbor.
Opinion 445, at 163-65, 75 F.Supp.3d at 1008-09.
Dish employee Montano testified that Dish met all
requirements for compliance with TSR and TCPA safe
harbor provisions. T 628: 2962-65 (Montano).
Montano testified that Outbound Operations
maintained documentation of its scrubs. T 629: 3183
(Montano). Dish, however, failed to produce in
discovery or at trial written scrubbing procedures or
documentation that such scrubbing procedures were
followed. Such documentation is required to meet safe
harbor requirements. See Opinion 445, at 164-66,
210-11. Dish, in fact, had no written scrubbing
procedures. T 628: 2807 (Bangert); T 627: 2596-97
(Dexter); see PX0302, Email thread between Joey
Montano and Amy Dexter, dated July 28, 2010.
Montano’s testimony on this point contradicted
Dexter’s and Davis’s testimony and is not credible.
The Court also barred Dish from producing
evidence of scrubbing procedures that was not
produced in discovery. Opinion entered April 24, 2013
(d/e 279) (Opinion 279), at 43-44. To the extent that

67a
Dish presented Montano’s testimony at trial (or any
other witness’s testimony not produced in discovery)
to prove the Dish maintained documentation to
comply with safe harbor procedures, the testimony is
barred by Opinion 279.
E. Notice to Dish of Calls to Numbers on the
Registry and Internal Do-Not-Call Lists
Beginning in October 2003, Dish personnel
periodically
discovered
that
Dish’s
direct
telemarketing operations made Registry Calls and
Internal List Calls. On October 7, 2003, Dish
personnel tested the scrubbing process and discovered
the process failed to remove numerous telephone
numbers from the test call list that were on the
Registry. PX 478, Email from Todd Binns dated
October 7, 2003, regarding Denver DMA DNC Test.
In February and May 2004, Dish personnel
investigated consumer complaints and discovered
that Dish made Internal List Calls. PX 438, Email
from David Murphy dated February 12, 2004,
regarding Consumer Complaint; PX 439, Email from
John Dy dated May 2, 2004, regarding Do Not Call
Issue. In March 2004, Dish personnel discovered Dish
made an Internal List Call. PX 440, Email from
Leanna Sultan dated March 16, 2004 regarding
Telemarketing Calls to Current Subscribers.
In December 2005, Lead Tracking System calling
lists were not being scrubbed because whatever
process Database Marketing was using was not
working. PX 471, Email from Tobias Plumley dated
December 29, 2005, regarding Casper and Cheyenne.

68a
In October 2006, Dish personnel
consumer complaint and discovered
Registry Call. PX 566, Email from
dated October 2, 2006, regarding
Complaint.

investigated a
Dish made a
John Greaney
Telemarketing

In November 2007, Dish personnel investigated a
consumer complaint and discovered that Dish made
an Internal List Call. The investigators determined
that the calling campaign was improperly scrubbed
because the campaign was improperly classified as a
non-telemarketing campaign. PX 46, Email from Bob
Davis dated November 9, 2007 regarding Tahira Sial.
In 2007, Dish conducted an internal audit of
telemarketing calling records. The 2007 audit showed
that Dish made 2,334, 5,324, and 3,405 Registry Calls
in June, July, and August 2005 respectively. The 2007
audit also showed that Database Marketing
campaigns “were scrubbed but the DNC records were
not removed.” PX 695, Email from Todd Binns dated
February 1, 2007, regarding Notes from DNC Meeting,
January 30; see T 617: 626-27 (Davis); see PX 696,
Email thread dated January 18-26, 2007regarding
2007 audit; PX 1404, Email dated January 23, 2007
regarding 2007 audit.
In 2009, Dish conducted another internal audit of
its telemarketing call records. The audit showed that
Dish made 291,000 Registry Calls from October to
December 2008. PX733, Email thread regarding 2009
Audit dated June 2, 2009 to January 5, 2010.
Outbound Operations also knew that eCreek
made illegal Registry and Internal List Calls. Dexter

69a
testified that eCreek did a good job, but Outbound
Operations personnel knew that eCreek’s scrubbing
process did not work effectively all the time. T 627:
2618 (Dexter). In January 2010, Dish personnel
investigated a consumer complaint and discovered
eCreek made a Registry Call. PX 59, Email thread
regarding eCreek DNC dated January 25, 2010 to
January 28, 2010.20
Dish Order Entry Program
A. Dish’s Relationship
Retailers Generally

with

Order

Entry

By 2003, Dish had developed a website interface
called the Order Entry (OE) Tool to facilitate the sale
of Dish Network products and services by national
companies such as Radio Shack and AT&T.21 The
Order Entry Tool was designed for telephone sales to
residential customers and could not be used to open
commercial
accounts.
Dish
controlled
the
programming packages available for sale through the
Order Entry Tool and set the pricing and terms of
sale, including all promotions. T 626: 2225 (Neylon).
Dish controlled access to the Order Entry Tool by

In January 2008, an eCreek telemarketer manually
called a person who asked not to be called again, and then the
eCreek telemarketer who made the call had two other eCreek
telemarketers call to the person that same day. PX 1079, Email
Thread Regarding eCreek Calling Procedures Dated January 10,
2010 to January 11, 2010.
21 The Order Entry Tool was also called the Partner Order
Entry Tool or POET. See e.g., PX 1294 Email to Werner from
YourDish.tv dated June 3, 2010.
20

70a
issuing specific logins and passwords (collectively
logins) to the national companies.
The Order Entry Tool prompted the sales person
to ask a series of questions to offer the appropriate
programming and services, secure the necessary
information, and make the required disclosures to
make the sale. T 626: 2358 (Ahmed); T 621: 1628-32,
1668 and T 622: 1671-73 (Mills); T 626, 2225 (Neylon);
PX 1208, Dish Order Entry Tool Instructional
Training Guide. The necessary information included
customers’ addresses, Social Security Numbers, and
credit card account numbers. The disclosures
included the terms and conditions of sale and legally
required disclosures. Dish provided the language for
all disclosures and terms and conditions of sale. T
621: 1629-30 (Mills).
Once the customer’s information was uploaded
onto the Order Entry Tool, Dish performed the credit
check, approved the sales, supplied all equipment,
and performed the installation or arranged for the
installation and activation of service. New customers
paid Dish directly. See T 626: 2293-94 (Ahmed); T 621:
1626, and T 622: 1668-72 (Mills); PX 61, Letter from
Ahmed to David Hagen dated October 7, 2003. The
term “activation” referred to activating new service in
a residence; the sale was complete when the service
was activated. See T 628:2718 (Bangert); T 629:3052
(Montano).
In 2003, Dish began the Order Entry (OE)
program to expand the use of the Order Entry Tool
beyond national companies like Radio Shack and
AT&T. Under the Order Entry program, Dish

71a
authorized marketing businesses to use the Order
Entry Tool to sell Dish Network programming. T 626:
2283 (Ahmed). Dish controlled access by issuing
logins to the marketing businesses. T 621: 1627
(Mills). Dish called these marketing businesses Order
Entry Retailers.22 The name Order Entry Retailer
was a misnomer. These businesses were not retailers.
A retailer acquires inventory at wholesale and
markets that inventory to the public at retail. A
TVRO Retailer, for example, acquired inventory of
satellite dishes, DVRs, cable decoding boxes, and
other equipment, and sold or leased that equipment
to
customers
who
bought
Dish
Network
programming. The Order Entry “Retailers” acquired
no inventory and sold no product. Rather, these
businesses marketed Dish Network programming for
Dish. The businesses completed the solicitation and
provided the customer information to Dish through
the Order Entry Tool. Dish ran the credit check; Dish
approved the sale; Dish installed the equipment; Dish
sold the programming and services directly to the
customer; the customers became Dish subscribers;
and the customers paid Dish directly. The Order
Entry “Retailers” were marketing businesses. Dish
engaged these marketing businesses to sell Dish
Network programming.23 The Court will use the
misnomer “Order Entry Retailer” because the term
Dish also referred to Order Entry Retailers as National
Sales Partners. See Opinion 445, at 57, 75 F.Supp.3d. at 971.
23 Some Order Entry Retailers were also TVRO Retailers.
Dish, however, completed the sale and installed the equipment
for all of the sales these Retailers made through the Order
Entryprogram just like all the other Order Entry Retailers. See
Deposition of Walter Eric Myers, at 80-84. Deposition excerpts
cited by the Court were admitted at trial in lieu of live testimony.
22

72a
pervades the exhibits and trial testimony, but the
businesses were not retailers.
Dish paid the Order Entry Retailers commissions
called “incentives” for activations.24 Dish established
the Order Entry program to compete with DirecTV.
DirecTV had already implemented a similar program,
and Dish was trying to catch up. T 626: 2296 (Ahmed);
T 621: 1632 (Mills).
Order Entry Retailers could market nationally
because Dish installed the satellites and related
equipment. Existing TVRO Retailers could only
market in the geographic areas in which the Retailer
could deliver and install Dish satellites and related
equipment. See T 626: 2295, 2385 (Ahmed). Order
Entry Retailers also had no inventory costs and no
costs related to installation and delivery because Dish
provided those services to the customer. T 626: 229596 (Ahmed); see Deposition of Walter Eric Myers, at
82.
Dish employees testified that Dish developed the
Order Entry program to “leverage … entrepreneurial
resources … in the marketplace.” T 626:2223
(Neylon). Dish wanted to take advantage of the
expertise of marketing companies to sell products. See
T 626: 2289-90 (Ahmed) (“[Order Entry Retailers]
bring specific expertise, just like all the independent
satellite dealers do to their specific niche. And that’s
why these guys were very valuable, and they still are
Order Entry Retailers were subject to a charge back of
the incentive fee if a customer terminated Dish Network within
180 days of subscribing to Dish Network. T 626: 2380 (Ahmed).
24

73a
today.”); see also Portela Deposition, at 76 (Dish
sought out direct marketers who were good at selling
anything.).
The Order Entry program generated large
numbers of activations for Dish. By 2005, Order Entry
Retailers passed Dish’s direct marketing in producing
activations. By 2007, Order Entry Retailers
accounted for 30 percent of all of Dish’s activations.
PX 486, Dish Quality Assurance Program
Presentation, at 7. As of mid-2007, the Order Entry
Retailers were producing 70,000 to 90,000 activations
per month. Dish direct sales were averaging 45,000 to
60,000 activations per month at the same time period.
PX 99, Dish Gross Sales Update Report dated August
6, 2007. From 2004 to 2010, 60 percent of new
activations came from Retailers, and the lion’s share
of those came from Order Entry Retailers. T 618: 899
(Werner); see also Portela Deposition, at 84.
The number of companies in the Order Entry
program was always relatively small. At its peak,
Dish had approximately 80 Order Entry Retailers,
compared to 8,000 TVRO Retailers at the same time.
T 619: 1157 (Werner). By the end of 2009, Dish
reduced the number of Order Entry Retailers to 32.
PX 730, 2009 Sales Partner Review, at 13; see also T
619: 1157-58 (Werner). In January 2016, Dish about
3,000 TVRO Retailers and 10 to 20 Order Entry
Retailers. T 621: 1558 (DeFranco). As of October 2016,
Dish had 17 Order Entry Retailers. T 711; 330 (Mills).
The relationship between Dish and Order Entry
Retailers was governed by a standard Retail
Agreement. All Order Entry Retailers signed a

74a
substantially similar form Retailer Agreement. See
PX 152, 180, 200, and 238, Retailer Agreements with
various Order Entry Retailers. The Retailer
Agreements referred to Order Entry Retailers as
“Retailers.” The Retailer Agreements appointed
Order Entry Retailers as “Authorized Dealers” for
Dish, and authorized Order Entry Retailers to
“market, promote, and solicit” orders for Dish
throughout the United States. PX 152, Retailer
Agreement with Dish TV Now, §§ 3.1-3.2. The Retailer
Agreement authorized Order Entry Retailers to use
Dish trademarks in their marketing; and gave Dish
access to each Retailer’s records with respect to its
Dish dealership. Id. § 8.
Sections 7.1, 7.2, and 7.3 provided as follows:
7.1 Retailer agrees to use its best efforts to
promote and enhance EchoStar’s business,
reputation and goodwiIl. Retailer shall allow
only its employees, and shall not use any
independent contractors, Affiliates or subagents, to fulfill its obligations hereunder
without EchoStar’s specific prior written
consent, which consent may be withheld in
EchoStar’s sole and absolute discretion for
any reason or no reason. In the event
Echostar does grant consent to Retailer to use
persons not employed by Retailer to perform
activities contemplated hereunder, Retailer
shall be responsible for the acts and omissions
of such persons under this Agreement to the
same extent it is responsible for the acts and
omissions of its own employees.

75a
7.2 Retailer shall not sell Programming under
any circumstances. All sales of Programming
are transactions solely between EchoStar and
DISH Network Subscribers. Retailer shall
promptly forward to EchoStar all orders for
Programming in the manner prescribed by
EchoStar from time to time. Retailer
understands that EchoStar shall have the
right, in its sole and absolute discretion and
for any reason or no reason, to accept or reject,
in whole or in part, all orders for
Programming. Retailer also agrees that it
shall not condition, tie or otherwise bundle
any purchase of Programming with the
purchase of other services or products other
than as specifically consented to in writing by
EchoStar in advance, which consent may be
withheld in EchoStar’s sole and absolute
discretion for any reason or no reason.
7.3 Retailer shall comply with all Business
Rules, including without limitation all
Business Rules which govern or are applicable
to any Promotional Program in which Retailer
participates. Retailer shall disclose to each
prospective DISH Network Subscriber the
relevant
terms
of
the
Promotional
Programming which the prospective DISH
Network Subscriber is interested as well as
any other terms as set forth in any applicable
Business Rule. Furthermore, Retailer shall
take all actions and refrain from taking any
action, as requested by EchoStar in connection
with the marketing, advertisement, promotion
and/or solicitation of orders for Programming

76a
and the sale of DISH DBS Systems, and
Retailer shall cooperate by supplying
EchoStar with information relating to those
actions as EchoStar reasonably requests.
Failure of Retailer to adhere to any Business
Rules may result in disciplinary action up to
and including termination of this Agreement
and/or any Other Agreement in the sole and
absolute discretion of EchoStar for any reason
or no reason, and the exercise by EchoStar of
any other remedy provided in this Agreement,
at law, in equity or otherwise.
Id. §§ 7.1, 7.2, and 7.3 (emphasis added). The Retailer
Agreement defined Business Rules as:
1.6 “Business Rule{s)” means any term,
requirement, condition, condition precedent,
process or procedure associated with a
Promotional Program or otherwise identified
as a Business Rule by Echostar which is
communicated to Retailer by EchoStar or an
Affiliate of EchoStar either directly (including
e-mail) or through any method of mass
communication reasonably directed to
EchoStar’s retailer base, including, without
limitation, a “Charlie Chat”, e-mail, facts
blast, or posting on EchoStar’s retailer web
site. Retailer agrees that EchoStar has the
right to modify any Business Rule at any time
and from time to time in its sole and absolute
discretion for any reason or no reason, upon
notice to Retailer.
Id. § 1.6.

77a
Section 17.9 of the Retailer Agreement authorized
Dish to audit Retailers on two days’ notice:
17.9 Records and Audit Rights. During the
Term of this Agreement and for a period of
three (3) years thereafter, Retailer shall keep
and maintain at its principal place of business
complete and accurate records and books of
account, as well as all documentation of all
material processes and procedures in
connection with: (i) its performance under
this Agreement.… EchoStar shall have the
right, upon two (2) days prior written notice,
to review, audit and make copies of Retailer’s
books, records and documentation for the
purposes of: (a) determining Retailer’s
compliance with its duties and obligations
under this Agreement, … Any audit
conducted by EchoStar shall be conducted by
EchoStar or its representative(s) at Retailer’s
offices during normal business hours.…
Id. § 17.9.
The Retailer Agreement provided for automatic
termination if an Order Entry Retailer violated the
terms of the Retailer Agreement or “any applicable
federal, state or local law or regulation.” Id. § 10.4.
The Retailer Agreement also contained
provision entitled Independent Contractor:
11. INDEPENDENT CONTRACTOR. The
relationship of the parties hereto is that of
independent contractors. Retailer shall

a

78a
conduct its business as an independent
contractor, and all persons employed in the
conduct of such business shall be Retailer’s
employees only, and not employees or agents
of EchoStar or its Affiliates. Retailer shall
prominently state its business name, address
and phone number in all communications
with the public, including, without limitation,
marketing materials, flyers, print ads,
television or radio spots, web sites, e-mails,
invoices, sales slips, and the like.
Notwithstanding anything in this Agreement
to the contrary, Retailer (including without
limitation its officers, directors, permitted
subcontractors,
permitted
agents
and
employees)
shall
not,
under
any
circumstances, hold itself out to the public or
represent that it is an agent, employee,
subcontractor or Affiliate of EchoStar or any
Echostar Affiliate. In furtherance of (and
without limiting) the foregoing, in no event
shall Retailer use EchoStar’s name or the
name of any EchoStar Affiliate in any manner
which would tend to imply that Retailer is an
Affiliate of EchoStar or that Retailer is an
agent, subcontractor or employee of EchoStar
or one of its Affiliates or that Retailer is acting
or is authorized to act on behalf of EchoStar
or one of its Affiliates. This Agreement does
not constitute any joint venture or
partnership. It is further understood and
agreed that Retailer has no right or authority
to make any representation, promise or

79a
agreement or take any action on behalf of
EchoStar or an EchoStar Affiliate.
Id. § 11(emphasis added).
Order Entry Retailers represented themselves to
the public as Dish authorized Retailers. See T 622:
1821-22 (Mills). Order Entry Retailers could use the
Dish Network logo with the added words “Dish
Authorized Retailer.” T 625: 2226 (Neylon); T 620:
1215-16 (Musso). Some Order Entry Retailers
improperly represented themselves to the public to be
Dish. See e.g., PX 120 Email Thread with Sweeney of
Indiana Attorney General’s Office regarding Satellite
Systems dated September 23-30, 2005 (Order Entry
Retailer claims to be Dish); PX 1361, Email thread
regarding calls to existing customers, at 8-10; PX 650,
Email thread dated August 7, 2006 regarding
consumer complaint; T 621: 1474-75 (DeFranco).25
Order Entry Retailers set up their own facilities,
purchased their own equipment, paid their own rents,
hired and fired their own employees, secured their
own leads and calling lists, wrote telemarketing
scripts, and prepared marketing materials. Some
Order Entry Retailers also sold other products,
including competing services such as DirecTV
On one occasion in 2011, Dish could not keep up with the
volume of calls it was receiving. Dish representatives discussed
diverting some calls to certain Order Entry Retailers. Dish
personnel discussed authorizing those Retailers on that occasion
to state that they were Dish. PX 331, Email from Dish marketing
head Lana Luth dated October 28, 2011. The proposed use of
Order Entry Retailers was not implemented. T 622: 1758-60
(Mills).
25

80a
programming. See T 626: 2290-91, 2293 (Ahmed); T
619: 1088-94 (Werner); T 622: 1916-19 (Goodale); T
625: 2099-2100 (Neylon); T 622: 1793-94 (Mills); see
DTX 737, Letter from JSR Enterprises to Musso,
undated; T 620: 1357-58 (Castillo).
Contrary to § 10.4 of the Retailer Agreement,
Order Entry Retailers were not automatically
terminated when they violated the terms of the
Retailer Agreement or applicable law. E.g., T 625:
2124-25 (Neylon); T 619: 1170-71 (Werner). Rather,
Dish employed an array of disciplinary measures that
included warnings, probation, fines, withholding
access to the Order Entry Tool (known as putting on
hold), and termination. See T 625: 2136 (Neylon); T
1627 (Mills).
Dish’s Sales Department ran the Order Entry
program. T 626: 2301-02 (Ahmed). The Sales
Department was responsible for the indirect
marketing channel. As discussed above, the indirect
channel included Order Entry Retailers, TVRO
Retailers, and national accounts such as Sears and
AT&T (collectively Indirect Marketers). Dish Vice
President of Sales Amir Ahmed developed the Order
Entry program. T 626: 2358 (Ahmed). In 2005, Ahmed
was promoted to Senior Vice President of Sales and
Distribution. Ahmed left Dish on January 31, 2006
and went to work for a Dish Order Entry Retailer
called Marketing Guru. T 626: 2283-85 (Ahmed). Dish
Vice President for Sales and Distribution Brian
Neylon took over direct responsibility for indirect

81a
sales, including the Order Entry program, after
Ahmed left. T 625: 2075-76, 2112-13 (Neylon).26
The Sales Department looked for companies to
become Order Entry Retailers that demonstrated the
ability to generate large numbers of activations of
new Dish subscribers. Ahmed solicited the first Order
Entry Retailer, Dish TV Now, because its principal
David Hagen operated a very large call center that
produced thousands of activations for DirecTV. See T
626: 2304-05 (Ahmed); PX 61, Letter from Ahmed to
Hagen dated October 7, 2003; PX 148, Dish TV Now
proposal dated October 7, 2003 (Dish TV Proposal)
(Hagen’s DirecTV Retailer Prime TV generated 27,000
new DirecTV subscribers per month). Dish did not
perform any background checks on these companies
or their principals (such as checking Dunn &
Bradstreet Reports or criminal background checks)
before making them Order Entry Retailers. E.g., T
626: 2311, 2361, 2477-78 (Ahmed); T 625: 2230-31
(Neylon). The goal was to find outside companies that
could generate activations.
Dish Sales personnel knew that many Order
Entry Retailers used outbound telemarketing to
generate high volumes of activations. T 622: 1677-78
(Mills). Dish Sales personnel assumed that Retailers
selling more than 150 activations per month were
using outbound telemarketing. PX 620, Email Thread
dated August 17,2007 regarding Retailers. Dish Sales
personnel regularly learned that Order Entry
Neylon left Dish for a brief period while Ahmed was gone,
but returned before Ahmed returned. T 621: 1690 (Mills). At the
time of trial, Neylon was an Executive Vice President of Dish.
26

82a
Retailers used telemarketing. See DTX 223, Email
Thread between Ahmed and Hagen dated September
16, 2004 (Ahmed informed that the first Order Entry
Retailer Dish TV Now was using outbound
telemarketing); PX80, Email thread between Nick
Meyers and Neylon and Ahmed, dated March 10-11,
2002 (Dish knew in 2002 that then TVRO Retailer
Satellite System used Prerecorded Calls); T 626: 241011, 2417 (Ahmed); PX 190, Email thread between
Ergen and Ahmed dated June 28, 2004, and PX 656,
Email thread regarding Satellite Systems dated
September 14-15, 2004; T 627: 2475-76 (Ahmed knew
Satellite Systems used Prerecorded Calls to generate
sales for DirecTV, and Ahmed made Satellite Systems
an Order Entry Retailer); PX 265, Email from Mills to
Neylon dated December 21, 2006 (Order Entry
Retailer JSR Enterprises principal Richard Goodale
told Mills that JSR planned on using outbound
telemarketing when JSR became an Order Entry
Retailer); PX 129, Email thread between Mills and
Werner dated May 17, 2007 (Order Entry Retailer
outbound telemarketing accounted for 12,000
activations per month); PX 598, Email to Van Emst re
Secret Shopping dated April 8, 2008 (lists several
Order Entry Retailers using outbound telemarketing);
PX 1347, TCPA Tracker Report dated September 16,
2008 (identified consumer complaints resulted from
Order Entry Retailer Prerecorded Calls); see also
Deposition of Shawn Portela, at 81-82 (Dish was
actively prospecting for call centers to sell Dish
Network programming); T 711: 339-40 (Mills) (Mills
knew that 9 of 17 current Order Entry Retailers used
outbound telemarketing); T 710: 231 (DeFranco)
(about half of Order Entry Retailers in October 2016

83a
used outbound telemarketing). The testimony of
various Dish witnesses that Dish did not know
whether particular Order Entry Retailers used
outbound telemarketing was not credible.
The Sales Department was divided into two parts,
Retail Sales and Retail Services. Retail Sales worked
with Indirect Marketers to facilitate sales. Michael
Mills was Vice President in charge of Retail Sales.
Retail Services handled the payments to Indirect
Marketers. Blake Van Emst was Vice President in
charge of Retail Services. Rob Origer was Director of
Retail Services.
Retail Sales employed Regional Sales Managers
and Area Sales Managers (collectively Sales
Managers),
Account
Managers
or
Account
Representatives (Account Managers), and Field Sales
Development
Representatives
(“Field
Representatives” or “FSDRs”), all of whom visited
locations that sold Dish through the indirect channel.
See T 711: 284-86 (Van Emst). Account Managers and
Field Representatives reported to Sales Managers
who reported up the chain to Mills in Retail Sales.
Initially, Account Managers handled Order Entry
Retailers, and Field Representatives handled TVRO
Retailers and national accounts. By 2006, Account
Managers and Field Representatives both worked
with Order Entry Retailers. T 620: 1320-21 (Castillo).
Account Managers and Field Representatives
provided training and marketing materials on Dish
products and services at Order Entry Retailer
facilities. T 621: 1627, 1632 (Mills); T 620: 1302
(Castillo); T621: 1632-34 and T 622: 1703 (Mills);

84a
Deposition of Michael Oberbillig, at 68, 83. Account
Managers and Field Representatives pitched
marketing ideas to Order Entry Retailers. See
Oberbillig Deposition, at 81. Dish Sales personnel, on
occasion, provided sales scripts to Order Entry
Retailers and revised Order Entry Retailers’ sales
scripts. T 621: 1636 and T 622: 1707 (Mills). Mills
made comments on scripts regularly. T 621: 1637
(Mills) (quoting deposition testimony).
Dish shared lead lists with Retailers on a few
occasions. T 622: 1767-72 (Mills); PX 704, Email
thread between Dish Legal Department and
Marketing dated May 31-June 7, 2007; PX 58, Email
from Davis to Pastorius dated June 6, 2008; PX 621,
Email from Erik Carlson to DeFranco and others
dated March 20, 2006; T 621: 1519-20, 1560
(DeFranco); PX 621, Email from DeFranco to Carlson,
dated March 20, 2006; PX 1220, Email thread from
Defender to Eric Carlson dated June 22-July 18,
2007.27
Retail Sales employees’ compensation, from Field
Representatives and Account Managers up to Vice
President Mills, was tied to the number of new
activations generated by Indirect Marketers,
The Plaintiffs present some evidence about an additional
set of leads called Glen Gary leads. Dexter in Outbound
Operations had heard that Glen Gary leads were distributed to
Order Entry Retailers, but she never confirmed this. T 627:
2539-41, 2610 (Dexter); PX1181, Email from Dexter dated June
16, 2011 regarding Glen Gary Leads. Bangert testified that the
Glen Gary leads were used in Dish direct marketing. T 628:271415 (Bangert). The scant evidence fails to establish whether Glen
Gary leads were distributed to Order Entry Retailers.
27

85a
including Order Entry Retailers. See e.g., T 622: 1798
(Mills) (part of annual bonus based on number of new
activations); T 620: 1299, 1303-04, 13-7-09 (Castillo)
(Field Representatives and Account Managers’
compensation tied to regional activation goals);
Oberbillig Deposition, at 38-39; see also T 626: 2368
(Ahmed) (“[L]ove to see the activation numbers.”).
The Retail Services division of the Sales
Department included a Risk and Audit unit. T 618:
926 (Werner). Bruce Werner was in charge of Risk and
Audit. Risk and Audit audited Indirect Marketers to
look for attempts to defraud Dish. Risk and Audit also
kept information on “churn.” The term “churn” meant
the rate at which new customers solicited by a
particular
marketer
terminated
their
Dish
subscriptions. A high churn rate meant that a large
percentage of the new customers solicited by
particular marketer (either in the direct or indirect
channel) terminated their subscriptions after only a
brief period of time. See T 618: 915 (Werner);
Oberbillig Deposition, at 47-48. High churn rates cost
Dish money. Dish incurred significant upfront costs
with each activation in the form of equipment costs,
installation costs, and promotional discounts. Dish
recouped the initial investment over two to three
years. Dish could not recoup these upfront costs if the
customer cancelled after only a short period of time.
As a result, Dish lost money on activations from Order
Entry Retailers with high churn rates. See e.g., T 626:
2325-28 (Ahmed); T 621: 1692 (Mills); T 621: 1486-86
(DeFranco). Risk and Audit could compare Order
Entry Retailer churn rates to the churn rate of Dish’s
direct marketing. See e.g., PX 1144, Retailer Audit
Notification & Summary dated December 20, 2005

86a
(comparing Dish TV Now churn rate with Dish direct
marketing churn rate).
For the first several years of the Order Entry
program, Dish made little or no effort to monitor or
supervise Order Entry Retailers’ sales methods. Risk
and Audit audited Order Entry Retailers to detect
fraud on Dish, and Dish terminated Order Entry
Retailers for fraud. T 618: 919 and T 619: 1072
(Werner); PX 1355, Email from Werner dated January
26, 2010. T 618: 916-19 and T 619: 1116 (Werner).
Risk and Audit also responded to consumer
complaints, but did not otherwise monitor Order
Entry Retailers’ marketing practices. Sales
Managers, Field Representatives, and Account
Managers visited Order Entry Retailer facilities to
assist in marketing, but they did not closely monitor
marketing practices.
Some of the Order Entry Retailers took advantage
of the situation to engage in corrupt practices. The
corrupt practices generated problems in at least six
areas: fraud on Dish; deceptive, incomplete, or
inaccurate representations made to consumers during
telephone solicitations; Do-Not-Call Law violations;
unauthorized use of third-party affiliates; high churn;
and increasing consumer complaints.
Some Order Entry Retailers used various means
to defraud Dish. Order Entry Retailers sometimes
opened duplicate accounts for existing Dish
customers to secure additional commissions. Order
Entry Retailers sometimes closed current accounts
and opened new accounts for existing customers to
secure additional commissions. Order Entry Retailers

87a
sometimes submitted false information on the Order
Entry Tool to secure Dish approval of customers who
would not otherwise be approved for a Dish
subscription. Order Entry Retailers sometimes
submitted fake Social Security numbers. At least one
Order Entry Retailer, American Satellite, Inc.
(American Satellite or Am Sat), sometimes put $1.00
on prepaid debit cards and then falsely submitted
numbers from the prepaid cards as the credit card
numbers of new customers who did not have credit
cards. See T 618: 902-14 (Werner); T 621: 1511-12,
1515-17 (DeFranco); PX220, Email Thread dated
January 7, 2009 regarding Order Entry Retailers
Allegro and American Satellite; see also PX 1306
Email dated September 5, 2008 from Steve McElroy to
Bruce Werner and others regarding More Cactus
Follow-up.
In addition to defrauding Dish, some Order Entry
Retailers made false or misleading statements to
consumers during sales presentations. See e.g., T
621:1511-12, 1515-17, 1589 (DeFranco); DTX 746,
Collective Exhibit of Five Press Releases dated October
8, 2008 through March 5, 2009, Announcing
Terminations of 40 Retailers. Some Order Entry
Retailers did not provide required disclosures. Dish
incorporated into the Order Entry Tool a set of
disclosures that were supposed to be read to
purchasers as part of completing the sale. Some
disclosures were required by statute or regulation.
Some were required by settlements that Dish made
with state attorneys general. See e.g., PX 1202, Risk
Summary—TCPA/Disclosures for week ending
September 12, 2006 (2006 Risk Summary); PX 1044,
Letter from Mike Oberbillig to Jerry Grider dated

88a
August 10, 2006 (required disclosures enclosed); T
626: 2259 (Neylon). Some Order Entry Retailers did
not give the disclosures. See e.g., PX 1202, 2006 Risk
Summary.
Order Entry Retailers also violated the Do-NotCall Laws. Dish Retail Sales Vice President Mills
knew that Order Entry Retailers could be a source of
serious Do-Not-Call Law violations. T 621: 1678-79
(Mills). Several Order Entry Retailers initiated
Prerecorded Calls in violation of the TSR and the
TCPA. These included, among others, Dish TV Now,
Satellite Systems, Star Satellite, JSR, American
Satellite, United Satellite, Vision Satellite, LA
Activations, Dish Nation, and Atlas Assets. See T 625:
2110, 2117, 2170-71 (Neylon); T 620: 2110 (Musso); T
621:1693-95 and T 622: 1728-29 (Mills); T 622: 1883
(Goodale); PX205, Email thread between Bangert and
Dish Retailer Escalations, dated May 25-27 2005; PX
120, Email thread between Oberbillig, Ahmed and
Novak dated September 26-30, 2005 regarding Dish
Network autodialer calls, at PX 120-001, 003-004; PX
168, Letter from Consumer Ryan Swanberg, dated
July 26, 2004; PX 1299, Letter from attorney Chad
Austin to Dish Senior Corporate Counsel Dana Steele
dated March 27, 2007; PX 1298, Letter from North
Dakota Assistant Attorney General James Thomas to
Echostar and Dish Nation LLC dated June 25, 2007,
with enclosed North Dakota ex rel. Stenehjem v.
Creative Concepts Group, Inc., N.D. Dist. Ct., South
Central Judicial Dist., Civ. No. 07C1307, Assurance
of Voluntary Compliance Order entered June 21, 2007.
Many of these companies used a type of prerecorded
call known as a “press 1” or “p-1” call. The prerecorded
message asked the call recipient to press the number

89a
1 on the telephone number pad if the recipient was
interested in the product. The call recipient who
pressed 1 was connected to a live sales person. See e.g.,
T 622: 1871-72 (Goodale).
Order Entry Retailers also made Registry Calls
and Internal List Calls. Some Order Entry Retailers
did not maintain Internal Do-Not-Call Lists in direct
violation of the TCPA. Some companies hung up on
individuals who asked to be put on an Internal DoNot-Call List and then called the individuals back in
direct contravention to the call recipients’ requests.
See T 622: 1873 (Goodale); PX 250, Email from Musso
dated December 20, 2006 Regarding E-Mail Notice of
TCPA Violation.
Some Order Entry Retailers hid their identities
through a process called spoofing. Spoofing means
falsifying identifying information. Telephone spoofing
is a process by which the caller causes false
identifying information to appear on the call
recipient’s Caller ID display and phone records. See T
620: 1221-22 (Musso). As a result, the call recipient
cannot readily determine the source of the illegal call.
Many Order Entry Retailers engaged third-party
affiliates without authorization from Dish. The
Retailer Agreement provided that Order Entry
Retailers could not use third-party affiliates without
prior approval from Dish. Many Order Entry
Retailers disregarded this requirement. Many
provided their Order Entry Tool Logins to individuals
and call centers in this country as well as call centers
in the Philippines or other countries. These third
parties often made Do-Not-Call Law violations and

90a
used misrepresentations to sell Dish Network
programming. See DTX 947, Dish Facts Blast, dated
October 10, 2007 (warning Order Entry Retailers
about the use of unauthorized affiliates); T 620: 1314
(Castillo) (Order Entry Retailers shared logins with
other Retailers); T 622: 1875-76 (Goodale) (worked
under other Order Entry Retailer Logins).28 Dish Sales
personnel were aware of the use of affiliates by at
least some Order Entry Retailers. See e.g., PX 239,
Email from Steven Keller dated September 8, 2006,
attached Spread Sheet (September 2006 Spread
Sheet); PX 1045, Email from Mills dated October 10,
2006, regarding Affiliate Calls (October 2006 Affiliate
Calls Email).
Customers who purchased Dish Network
Programming from these unscrupulous Order Entry
Retailers often canceled their services. As a result,
many of these Order Entry Retailers had high churn
rates. Dish lost money on activations from Order
Entry Retailers with high churn rates because Dish
could not recoup over time its initial investment in
equipment costs, installation costs, and promotional
discounts. See e.g., T 626: 2325-28 (Ahmed); T 621:
1692 (Mills); T 621: 1486-86 (DeFranco).
The
unscrupulous
practices
of
largely
unsupervised Order Entry Retailers also generated
customer complaints. Dish had a long-term problem
with consumer complaints about Order Entry
Retailers. T 621: 1685 (Mills). Retail Sales, Retail
Services, and Dish’s Legal Department worked with
Dish Exhibit DTX 947 is also admitted as Plaintiffs’
Exhibit PX 570.
28

91a
Dish’s Escalations Department to respond to
consumer complaints. See T 620: 1220 (Werner);
Deposition of Marciedes Metzger, at 31. The
Escalations Department included the Executive
Resolution Team (ERT). The Executive Resolution
Team handled customer complaints that had been
“escalated.” The term “escalated” meant that the
customer’s complaint had not been resolved by the
customer service representative who initially received
the complaint and so was sent up, or escalated, to the
Executive Resolution Team. Metzger Deposition, at
26-27.29
Representatives of the Executive Resolution
Team investigated complaints to ascertain the source
of the call that sparked the complaint and whether
the complaining consumer’s telephone number was on
the Registry. The Executive Resolution Team put the
complaining consumer’s telephone number on Dish’s
Internal Do-Not-Call List. If Dish direct marketing
did not make the call, the Executive Resolution Team
attempted to identify the Order Entry Retailer that
made the call. In such instances, the Executive
Resolution Team told the complaining customer that
Dish did not make the call and told the consumer the
identity of the Order Entry Retailer that made the
call, if known. The complaint was then filed and
marked resolved. PX 1361, Email from July 11-19,
2006, regarding Calls to Existing Dish Network
Customers, at 001-002.

Dish’s Escalations Department also had a Dispute
Resolution Team (DRT). The Dispute Resolution Team handled
written complaints. Metzger Deposition, at 31.
29

92a
Dish dealt with Order Entry Retailers that
generated consumer complaints on an ad-hoc, caseby-case basis. T 619: 996 (Werner). If Dish identified
the Order Entry Retailer that dealt with a
complaining consumer, executives in Retail Sales and
Retail Services discussed the complaint among
themselves and with members of Dish’s Legal
Department. A person from either the Legal
Department or Retail Sales contacted the Order
Entry Retailer. See Oberbillig Deposition, at 79-80.
The Order Entry Retailer generally gave some
explanation, denial, or apology, and the matter was
closed.
Dish’s basic approach in matters not involving
fraud on Dish was to accept the excuse the Order
Entry Retailer gave. For example, Satellite Systems
repeatedly violated the Do-Not-Call Laws from 2002
to 2005. Satellite System’s principal Alex Tehranchi
repeatedly said he would stop the practice. Dish
repeatedly accepted Tehranchi’s excuses even though
Tehranchi repeatedly demonstrated that he would
not stop the practice. PX 120, Email thread, Email
from Novak to Ahmed dated September 26, 2005.
In another example, Dish was told several times
in the first eight months of 2005 that Order Entry
Retailer Star Satellite was making illegal
telemarketing calls. Dish did nothing. In October
2005, the office of a United States Congressman
contacted Ahmed about Star Satellite making
Registry Calls. In response, Ahmed yelled at Star
Satellite’s principle Walter Eric Myers and told Myers
not to do it again. Ahmed took no other action to stop
the illegal calls or to discipline Star Satellite. T 626:

93a
2323-24 (Ahmed); T 622: 1818 (Mills); Myers
Deposition, at 138, 184.
Dish witnesses testified that Dish could not
discipline an Order Entry Retailer based on isolated
consumer complaints. They testified that Dish had to
build a case to terminate an Order Entry Retailer or
put an Order Entry Retailer on hold. See e.g., T 619:
1125 (Werner); see also T 625: 2254 (Neylon) (placing
Order Entry Retailer on hold was a last resort because
a hold effectively put the Retailer out of business). Dish
may have needed to investigate and verify Order
Entry Retailers’ excuses and explanations to impose
discipline. Dish, however, did not investigate
complaints. In most cases, Dish uncritically accepted
Order Entry Retailers’ explanations, told consumers
that Dish was not responsible, marked the complaint
resolved, and moved on. See PX 1361, Email from
July 11-19, 2006, regarding Calls to existing Dish
Network Customers, at 001-002. (Once the Executive
Resolution Team gave the consumer the name of the
Order Entry Retailer involved, if known, and told the
consumer that Dish was not responsible, the matter
was marked resolved).
By mid-2006, the number of consumer complaints
generated by Order Entry Retailers increased
dramatically. Werner testified that consumer
complaints went “crazy.” T 619: 983 (Werner); see T
625: 2129 (Neylon); T 618: 978 (Werner) (the “car came
off the wheels”). See also T 621: 1682-83 (Mills). The
Sales Department decided that Dish needed a more
systematic way to address the practices of Order
Entry Retailers to try to reduce the number of
consumer complaints.

94a
In August 2006, Retail Services added a
Compliance Department to deal with problems
associated with Order Entry Retailers in a more
systematic way. Reji Musso was hired as Dish’s
Compliance Manager. Musso reported to Werner in
Risk and Audit within Retail Services. 30 PX 130,
Email dated August 21, 2006 announcing hiring of
Compliance Manager Reji Musso. The Compliance
Department sought to monitor Order Entry Retailers’
compliance with the standard Retailer Agreement,
Dish’s rules, and applicable laws and regulations. T
620: 993-94 (Musso). The Compliance Department
was tasked with ensuring that Order Entry Retailers
accurately described the terms and conditions of Dish
Network programming packages and made all
required disclosures during telephone sales
presentations. T 619: 993-94 (Werner); T 620: 1194
(Musso). The Compliance Department also handled
consumer complaints about Order Entry Retailers. T
625: 2130 (Neylon); T 619: 983 (Werner.).
In September 2006 the Compliance Department
started a Quality Assurance (QA) Program. T 620:
1204 (Musso). The Quality Assurance Program was
supposed to improve the quality of sales calls by
insuring that Order Entry Retailers were making
accurate representations and making all required
disclosures in their sales presentations. T 621: 1638
(Mills); T 620: 1205 (Musso); PX 1202, Risk
Summary—TCPA/Disclosures for week ending
September 12, 2006; PX 1044, Letter from Mike
Oberbillig to Jerry Grider dated August 10, 2006
Risk and Audit at some point became known as Risk
Management. See T 620: 1194 (Musso).
30

95a
(required disclosures enclosed). Order Entry Retailers
were required to participate in the Quality Assurance
Program. T 619: 994 (Werner).
The Quality Assurance program required Order
Entry Retailers to allow Field Representatives and
Account Managers to listen to sales presentations,
either live presentations at the Order Entry Retailer
facility or recorded presentations provided by the
Order Entry Retailers, and to score the presentations.
See T 620: 1310-11 (Castillo); T 620: 1209 (Musso); T
619: 992 (Werner); PX 486, Dish Quality Assurance
Field Sales Development document issued on or about
March 1, 2007 (2007 Quality Assurance Report), at 9,
17-23.31 Field Representatives scored Order Entry
sales personnel on whether they identified
themselves properly, asked customers about
television usage, offered responsive packages of
services and programming, made appropriate
disclosures, secured necessary information to
complete a sale, and made “a polite professional
closing on all calls, regardless of if a sale is made.” PX
486, 2007 Quality Assurance Report, at 18, 19, 23.
The Compliance Department also sent out
updated disclosures that Retailers were required to
give during sales presentations. See T 620:1242
(Musso); PX 744, Email from Musso dated October 22,
2006. One such update was entitled, “Agency T&Cs –

PX 486 is undated, but based on its content, the
documents seems to have been issued shortly after JSR’s
termination in February 2007.
31

96a
Q1 2007 Release.” PX 1139.32 The term “T&Cs” meant
terms and conditions. T 621: 1652 (Mills).
Musso also worked with the Legal Department,
the Executive Resolution Team, and Dish’s DNC
Investigation Team to run a sting program. The sting
program sought to identify Order Entry Retailers that
generated consumer complaints, but hid their
identities by spoofing or otherwise. Upon receiving a
consumer complaint, Dish attempted to identify the
responsible Order Entry Retailer. If the participating
Dish Departments could not identify the Retailer,
Dish representatives asked the complaining
consumer to participate in the sting program. If the
offending telemarketer called again, the participating
consumer agreed to purchase Dish Network
programming using a credit card provided by Dish
along with specified identifying information. When
the order came through on the Order Entry Tool, Dish
could identify the Order Entry Retailer involved in
the participating consumer’s “sting” transaction. See
PX 1362, Outline of Sting Process, undated; T 619: 989
(Werner); T 620: 1246 (Werner).33 Through the sting
program, Dish identified several Order Entry
Retailers that were violating the Do-Not-Call Laws. T
619: 919 (Werner). PX 1082, Tracker spreadsheet on
stings; T 620: 1234-36, 1386 (Musso).
Musso also established a systematic way to notify
Order Entry Retailers about consumer complaints.
The footer on PX 1139 identified the document as a
Microsoft Word document entitled “Retail OE TCs Q1 2007.” See
T 621: 1652 (Mills).
33 The sting program may have predated the establishment
of the Compliance Department in 2006.
32

97a
The Compliance Department sent a letter explaining
the complaint and requesting a response within seven
days. The Compliance Department followed up every
week. The Compliance Department placed the
response in its files and forwarded copies to the Legal
Department and executives within Retail Services
and Retail Sales. See T 620: 1238-39 (Musso); T 619:
1022-27 (Werner). Musso kept a tracker spreadsheet
of consumer complaints and the results of
investigations, and issued weekly TCPA Tracker
Reports. T 619: 1027-31 (Werner); PX 1347, TCPA
Tracker Report dated September 16, 2008.
In 2007, the Compliance Department started the
Partner Order Entry (POE) list. The POE list was a
list of complaining consumers whose complaints had
been unresolved after being escalated to the highest
levels of Dish’s consumer complaint resolution
system. Compliance sent the POE list to Outbound
Operations and all companies in the indirect channel,
including all Order Entry Retailers. All Dish direct
marketing and all entities in the indirect channel
were to “suppress” telephone numbers on the POE
list. Suppressing a telephone number meant that the
number should not be called at all for any reason. T
619: 995-96, 1099 (Werner); T 620: 1213-15 (Musso);
see PX 1107, Email dated January 4, 2007 (example
POE Notice).
The Compliance Department also began
supervising the use of third-party affiliates by Order
Entry Retailers. In October 2006, the Sales
Department started collecting information from the
top eleven Order Entry Retailers on the use of
affiliates. At least four of the top eleven admitted

98a
using third-parties to make telemarketing calls. PX
1045, Email thread between Mills and Neylon dated
October 3-10, 2006 regarding Affiliate Calls.
Thereafter, Dish began efforts to enforce the
requirement in § 7.2 of the Retailer Agreement that
all affiliates had to be approved by Dish. On October
10, 2007, Dish issued a Facts Blast notice to Order
Entry Retailers warning against using affiliates
without prior approval from Dish. DTX 947, Facts
Blast dated October 10, 2007; see also PX 1051,
Undated Facts Blast (also warning against using
unapproved affiliates).34 Dish began performing
background checks on proposed affiliates and denied
approval of some proposed affiliates. Musso tracked
information on third-party affiliates used by Order
Entry
Retailers.
Musso’s
tracker
included
information on whether the affiliate had been
approved in the past. T 620: 1201-03 (Musso); e.g., PX
1271 and PX 1272, Affiliate Tracker Spreadsheets
identifying affiliates in 2008-11. Pursuant to § 7.2 of
the Retailer Agreement, Dish took the position that
Order Entry Retailers were liable for the actions of
their third-party affiliates. T 619: 1013-14 (Werner);
see PX 724, April 15, 2011 Draft Script on Risk
Management, Audit, and Compliance, at 1.
The Compliance Department, however, did not
audit Order Entry Retailers with respect to Do-NotCall compliance. The Compliance Department did not
review Order Entry Retailer calling records or calling
lists. T 625: 2252 (Neylon). The Compliance
The undated Facts Blast, PX 1051, referred to Dish as
EchoStar, and so, was distributed before Dish changed its name
to Dish Network in January 2008.
34

99a
Department also did not incorporate into the Quality
Assurance Program any monitoring for Do-Not-Call
compliance. The Quality Assurance Program focused
on the accuracy and completeness of statements made
during telemarketing calls.
The Compliance Department had weekly
meetings with Dish’s Legal Department. The
meetings covered all areas of Order Entry Retailer
compliance, including telemarketing. See; PX 548,
Agenda for Legal TCPA Meeting dated October 2006;
PX 536, Retail Services Audit and Risk Q4 2006
Report.
Even though Musso and the Compliance
Department
secured
the
information
more
systematically, Dish continued to respond to Order
Entry Retailer misconduct through an ad hoc, caseby-case approach. T 620: 1239 (Musso); T 619: 1042
(Werner). Musso and Werner could make
recommendations to discipline Order Entry Retailers,
but more senior executives in the Sales Department
(or even higher level management in some cases) had
to approve discipline. T 619: 1032-37 and 1104
(Werner); T 625: 2130-31 (Neylon); T 620: 1260
(Musso); PX 1083, Email thread between Musso,
Neylon, and Origer dated February 8, 2007; PX 492,
Email thread between Musso and Van Emst dated
September 2, 2008.
In November 2006, Musso suggested using more
stings and imposing more fines on Order Entry
Retailers. As she put it, “Anything to stop the
madness … so to speak.” PX 72, Email thread between
Musso, Werner, Neylon, and Origer dated November

100a
14, 2006. Between August 2006 and February 2007,
Dish fined Order Entry Retailers Blu Kiwi, LLC and
American Satellite $10,000.00 each, and fined
Sterling Satellite $53,901.00. From February 2007 to
July 2008, Dish did not impose any fines. In July
2008, Musso reported that the Compliance
Department had made two recommendations for fines
that were pending. PX 143, Email thread between
Musso and Werner dated July 22, 2008. The Court
cannot determine whether Dish imposed these two
recommended fines.
Dish terminated some Order Entry Retailers
after starting the Compliance Department. In
February 2007, Dish announced that it had
terminated three Order Entry Retailers for Do-NotCall violations. PX 99, Gross Sales Update Report
dated August 6, 2007, at 2 (stating that Dish
terminated Order Entry Retailers JSR, United
Satellite, and Atlas Assets for Do-Not-Call violations);
see DTX 674, Press Release dated February 14, 2007
(announcing JSR’s termination). In early October
2007, two additional Order Entry Retailers were
terminated for using unauthorized third party
affiliates for lead generation. DTX 947, Facts Blast
dated October 10, 2007. In July 2008, Musso
identified two additional Order Entry Retailers that
had been terminated since she started the
Compliance Department and two more that were not
renewed but would have been terminated. Musso did
not state the reasons for these terminations. PX 143,
Email thread between Musso and Werner dated July
22, 2008.

101a
As a result of the on-going problems with corrupt
practices, the Order Entry program had a negative
reputation within Dish. PX 658, Email from Ahmed
to DeFranco, Thomas Cullen, and Neylon dated
March 24, 2009. In 2007, Dish legal department
paralegal Denise Hargen asked to be kept informed
about Do-Not-Call violations because the Order Entry
Retailers or Dish marketing personnel tried to get
around the Do-Not-Call Laws: “It would really help to
make sure I’m always in the loop on these matters
based on my DNC involvement and knowledge base.
Makes it harder for these folks to get around the
‘rules’ – which they try to do – especially
marketing.” PX 704 Email thread dated May 31 –
June 7, 2007 between Hargen, Dish in-house counsel
Emily Pastorius, and Brian Pacini (emoji in the
original). By 2009, the Legal Department complained
that Order Entry Retailers were engaging in
“shady/illegal activity.” Order Entry Retailers
continued to make Prerecorded Calls in 2009. PX 730,
2009 Sales Partner Review, at 2, 3.
By 2008, Dish was also the subject of
investigations for Do-Not-Call Law violations by the
FTC and state consumer protections officials. Dish
was also a defendant in several lawsuits brought by
both individual consumers and state officials. See e.g.,
PX 1131, FTC Civil Investigative Demand dated July
21, 2005 (FTC Demand); PX 54, Legal and RS Project
Report dated October 7, 2004; T 618: 935-38 (Werner)
(listing pending legal investigations and lawsuits); PX
1340, Vermont Attorney General Investigative
Subpoena Regarding Order Entry Retailer Satellite
Systems Now is sued October 2005; PX 538, Texas
Notice of Violation of Texas Do-Not-Call Law dated

102a
January 3, 2006; PX 669, December 10, 2007 Email
from Dish attorney Jeffrey Blum (referencing ongoing
FTC and 31-state investigation). The FTC and multistate
investigations
culminated
in
the
commencement of this action on March 25, 2009, and
the entry of a court approved Assurance of Voluntary
Compliance (AVC) on July 16, 2009, between Dish
and the forty-six states that are not Plaintiffs in this
action. PX 55, Assurance of Voluntary Compliance
dated July 16, 2009.
During this time frame in 2008 and 2009, Dish
started to impose more control over the Order Entry
program. Dish required Order Entry Retailers
making fifty activations a month to send their
Internal Do-Not-Call Lists to PossibleNOW for
compilation into a combined Retailer Do-Not-Call
List. See T 619: 1018-21 (Werner). Dish also arranged
for Order Entry Retailers to use PossibleNOW
scrubbing services. Dish required some Order Entry
Retailers to use PossibleNOW scrubbing services. T
622: 1841-43 (Mills); see DTX 741, Email thread
between Dish Vendor Inquiries and Satellite Systems
dated April 8, 2009. Dish Sales Department
maintained information on sales and money spent on
advertising on a monthly basis, as well as monthly
updates on each Order Entry Retailer. See PX 409,
Monthly Update; T 626, 2265-66 (Neylon).35
From October 2008 until March 2009, Dish
terminated 40 Retailers, some of which were Order
Entry Retailers, for defrauding Dish or for making
It is unclear from the evidence when this monthly
tracking process started.
35

103a
misrepresentations to consumers. DTX 746, Collective
Exhibit of 5 Press Releases dated October 8, 2008
through March 5, 2009, Announcing Terminations of
40 Order Entry Retailers. In 2009, Dish reduced the
number of Order Entry Retailers from to 76 to 32.
Dish eliminated Order Entry Retailers for fraud and
high churn. Dish representatives focused on
eliminating fraud and reducing churn rates of the
remaining Order Entry Retailers. The result was an
increase in monthly activations from 71,000 to
100,000 and a significant reduction in churn rates. PX
730, 2009 Dish Sales Partner Review, at 13.
In May 2009, Ahmed returned to Dish as Senior
Vice President of Sales and Distribution. He again
had responsibility for the Order Entry Program.
Neylon was Vice President in charge of the Order
Entry Program and Mills was Director of the Order
Entry program. T 626: 2286-88 (Ahmed).36
By 2009, Dish used the Quality Assurance
program for both Dish direct telemarketing calls and
Order Entry
Retailer calls.
Dish scored
telemarketing calls on 45 criteria. The Quality
Assurance criteria focused on accurately describing
Dish products and promotions (including any
limitations on promotional pricing), and providing
complete, accurate disclosures during sales calls. The
Quality Assurance criteria also covered “right sizing”
customers. Right sizing involved asking questions
about the household television watching patterns to
accurately evaluate the potential customer’s needs in
In 2013, Ahmed’s duties changed. He became in charge of
door-to-door sales. T 626: 2288 (Ahmed).
36

104a
order to offer the appropriate Dish programming
packages. The Quality Assurance program also
sought to ensure that the sales agents interacted with
the consumer in an appropriate, professional manner.
T 625: 2137-38, 2175-77, 2182-84, 2226 (Neylon); T
621: 1642 (Mills); T 627: 2473-74 (Ahmed); PX 560,
Email thread regarding Quality Assurance scores
dated August 18, 2009; PX 1048, QA Action Plan, at
7.
A Dish Business Rule required Order Entry
Retailers to participate in the Order Entry Program.
T 620: 1213 (Musso). Order Entry Retailers were
evaluated weekly on their Quality Assurance scores.
Order Entry Retailers were required to modify their
practices to conform to the Quality Assurance
Program. T 621: 1639-40 and 622: 1701 (Mills); T 625:
2137-38, 2171-75 (Neylon); see T 620: 1210 (Musso);
PX 559, Email thread between Neylon, Musso, and
Ahmed dated August 13, 2009 (Ahmed wanted “no
nonsense from my employees or my Retailers”
regarding the Quality Assurance program); PX 616,
Email thread between Neylon and Mills dated August
13, 2011. Initially, Field Representatives and Account
Managers scored calls. At some point, a separate
national team within Dish scored all the recorded
calls from both Order Entry Retailers and Dish direct
marketing. T 620: 1211-12 (Musso).
By August 2009, Ahmed and Neylon wanted the
Sales Department to emphasize Order Entry Retailer
compliance with Quality Assurance program. Neylon
wanted Field Representatives and Account Managers
to be “110%” involved in improving Quality Assurance
scores. Ahmed also stated that he would hold Account

105a
Managers responsible. Ahmed stated that he would
not tolerate high churn or misrepresentations. PX
559, Email thread between Neylon, Musso, and
Ahmed dated August 12, 2009.
Thereafter, Dish Field Representatives, Account
Managers, and Sales Managers worked with Order
Entry Retailers to get and keep Quality Assurance
scores over 90 percent. Field Representatives and
Account Managers visited with Order Entry facilities
to ensure compliance. Field Representatives and
Account Managers coached Order Entry Retailers on
how to improve Quality Assurance scores. T 625: 2179
(Neylon). Field Representatives and Account
Managers met with Order Entry Retailer
salespersons to discuss sales presentations. On
occasion, Sales Managers required Order Entry sales
staff who worked at home to come to the office once a
week so that their calls could be monitored. T 625:
2210 (Neylon); PX 1048, QA Action Plan, at 4. On
occasion, Order Entry Retailer personnel who had
consistently had failing Quality Assurance scores
were removed from the telephones and fined. PX
1048, QA Action Plan, at 6.
Sales Managers, Field Representatives, and
Account Managers reviewed and rewrote scripts and
ordered Order Entry Retailers to change sales
procedures to keep scores up. See T 625: 2177-79
(Neylon); T 6212: 1640 (Mills); PX 1048, QA Action
Plan, at 3, 5. On one occasion, a Dish Sales Manager
wrote a call flow for an Order Entry Retailer who did
not use a written sales script and required the Order
Entry Retailer to follow the call flow. PX 1048, QA
Action Plan, at 4.

106a
Dish could discipline Order Entry Retailers who
did not comply with the Quality Assurance Program.
Dish Sales Managers, at least, could withhold
promotional offers from non-compliant Order Entry
Retailers. PX 1048, QA Action Plan, at 3. Mills opined
that a Sales Manager’s statement in a QA Action Plan
(PX 1048) about withholding programming was a
flippant comment. T 621: 1641 (Mills). Mills’ opinion
on this matter is not credible. The QA Action Plan
contained a detailed plan of steps to improve an Order
Retailer’s Quality Assurance score. The Court sees
nothing flippant about anything in the document. In
addition to restricting available programming, Dish
could disable Order Entry Retailer logins to restrict
access to the Order Entry Tool. T 625: 2208-09
(Neylon).
One Dish Sales Manager William (Brett) Mason
asked Musso for contractual authority for the Quality
Assurance Program. Mason quoted Retailer
Agreement § 7.3 as a possible source of authority in
the email. Section 7.3 required Order Entry Retailers
to “take all actions and refrain from taking any action,
as requested by [Dish] in connection with the
marketing,
advertisement,
promotion
and/or
solicitation of orders for” Dish Network programming.
Mason then stated that he could use the “absolute
power” clause, but it was not his first choice. Musso
confirmed that § 7.3 of the Retailer Agreement
authorized the Quality Assurance program. PX 553,
Email thread between Musso and Mason dated
October 25, 2011. See also T 625: 2198-99 (Neylon)
(Under Retailer Agreement, Dish personnel could ask
Retailers to take any action, or to refrain from taking
any action relating to marketing.).

107a
The Plaintiffs suggest that the “absolute power”
clause was § 7.3 of the Retailer Agreement. Musso
testified that the “absolute power clause” meant that
Mason could tell the Retailer, “Because I said so.” T.
620: 1289 (Musso). Musso’s testimony on this point is
consistent with Mason’s email. Mason distinguished
between Section 7.3 and the “absolute power” clause.
Mason quoted 7.3 in the email, and then said, as an
alternative, that he guessed he could invoke the
absolute power clause. Musso’s testimony is also
consistent with the statement of Dish employee
Carlos Prado. Prado told Field Representative
Manuel Castillo, “Dish, the way they do things is they
have all the power, and then if they – if they want to,
they can squash you like a bug.” T 620: 1333
(Castillo). Prado was in charge of setting up new
Order Entry Retailers at the time that he made the
statement. Id. The Court finds that the “absolute
power” clause meant that Dish Sales Managers could
direct Order Entry Retailers to act by telling Order
Entry Retailers, “Because I said so.”
Even with the purge of half of the Order Entry
Retailers and the imposition of the revised Quality
Assurance Program, Dish retained the ad hoc, caseby-case approach to Do-Not-Call Law violations. In
2009, a class-action law suit was filed against Dish for
Registry Calls made by Order Entry Retailer Satellite
Systems. See T 618: 868-69 (Kraukauer). By 2011,
Dish had so many complaints about Satellite Systems
that Dish’s Legal Department had developed a
“standard go after Satellite Systems Network” letter
to send complaining consumers. See PX 199, Email
from Dish litigation paralegal Kimberly Berridge to
Dish Corporate Counsel Brett Kitei dated August 18,

108a
2011. No evidence cited by either party indicates that
Dish disciplined Satellite Systems for these calls.
Satellite Systems remained an Order Entry Retailer
until 2013. T 625: 2149-50 (Neylon).
B. Dish’s Relationship with Specific Order Entry
Retailers
This Court found at summary judgment under
Counts I and III that Dish violated the TSR by
causing the following illegal calls by Order Entry
Retailers: causing Dish TV Now to make 6,637,196
Abandoned Prerecorded Calls; causing Satellite
Systems to make 381,811 Registry Calls; causing Star
Satellite to make 43,100,876 Abandoned Prerecorded
Calls; causing JSR to make 2,349,031 Registry calls;
and causing American Satellite to make one
Abandoned Prerecorded Call. Opinion 445, at 232-33,
75 F.Supp.3d at 1032-33. At trial, the Plaintiffs
presented evidence about these Order Entry
Retailers, as well as Order Entry Retailer Dish
Nation.37 The Court makes findings regarding Dish
Nation along with the other five Order Entry
Retailers.
1. Dish TV Now
In late 2003 or early 2004, Dish TV Now became
Dish’s first Order Entry Retailer. T 626: 2304
The Plaintiffs presented evidence at summary judgment
about a TVRO retailer named New Edge Satellite and an Order
Entry Retailer named National Satellite Systems. See Opinion
445, at 114-16. The Plaintiffs have asked for no findings of fact
or conclusions of law regarding the activities of New Edge
Satellite or National Satellite Systems at trial.
37

109a
(Ahmed). On October 7, 2003, Ahmed contacted the
principal of Dish TV Now David Hagen to offer him
the opportunity to become an Order Entry Retailer.
PX 61, Letter from Ahmed to Hagen dated October 7,
2003. At the time, Hagen operated a company called
Prime TV that sold DirecTV.
The same day, October 7, 2003, Hagen sent
Ahmed a proposal in which he projected that within a
year of operation, Dish TV Now would generate
27,000 Dish Network activations per month. Hagen
represented in the proposal that Dish TV Now would
use television advertising, direct mail, and online
advertising to secure inbound telemarketing calls
from interested customers. PX 148, Dish TV Now
Proposal Letter; DTX 959, Retailer Application from
Dish TV Now. Dish did not perform any background
checks on Hagen or Dish TV Now. Ahmed did not
learn that Hagen was a convicted felon who had been
permanently enjoined from committing deceptive
practices in actions brought by the FTC. See T
626:2359-62 (Ahmed); PX 145, FTC v. David DeFusco
a/k/a David Hagen, C.D. Va. Case No 89-1046,
Permanent Injunction Order, entered November 3,
1989. In 2004, Hagen was also enjoined by North
Carolina in a separate action. PX 150, North Carolina
v. Prime TV, LLC, N.C. Wake County, North Carolina
Superior Court Case No. 04CVS008148, Consent
Judgment, entered June 14, 2004.
Dish TV Now hired a company called Guardian
Communications (Guardian) to make “press 1”
Prerecorded Calls to market Dish Network
programming. From May 2004 to August 10, 2004,
Guardian made on behalf of Dish TV Now 6,637,196

110a
Prerecorded Calls that were answered and became
Abandoned Prerecorded Calls for which Dish is liable
in Count III. Opinion 445, at 88-89. Guardian
stopped making these calls because Dish TV Now
stopped payment on checks to Guardian. See Opinion
445, at 89-90.
On August 2, 2004, Dish received a consumer
complaint about Dish TV Now’s prerecorded
telemarketing calls. PX 168, Letter from Consumer
Ryan Swanberg, dated July 26, 2004, and marked
received August 2, 2004.
On September 16, 2004, Ahmed sent Dish TV
Now’s principal Hagen an email which said,
David,
This is simple. Is Dish TV Now telemarketing
customers over the phone, or are you guys
using predictive dialers and leaving messages
trying to sell the customers DISH Network.
We’re not interested in this type of marketing.
We’re receiving complaints on your
department doing just this kind of marketing.
Hagen responded,
Amir,
Dish TV Now uses a predictive dialer to make
outbound calls to consumers who have
previously inquired with us about satellite TV
service or are current Dish TV Now DISH
Network customers. The intelligent dialer
knows the difference between a No Answer,

111a
Busy, Answering Machine, or Live Connect.
The dialer only connects live customers to a
live Dish TV Now agent. We do not leave
messages. We have a list of over 5 million past
and current customers that we scrub against
the do not call list. In addition, we maintain a
Dish TV Now do not call list. Any customer
who wishes to opt out on future solicitations
is immediately added to the list. Dish TV fully
complies with the TCPA.
DTX 223, Email thread between Ahmed and Hagen
dated September 16, 2004.
Ahmed learned from the September 16, 2004,
email that Dish TV Now engaged in outbound
telemarketing. Ahmed further learned that Hagen
misrepresented in the original marketing plan the
methods that Dish TV Now would use to sell Dish
Network programming. Dish, however, did not take
any disciplinary actions against Dish TV Now. T 626:
2370-71 (Ahmed). Dish allowed Dish TV Now to
continue operating as an Order Entry Retailer even
though Ahmed knew that Hagen misrepresented his
marketing methods.
Ahmed also did not check the accuracy of Hagen’s
representations about Dish TV Now’s telemarketing
practices, and so, did not learn that Hagen was lying
about the use of Prerecorded Calls. Hagen told Ahmed
that calls answered by a person were connected to a
live sales agent. That was false. The calls were
connected to a prerecorded press 1 message. Ahmed
did nothing to check Hagen’s explanation. He just
accepted it and went on.

112a
Dish TV Now continued operating as an Order
Entry Retailer until January 2006. On or about
December 20, 2005, Dish put Dish TV Now on hold for
failure to promote Dish Network programming. While
on hold, Dish TV Now could not place orders through
the Order Entry Tool. Dish TV Now also had a high
churn rate, almost double the Dish direct marketing
churn rate. In January 2006, Dish terminated Dish
TV Now as an Order Entry Retailer for high churn
and failure to promote Dish Network. Dish TV Now
produced 485 activations in 2002; 2,765 activations in
2003; 78,339 activations in 2004; and 41,688
activations in 2005. T 626: 2376 (Ahmed); PX 1144,
Retailer Audit Notification & Summary dated
December 20, 2005;see PX 165, Email from Mills to
Ahmed dated December 22, 2005.
2. Satellite Systems Network
In March 2002, Satellite Systems was a TVRO
Retailer. Satellite Systems was making Prerecorded
Calls. Dish’s regional sales director Nick Meyers
stated in an email that Satellite Systems’ use of
Prerecorded Calls “has caused a few concerning calls,
but seems to be greatly outweighed by the results.”
PX80, Email thread between Nick Meyers and Neylon
and Ahmed, dated March 10-11, 2002; T 625: 2139
(Neylon); T 626: 2332, 2329 (Ahmed). Meyers made
this statement when the TCPA prohibited
Prerecorded Calls but before the TSR prohibited
abandoned calls. In June 2002, Dish sent Satellite
System a notice to comply with telemarketing laws,
but took no other action. PX 187, letter dated June 12,
2002.

113a
In June 28, 2004, Dish’s co-founder and Chief
Executive Officer Charlie Ergen received a
Prerecorded Call from Satellite Systems offering
DirecTV programming. Ergen contacted Ahmed
about the call. Ahmed told Ergen that Satellite
System was also a Dish Retailer and that Satellite
System used “message broadcasting with [DirecTV]
as their primary source to generate sales.” At trial,
Ahmed denied knowing that Satellite Systems used
Prerecorded Calls. T 626: 2337 (Ahmed). The Court
finds that denial to not be credible. Ahmed’s
statement in the email was unequivocal.
Ergen asked why Dish could not copy Satellite
Systems’ technique. Ahmed directed Dish Regional
Sales Manager Mike Oberbillig to contact Satellite
Systems to ask for the script. Satellite Systems’
principal Alex Tehranchi refused to give Dish the
scripts and denied using Prerecorded Calls.
Tehranchi stated that Satellite Systems was moving
away from telemarketing. PX 190, Email Thread
between Ergen, Ahmed, and a Dish West Coast
Account Manager Mike Oberbillig, dated June 28-30,
2004.
In July 2004, Satellite System became an Order
Entry Retailer. T 626: 2409-10 (Ahmed). Satellite
System was selling Dish Network and DirecTV. By
the end of July 2004, Ahmed began receiving
complaints about Satellite Systems’ outbound
telemarketing. PX 503, Email from Ahmed dated July
29, 2004.
In September 2004, Satellite Systems was
averaging 9,000 DirecTV activations a month, but

114a
only 350 Dish Network activations a month. Ahmed
raised the commission paid to Satellite System to
increase Dish Network activations. Ahmed stated
that Dish needed activations from Satellite Systems.
PX 656, Email thread between Ahmed, DeFranco, and
Dish Regional Director for West Coast Jim Spritzer,
dated September 14-15, 2004.
In November 2004, a Florida state court ordered
Satellite Systems to pay $25,500 in civil penalties
under its other name Vitana Financial Group, Inc.
(Vitana) for violating Florida Do-Not-Call Laws. PX
191, Florida Department of Agriculture and
Consumer Services Press Release dated November 4,
2004.
In March 2005, Tehranchi and Vitana agreed to
pay $15,000 in civil penalties to North Carolina for
violating state Do-Not-Call Laws. PX 186, North
Carolina v. Vitana Financial Group and Tehranchi, et
al., Wake County, North Carolina Superior Court,
Case No. 04-8799, Consent Judgment entered March
21, 2005.
In October 2005, Dish again received notice that
Satellite Systems was using Prerecorded Calls. PX
504, Email thread dated October 27, 2005. A month
earlier in September 2005, Dish in-house attorney
Novak stated that Satellite Systems had been making
Prerecorded Calls for years:
We know that SSN [Satellite Systems] is
using autodialers and automessages. Terachi
[sic] been warned time and again (by me, by
you, by the region, by phone, in writing, in

115a
person) that these activities could violate the
law. Last time, Teranchi [sic] blamed a “rogue
employee,” who he claimed was terminated,
but the activities continue. Charter knows
he’s doing it, and several state AG’s know he’s
doing it as well.
In the past, we have successfully resisted the
argument that we are responsible for the
conduct of independent Retailers, however,
SSN is a problem because we know what he is
doing and have cautioned him to stop. There
is risk in continuing to give warnings without
a follow-through action. Eventually, someone
will try to use that against us.
On the range of options, you could give him
another written warning, you could put him
on probation for a period of time, you could
put him on hold and withhold money
(presumably to cover “potential fines”
running from SSN to us under some agency
theory), or you could terminate him now.
I favor probation, provided that there is
unanimous understanding that if EchoStar
becomes aware of ANY ONE addition (sic)
violation, he’s terminated.
PX 120, Email thread, Email from Novak to Ahmed
dated September 26, 2005 at 1:24 p.m., at PX 120-003004 (emphasis in original). Novak made this comment
in September 2005 in connection with an initial
investigation of a different Prerecorded Call. The
September 2005 call was made by another Order

116a
Entry Retailer, United Satellite. PX 120, Email
Thread with Indiana Attorney General’s Office dated
September 23-30, 2005. However, a month later, in
October 2005, Dish did not follow Novak’s
recommendation when Satellite Systems was again
caught making Prerecorded Calls. Oberbillig orally
told Tehranchi to stop using Prerecorded Calls. Dish
did not impose any other consequences. T 626: 234850 (Ahmed); see Oberbillig Deposition, at 78.
On or before September 21, 2006, Dish knew that
Satellite Systems had been fined $25,500.00 for DoNot-Call law violations. PX 1086, Email from Ron
Dufault of Retail Services dated September 21, 2006
(at 023 of the collective exhibit).38 Dish took no action
against Satellite Systems.
In February 2007, two of Dish’s stings identified
Satellite Systems as violating Do-Not-Call Laws. PX
1086, Email dated February 7-15, 2007, regarding
stings involving consumers Jeffrey Mitchell and
Gregory Fisher (at 016-018 of the collective exhibit).
Dish took no disciplinary action against Satellite
Systems.
In September 2009, Dish’s investigation of a
consumer complaint showed Satellite Systems was
making Registry Calls. PX 282, Email thread dated
May 10-19, 2009. The complainant, Dr. Thomas
Kraukauer, filed a class action lawsuit against Dish
as a result of these calls. T 618:865-66 (Kraukauer).

The email, PX1086 at 023, erroneously stated that North
Carolina imposed the $25,500 fine instead of Florida.
38

117a
In 2010 and 2011, Satellite Systems made
381,811 illegal Registry calls. Opinion 445, at 133,
232. Satellite Systems also made 22,946 Internal List
Calls to telephone numbers on the Internal Do-NotCall Lists of Dish and the Telemarketing Vendors.
Satellite Systems also made 42,990 Internal List
Calls to numbers on the Internal Do-Not-Call Lists of
other Order Entry Retailers compiled by
PossibleNOW. PX 28, Taylor November 6, 2013
Report, at 13-14d Tables 5b and 5c.
By 2011, Dish had developed a standard letter to
send out to consumers complaining about Satellite
Systems’ violations of Do-Not-Call Laws. The Dish
legal department referred to the letter as the
“standard go after SSN letter.” PX 199, Email from
Dish litigation paralegal Kimberly Berridge to Dish
Corporate Counsel Brett Kitei dated August 18, 2011.
Dish terminated Satellite Systems Network in 2013.
T 625: 2149-50 (Neylon).
3. Star Satellite
Star Satellite became a TVRO Retailer in March
2003. Walter Eric Myers (Myers) was in charge of Star
Satellite. Myers previously ran TVRO Retailer called
Tenaya Marketing (Tenaya). Tenaya did door-to-door
sales primarily. Dish began penalizing Tenaya for
high churn rates, so Myers arranged for his brother to
start Star Satellite. Deposition of Walter Eric Myers,
at 38-40. Myers ran Star Satellite. Star Satellite
stated in its application to Dish that it planned to use
newspapers and direct mail advertising. Star
Satellite did not indicate that it would engage in

118a
telemarketing. DTX 335, Retailer
Questionnaire dated March 11, 2003.

Business

At some point in time, Dish representatives
learned that Star Satellite was engaged in
telemarketing. Dish representatives sent Myers parts
of a script to use in these sales. Dish representatives
wanted Retailers to make all of the required
disclosures to consumers. Myers Deposition, at 42-43.
Myers testified that Star Satellite called telephone
numbers from the phone book. Myers Deposition, at
124.
In May 2004, Star Satellite hired Guardian to
make Prerecorded Calls on its behalf to sell Dish
Network programming. Guardian started making
prerecorded “press 1” telemarketing calls selling Dish
products and services for Star Satellite. Myers used
the name Tenaya in Star Satellite’s dealings with
Guardian. Myers did not tell Dish that Star Satellite
used Guardian’s services. Myers considered
marketing methods to be trade secrets that he did not
want to share with any competitor. Myers viewed
Dish as a competitor because Dish had its own
internal marketing department. Myers believed that
he could choose the marketing methods because Star
Satellite was a separate business from Dish. Myers
Deposition, at 73, 76-77, 106, 141, 174-80, 182-83.39

Dish cites the deposition of Guardian’s principal Kevin
Baker for the proposition that Star Satellite suspended
prerecorded calls periodically when Dish personnel were at Star
Satellite’s offices. See Deposition of Kevin Baker, at 71, 177-78.
The testimony is inadmissible hearsay to prove the truth of
Baker’s assertions.
39

119a
In 2004, Star Satellite applied to be an Order
Entry Retailer. Myers testified that he basically
begged to be approved for the Order Entry program.
Dish personnel asked Myers questions about
proposed marketing methods. Myers represented that
Star Satellite would primarily use direct mail, with
some phone sales. Myers believed telemarketing
carried a stigma. He suspected that Dish did not like
telephone sales. Myers did not want scrutiny from
Dish about whether Myers was complying with DoNot-Call Laws.
Myers Deposition, at 92-95.
Guardian’s principal Kevin Baker stated that he told
Myers a rumor that Dish did not allow Order Entry
Retailers to make Prerecorded Calls. Deposition of
Kevin Baker, at 70.40 Myers, however, believed that
Dish became aware of the fact that Star Satellite was
using telemarketing. Myers Deposition, at 181.
Star Satellite became an Order Entry Retailer in
late 2004 or early 2005. Star Satellite set up an office
and call center in Provo, Utah. Star Satellite still
engaged in door-to-door sales in the Los Angeles,
California area. T 622: 1815 (Mills); Myers Deposition,
at 81, 83, 91. Star Satellite only sold Dish Network
except for a brief period of up to three months in 2005
when Star Satellite also sold DirecTV programming
and services. Even when Star Satellite sold DirecTV,
its sales staff offered Dish Network programming
first to customers, and then offered DirecTV if the
person was not interested in Dish Network or for

Baker referred to the use of prerecorded calls as
autodialing. Baker Deposition, at 70.
40

120a
some reason could not purchase Dish Network. Myers
Deposition, at 143-46.
Dish personnel trained Star Satellite staff on how
to use the Order Entry Tool. Dish personnel provided
a recommended script to use for telephone sales. Dish
provided detailed disclosures to be read to customers
during telephone sales. Dish representatives visited
Star Satellite’s call center in Provo, Utah, weekly.
Michael Mills went to Star Satellite’s offices a few
times. Myers Deposition, at 87-90, 93-94. Mills worked
on Star Satellite scripts to include disclosures
required by Dish. PX 207, Email thread between Mills
and Walter Eric Myers dated November 2-3, 2005.
Star Satellite had Guardian make 400,000 to
600,000 “press-1” Prerecorded Calls a day. Myers
Deposition, at 103-05, 129-30. Baker testified that
Guardian called published numbers “off a CD-Rom
you could buy down at Office Max.” Baker Deposition,
at 50.
Star Satellite greatly increased its sales as a
result of the Prerecorded Calls. Myers told Dish
personnel, “We’re just doing a lot of phone sales and
we’re having a lot of success.” Myers told Dish
personnel that Star Satellite’s calling lists were
scrubbed for the Registry, but did not give any details
on Star Satellite’s telemarketing. Myers relied on
Guardian to scrub the calling lists. Myers Deposition,
at 103-05, 129-30.
Dish personnel learned in the first half of 2005
that Star Satellite was using Prerecorded Calls. On
January 25, 2005, Dish received a consumer letter

121a
complaining that Star Satellite was using
Prerecorded Calls. PX 203, Letter from Dennis
Caplan, dated January 25, 2007. On February 18,
2005, Dish received another consumer complaint
about Star Satellite Prerecorded Calls. PX 204, Email
from David Hyde to DeFranco and others dated
February 18, 2005. The parties presented no evidence
that Dish took any action on either complaint.
In May 2005, Dish Outbound Manager Bangert
told Dish employee Mark Duffy that an Order Entry
Retailer in Provo, Utah, was using “automated
messaging.” Bangert asked Duffy to pass the
information on to Retail Services. PX 205, Email
thread between Bangert and Dish Retail Escalations,
dated May 25-27 2005. Bangert testified that, when
he wrote the email, he did not know that Star Satellite
was using Prerecorded Calls. Bangert’s testimony in
this regard was not credible. T 628: 2722-23
(Bangert). The email is unequivocal. Bangert knew an
Order Entry Retailer in Provo, Utah, was making
Prerecorded Calls. Star Satellite was Dish’s Order
Entry Retailer in Provo, Utah.
Duffy forwarded Bangert’s email to Jeff Medina
in Dish’s Retail Escalations Department. Medina
forwarded the email to Margot Williams in Retail
Escalations. Medina wrote in his email, “Are these
your boys again?” Williams responded to Medina,
Jeff,
I forwarded this information to Regina
Thomas for further investigation. We have
received a few complaints for other issues on

122a
this Retailer that have also been sent to her
for review and assistance.
PX 205, Email thread between Bangert and Dish
Retailer Escalations dated May 25-27 2005. Dish took
no disciplinary action against Star Satellite.
In August 2005, an individual consumer sued
Dish and Star Satellite for Star Satellite’s use of
Prerecorded Calls to sell Dish Network programming.
Dish knew of the suit on August 12, 2005. PX 208,
Letter from Dish Counsel Dana Steele to Star Satellite
dated August 12, 2005. Dish took no disciplinary
action against Star Satellite.
From July 30, 2005, to November 22, 2005, Star
Satellite made 43,100,876 completed Abandoned
Prerecorded Calls through Guardian selling Dish
Network programming. The Court found at summary
judgment that these calls violated the TSR. Opinion
445, at 102.
In October 2005, Ahmed received a complaint
from Congressman Fred Upton of Michigan about
Star Satellite calling numbers on the Registry.
Ahmed had a conference call with Star Satellite’s
principal Myers about this complaint. Ahmed was
very upset about receiving a complaint from a
Congressman. Ahmed told Myers not to violate the
Do-Not-Call Laws. Ahmed used foul language and
raised his voice at the meeting. According to Myers,
Ahmed told Myers that he would shut Star Satellite
down if he received another complaint like this. T 626:
2323-24 (Ahmed); T 622: 1818 (Mills); Myers
Deposition, at 138. Ahmed followed up with a letter to

123a
Myers. PX 212 (DTX 237), Letter dated October 26,
2005. Dish took no other disciplinary action against
Star Satellite. Myers, however, took Ahmed’s threat
seriously. Myers Deposition, at 184.
Star Satellite stopped using Guardian on
November 22, 2005. Myers Deposition, at 76. Star
Satellite stopped because Guardian’s principal Kevin
Baker received a Civil Investigative Demand from the
FTC for telemarketing call records. Myers Deposition,
at 148-49.
On January 20, 2006, Star Satellite was
terminated as Order Entry Retailer, but remained a
TVRO Retailer. T 622: 1820-21 (Mills). However, in
September 8, 2006, Dish was notified by another
Order Entry Retailer that Star Satellite was still
using Prerecorded Calls. PX 386, Email thread dated
September 8, 2006; see T 622: 1742 (Mills). Star
Satellite remained a TVRO Retailer at least through
February 24, 2014, the date of Myer’s deposition.
Myers Deposition, at 160.
4. JSR Enterprises
In 2006, Jerry Grider, Shaun “Blaze” Gazzara,
and Richard Goodale formed JSR Enterprises to sell
Dish Network programming. The name JSR came
from the initial from each man’s first name. T 622:
12877 (Goodale). Goodale had previously worked for
ten days at Dish Order Entry Retailer United
Satellite in southern California. Gazzara had also
worked at United Satellite. T 622: 1874-75 (Goodale).
United Satellite used “press 1” Prerecorded Calls. T
625: 2117 (Neylon); see PX 120, Email Thread with

124a
Indiana Attorney General’s Office dated September
23-30,
2005.
Goodale
testified
that
Dish
Representative Doug Tchang knew that United
Satellite used illegal Prerecorded Calls. T 622: 187074 (Goodale).41 Dish terminated United Satellite as
an Order Entry Retailer on August 20, 2006, for
making Prerecorded Calls. T 625:2117 (Neylon); see
PX 239, Email thread between Neylon and Steven
Keller dated September 8, 2006 regarding United
Satellite Closed Doors.
Goodale asked Tchang how he could start his own
company. Tchang referred Goodale to Shawn Portela.
Portela formerly worked for Dish. Portela operated
two Order Entry Retailers, Dish Nation and Cactus
Concepts.42 Tchang told Goodale to set up a call center
and work through one of Portela’s companies. Goodale
and his partners set up JSR and started working
through Portela’s company Dish Nation. T 622: 187076 (Goodale); PX 239, September 2006 Spreadsheet..
On August 10, 2006, Dish authorized JSR to be an
Order Entry Retailer. PX 1044, Letter from Mike
Oberbillig to Jerry Grider dated August 10, 2006.
Based on Goodale’s testimony, Tchang was either an
Account Manager or a Field Representative. Doug Tchang’s last
name is spelled “Chang” in the trial transcript. See e.g., T 622:
1875 (Goodale). The United States spelled the name “Tchang” in
its proposed Findings of Facts and Conclusions of Law. See e.g.,
United States Amended Proposed Findings of Fact (d/e 667), at
53. No witness testified about the correct spelling. The Court
adopts the United States’ spelling.
42 Goodale testified that Portela’s companies were called
Dish Nation and Cactus Satellite. T 622: 1875-76 (Goodale).
Cactus Concepts was the correct name. See e.g., PX 653, Email
thread regarding Cactus Concepts dated October 26, 2007.
41

125a
JSR’s written application stated that JSR would use
print, telemarketing, and direct mail. PX 235, JSR
Business Plan dated February 9, 2006. Goodale,
however, told Mills that JSR was going to engage in
outbound telemarketing. T 622: 1746 (Mills); PX 265,
Email from Mills to Neylon dated December 21, 2006;
T 622: 1881 (Goodale).
Mills, Oberbillig, Portela, and Tchang came to
JSR’s offices when it became an Order Entry Retailer.
Goodale testified that Mills, Oberbillig, and Tchang
all knew that JSR was going to use “press 1”
Prerecorded Calls. Goodale testified that Mills and
Oberbillig told him not to use the name of Dish
Network in the prerecorded message. T 622: 1883
(Goodale). Mills admitted that Goodale told him JSR
used outbound telemarketing. T 622: 12746 (Mills).
Once JSR became an Order Entry Retailer, JSR
purchased fifteen more autodialers. JSR had over
1,500 phone lines making prerecorded “press 1”
telemarketing calls fifteen hours a day. T 622:1882
(Goodale). By September 2006, Dish knew JSR was
using automatic dialers to produce 1,000,000
connected calls per month, and knew that JSR
“brought along an ex-employee of United Satellite
who has great experience in OE Tool program.” Dish
also knew that JSR worked “under Dish Nation’s
umbrella” before it became an Order Entry Retailer.
T 622: 1748-50 (Mills); PX 239, September 2006
Spreadsheet. JSR was making somewhere between
2,500,000 to 10,000,000 calls per month to get
1,000,000 connected calls. See T 622: 1892 (Goodale)
(Goodale estimated four out of ten calls were
answered by a live person.); T 633: 3342 (Taylor)

126a
(Dish’s expert Taylor opined that in his experience
one in ten telemarketing calls are answered).
Based on all the evidence, the Court finds that
Dish Representatives Tchang, Mills, and Oberbillig
knew that JSR was using automatic dialers to make
“press 1” prerecorded telemarketing calls. Dish knew
from the high volume of connected calls that JSR was
using automatic dialers to make outbound
telemarketing calls. Numerous Dish Order Entry
Retailers in Southern California used Prerecorded
Calls, including United Satellite, Vision Satellite, LA
Activations, Dish Nation, and Atlas Assets. T
625:2110, 2170-71 (Neylon); T 620:2110 (Musso); T
621:1693-95 and T 622:1728-29 (Mills); PX 1299,
Letter from attorney Chad Austin to Dish Senior
Corporate Counsel Dana Steele dated March 27, 2007;
PX 1298, Letter from North Dakota Assistant Attorney
General James Thomas to Echostar and Dish Nation
LLC dated June 25, 2007, with enclosed North Dakota
ex rel. Stenehjem v. Creative Concepts Group, Inc.,
N.D. Dist. Ct., South Central Judicial Dist., Civ. No.
07C1307, Assurance of Voluntary Compliance Order
entered June 21, 2007. Tchang was a Dish sales
representative in the area, and Oberbillig was the
Regional Sales Manager. Tchang was responsible for
knowing what was going on in their region. Tchang
also had an incentive to allow the practice because his
compensation was tied to the activations that these
Order Entry Retailers produced. Goodale testified
that Tchang knew what was going on at United
Satellite. Tchang told Goodale how to start his own
shop. Goodale testified that Tchang, Mills, and
Oberbillig knew JSR was making “press 1”
Prerecorded Calls. The Court finds this aspect of

127a
Goodale’s testimony to be credible. These Dish
representatives knew from the start that JSR
planned to violate the Do-Not-Call Laws by using
“press 1” Prerecorded Calls. Further, their knowledge
of JSR’s telemarketing practices was gained within
the scope of their employment with Dish. Further,
Mills and Oberbillig at least had managerial
authority for Dish when they knew and allowed JSR
to engage in illegal Prerecorded Calls. Testimony to
the contrary by Mills and Oberbillig was not credible.
JSR’s calling lists consisted of all published
residential numbers in a selected geographical region.
JSR secured copies of white pages in electronic
format. JSR used call centers in the Philippines (“offshore calling”) and an automatic dialing facility in
Texas to make “press 1” Prerecorded Calls. Goodale
at one point testified that he knew JSR was calling
numbers on the Registry. T 622: 1879-80, 1887
(Goodale). Goodale later stated that he scrubbed the
lists for numbers on the Registry, but his business
partners may not have done so. T 622:1906, 1907-08
(Goodale). The Court finds that JSR did not scrub at
least some calling lists, and so, made Registry Calls.
Goodale further knew that JSR was making Registry
Calls and that Registry Calls were illegal.
From September through December 2006, Dish
received several consumer complaints that JSR made
Prerecorded Calls and Registry Calls. Dish also
caught JSR five to seven times in stings violating DoNot-Call Laws, including Registry Calls. Each time,
the Dish Compliance Department or Legal
Department notified JSR of the complaint. T 619:
991(Werner); PX 510, Letter to Jerry Grider dated

128a
October 6, 2006; PX 247, Memorandum from Wallace
to Dish demanding payment for TCPA violations
dated October 19, 2006; PX 513 Letter dated October
31, 2006, from Origer to JSR; PX 248 Email to
Metzger dated November 15, 2006; PX 420 Musso
letter to JSR about consumer complaint, dated
December 11, 2006; PX 250 Email from Musso to
Goodale requesting information on the complaint
dated December 20, 2006; PX 420, Letter to JSR dated
December 11, 2006.
Goodale, on behalf of JSR, provided an
explanation for each complaint to Dish’s Compliance
Department or Legal Department. PX 420, Email
from Goodale to Dana Steele dated September 28,
2006; DTX 737, Letter from Goodale to Musso,
undated; DTX 750, Email from JSR to Musso dated
November 6, 2011; DTX 753, Letter from Goodale to
Musso, undated. Dish generally did not investigate
further after receiving JSR’s explanations. T 625:
2117 (Neylon); see e.g., T 620: 1388 (Musso) (JSR
explanation was plausible so Dish accepted it on face
value).
Goodale testified that he told Musso in the
Compliance Department what she wanted to hear
without regard to its accuracy. He did not consider her
to be of any importance at Dish. T 622: 1906-07
(Goodale). Goodale later said that he gave accurate
explanations to Musso. T 622: 1912-13 (Goodale).
Regardless, Tchang, Mills, and Oberbillig knew that
JSR was violating the Do-Not-Call Laws through the
use of Prerecorded Calls.

129a
Goodale’s explanations to Musso sometimes
admitted violations of the Do-Not-Call laws. Goodale
sometimes blamed an off-shore affiliate, and
sometimes admitted that JSR made an illegal call by
mistake. Musso knew that using unauthorized
affiliates violated the Retailer Agreement, and also
knew that some of Goodale’s explanations effectively
admitted Do-Not-Call Law violations. On December
21, 2006 Neylon, Mills, and Musso exchanged a series
of emails discussing JSR’s unauthorized use of offshore affiliates that were making illegal calls. Neylon
asked a series of questions:
What is his volume? Why would I not just
terminate? Where is he located? I assume he
was made aware when launched on the OE
tool that violations of the telemarketing laws
of the United States will not be tolerated????
Mills responded that JSR was producing 1,500 to
2,000 activations per month. Mills also stated that
JSR
had
stopped
off-shore
calling.
Mills
recommended against termination. PX 265, Email
thread between Mills, Neylon, and Musso dated
December 21, 2006. Musso stated that Goodale told
her that JSR stopped using the offshore calling center
and would just use people in his office. PX 255 and PX
1135, Email thread between Musso and Neylon dated
December 21, 2006; see PX 253, email between From
Mills to Musso dated December 20, 2006 (Goodale told
Musso that JSR was deactivating off-shore affiliates’
logins to Order Entry Tool). Dish took no action
against JSR in December 2006.

130a
In January 2007, the Louisiana Attorney
General’s office contacted Dish about repeated
telemarketing calls to an individual who had already
asked to be put on the telemarketer’s Internal DoNot-Call List. The individual reported that the
telemarketer hung up when she asked to be put an
Internal Do-Not-Call List and called back repeatedly.
Musso researched the complaint and determined that
JSR had made the calls. Musso provided JSR contact
information to the Louisiana Attorney General’s
office. T 620:1404 (Musso). See PX 1113, Transmittal
email from Musso to JSR re Louisiana AG complaint
dated January 17, 2007.
On January 17, 2007, Musso sent letter to JSR
with list of five consumer complaints for Do-Not-Call
Law violation. PX 420, Letter dated January 17, 2007,
at exhibit page 015. On January 22, 2007, Goodale
responded. Goodale said two of the five were not on
the Registry. Goodale said two of the other three calls
were from affiliates and the fifth was a mistake. PX
256 letter from Goodale to Musso dated January 22,
2007. Musso thought there was reason to be cautious.
T 620: 1406-08 (Musso); see DTX 756, Copy of PX 256
letter from Goodale to Musso with Musso’s typed
comments. Dish took no action against JSR in
January 2007.
February 8, 2007, Musso sent an email to her
superiors which included a copy of a Missouri
Attorney General press release. The press release
announced that on December 7, 2006, a Missouri
court issued a temporary restraining order (TRO)
against JSR and other Dish Retailers. Upon receiving
the email, Neylon directed that JSR be terminated.

131a
Neylon also wanted to publicize the termination to
other Retailers to put them on notice. T 625: 2096-97
(Neylon); T 619: 1129 (Werner); PX 1083, Email
thread between Musso, Neylon, and Robb Origer dated
February 8, 2007.
JSR was terminated as an Order Entry Retailer
on February 14, 2007. DTX 139, Retailer Audit
Notification & Summary dated February 14, 2007.
The Retailer Audit Notification & Summary stated
that JSR was terminated due to TCPA violations.
Dish’s press release stated that Dish terminated JSR
for Do-Not-Call violations. DTX 674, Press release
dated February 14, 2007.43
After February 14, 2007, JSR continued to sell
Dish Network programming through another Order
Entry Retailer. Goodale did not identify the Order
Entry Retailer that JSR worked through at this time.
JSR quit operating in March 2007 when it stopped
getting paid, either by Dish or the Order Entry
Retailer through whom JSR worked. T 622: 1894
(Goodale).
From August 2006 through March 2007, JSR
made 1,186,924 Internal List Calls to persons who
were on Internal Do-Not-Call Lists of either Dish or a
Telemarketing Vendor. Prior to August 10, 2006, JSR
placed some of these calls as an affiliate of Dish
Nation. PX 28, Taylor November 6, 2013 Report, at 14,
Table 6b; PX 239, September 2006 Spreadsheet.
The press release also stated that United Satellite was
terminated for Do-Not-Call Law violations. That termination
had occurred in August 2006.
43

132a
From July to December 2006, JSR made
2,349,031 Registry Calls that the Court found
violated TSR at summary judgment. Opinion 445, at
171, 232, 75 F.Supp.3d at 1011, 1032. Of these
Registry Calls, JSR made:
369,384 calls to telephone numbers with area
codes associated with Plaintiff Illinois
(Illinois area codes);
129,004 calls to telephone numbers with area
codes associated with Plaintiff Ohio (Ohio
area codes);
18,240 calls to telephone numbers with area
codes associated with Plaintiff North Carolina
(North Carolina area codes); and
473,102 calls to telephone numbers with area
codes associated with Plaintiff California
(California area codes).
JSR made some of these calls through Dish Nation
prior to becoming an Order Entry Retailer on August
10, 2006. PX 28, Taylor November 6, 2013 Report, at
14 Table 6a; T 622: 1894 (Goodale).
From January to March 2007, JSR made
3,315,242 Registry Calls. Of these calls, JSR made:
557,336 calls to Illinois area codes;
338,352 calls to Ohio area codes;
4,936 calls to North Carolina area codes; and

133a
50 calls to California area codes.
JSR made at least some of these calls after February
14, 2007, through an unidentified Order Entry
Retailer. PX 28, Taylor November 6, 2013 Report, at
14 Table 6a; T 622: 1894 (Goodale).
5. American Satellite
In September 2006, American Satellite made a
Prerecorded Call to consumer Robert Parker at his
residence on his home telephone. Parker answered
the call while participating in a Dish sting operation.
The sting identified American Satellite as the
telemarketer making the call. The Court found at
summary judgment that when Parker answered the
call, the call became an Abandoned Prerecorded Call
in violation of the TSR. Opinion 445, at 107, 194, 233,
75 F.Supp.3d at 989, 1019, 1033.
In February 2007, Dish fined American Satellite
$10,000 for Do-Not-Call Law violations. T 620: 140911 (Musso); DTX 825, Email from Musso to Neylon,
Origer, Werner, and Mills Dated February 9, 2007.
American Satellite blamed the violations on affiliates.
American Satellite promised to terminate all
affiliates and handle all telemarketing in-house. DTX
825, Email from Tim Pyle to Musso dated February
20, 2007.
In 2008, Manuel Castillo was a Dish Field
Representative who visited American Satellite on
behalf of Dish. At that time, Castillo left Dish to work
for American Satellite. Castillo worked at American
Satellite for less than a year. Castillo discovered that

134a
American Satellite was using a Philippine call center
to make “press 1” Prerecorded Calls. T 620: 1328-29
(Castillo).
Castillo discovered that American Satellite also
defrauded Dish in various ways. Dish required a
consumer to have a credit card in order to qualify for
Dish Network programming. American Satellite
circumvented this requirement to make sales to
individuals who did not have credit cards. American
Satellite put $1.00 on prepaid debit cards. If a
customer did not have a credit card, American
Satellite sales personnel uploaded the numbers on
one of the debit cards onto the Order Entry Tool,
misrepresenting the numbers as the credit card
number of a new customer. T 602: 1331 (Castillo).
Sometime in late 2008, American Satellite fired
Castillo. Within a day or two of being fired, Castillo
told Musso about American Satellite’s fraudulent and
illegal practices. Musso referred Castillo to a Dish
internal auditor Bert Eichhorn. Castillo told Eichhorn
that American Satellite was making Prerecorded
Calls and making a massive number of calls to
numbers on the Registry. Eichhorn, however, was not
interested in Castillo’s information about Do-Not-Call
Law violations. He was interested in evidence that
American Satellite was defrauding Dish. T 620: 133442, 1357 (Castillo); PX 222, Email thread between
Castillo and Eichhorn dated January 7, 2009. Castillo
provided Dish with this information because he
wanted to go back to work for Dish. Dish did not
rehire Castillo, and eventually Castillo stopped
providing information to Dish. T 620:1345-50
(Castillo).

135a
Castillo testified that when he visited American
Satellite as a Dish Field Representative he did not see
anything to indicate that American Satellite was
engaged in illegal telemarketing. T 620: 1332-34
(Castillo). Once he went to work for American
Satellite, he discovered that American Satellite hid its
activities from Dish representatives. As he put it,
American Satellite put on a show for Dish
representatives. T 620: 1334 (Castillo). Castillo
testified that American Satellite went so far as to send
Dish fake recorded sales calls for the Quality
Assurance program. T 620: 1328-36, 1360-61
(Castillo).
6. Dish Nation
Dish Nation was an Order Entry Retailer
operated by a former Dish employee Shawn Portela.
The Plaintiffs take the position that Dish caused both
JSR and Dish Nation to make all of the calls reflected
in JSR’s telephone records. However, the evidence
does not support this position. From July 2006
through August 10, 2006, JSR ran its telemarketing
calls through Dish Nation. Thereafter, JSR operated
as a separate Order Entry Retailer until Dish
terminated it on February 14, 2007. After February
14, 2007, JSR continued to operate through another
Order Entry Retailer until sometime in March 2007.
JSR stopped because it was not getting paid.
The evidence also shows that Dish Nation made
Abandoned Prerecorded Calls in 2007. PX 1299,
Letter from attorney Chad Austin to Dish Senior
Corporate Counsel Dana Steele dated March 27, 2007;
PX 1298, Letter from North Dakota Assistant Attorney

136a
General James Thomas to Echostar and Dish Nation
LLC dated June 25, 2007, with enclosed North Dakota
ex rel. Stenehjem v. Creative Concepts Group, Inc.,
N.D. Dist. Ct., South Central Judicial Dist., Civ. No.
07C1307, Assurance of Voluntary Compliance Order
entered June 21, 2007.
Plaintiffs, however, have not presented any
evidence of that JSR made calls after February 14,
2007 through Dish Nation. The evidence only
supports a finding that JSR made calls through Dish
Nation from July 2006 until August 10, 2006. The
evidence does not show that Dish Nation had any
connection with the calls that JSR made after it
became an Order Entry Retailer on August 10, 2006.
The evidence supports a finding that Dish allowed
Dish Nation to use third party affiliates in 2006.
Tchang knew that Dish Nation used affiliates. He told
Goodale to operate JSR through one of Portela’s Order
Entry Retailers. The September 2006 Spreadsheet
listed JSR and a company called Direct Promotions as
Dish Nation affiliates. The September 2006
Spreadsheet said JSR worked under Dish “Nation’s
umbrella,” and Direct Promotions was part of “Dish
Nation’s affiliate program.” PX 239, September 2006
Spreadsheet. Dish had not formally approved JSR as
a Dish Nation affiliate, yet the Dish Sales
Department knew that JSR was a third-party affiliate
of Dish Nation and allowed the practice. In addition,
Musso told Neylon on December 21, 2006, that Dish
Nation was using an off-shore call center in the
Philippines. PX 1135, Email thread between Musso
and Neylon dated December 21, 2006.

137a
Telemarketing Calling Records
The Plaintiffs presented the following telephone
call records: (1) calls made by Dish from October 2003
through August 2007 (2003-2007 Calling Records),
and from September 2007 through March 10, 2010
(2007-2010 Calling Records); (2) calls made by
Guardian on behalf of Star Satellite and Dish TV
Now; (3) calls made by JSR through JSR’ automatic
dialing operation in Texas, and (4) calls made by
Satellite Systems. See PX 745-60, 772-74, 776-77,
779-89, 791-805, 807-14, 817, 820-21, 824, 826, 828,
831-85, 890-902, 914-47, Calling Records.44 The Court
entered partial summary judgment in favor of the
Plaintiff United States finding liability for violations
of the TSR on some calls listed in most of these calling
records. The Court further made findings at summary
judgment regarding the Plaintiff States’ claims, but
did not enter judgment on those claims. Opinion 445,
at 231-38. The Plaintiffs did not seek summary
judgment on any of the calls in the 2003-2007 Calling
Records. The Plaintiffs now seek to prove Dish’s
liability for the 2003-2007 Calling Records and for
additional calls in the other records. The Court makes
the following findings of fact regarding these call
records.
A. 2003-2007 Calling Records
In July 2005, the FTC sent Dish a Civil
Investigative Demand (FTC Demand). The FTC
Some of the calls on Dish’s calling records could have been
made by Telemarketing Vendor EPLDT because it made calls
through Dish’s automatic dialer.
44

138a
Demand sought information regarding possible
violations of the TSR and the FTC Act. In 2005, Dish
was still known as EchoStar. The FTC Demand asked
for the following call records:
1. Magnetically
recorded
documents
sufficient to show all telemarketing calls to
consumers made by EchoStar relating to
the marketing of Dish Network. These
documents should include the telephone
numbers, and the dates of the calls;
PX 1131, FTC Demand dated July 21, 2005, at 6.
In response to the FTC Demand, Dish provided
the 2003-2007 Calling Records, consisting of records
of calls made from October 2003 through September
2005, December 2005 through December 2006, and
January 2007 through August 2007. The cover letter
accompanying the production for the October 2003
through September 2005 records stated, in part,
Per our prior conversation, please find
enclosed the following in response to the CID
.…
1. 1 DVD with listing of all outbound
telemarketing calls made on behalf of
EchoStar From October 17, 2003 through
December 31,2004* (CONFIDENTIAL);
.…
*A second DVD with the listing of calls from
January 1, 2005 to the date of the CID request

139a
was damaged during copying and will be
forwarded to you upon its completion.
PX 317, Letter dated September 22, 2005, from Dana
E. Steele, Corporate Counsel, to Russell Deitch, Esq.,
FTC Counsel (emphasis in the original).45
The Court finds that the transmittal letter from
Dish in-house counsel Steele constitutes an admission
by Dish that the 2003-2007 calling records produced
were records of Dish’s outbound telemarketing calls.
Steele stated in her letter that the records provided
with her letter were records of telemarketing calls.
Steele was an agent of Dish at the time she made the
statement, and the statement was within the scope of
her agency. The transmittal letter, therefore,
constitutes a non-hearsay admission of Dish that the
2003-2007 Calling Records were records of outbound
telemarketing calls. Fed. R. Evid. 801(d)(2)(D).

Dish’s Vice President and Associate General Counsel
Jeffrey Blum wrote the other two transmittal letters. Blum
stated in the second transmittal letter, “[E]nclosed find nine (9)
CD-Rom’s (sic) containing EchoStar Call Data” from December,
2005 through December, 2006.” Blum stated in the third
transmittal letter, “[E]nclosed find six (6) CDRom’s (sic)
containing EchoStar Call Data from January, 2007 through
August, 2007.” Plaintiffs’ Third Motion to Compel Discover
Responses (d/e 143, Exhibits 22 and 23, Letters from Jeffrey
Blum to Russell Deitch dated August 1, 2007, and September 10,
2007. Attorney Blum’s letters do not appear to be admitted as
evidence at trial, and no party cited them. The Court does not
consider them for purposes of this Findings of Fact and
Conclusions of Law. Blum’s letters would not change the Court’s
findings or conclusions even if they were considered.
45

140a
Furthermore, the FTC Demand asked for records
of “telemarketing calls made by EchoStar relating to
the marketing of Dish Network.” Dish responded by
producing the 2003-2007 Calling Records. Dish’s
response implies that the records produced were
records of telemarketing calls made by Dish (then
known as EchoStar) “relating to the marketing of
Dish Network.” PX 1131, FTC Demand, at 6.
Dish argues that the 2003-2007 Calling Records
contained records of non-telemarketing calls. Dish
relies on employee Bangert’s testimony that he
doubted that the 2003-2007 Calling Records were all
records of telemarketing calls. T 628: 2715-18
(Bangert). Dish also relies on the evidence that the
2007-2010 Calling Records produced in discovery in
this case included both telemarketing and nontelemarketing calls. The 2007-2010 Calling Records
are discussed in detail below.
Bangert’s speculation regarding the make-up of
the 2003-2007 Calling Records has no probative
value. Bangert had no personal knowledge of the
content of the 2003-2007 Calling Records.
Additionally, Bangert did not participate in preparing
the response to the FTC Demand. T 628: 2715-18,
2792-94 (Bangert).
The existence of non-telemarketing calls in the
2007-2010 Calling Records may tend to show the
2003-2007 Calling Records may have included nontelemarketing calls. However, the probative value is
slight. The two sets of records were produced at
different times in response to different document
demands. The 2007-2010 Calling Records also

141a
included campaign codes. The campaign codes
indicated the purpose of the calls made during the
particular campaign, such as telemarketing,
collection, payment notice, scheduling, etc. See PX 26,
Taylor September 20, 2012 Report, at 6. The 20032007 Calling Records did not contain campaign codes.
See T 613: 219 (Yoeli); see e.g., PX 859 through 861,
July 2006 Dish Calling Record. The 2003-2007
Calling Records, therefore, do not indicate that the
records included multiple types of calls.
Dish’s expert Taylor stated that he was told by
Dish personnel that the 2003-2007 Calling Records
included both inbound and outbound telemarketing
call records. PX 28, Taylor November 6, 2013 Report,
at 7-9. Taylor’s recitation of this information is
inadmissible hearsay. Taylor may use hearsay as a
basis of his opinions under the correct circumstances,
but Dish must present competent evidence to prove
the truth of the assertion. Fed. R. Evid. 703, 802. Dish
has not done so.
In light of the fact that the FTC Demand asked
for outbound telemarketing records, Dish attorney
Steele stated that the records she sent were records of
telemarketing calls, and only minimal competent
admissible evidence exists to the contrary, the Court
finds that it is more likely than not that the 20032007 Calling Records were records of outbound
telemarketing calls made by Dish or its
Telemarketing Vendors.
The FTC sent the 2003-2007 Calling Records to
InterImage, Inc. (InterImage), for processing.
InterImage compared each calling record on 2003-

142a
2007 Calling Records that had a valid telephone
number with the telephone numbers that had been on
the Registry for at least 31 days at the date of the call.
T 615: 497-500 (L. Steele).46 InterImage referred to
each match of a telephone number on the 2003-2007
Calling Records with a number on the Registry as a
“Hit” or “Registry Hit.” T 615: 497 (L. Steele).
InterImage’s comparison of the 2003-2007 Calling
Records with the Registry showed the following:
Total Calls
In Record

Hits

October 17, 2003 –
March 31, 2004

30,328,309

4,770,433

January 3 – May 31,
2005

61,295,734

12,533,684

June 1 – 30, 2005

18,140,971

2,784,629

July 1 – 31, 2005

18,398,923

2,575,019

August 1 – September
18, 2005

30,328,309

4,000,815

December 1, 2005 –
January 31, 2006

31,420,403

6,916,143

February 1 – 28, 2006

14,477,981

3,375,472

The trial witness Leslie Steele was CEO of InterImage.
Dana Steele was a Corporate Counsel for Dish.
46

143a
March 1 – April 30,
2006

32,178,915

4,641,828

May 1 – June 30, 2006

31,368,431

7,586,596

July 1 – August 15,
2006

20,836,297

5,080,115

August 16 – September 20,238,913
30, 2006

4,710,270

October 1 – 31, 2006

18,389,496

3,624,432

November 1– 30, 2006

19,597,026

3,712,816

December 1– 30, 2006

17,462,891

3,002,123

January 2 – February
28, 2007

24,388,302

2,994,525

March 1 – April 30,
2007

26,170,553

4,046,178

May 1 – 31, 2007

15,968,120

3,389,113

June 1 – 30, 2007

18,669,378

4,938,258

July 1 – 31, 2007

17,823,512

4,627,426

August 1 – 31, 2007

20,452,928

5,494,133

144a
Totals

501,513,302

94,804,008

T 615: 501-16 (L. Steele); PX 1417, Summary Chart of
InterImage Results. InterImage did not perform any
further analysis of the 94,804,008 Registry Hits.
The InterImage Hits files (Hits Files) from the
2003-2007 Calling Records included at least some
duplicate entries in which the same call was included
two or more times. See T 615: 542 (L. Steele); PX 772,
June 2005 Hits File. The June 2005 Hits File
contained both the dates and times of the calls. The
June 2005 Hits File showed duplicate entries of the
same call on the same date and time.
Most of the InterImage Hits Files from the 20032007 Calling Records only identified the dates of calls,
but not the times of calls. See e.g., PX 792, February
2006 Hits Files; see also T 613:225-26, 264-65 (Yoeli).
As a result, the Hits Files frequently listed multiple
calls to the same number on the same date. The 20032007 Calling Records produced by Dish contained
both the dates and the times of the calls. See e.g., PX
859 through 861, July 2006 Dish Calling Record.
The parties’ experts Dr. Yoeli and John Taylor
analyzed the Dish calling records for the period.
Plaintiffs’ expert Dr. Yoeli analyzed the InterImage
Hits Files from the 2003-2007 Calling Records. Again,
most of the Hits Files provided only the dates of the
calls, but not the specific times of the calls. Dr. Yoeli
decided to count all calls to the same number on the
same date as one call. T 613:225-26, 264-65 (Yoeli).
Dr. Yoeli found that 3,022,355 such calls were both

145a
Registry Calls and Internal List Calls made to
persons whose telephone numbers were on both the
Registry and Dish’s Internal Do-Not-Call Lists at the
times of the call. PX 38, Appendix C, Yoeli December
14, 2012 Report, at PX38-112. Dr. Yoeli did not opine
on the number of Registry Calls alone even if the
numbers were not on an Internal Do-Not-Call List.
Dr. Yoeli did not make any comparison of the Hits
Files with the Dish 2003-2007 Calling Records to
attempt to identify the specific times of the calls on
the Hits Files.
The Plaintiffs did not rely on Dr. Yoeli’s opinions
with respect to the 2003-2007 Calling Records to
prove their claims at trial. See State Plaintiffs’
Additional Post-Trial Proposed Findings of Fact, at 89 ¶¶ 73-80 (Plaintiff States relying on Taylor); United
States Amended Proposed Findings of Fact (d/e 667),
at 5-7 ¶ 16 (Plaintiff United States relying on Leslie
Steele’s InterImage analysis). Dish inquired on crossexamination of Dr. Yoeli regarding his opinions of the
United States’ claims based on the 2003-2007 Calling
Records and cited to his opinions in Dish’s proposed
Findings of Fact. See T 614: 376-77 (Yoeli); Dish
Proposed Findings of Fact (d/e 665), at 76 ¶ 276.
Dish’s counsel provided its expert Taylor with
581,401,271 calling records from October 17, 2003, to
August 31, 2007. Dish provided 501,513,302 calling
records to the FTC from this period pursuant to the
FTC Demand, which made up the 2003-2007 Calling
Records. Taylor removed duplicate entries (“deduplicated”) from the records provided to him. Taylor
also removed records with invalid telephone numbers.
Taylor eliminated 378,147 calls because the

146a
disposition codes indicated calls did not go through
due to dialer errors. Taylor eliminated 231,966 calls
because he was told that the disposition codes
indicated that the calls were inbound telemarketing
calls. Taylor eliminated 30,017 calls because the
disposition codes indicated that the calls were nontelemarketing calls such as calls for collections or
scheduling service. PX 28, Taylor November 6, 2013
Report, at 7-9.
Taylor opined that the remaining 3,220,602
remaining calls were made to persons whose
telephone numbers were on the Registry more than
31 days at the time of the call. Taylor opined that of
that number, the following calls were made to
telephone numbers with area codes associated with
the Plaintiff States:


327,986 calls to California area codes, of
which 93,986 were made in 2006 and
172,930 were made in 2007, for a total of
266,514 in 2006 and 2007;



141,620 calls to Illinois area codes, of
which 39,459 were made in 2006 and
73,310 were made in 2007, for a total of
112,769 in 2006 and 2007;



101,500 calls to North Carolina area
codes, of which 25,169 were made in 2006
and 59,924 were made in 2007, for a total
of 85,093 in 2006 and 2007; and



121,853 calls to Ohio area codes, of which
32,223 were made in 2006 and 65,984

147a
were made in 2007, for a total of 98,207
calls in 2006 and 2007.
PX 28, Taylor November 6, 2013 Report, at 9. The
Court finds Taylor analysis of 2003-2007 calls to be
probative of the number of Registry calls Dish made
from October 2003 thourgh August 2007.
No party presented any evidence regarding
whether Dish had either a Transaction-based or
Inquiry-based Established Business Relationship
with any of the recipients of any of the calls in either
the 2003-2007 Calling Records produced to the FTC
or the 581,401,271 calling records provided to Taylor.
B. 2007-2010 Calling Records
1. Calls to Numbers on the Registry
Dish produced the 2007-2010 Calling Records in
discovery. The 2007-2010 Calling Records included
campaign codes with each calling record. The
campaign codes indicated the type of calling
campaign. Dish representatives and the Plaintiffs’
expert Dr. Yoeli worked together to identify the
telemarketing campaign codes in the 2007-2010
Calling Records. Dish also provided Dr. Yoeli with the
last payment date, if any, associated with each calling
record, and the activation date, if any, associated with
each calling record. See PX 1418, Yoeli July 19, 2012
Report, at 3-4.
Dr. Yoeli analyzed the 2007-2010 Calling Records
to identify the Registry Calls. Dr. Yoeli received the
records in two sets, one with 357,058,136 call records

148a
and a second with 76,026,757 call records. Dr. Yoeli
combined the two sets and removed any duplicates
that were on both lists. Dr. Yoeli also removed any
records with invalid telephone numbers. Dr. Yoeli
then identified the call records that were on calling
campaigns with telemarketing campaign codes. This
process resulted in 134,295,177 call records with
telemarketing calling campaign codes. Dr. Yoeli’s
report stated that he included campaigns with
telemarketing or unknown campaign codes. T 613:
163-65 (Yoeli); PX 1418, Yoeli July 19, 2012 Report, at
8; see T 614: 330-31, 334-35 (Yoeli). Dr. Yoeli testified
at trial that the report was in error. He only included
records on campaigns with telemarketing campaign
codes. T 614: 442-43, 472 (Yoeli). The Court finds Dr.
Yoeli’s testimony on this point to be credible.
Dr. Yoeli sent the 134,295,177 call records to
InterImage to find the total number of Registry Hits.
Dr. Yoeli removed the duplicate records in the
Registry Hits provided by InterImage. The result was
32.4 million Hits. Dr. Yoeli removed calls made to
telephone numbers associated with accounts on which
payments were made within 558 days immediately
preceding the dates of the calls. The 558 day period is
18 times 31 days, representing the 18 month period in
which a seller has a Transaction-based Established
Business Relationship with a customer. TSR, 16
C.F.R. § 310.2(o); FCC Rule, 47 C.F.R. § 64.1200(f)(5).
Dr. Yoeli also removed calls with no payment records,
but with activation dates within 93 days immediately
preceding the dates of the calls. The 93 days is three
times 31 days, representing the three-month period in
which a seller has an Inquiry-based Established
Business Relationship with a person who made an

149a
inquiry about the seller’s goods and services. Id. Dr.
Yoeli opined as a result that the 2007-2010 Calling
Records contained 3,342,415 telemarketing Registry
Calls to persons with whom Dish did not have either
Transaction-based or Inquiry-based Established
Business Relationships (Yoeli July 2012 Call Set). PX
1418, July 19, 2012 Yoeli Report, at 7-10; T 613: 16671 (Yoeli).
Dish representatives told Dr. Yoeli to use the
activation date as an inquiry date. T 614: 330-31, 33435 (Yoeli). Montano denies this. T 269: 3052-53
(Montano). The Court credits Dr. Yoeli’s testimony on
this point. Montano’s testimony has not been credible
on Dish’s use of inquiry dates. Montano testified that
Dish put inquiry dates in the last payment field in its
new procedures adopted in 2010 for scrubbing for
Established Business Relationship. T 629: 3015-16
(Montano). This testimony was not credible for the
reasons discussed above. Based on the demeanor of
the two witnesses and the fact that Montano provided
testimony on a related matter that was not credible,
the Court credits Dr. Yoeli’s testimony in this regard.
Dish’s expert John Taylor prepared a rebuttal
report to Dr. Yoeli’s analysis. PX 26, Revised Expert
Report of John Taylor, dated September 20, 2012
(Taylor September 12, 2012 Report).47 Taylor
examined the results of Dr. Yoeli’s analysis. Taylor
opined that certain calls did not violate the TSR or the

Taylor is employed by CompliancePoint, a wholly owned
subsidiary of PossibleNOW.
47

150a
FCC Rule. Taylor “eliminated” or subtracted those
calls from the total violations found by Dr. Yoeli.
Taylor first looked at disposition codes for calls.
Taylor opined that certain disposition codes indicated
that calls did not violate the Do-Not-Call Laws:


309,931 calls with disposition codes that
indicated that the calls did not go through
to ring the recipients’ phones (such as
busy, no dial tone, etc.) (referred to by
Taylor as dialer errors);



42,716 calls with disposition codes that
indicated that the recipients were
businesses or that the call was made for
non-telemarketing purposes, such as
payment reminders; and



12,561 calls with disposition codes of
wrong number or no English, indicating
that the call recipients did not speak
English.

PX 26, Taylor September 20, 2012 Report, at 2-8.
Taylor eliminated these types of calls on the
instructions of Dish’s attorneys. T 633: 3292 (Taylor).
Taylor also eliminated 62,679 calls in which the
campaign code indicated that the calls were nontelemarketing calls, such as scheduling or confirming
work orders. PX 26, Taylor September 20, 2012
Report, at 2-8.
Taylor then eliminated 1,265,359 calls in which
the campaign codes indicated that the calls were

151a
made to current customers. Taylor stated that these
calling records were associated with valid Dish
account numbers and did not have disconnect dates.
Taylor opined that Dish had a Transaction-based
Established Business Relationship with the call
recipients. Taylor did not use the last payment data
that Dish provided to Dr. Yoeli because Taylor
reviewed the data and found it to be unreliable.
Taylor stated that campaign codes were not the
preferred way to calculate Transaction-based
Established Business Relationships, but that was all
he had. T 633: 3297-98 (Taylor); PX 26, Taylor
September 20, 2012 Report, at 2-8.
Taylor eliminated 873,551 calls on Lead Tracking
Systems calling campaigns. Taylor was informed that
the Lead Tracking System contained telephone
numbers of people who inquired of information
regarding Dish Network programming and that Dish
placed these calls within a day or two of each inquiry.
Dish did not provide specific dates of inquiries to
Taylor. T 633: 3300 (Taylor). Taylor opined that Dish
had an Inquiry-based Established Business
Relationship with the recipients of these calls. T 633:
3302-03; PX 26, Taylor September 20, 2012 Report, at
2-8.
Taylor then eliminated 67 calls by applying the
558 day limit to calls with activation dates, but no
payment date. Taylor opined that an activation was a
transaction between Dish and a customer, and so,
Dish had a Transaction-based Established Business
Relationship with these customers for 18 months. PX
26, Taylor September 20, 2012 Report, at 2-8.

152a
Taylor then eliminated 10,029 intrastate calls.
Taylor testified that he eliminated these calls based
on instructions from Dish’s counsel. T 633:3292
(Taylor).
Taylor opined that he could not eliminate 765,531
calls found by Dr. Yoeli to be Registry Calls that Dish
did not have either Transaction-based or Inquirybased Established Business Relationships with the
intended call recipients. PX 26, Taylor September 20,
2012 Report, at 2-8.
On December 14, 2012, Dr. Yoeli prepared a
revised report. PX 38, Appendix C, Revised Rebuttal
Report, dated December 14, 2012 (Yoeli December 14,
2012 Report), at 101-116. Dr. Yoeli had mistakenly
failed to include a significant number of call records
in his first analysis. He incorrectly believed that one
of discs provided in the production of the 2007-2010
Calling Records was a duplicate. Dr. Yoeli performed
his same analysis with the additional data. Dr. Yoeli
also revised his method of determining whether Dish
had an Established Business Relationship with a call
recipient. Dr. Yoeli applied the 558 day period if the
telephone number had an activation date and a
payment date even if the activation date was after the
payment date. Dr. Yoeli found that Dish made
18,039,631 Registry Calls to persons with whom: (1)
Dish did not have any payment date or activation date
information; or (2) the call was more than (a) 558 days
after the latter of the last payment date or activation
date associated with the numbers, or (b) more than 93
days after the activation date in those cases in which
Dish had an activation date, but no payment date. PX
38, at 105, Yoeli December 14, 2012 Report.

153a
Taylor again prepared a response to Dr. Yoeli’s
revised report. PX 16, Expert Report of John T.
Taylor, dated October 14, 2013 (Taylor October 14,
2013 Report). This time, Taylor did not critique Dr.
Yoeli’s results. Rather, Taylor performed his own
separate analysis of the Dish’s calling records and
Telemarketing Vendor eCreek’s calling records for the
years 2007-2010. Taylor concluded that Dish made
501,650 Registry Calls for which he had no basis to
believe that the calls were permitted under the DoNot-Call Laws. PX 16, Taylor October 14, 2013
Report, at 8. The Court discusses Taylor’s analysis in
this report in detail below.
The United States moved for partial summary
judgment on the 501,650 calls remaining at the end of
Taylor’s October 14, 2013 analysis. The United States
also moved for partial summary judgment on the
following calls that Taylor eliminated from Dr. Yoeli’s
finding of 3,342,415 Registry calls in the Yoeli July
2012 Call Set:


873,551 calls Taylor excluded as calls on
Lead
Tracking
Systems
calling
campaigns;



309,931 calls Taylor excluded based on
disposition codes that showed that the
calls were not completed;



12,552 calls to wrong numbers or
individuals who did not speak English;
and



10,029 intrastate calls.

154a
Plaintiffs’ Motion for Summary Judgment (d/e 341),
at 88-113.
The Court entered partial summary judgment on
all these calls. The Court explained that the TSR
prohibited initiating telemarketing calls; therefore,
dispositions codes showing wrong numbers, no
English, or the failure of a phone to ring are not
relevant. The violations occurred when the calls were
initiated. The Court also explained that the TSR
covered intrastate telemarketing calls. The Court also
found that Dish failed to present evidence to show
that the Lead Tracking System leads were in fact
inquiry leads and that the calls were placed within
three months of the consumers’ inquiries. The Court
entered partial summary judgment on 1,707,713 calls
made by Dish or its Telemarketing Vendors. See
Opinion 445, at 158-70, 231-32.
The portions of the 1,707,713 calls made to
telephone numbers with area codes associated with
the Plaintiff States (Plaintiff State area codes) are as
follows:


501,650 Calls from Taylor’s Analysis:
o

53,617 calls made to California area
codes, of which 42,019 were made
more than 90 days after the numbers
were registered on the Registry;

o

24,096 calls made to Illinois area
codes;

155a
o

1,375 calls made to North Carolina
area codes; and

o

23,853 calls made to Ohio area codes.

T 633: 3323-24 (Taylor); PX 28, Taylor November 6,
2013 Report, at 10.


873,551 Lead Tracking System Calls:
o

126,150 calls made to California area
codes;

o

44,191 calls made to Illinois area
codes;

o

39,413 calls made to North Carolina
area codes; and

o

40,401 calls made to Ohio area codes.

T 613: 209 (Yoeli).


309,931 calls that were not completed:
o

34,997 calls made to California area
codes, of which 33,970 were made
more than 93 days after the numbers
were registered on the Registry;

o

15,228 calls made to Illinois area
codes;

o

11,718 calls made to North Carolina
area codes; and

o

13,294 calls made to Ohio area codes.

156a
T 613: 209, 211 (Yoeli).


12,552 calls made to wrong numbers:
o

2,103 calls made to California area
codes of which 1,955 were made more
than 93 days after the numbers were
registered on the Registry;

o

470 calls made to Illinois area codes;

o

455 calls made to North Carolina area
codes; and

o

443 calls made to Ohio area codes.

T 613: 209-12 (Yoeli).


Totals of Breakdowns of Summary
Judgment Calls by Plaintiff States’ Area
Codes:
o

216,867 summary judgment Registry
Calls made to California area codes;

o

83,895 summary judgment Registry
Calls made to Illinois area codes;

o

52,961 summary judgment Registry
Calls made to North Carolina area
codes; and

o

77,991 summary judgment Registry
Calls made to Ohio area codes.

157a
T 613: 209 (Yoeli). The Plaintiff States did not present
evidence identifying intrastate calls made to numbers
with area codes associated with them.
The parties stipulated at trial that the United
States is seeking liability for a maximum of 1,634,702
additional Registry Calls from the 3,342,415 calls in
the Yoeli July 2012 Call Set. The parties calculated
the stipulated maximum of 1,634,702 calls by
subtracting the 1,707,713 calls which the Court found
to be TSR violations at summary judgment from the
3,342,415 calls in the Yoeli July 2012 Call Set. T 614:
426-30 (Yoeli) (attorneys Runkle and Echtman
affirming the stipulation). The Plaintiff States and
Dish stipulated to a proportional reduction in the
maximum number of calls that the Plaintiff States
were seeking liability from Yoeli July 2012 Call Set
for illegal Registry Calls beyond those on which the
Court granted the United States partial summary
judgment. T 614: 432 (Yoeli) (attorneys Ohta and
Echtman affirming the stipulation).
The United States originally sought to establish
liability for 2,864,896 additional Registry Calls from
the Yoeli July 2012 Call Set. T 614: 313, 425-26 (Yoeli)
(attorney Runkle speaking). The United States’
stipulated maximum of 1,634,702 calls is 57% of the
2,864,896 additional calls in the Yoeli July 2012 Call
Set for which the United States was seeking liability.
Pursuant to the stipulation of the parties, the
maximum liability that the Plaintiff States are
seeking for Registry Calls from the Yoeli July 2012
Calls Set beyond those on which the Court granted
the United States partial summary judgment will be

158a
proportionally reduced to 57% of the total amount
sought.
Taylor testified at trial that all but 167,848 of the
United States’ stipulated maximum of 1,634,702 calls
were either not telemarketing calls or were
telemarketing calls to persons with whom Dish had a
Transaction-based
Established
Business
Relationship at the time of the call. Taylor testified
that Dr. Yoeli erred in using an activation date as a
date that a person inquired about Dish Network
programming. Taylor opined that an activation date
should be considered a customer transaction with
Dish. He opined that the relevant time period in
which Dish had a Transaction-based Established
Business Relationship with such a customer was 18
months, not three months. Taylor opined that Dr.
Yoeli erroneously included 96,100 calls in his counts
due to this error. The United States conceded that the
96,100 calls should not be included as illegal
telemarketing Registry Calls. T 633: 3281 (Taylor); T
633: 3320 (Taylor) (Attorney Runkle conceding the
issue).
Taylor also opined at trial that the 1,265,359 calls
to individuals on calling campaigns directed at
current customers were calls to persons with
Transaction-based
Established
Business
Relationships with Dish. Taylor relied on the calling
campaign name or code to identify calls made to
current customers. Taylor stated that he was told that
the intended recipients of these calls had valid Dish
account numbers and did not have disconnect dates
with Dish. PX 26, Taylor September 20, 2012 Report,
at 4. Taylor again used the campaign codes to find

159a
Transaction-based
Established
Business
Relationships because he concluded that he had
nothing else available. T 633 : 3296-99 (Taylor).
Campaign names and codes based on disconnect
dates are not a valid basis to determine Transactionbased Established Business Relationships. The TSR
and FCC Rule define Transaction-based Established
Business Relationship for customers as 18 months
from the last purchase of goods or services. TSR 16
C.F.R. § 310.2(o); FCC Rule 47 C.F.R. § 64.1200(f)(5).
Dish’s experts Taylor and Kenneth Sponsler both
agreed that the proper way to determine whether
Dish had a Transaction-based Established Business
Relationship with the intended call recipient was to
measure from specific data points that would
establish the date of the last purchase of goods or
services by the intended call recipient. T 633: 3295-96
(Taylor); T 633 : 3454, 3476 (Sponsler).48 Disconnect
dates could easily be long after the last purchase date.
Campaign codes based on disconnect dates are not a
reliable basis for calculated whether a call recipient
had a Transaction-based Established Business
Relationship with Dish. Taylor used the campaign
codes because he did not have anything else. That
justification is not based on his expertise and is
insufficient to support his opinion. Taylor’s reliance
on campaign codes is not sufficient to show that Dish
had
Transaction-based
Established
Business
Relationships with Dish.

Sponsler was also employed by CompliancePoint, a
wholly owned subsidiary of PossibleNOW.
48

160a
If Taylor is correct that the date-of-last-payment
information that Dish provided to Dr. Yoeli is
unreliable, then no evidence presented shows the last
dates purchase of goods or services by the intended
recipients of Dish’s telemarketing calls, and so, no
evidence shows that Dish had any Transaction-based
Established Business Relationships with any of its
call recipients in the 2007-2010 Calling Records.
The Plaintiffs do not argue for such a finding. The
Plaintiffs relied on Dr. Yoeli’s use of the last payment
data supplied by Dish. The Court, therefore, will give
Dish the benefit of the doubt and credit the last
payment data that Dish supplied in discovery. The
Court notes that Taylor actually used the date-of-lastpayment information. Taylor started with Dr. Yoeli’s
conclusions in the July 2012 Report and reduced the
number of violations further by his various opinions,
including the campaign codes. He therefore started
with Dr. Yoeli’s figures that were already reduced by
the last payment date. See T 633: 3298 (Taylor).
Taylor also explicitly used both last-payment-date
information in his October 14, 2013 Report. See PX
16, Report of John Taylor dated October 14, 2013,
(Taylor October 14, 2013 Report), at 6. The Court,
therefore, will credit last-payment-date information
as reliable for purposes of calculating Transactionbased Established Business Relationship exceptions
to liability.
Dish’s practice of using calling campaign names
or disconnect dates, however, was not a reliable
method of determining whether Dish had a
Transaction-based
Established
Business
Relationship with intended call recipients. Taylor’s

161a
reliance on this method in his opinions was similarly
not reliable was not based on sufficient facts and data.
See Fed. R. Evid. 702(b) and (c). Taylor’s opinion
regarding the 1,265,359 calls has no probative value.
His testimony did not establish that Dish had a
Transaction-based
Established
Business
Relationship with the intended recipients of these
calls.
The Court credits Taylor’s opinion to exclude
42,716 calls as non-telemarketing calls based on
disposition codes, and his opinion to exclude 62,679
calls as non-telemarketing calls based on campaign
codes. The disposition codes cited by Taylor indicate
that the 42,716 calls were received by businesses or
were made for non-telemarketing purposes. Business
and non-telemarketing calls are not covered by the
TSR and the relevant portions of the TCPA. The
campaign codes on which Taylor relies indicate that
the 62,679 calls were made primarily in Held Work
Order and Canceled Work Order campaigns. The
testimony from Bangert, Davis, Dexter, and Montano
was ambiguous concerning whether some of these
calls were telemarketing calls designed to close
pending sales or just scheduling calls. The Plaintiffs
have the burden to prove that a call is a telemarketing
call. Given the ambiguity, the Court will credit
Taylor’s opinion that the calls made in these
campaigns were not telemarketing calls. The Court,
therefore, finds that 1,433,207 of the remaining
1,634,702 in the Yoeli July 2012 Call Set were
Registry Calls to persons whom Dish has not shown
had
a
Transaction-based
or
Inquiry-based
Established Business Relationships with Dish at the
times of the calls. The figure 1,433,207 is the sum of

162a
the 167,848 calls on which Taylor offered no opinions
to exclude from liability plus the 1,265,359 calls for
which Taylor offered an opinion that had no probative
value.
Plaintiffs’ expert Dr. Yoeli also presented an
opinion at trial regarding the portion of the 3,342,415
calls in the Yoeli July 2012 Call Set that were not
ruled on by the Court at summary judgment. Dr. Yoeli
compared the 3,342,415 call records in the Yoeli July
20-12 Call Set with a set of 4,075,766 call records that
the Plaintiffs provided to him. The Plaintiffs told Dr.
Yoeli that the set of 4,075,766 call records were the
September 2007 to March 2010 call records analyzed
by Taylor and on which the Court granted partial
summary judgment. See T 616: 172-73, 282-84 (Yoeli).
Plaintiffs’ demonstrative exhibit entitled “Yoeli
Demonstrative Exhibit 2” described the 4,075,766
calls records as, “Appended and de-duplicated Dish
2007-2010 call records for which Dish was found
liable in summary judgment (Taylor’s 501K National
Registry, 10K Interstate (sic), 12K No English /
Wrong Number, 310K Not Completed, 873K Lead).”
Y-DEM02-001, Yoeli Demonstrative Exhibit 2, 20072010 Violations Not Yet Granted in Summary
Judgment. By comparing, or merging, the specific call
records in these two sets, Dr. Yoeli determined that
2,475,432 of the call records in the Yoeli July 2012
Call Set were not included in the set of 4,075,766 call
records. T 613: 173, 293-94 (Yoeli).
Dr. Yoeli testified that of that of the 2,475,432
calls, the following calls were made to telephone
numbers with area codes associated with the Plaintiff
States:

163a


332,115 calls made California area codes,
of which 326,125 were made more than 93
days after the numbers were registered on
the Registry;



114,234 calls made to Illinois area codes;



33,496 calls made to North Carolina area
codes; and



96,531 calls made to Ohio area codes.

T 613: 205-06 (Yoeli). Pursuant to the stipulation
discussed above, the maximum sought by the Plaintiff
States is stipulated to be 57% of these figures.49
The Court finds, however, that Dr. Yoeli’s opinion
about the 2,475,432 Registry Calls in the Yoeli July
2012 Call Set has no probative value. Dr. Yoeli used a
sound methodology to isolate the call records that
were not been ruled upon by the Court at summary
judgment. He compared the 4,075,766 calls records
with calls in the Yoeli July 2012 Call Set to identify
those that were not in the 4,075,766 calls records. The
data Dr. Yoeli used, however, was flawed. The
Plaintiffs failed to prove or even adequately explain
the source of the set of 4,075,766 call records provided
The Court recognizes that the 57% proportionate
reduction figure was calculated from a maximum number of
2,864,896 calls for which the United States sought liability, not
the 2,475,432 calls to which Dr. Yoeli testified. The parties,
however, based the United States’ stipulation with Dish on the
2,864,896 figure, and the Plaintiff States and Dish agreed to a
proportionate reduction based on the United States’ stipulation
with Dish. The 57% proportionate reduction figure, therefore, is
correct.
49

164a
to Dr. Yoeli. Dr. Yoeli’s testimony and the quote from
Yoeli Demonstrative Exhibit 2 both stated that the
source was the calls from the 2007-2010 Calling
Records on which the Court granted partial summary
judgment. The Court entered partial summary
judgment on at total of 1,707,713 call records from
2007-2010, not 4,075,766.50 Dr. Yoeli’s conclusions
based on this unproven, unexplained data have no
probative value.
2. Internal List Calls to Persons with Telephone
Numbers on Dish and Order Entry Internal
Do-Not-Call Lists
Dish’s expert Taylor compared the 2007-2010
Calling Records with the Internal Do-Not-Call lists of
Dish, Dish’s Telemarketing Vendor eCreek, and the
PossibleNOW combined Internal-Do-Not-Call List for
Order Entry Retailers. PossibleNOW had collected
these lists beginning in 2008 as part of its services for
Dish. PossibleNOW combined all of the Order Entry
Retailers’ Internal Do-Not-Call Lists into a single
combined list. PossibleNOW maintained the Dish
Internal Do-Not-Call List and the eCreek Internal
Do-Not-Call List separately. Taylor found that Dish
made 903,246 Internal List Calls to numbers on the
internal do-not-call lists of Dish and eCreek. The
Court granted partial summary judgment in Count II
The Court initially surmised that the 4,075,766 figure
was the sum of the 1,707,713 calls and the additional 2,386,386
on which the Court initially granted partial summary judgment,
but vacated on reconsideration. See Opinion 445, at 231-32;
Opinion entered February 17, 2015 (d/e 478), at 2-11. These two
numbers total 4,094,099, not 4,075,766. The Court cannot tell
the source of the set of 4,075,766 call records from the evidence.
50

165a
for these calls. Opinion 445, at 191-92, 232-33. Taylor
also found that Dish made 7,321,163 telemarketing
calls to numbers on the Order Entry Retailer
combined Internal Do-Not-Call Lists. The number of
telemarketing calls to all Internal Do-Not-Call Lists
found by Taylor totaled 8,244,409 calls (7,321,163
plus 903,246). T 633: 3284-85 (Taylor); PX 28, Taylor
November 6, 2013 Report, at 11.
The Court credits Taylor’s opinion that Dish or its
Telemarketing Vendors made 8,244,409 Internal List
Calls to persons who previously stated that they did
not wish to receive telemarketing calls by or on behalf
of Dish Network.
Taylor testified that some overlap in the set of
903,246 calls found violations at summary judgment
and the set of 7,321,163 calls to numbers on the Order
Entry Retailer combined internal do-not-call lists. T
633: 3285 (Taylor). Taylor did not explain the nature
of the overlap, that basis for this statement, or the
number of call records that overlapped. The Court
does not credit this testimony because Taylor did not
provide an explanation or basis for this opinion.
Taylor also opined on the number of Internal List
Calls that Dish and its Telemarketing Vendors made
to telephone numbers with Plaintiff States area codes.
Taylor opined that of the 903,246 Internal List calls
on Dish’s and eCreek’s Internal Do-Not-Call Lists,
36,598 calls were made to telephone numbers with
Ohio area codes. T 633: 3282-83 (Taylor); PX 28,
Taylor November 6, 2013 Report, at 11. The Court
credits this opinion of Taylor.

166a
The Court determined at summary judgment that
Dish made an additional 140,349 Internal List Calls
made to persons who told eCreek that they did not
wish to be called by or on behalf of Dish. Opinion 445,
at 179-80. Dr. Yoeli determined that 5,190 of those
calls were directed to telephones with Ohio area
codes. T 613: 214-15 (Yoeli). The Court credits this
opinion of Dr. Yoeli. A total of 41,788 Internal List
Calls were initiated to telephone numbers with Ohio
area codes (36,598 calls plus 5,190 calls).
Dr. Yoeli compared the 8,244,409 records of Dish’s
Internal List Calls with calls in the Calling Records
from 2007 to 2010 that Dish provided to Taylor and
were not part of the 501,650 calls previously
identified by Taylor and on which the Court granted
summary judgment. T 613: 176, T 614: 255-56 (Yoeli);
PX 38, Taylor December 13, 2013, Declaration, at 12.
Dr. Yoeli then found the intersection of these two sets.
Dr. Yoeli found that there were 2,386,386 calls to
telephone numbers that were both on the internal donot-call lists and on the Registry and were not found
to be in the 501,650 calls. Dr. Yoeli found that of the
2,386,386 calls, 71,853 were on the Dish internal donot-call list and 2,314,533 were on the combined
Order Entry Retailer internal do-not-call lists. T 613:
175-76, T 614: 256 (Yoeli); see Y-DEM03-001, Yoeli
Demonstrative Exhibit 3.
Dr. Yoeli also found that, of the 2,386,386 calls in
this set, the following were made to telephone
numbers with area codes associated with the Plaintiff
States:

167a


302,983 calls made to California area
codes, of which 296,640 were more than
93 days after the numbers were registered
on the Registry;



118,289 calls made to Illinois area codes;



97,785 calls made to North Carolina area
codes; and



95,275 calls made to Ohio area codes.

T 613: 207, 210-11 (Yoeli); Yoeli December 13, 2013
Declaration, at 12.
Dr. Yoeli further broke down the calls to
telephone numbers with Plaintiff States’ area codes.
Of the 71,853 calls made to numbers on the Dish
internal do-not-call list:


9,783 calls were made to California
numbers;



5,311 calls were made to Illinois numbers;



1,324 calls were made to North Carolina
numbers; and



1,538 were made to Ohio numbers.

T 613: 208 (Yoeli). Of the 2,314,533 call made to
numbers on the Order Entry Retailers’ internal donot-call lists:


293,200 calls were made to California
numbers;

168a


112,978 calls were made to Illinois
numbers;



96,461 calls were made to North Carolina
numbers; and



93,737 calls were made to Ohio numbers.

T 613: 207-08 (Yoeli).
The Court credits Dr. Yoeli’s opinions as
demonstrating that Dish made the 2,386,386
telemarketing calls to persons whose numbers were
on both Registry Calls and Internal List Calls to
numbers on the internal do-not-call lists of Dish, the
Telemarketing Vendors, or an Order Entry Retailer
and that these calls were not previously found to be
part of the 501,650 calls on which the Court granted
summary judgment. The Court also credits Dr. Yoeli’s
opinions of the breakdown of the number of this set of
calls made to numbers with area codes associated
with the Plaintiff States.
3. Dish Abandoned Calls
The Court entered summary judgment finding
that Dish was liable for making 98,054 prerecorded
calls that were answered by a person. Such calls were
Abandoned Prerecorded Calls in violation of the TSR.
See Opinion 445, at 193-94, 233. The TSR
abandonment provisions are not subject to the
Established Business Relationship exception. The
Plaintiffs presented no evidence at trial regarding
additional Abandoned Prerecorded Calls by Dish.

169a
Dr. Yoeli identified the number of these 98,054
Abandoned Prerecorded Calls that Dish made to
telephone numbers with Plaintiff States’ area codes:


23,020 calls made to California area
codes;



5,830 calls made to Illinois area codes;



2,283 calls made to North Carolina area
codes; and



1,759 calls made to Ohio area codes.

T 613: 204 (Yoeli); PX 38 Yoeli December 13, 2013
Declaration, Appendix C, Yoeli December 14, 2012
Report, at 10, Table 6.51
The translations of the texts of the prerecorded
messages used in the 98,054 calls show Dish’s foreign
Dr. Yoeli also identified the number of all Prerecorded
Calls that Dish made through its autodialer system to telephone
numbers with Plaintiff States’ area codes:
301,002 calls made to California area codes;
93,530 calls made to Illinois area codes;
30,931 calls made to North Carolina area codes; and
22,919 calls made to Ohio area codes.
PX 38 Yoeli December 13, 2013 Declaration, Appendix C, Yoeli
December 14, 2012 Report, at 10, Table 6. The FCC Rule
prohibits initiating Prerecorded Calls regardless of whether the
calls are answered. 47 C.F.R.§ 64.1200(a)(3). Dr. Yoeli did not
testify regarding the total number of calls, but only the answered
calls. The Plaintiff States also do not seek a finding regarding
the total number of calls. See Plaintiff States’ Proposed Findings
of Fact (d/e 662), at 12-13 ¶¶ 122-26. The Court, therefore,
makes no findings regarding the total number of Prerecorded
Calls made to numbers with Plaintiff States’ area codes.
51

170a
language marketing group intended to direct the calls
to existing Dish customers. Dish presented no other
evidence to show that the recipients of these calls
were current customers of Dish at the times of the
calls, and no evidence of the number of months that
elapsed between the dates that the recipients of these
calls last paid Dish for Dish Network programming
and the dates of the calls.
C. Order Entry Retailer Call Records
The Court found at summary judgment that Dish
was liable for causing the following Order Entry
Retailers to make the following telemarketing calls
offering Dish Network programming in violation of
the TSR:


6,637,196 prerecorded calls by Dish TV
Now that were answered by individuals
and abandoned;



381,811 illegal Registry Calls by Satellite
Systems;



43,100,876 prerecorded telemarketing
calls by Star Satellite that were answered
by individuals and abandoned;



2,349,031 Registry Calls by JSR made in
2006; and



one prerecorded call by American
Satellite that was answered by a person
and abandoned.

Opinion 445, at 176, 194-95, 233.

171a
Dr. Yoeli identified the number of the 43,100,876
Star Satellite calls that were made to telephone
numbers with area codes associated with the Plaintiff
States:


5,727,417 calls made to California area
codes;



2,660,066 calls made to Illinois area
codes;



1,716,457 calls made to North Carolina
area codes; and



3,419,175 calls made to Ohio area codes.

T 613: 203 (Yoeli); PX 38 Yoeli December 13, 2013
Declaration, Appendix C, Yoeli December 14, 2012
Report, at 12, Table 8b. The Court credits these
opinions.
Taylor identified the number of the 381,811
Satellite Systems calls that were made to telephone
numbers with area codes associated with the Plaintiff
States:


37,688 calls made to California area
codes;



17,357 calls made to Illinois area codes;



13,088 calls made to North Carolina area
codes; and



22,878 calls made to Ohio area codes.

172a
T 633: 3328 (Taylor); PX 28, Taylor November 6, 2013
Report, at 13.
Taylor identified the number of the 2,349,031 JSR
Registry calls that were made in 2006 to telephone
numbers with Plaintiff States area codes:


473,102 calls made to California area
codes;



369,384 calls made to Illinois area codes;



18,250 calls made to North Carolina area
codes; and



129,004 calls made to Ohio area codes.

T 633: 3329 (Taylor); PX 28, Taylor November 6, 2013
Report, at 13. The Court credits these findings from
Taylor’s analysis of these call records.
Taylor also found that JSR made 3,315,242
Registry Calls from January through March 2007. PX
28, Taylor November 6, 2013 Report, at 14. This
finding in Taylor’s analysis is credible.
Taylor identified the number of the 3,315,242 JSR
Registry Calls that were made in 2007 to telephone
numbers with Plaintiff States area codes:


50 calls made to California area codes;



557,336 calls made to Illinois area codes;



4,936 calls made to North Carolina area
codes; and

173a


338,352 calls made to Ohio area codes.

PX 28, Taylor November 6, 2013 Report, at 13.
Taylor found that in 2006, JSR made 416,221
telemarketing Internal List Calls to numbers on
Dish’s Internal Do-Not-Call List and 2,007
telemarketing Internal List Calls to numbers on the
Internal Do-Not-Call Lists of Dish’s Telemarketing
Vendors. Taylor found that from January to March
2007, JSR made 765,934 Internal List Calls to
numbers on Dish’s Internal Do-Not-Call list, and
2,762 Internal List Calls to numbers on the Internal
Do-Not-Call lists of Dish’s Telemarketing Vendors.
PX 28, Taylor November 6, 2013 Report, at 14.
Taylor found that in 2006, JSR made 267,439
Internal List Calls to numbers on other Order Entry
Retailers’ Internal Do-Not-Call lists. Taylor found
that from January to March 2007, JSR made 526,956
Internal List Calls to numbers on other Order Entry
Retailers’ Internal Do-Not-Call lists. PX 28, Taylor
November 6, 2013 Report, at 15. These findings in
Taylor’s analysis of these records are credible.
Taylor found that the JSR call records consisted
of 12,853,478 dials of calls between July 2006 and
March 2007 from JSR’s autodialer facility in Texas.
PX 28, Taylor November 6, 2013 Report, at 14.
Goodale testified that JSR used “press 1” prerecorded
calling exclusively in its telemarketing calls. T
622:1886-88 (Goodale). JSR made its telemarketing
calls to market Dish Network programming. See T
622: 1880-81, 1888-90 (Goodale); see also Opinion 445,
at 170. This testimony is credible. Goodale’s partners

174a
allowed third parties to make calls using JSR’s login.
Goodale was not involved in hiring these third
parties. T 622:1918 (Goodale). The third parties may
or may not have used prerecorded calls. The call
records, however, are JSR’s call records from its
dialing facility in Texas. The 12,853,478 dials,
therefore, were made by JSR and not a third party.
The Court finds that JSR made “press 1” prerecorded
telemarketing calls for Dish Network programming in
all of the dials reflected in these call records. The
Court further finds that JSR used its autodialers at
its Texas facility to make these calls.
The
FCC
Rule
prohibited
prerecorded
telemarketing calls unless the seller had an
Established Business Relationship with the intended
recipient of the call. 47 C.F.R. § 64.1200(a)(2)(iv)
(version in effect prior to October 16, 2012).52 Dish
presented no evidence to show that Dish or JSR had
an Established Business Relationship with any of the
intended recipients of the 12,853,478 prerecorded
calls dialed by JSR to sell Dish Network
programming.
A prerecorded telemarketing call is an Abandoned
Prerecorded Call under the TSR if a person answers
the call because no live salesperson comes on the line.
TSR 16 C.F.R. § 310.4(b)(1)(iv). Goodale estimated
that four out of ten telemarketing calls made by JSR
were answered by a person. T 622: 1982 (Goodale).
The FCC eliminated Established Business Relationship
exceptions for prerecorded telemarketing calls in 2012. Fed. Reg.
34233, at 13741 (June 11, 2012; 77 Fed. Reg. 66935 (November
8, 2012) (correcting the effective date to October 16, 2012); see
Opinion 445, at 25.
52

175a
Montano estimated that thirty percent of Dish’s direct
telemarketing calls were answered by a person. T 629:
3084 (Montano). Dexter estimated that sixteen to
seventeen percent of Dish’s direct telemarketing calls
were answered by a person. T 627: 2528 (Dexter).
Taylor estimated that one in ten telemarketing calls
dialed are answered by a person. T633 : 3342 (Taylor).
The Court finds that it is more likely than not that
the most conservative estimate of ten percent reflects
the minimum number of the JSR dialed calls that
were answered by a person. The Court finds that at
least 1,285,379 of the prerecorded calls dialed by JSR
were answered by a person.
Make-up of the Registry and Call Recipients
Dish has presented evidence about the operation
of the Registry and about the composition of the phone
numbers on the Registry. Plaintiffs responded with
evidence concerning the makeup of the numbers on
Dish calling lists.
In March 2003, the FTC awarded a contract to
AT&T to maintain the Registry. DTX 352,
Memorandum from Lydia Parnes, Director, Bureau of
Consumer Protection dated September 30, 2005
(Parnes Memorandum), at 2. The contract required
AT&T to meet a ninety-seven percent performance
standard. The FTC did not require AT&T to identify
the type of phone numbers that individuals registered
on the Registry. AT&T also did not determine the
validity of the number that individuals registered on
the Registry. Deposition of Linda Miller Lavenda, at
47, 53, 111. The FTC does not currently require its
contractors to identify the type of phone numbers that

176a
individuals register on the Registry. Deposition of
Ami Dziekan, at 100.
AT&T hired a company called Targus as its
subcontractor to perform a monthly review of the
Registry, which included purging numbers that no
longer belonged. Parnes Memorandum, at 2; Miller
Lavenda Deposition, at 34. The process of purging
numbers is sometimes call “list hygiene.” AT&T did
not validate whether Targus accurately captured all
the telephone number changes. AT&T personnel had
“very high level,” knowledge of how Targus undertook
this process. Miller Lavenda Deposition, at 76-77,
148. Lavenda used the term “very high level” to mean
a superficial level rather than a deep level of
understanding. Id.
In December 2003, AT&T experienced what it
labeled a “missing day problem.” If a telemarketer
downloaded an updated list of newly registered
numbers called a “change list,” the list did not include
numbers that were registered the day of the
download. If a telemarketer downloaded a full,
updated Registry list rather than a change list, then
the telemarketer did not experience this missing day
problem. AT&T implemented fixes in January 2004 to
address the problem. DTX 348, Email thread dated
December 30, 2003 to May 24, 2005, at 2, 4. The FTC
also did not consider erroneous Registry Calls made

177a
because of this missing day problem to be a violation.
T 710: 59 (Torok).53
On February 17, 2004, Targus notified the FTC
for the first time that “Land lines are considered
disconnected and are deleted and scrubbed from the
registry only when the telephone number is
reassigned which can occur anywhere from four
weeks to over one year from the time the number is
disconnected.” DTX 338, Letter from FTC Contract
Specialist Eric Vogt to Carol Brown dated April 16,
2004 (Vogt April 2004 Letter), at 1. Targus also
notified the FTC that “No cell phones are being
scrubbed. There are approximately 9.7 million
wireless phones on the registry.” Vogt April 2004
Letter, at 2. AT&T did not require Targus to remove
business or government numbers from the National
Registry. Miller Lavenda Deposition, at 138, 141.
The FTC directed AT&T in the Vogt April 2004
Letter to start scrubbing disconnected numbers from
the Registry, including disconnected wireless
numbers. On May 21, 2004, the FTC accepted the
methodology of only removing numbers that were
both disconnected and reassigned. DTX 340, Letter
from Vogt to Brown dated May 21, 2004 (Vogt May
2004 Letter). AT&T and Targus took the position that
no harm would result from allowing a disconnected
number that had not been reassigned to remain on
the Registry because telemarketers would not want to
call disconnected numbers anyway. Miller Lavenda
The transcript of the trial dates on October 25, 2016
through November 2, 2016, are paginated separately from the
trial dates in January 19, 2016 through February 17, 2016.
53

178a
Deposition, at 193. Vogt also noted in the Vogt May
2004 Letter that Targus had a 10 percent error rate
in its scrubbing methodology. Vogt stated that this
error rate was not acceptable. On June 1, 2004, AT&T
informed the FTC that it had no valid method to scrub
for disconnected wireless numbers. Miller Lavenda
Deposition, at 196, 200-01.
In 2007, Congress enacted the Do-Not-Call
Improvement Act. 15 U.S.C. § 6155. The Act
mandates that each number on the National Registry
remain indefinitely, unless the individual to whom
the number is assigned requests removal, or unless
the FTC removed the number as follows:
The Federal Trade Commission shall
periodically check telephone numbers
registered on the national ‘do-not-call’
registry against national or other appropriate
databases and shall remove from such
registry those telephone numbers that have
been disconnected and reassigned. Nothing in
this section prohibits the Federal Trade
Commission from removing invalid telephone
numbers from the registry at any time.
Id. § 6155(b).
In conjunction with the 2007 legislation, the FTC
submitted a report to Congress in 2008 regarding the
accuracy of the Registry. As part of this report, the
FTC analyzed a sample list of 20,000 numbers
submitted by the Direct Marketing Association
(“DMA”), which the DMA claimed “had been
disconnected and reassigned since the time they had

179a
been registered.” The FTC concluded that forty-two
percent of these numbers should not have been
considered as active registrations on the Registry.
DTX 459, Do-Not-Call Improvements Act of 2007,
Report to Congress: Regarding the Accuracy of the Do
Not Call Registry (October 2008) (FTC 2008 Report),
at 3-4.
In 2007, Lockheed Martin replaced AT&T as the
FTC’s contractor responsible for maintaining the
Registry. Deposition of John Krebs, at 19; Dziekan
Deposition, at 52. The FTC lowered the permissible
performance standard from 97 percent to 95 percent
performance rating in some categories. Deposition of
Kathy French, at 68; DTX 180. DTX 180, Lockheed
Martin Do Not Call Registry Monthly Performance
Report for November 2008 (Lockheed Martin
November 2008 Report), at 2-4.
In November 2008, Lockheed Martin was rated on
16 performance categories. Lockheed had a 95 percent
performance rating or better in 13 of the 16
categories. Lockheed had a 75.54 percent, 71.02
percent, and a 43.9 percent performance rating
respectively in the other three categories. DTX 180,
Lockheed Martin November 2008 Report, at 8; French
Deposition, at 91. This was a one-time event.
Lockheed’s performance was generally over or very
close to the 95 percent performance rating. T 710: 68
(Torok). The FTC monitored Lockheed’s performance,
but did not terminate its contract with Lockheed for
failure to meet the 95 percent performance rating.
The FTC imposed a monetary penalty on Lockheed
when Lockheed did not meet the required 95 percent

180a
performance rating pursuant to the terms of their
contract. T. 710: 68 (Torok).
In December 2011, Lockheed Martin delayed
adding new registrations to the Registry. The delay
occurred because the registrations were “locked in the
technical background” of Lockheed Martin’s system.
As a result, Lockheed Martin took additional steps
and additional time to place new numbers on the
Registry. In February 2012, Lockheed Martin
discovered that certain telemarketers did not receive
the full version of the Registry upon downloading.
This issue affected a few hundred telemarketers.
French Deposition at 70, 74, 76, 163-64. The FTC did
not consider erroneous Registry Calls made because
of this delay in putting numbers on the Registry to be
violations. T 710: 60 (Torok).
Lockheed Martin used PossibleNOW as its
subcontractor to perform list hygiene on the Registry.
French Deposition, at 53. PossibleNOW estimated
that approximately five percent of the landline
numbers registered prior to December 2007 were still
listed on the Registry as of October 2008, but were no
longer valid registrations. DTX 459, FTC 2008
Report, at 6. By July 31, 2008, PossibleNOW had
removed 7.9 million numbers from the Registry as
part of its process of removing inactive numbers. DTX
459, FTC 2008 Report, at 6 n.12; Krebs Deposition, at
92:9-20.
In 2009, PossibleNOW estimated that thirteen
percent of the National Registry is attributed to
business landlines. DTX 486, Analysis of The Phone

181a
Numbers on the National Do Not Call Registry dated
March 31, 2009 (PossibleNOW 2009 Report), at 7.
PossibleNOW
made
some
mistakes
in
maintaining the Registry. In one instance,
PossibleNOW mistakenly dropped 225,000 numbers
from the Registry. PossibleNOW had accidentally
populated incorrect dates in the course of updating
the disconnect/reassign database. Richard Stauffer,
CEO of PossibleNOW testified that this occurred as a
result of human error. In correcting the issue,
PossibleNOW missed 2,668 numbers that should
have been added to the Registry. T 618: 761-62
(Stauffer); see French Deposition, at 157-58; DTX 463,
Email dated December 19, 2009, re Issue With the
November Process Run; DTX 466, PossibleNOW Issue
Report Form dated December 22, 2008. The FTC
penalized PossibleNOW for any errors by reducing
payments pursuant to the terms of the contract. T
710: 86 (Torok).
In 2008, PossibleNOW inadvertently left
approximately 10,000 numbers on the Registry that
should have been removed. In March 2009,
PossibleNOW accidentally dropped 16,000 numbers
from the Registry. T 618: 762-63, 764-65 (Stauffer);
DTX 583, Analysis of the Potential Input File Issue for
the October 2008 National DNC Registry Reassign
Process.54

Exhibit DTX 583 is not dated and the author is not does
not identified. PossibleNOW personnel appear to have conducted
the analysis recorded in the Exhibit.
54

182a
PossibleNOW does not remove disconnected and
reassigned wireless numbers from the Registry. DTX
183, Biennial Report to Congress Under the Do Not
Call Registry Fee Extension Act of 2007, FY 2010 and
2011 (FTC 2010-2011 Report), at 4-5. Pursuant to the
Do-Not-Call Improvements Act, PossibleNOW relies
on the National Directory Assistance database to
perform maintenance of the Registry, but the
National Directory database does not contain wireless
numbers. DTX 486, PossibleNOW 2009 Report, at 3.
Wireless service providers are not required to share
their directory assistance data with the FCC. DTX
459, FTC 2008 Report, at 6. PossibleNOW estimated
that close to 50 percent of the Registry is comprised of
wireless numbers. DTX 486, PossibleNOW 2009
Report, at 7.
Voice over Internet Protocol (VoIP) telephone
service providers are also not required to share their
directory assistance data with the FCC. DTX 183,
FTC 2010-2011 Report, at 5. PossibleNOW estimated
in 2009 that seventy-five percent of VoIP numbers
were contained within its national directory
assistance data. DTX 486, PossibleNOW 2009 Report,
at 2; DTX 183, FTC 2010-2011 Report, at 5.
Dish’s expert Dr. Robert Fenili, Ph.D., opined as
to the makeup of the types of telephone numbers on
the Registry. DTX 189, Report of Dr. Robert N. Fenili,
Ph.D., dated July 26, 2012 (Fenili Report). Dr. Fenili
opined that in 2011, 28.2 percent of the telephone
numbers on the Registry were residential landlines,
7.1 percent were inactive residential landlines, 12.2
percent were business landlines, and 52.5 percent
were wireless telephones. Dr. Fenili further opined

183a
that the residential landlines as a percentage of all of
the numbers on the Registry was decreasing over
time, the similar percentage of wireless numbers was
increasing over time, and the similar percentage of
business numbers was remaining relatively stable.
DTX 189, Fenili Report, at 8-10; see Deposition of
Robert Fenili, at 73-76.
In response, Plaintiffs’ expert Dr. Yoeli took
samples of calling records to determine the make-up
of the types of telephone numbers that Dish and the
Order Entry Retailers called. Dr. Yoeli took samples
of the 2003-2007 Calling Records; the 2007-2010
Calling Records; Guardian’s records of calls for Star
Satellite (identified as Tenaya); Guardian’s records of
calls for Dish TV Now (identified as WOW TV); and
JSR’s calling records. Dr. Yoeli sent the sample to
Stauffer of PossibleNOW. PossibleNOW maintains
historical records of major directories for residential,
business, and wireless telephone numbers. T 613:
192-96 (Yoeli).
Stauffer identified the type of telephone number
for each sample as follows:
2003-2007 Calling Records


5,002 records in the sample



2,708 numbers were listed as residential,
of which 1 was also listed as wireless and
5 were also listed as business;



29 numbers were listed as business, of
which 5 were also listed as residential;

184a


174 numbers were listed as wireless, of
which 1 was also listed as residential; and



2,097 numbers were of unknown type.

2007-2010 Calling Records


5,001 records in the sample



3,434 numbers were listed as residential,
of which 11 were also listed as business;



43 numbers were listed as business
numbers, of which11 were also listed as
residential;



425 numbers were listed as wireless
numbers; and



1,110 numbers were of unknown type.

Star Satellite (Tenaya) Calling Records


5,001 records in the sample



2,015 numbers were listed as residential,
of which 4 were also listed as business;



58 numbers were listed as business, of
which 4 were also listed as residential;



2 numbers were listed as wireless; and



2,930 numbers were of unknown type.

Dish TV Now (Wow TV) Calling Records

185a


5,001 records in the sample



2,550 numbers were listed as residential,
of which 7 were also listed as business;



20 numbers were listed as business
number, of which 7 were also listed as
residential;



1 number was listed as a wireless; and



2,437 numbers were of unknown type

JSR Calling Records


5,000 records in the sample



4,590 numbers were listed as residential,
of which 26 were also listed as business;



103 numbers were listed as business, of
which 26 were also listed as residential;



3 numbers were listed as wireless; and



330 numbers were of unknown type.

T 616: 37-39 (Stauffer); PX 1319, Yoeli Rebuttal
Report dated October 16, 2012, attached Declaration
of Rick Stauffer dated October 16, 2012.55

Stauffer’s testimony was transcribed separately during
the trial. This transcript is paginated separately from the rest of
the trial transcript.
55

186a
Dr. Yoeli reviewed Stauffer’s results and opined
as follows:


The numbers identified as residential in
the 2003-2007 Call records were 67
percent of all numbers and 85 percent of
the numbers that could be identified as
residential, business or wireless;



The numbers identified as residential in
the 2007-2010 Call records were 69
percent of all numbers and 94 percent of
the numbers that could be identified as
residential, business, or wireless;



The numbers identified as residential in
the Star Satellite records were 40 percent
of all numbers and 97 percent of the
numbers that could be identified as
residential, business, or wireless;



The numbers identified as residential in
the Dish TV Now records were 51 percent
of all numbers and 99 percent of the
numbers that could be identified as
residential, business, or wireless; and



The numbers identified as residential in
the JSR records were 91 percent of all
numbers and 98 percent of the numbers
that could be identified as residential,
business, or wireless.

187a
T 613;195-202 (Yoeli); Y-Dem04, Yoeli Demonstrative
Exhibit 4; PX 38, Appendix C, Yoeli December 14, 2012
Report, at 9 (PX 38-110).
The Court finds that Dr. Fenili’s opinion about the
make-up of the Registry is of little or no probative.
Dr. Fenili’s opinions are only relevant if Dish and the
Order Entry Retailers called a normal distribution of
all types of numbers. Dish did not call a normal
distribution. Dish called residential telephone
numbers. T 628: 2810 (Bangert); T 627: 2555, 2639,
2641 (Dexter); T 617: 633-34 (Davis). Dish knew the
address associated with every number called at the
time of each call. See T 628: 2740-41 (Bangert); T 629:
3209-10 (Montano); T 627: 2639-40 (Dexter); T 617:
630 (Davis). Dish also scrubbed its lists to remove
wireless numbers.
Order Entry Retailers Dish TV Now, JSR and
Star Satellite also called residential telephone
numbers. JSR called residential numbers from
published white pages telephone directories. T 622:
1879-80, 1887 (Goodale). Star Satellite initially called
numbers out of the phone book. Myers Deposition, at
124. Star Satellite then used Guardian’s services to
make prerecorded calls. Dish TV Now also used
Guardian’s services. Guardian called published
telephone numbers “off of a CD-Rom you could buy
down at Office Max.” Deposition of Kevin Baker, at 50.
In addition, Order Entry Retailers were only
authorized under the Retailer Agreement to solicit
potential customers to purchase residential service.
The Order Entry Tool could only be used to open
residential accounts, not commercial accounts. T 626:
2225 (Neylon).

188a
Dr. Yoeli’s samples show that Dish, Dish TV Now,
JSR, and Star Satellite did not call a normal
distribution of telephone numbers on the Registry.
Almost none of the calls from any of the samples were
made to identified business telephone or wireless
numbers. A very large majority of the identified calls
in every set were made to residential numbers.
The Court further finds that the preponderance of
the evidence established Dish and the Telemarketing
Vendors made telemarketing calls to residential
telephone
subscribers.
Dish
directed
its
telemarketing campaigns to sell Dish Network
programming to residential customers, whether
current, former, or prospective. Dish, further, knew
the name and address of every person that Dish and
its Telemarketing Vendors called. Dish scrubbed all
calling campaigns to remove wireless numbers. The
disposition codes in the Calling Records for 2007-2010
showed that approximately .2% of the calls were
answered by businesses. See T 3325-27 (Taylor);
PX16, Taylor October 13, 2013 Report, at 7 (41,417 out
of 17,168,194 calls were to businesses, or .24%); PX
38, Declaration of Dr. Erez Yoeli dated December 18,
2013, Appendix C, Yoeli December 14, 2012 Report, at
7-8 (.2% of calls were answered by businesses). All of
this evidence demonstrates that Dish and its
Telemarketing Vendors called residential telephone
subscribers.
In addition, Taylor used the disposition codes to
exclude the Dish calls answered by businesses from
the Registry Calls in the Yoeli July 2012 Call Set and
in the Registry Calls found by him in his October 13,
2014 Report. Thus, the calling records identified by

189a
Taylor on which the Court has found liability
excluded calls to businesses.
The evidence also shows that Order Entry
Retailers JSR and Star Satellite called residential
telephone
numbers.
The
standard
Retailer
Agreements only authorized Order Entry Retailers to
sell Dish Network programming to residential
customers. The Order Entry Tool could only be used
to submit orders for residential programming
packages to Dish. Goodale, Myers, and Baker testified
that both JSR and Star Satellite, either directly or
through Guardian, called residential telephone
numbers in published telephone directories.
Dr. Yoeli’s 2012 sampling data corroborates these
witnesses’ testimony. The 2012 samples show that the
vast majority of the identified calls were directed to
residential customers:


85 percent of identified numbers in the
2003-2007 Calling Records;



94 percent of identified numbers in the
2007-2010 Calling Records;



97 percent of identified numbers in the
Star Satellite Calling Records; and



98 percent of identified numbers in the
JSR Calling Records.

All of this evidence, taken as a whole, shows by a
preponderance that Dish, its Telemarketing Vendors,
and Order Entry Retailers JSR and Star Satellite
placed the vast majority of their outbound

190a
telemarketing calls to residential telephone
subscribers. The preponderance of the evidence shows
that the telemarketing calls made by Dish, the
Telemarketing Vendors, JSR, and Star Satellite at
issue in this case were directed to residential
telephone subscribers.
The percentage of residential calls to all calls in
the samples was smaller.


67 percent of all calls in the 2003-2007
Calling Records;



69 percent of all calls in the 2007-2010
Calling Record;



40 percent of all calls in the Star
Satellite/Guardian Calling Records; and



91 percent of all calls in the JSR Calling
Records.

These percentages would be accurate only if all of the
unidentified numbers were not residential telephone
numbers. The unidentified numbers, however,
included unlisted landline residential numbers and
unlisted VoIP residential numbers. Furthermore,
numerous Dish witnesses, including Bangert, Dexter,
and Davis, testified that Dish called residential
numbers. Goodale, Myers, and Baker testified that
JSR and Star Satellite called published residential
numbers. Given this testimony, the actual percentage
of residential numbers in the call records is far closer
to the percentage of identified numbers.

191a
Dish argues that Dr. Yoeli’s sampling analysis is
not probative because the samples are national
samples rather than samples from each of the
Plaintiff States. Dr. Yoeli’s samples, standing alone,
would not establish the number of calls that these
telemarketers directed to residential telephone
numbers because they are national samples.
Dr. Yoeli’s sampling, however, corroborates the other
evidence, including the testimony of Dish witnesses
Bangert, Dexter, and Davis, and others; the
testimony of Goodale, Myers, and Baker; the terms of
the Retailer Agreements which only authorized sales
to residential customers; and the Order Entry Tool
could only be used to place residential orders. All of
this evidence, without the sampling, would be
sufficient to establish that Dish and its
Telemarketing Vendors, JSR, and Star Satellite made
telemarketing calls to residential telephone numbers.
Dr. Yoeli’s national sampling corroborates this other
evidence. The Court finds that it is more likely than
not that the telemarketing calls made by Dish, the
Telemarketing Vendors, JSR, and Star Satellite were
directed to residential telephone subscribers.
The Plaintiff States have also established that it
is more likely than not that Satellite Systems called
residential telephone subscribers. The Retailer
Agreement only authorized Satellite Systems sales to
residential
customers
for
Dish
Network
programming. The Order Entry Tool could only be
used to place residential orders. Satellite Systems,
therefore, only made money by calling residential
telephone subscribers. Absent any contradictory
evidence, the reasonable inference is that Satellite
Systems called residential telephone subscribers.

192a
Dish has not presented any evidence showing that
Satellite Systems called businesses or other nonresidential numbers.
The Plaintiff States have further submitted posttrial the verdict entered January 19, 2017, in the class
action suit brought by Plaintiffs’ witness
Dr. Krakauer. Krakauer v. Dish Network, L.L.C.,
M.D. N.C. Case No. 1:14-CV-333. The case concerned
51,166 Registry Calls made by Satellite Systems in
2010 and 2011. Unlike this action, the class action
was limited to residential telephone subscribers who
were called twice within a 12-month period after
registering their numbers on the Registry. See 47
U.S.C. § 227(c)(5). The jury found that all of the
51,166 calls were made to residential telephone
subscribers. See Letter dated January 30, 2017 (d/e
764), attached Verdict Sheets, at 1-2. The Plaintiffs
argue that the verdict determination is persuasive
evidence that the Satellite Systems directed its
telemarketing calls to residential telephone
subscribers.56 Id., at 4.
The Court may take judicial notice of the verdict,
transcripts, and filings in a public trial. See Village of
DePue, Illinois v. Viacom International, Inc., 632
F.Supp.2d 854, 857, n.1 (C.D. Ill. 2009); Fed. Rule
Evid. 201. Dish does not object to the Court’s
consideration of the verdict and other public record
material from the Krakauer case. See Letter dated
The Plaintiffs also argue that the verdict in Krakauer
establishes under the doctrine of issue preclusion that Satellite
Systems was an agent of Dish. The Court already determined
that Order Entry Retailers were marketing agents of Dish. The
Court does not need to address the question of issue preclusion.
56

193a
February 10, 2017 (d/e 767). Dish, however, disputes
whether the verdict and the other public record
documents submitted by the Plaintiffs are relevant or
probative of whether the recipients were residential
telephone subscribers. Id., at 5.
The verdict has some probative value. A jury
heard evidence on the issue and determined that the
call recipients were residential telephone subscribers.
The probative value is limited, however, because the
verdict is subject to review by the trial court under
Federal Rule of Civil Procedure 59 and by the Court
of Appeals. The verdict, however, is consistent with
the terms of the Retailer Agreement and the design of
the Order Entry Tool, which both limited sales to
residential customers.
With or without the verdict in the Krakauer class
action, the Court finds that the preponderance of the
evidence shows that Satellite Systems called
residential telephone subscribers.
Area Codes and State of Residency
The Plaintiff States alleged that Dish made illegal
telemarketing calls directed at residential telephone
subscribers residing in the Plaintiff States. Third
Amended Complaint, Counts V-XII.
Dr. Yoeli and John Taylor both used telephone
area codes to determine whether a call recipient
resided in a Plaintiff State. See e.g., Opinion 445, at
124-39. Dish, however, challenged at summary
judgment the accuracy of area codes to prove states of
residency of telephone subscribers. Opinion 445, at

194a
204. The Court found that issues of fact existed
regarding whether area codes proved the telephone
subscribers’ states of residence.
The Plaintiff States established at summary
judgment that Dish engaged in a pattern and practice
of making illegal telemarketing calls in violation of
the TCPA to residents of the Plaintiff States. The
evidence regarding the accuracy of area codes to prove
telephone subscribers’ states of residence was
relevant to the appropriate amount of statutory
damages or civil penalties under the various counts.
Opinion 445, at 205-07.
The
North
American
Numbering
Plan
Administration (NANPA) assigns telephone area
codes to geographic areas within each state, Puerto
Rico, Canadian province and territory, and
participating Caribbean nation or territory. See PX
1405, NANPA 2014 Annual Report; PX 1406, List of
NANPA Area Codes Sorted by Location; T 613: 188-89
(Yoeli). The numbers are assigned to landline, VoIP,
and wireless telephone accounts.
Technological changes in telephones allow a
telephone customer to have a telephone number with
area codes other than the one assigned to their states
of residence. Wireless telephone account holders can
either keep the same number if they move to other
states, or may provide a wireless telephone for a
relative or friend that lives in another state. Since
2007, the FCC has allowed telephone customers to
port, or transfer, a number from one type of telephone
account to another, e.g., from a wireless account to a
VoIP line. See In re Telephone Number Requirements

195a
for IP-Enabled Services, 22 F.C.C.R. 19531, at 1953435 (2007); see also T 616: 46 (Stauffer). VoIP telephone
accounts may also elect to have an area code that is
not based on the geographic location of the telephone
where the telephone is actually located. See In re
Vonage Holdings Corp., 19 F.C.C.R. 22404, at 22408,
22439 (2004); see also In re Numbering Policies for
Modern Communications, 28 F.C.C.R. 5842, at 5920
(2013) (FCC Commissioner Jessica Rosenworcel
stated, “People now move and take their numbers
with them. Case in point: in my office here at the
Commission, half of those who work with me have
phone numbers with area codes that do not reflect
where they live.”). Thus, it is theoretically possible
that residential customer’s telephone numbers could
contain an area code other than the ones assigned to
his or her state of residency. See Opinion 445, at 14546.57
The mobility of wireless telephones is not relevant
in this case because Dish, its Telemarketing Vendors,
and Order Entry Retailers Star Satellite, JSR, and
Satellite Systems directed their calls to residential
telephone subscribers, as discussed above. Dish also
scrubbed calling lists for itself and its Telemarketing
Vendors to remove wireless numbers, either directly
or through PossibleNOW.

Dish repeatedly states that the Court held at summary
judgment that area codes cannot be used to determine state of
residency. See e.g., Dish Network L.L.C.’s Propose Conclusions of
Law for the Second Phase of Trial (d/e 737), at 38. This is
incorrect. The Court only held that area codes did not prove state
of residency for purposes of summary judgment. See Opinion
445, at 205-08, 214-25.
57

196a
The evidence at the January and February 2016
trial proceedings showed a high correlation between
area code and state of residence. Taylor agreed that
prior to November of 2008, that the match between
area codes and states of residence for residential
landlines was 97 percent. T 633: 3332-33, 3338
(Taylor). Dr. Yoeli analyzed a sample of consumer
complaints compiled in the FTC’s online Sentinel
Database. The state of residency matched the state
assigned to the area code of the consumer in every
case where the consumer provided address
information. T 613: 188-89 (Yoeli); PX 38B,
Spreadsheet of FTC Sentinel Database Analysis.58
Dish’s employees disclosed for the first time at the
January and February 2016 trial proceedings that
Dish had possession of information that could verify
the state of residency of the individuals that it called.
Montano testified that Dish had address information
on every intended recipient of the telemarketing calls
that made by Dish and its Telemarketing Vendors
eCreek and EPLDT (Dish Telemarketing Call
In March 2015, Dr. Yoeli provided Stauffer with a set of
30,354 Dish call records. Stauffer compared those numbers with
the PossibleNOW databases and determined that the area code
matched that state of residence in 30,314, or 99.87 percent of the
time. The 40 that did not match did not include information on
state of residence. T 616: 42-49 (Stauffer). Dish employees
further testified that Dish just called residences in almost all of
its telemarketing campaigns. This evidence has limited
probative value. The Plaintiff States did not present sufficient
evidence of the source of the 30,054 call records to establish that
applicability of these records to Dish’s call records generally.
Without proof that the 30,054 call records were a random sample
or other representative sample, Stauffer’s observation has little
probative value.
58

197a
Recipients). T 629: 3209-10 (Montano); see T 628:
2740-41 (Bangert); T 627: 2639-40 (Dexter); T 617: 630
(Davis).
The Court determined that Dish should have
produced this address information in discovery. The
Court ordered Dish to produce this address
information
in
supplemental
discovery
(Supplemental Discovery). The Court further
continued the trial to October 25, 2016, to allow
completion of the Supplemental Discovery. Opinion
entered February 24, 2016 (d/e 624) (Opinion 624), at
5-6. As noted above, the trial resumed on October 25,
2016, and was completed on November 2, 2016.
During the Supplemental Discovery, Dish
produced eleven different sets of data containing
address and telephone number information of Dish
Telemarketing Call Recipients (Address Data Sets).
On May 26, 2016, Dish’s counsel sent an email to
Plaintiff California’s counsel
regarding the
production. One of the Address Data Sets (data set 10)
contained data from a credit reporting agency
TransUnion and another (data set 11) contained
marketing data company Speedeon. Dish’s counsel
stated that Dish secured cold call lists from a
marketing database operated by credit reporting
agency Equifax. Counsel stated that Equifax sold the
relevant database to a company named Epsilon.
Epsilon no longer retained such information prior to
2011. Dish secured and produced substitute data from
TransUnion and Speedeon. PX 1446, Revised
Supplemental Expert Report of Dr. Erez Yoeli for
Plaintiff States of California, Illinois, North Carolina
& Ohio, dated July 7, 2016 (Yoeli July 2016 Report),

198a
Appendix C, Email from Dish’s Counsel to Plaintiff
California’s Counsel dated May 26, 2016 (May 26,
2016 Email).
Counsel for Plaintiff States sent an email to
Dish’s counsel asking for a description of Address
Data Sets 1-9. Plaintiffs’ counsel stated that Plaintiffs
stated that they understood that the final two
Address Data Sets, sets 10 and 11, were data from
TransUnion and Speedeon. PX 1446, Yoeli July 2016
Report, Appendix B, Email from Plaintiff States’
Counsel to Dish Counsel dated June 9, 2016 (June 9,
2016 Email), ¶ 1.
Dish’s counsel responded by email. PX 1446, Yoeli
July 2016 Report, Appendix D, Email from Dish’s
Counsel to Plaintiff State California’s Counsel dated
June 22, 2016 (June 22, 2016 Email). Dish’s counsel
provided a brief description of each of the 11 Address
Data Sets:
Sets 1 and 1A contain Customer Account
data. This information was pulled from
DISH’s Customer Account database within
DISH’s Teradata environment in DISH’s
Data Warehouse.
“Location begin date” reflects the date when
DISH received the location information. It is
the first date when the account was
associated with the address.
“Location end date” reflects the last date that
the account was associated with the address.
If the date is in the future, such as 2199-12-

199a
31, then the address was currently associated
with the account at the time that the
information was pulled.
Phone “begin” and “end” dates similarly
represent the first and last dates that the
phone number was associated with the
account. If the phone “end” date is in the
future, then the phone number was currently
associated with the account at the time that
the information was pulled.
Set 2 contains lead data pulled from the Lead
Tracking System in use at DISH prior to May
22, 2013.
The “Lead creation” field represents the date
the record was generated.
Set 3 contains lead data pulled from the Lead
Tracking System in use at DISH as of May 22,
2013.
The “Lead creation” field represents the date
the record was generated.
Set 4 contains information from DISH’s “Do
Not Contact” database. This information was
pulled from the “Do Not Mail” portion of
DISH’s “Do Not Contact” database. The
mailing addresses in this database may be
associated with customer account numbers.
DISH cross-referenced account numbers
associated with phone numbers in the call
records to identify addresses associated with

200a
those same account numbers within this
database.
The “Effective date” field represents the date
when the Do Not Contact information became
effective.
The “Expiration date” field represents the
date when the Do Not Contact information
expired.
Set 5 contains MKTG_RAID data. This
information was pulled from external hard
drives associated with DISH’s Marketing
Department,
which
contain
historical
marketing data.
Set 6 contains SALESCOMM data. This
information was pulled from a database
containing customer accounts generated by
retailers and used to determine retailer
compensation. SalesComm is the database of
record for all payments that are made to
retailers.
….
The “Eff date” field represents the date when
the sales commission data became effective.
The “Exp date” field represents the date when
the sales commission data expired.
Set 7 contains data from DISH’s Siebel
database. This information was pulled from a

201a
database containing information on customer
accounts generated by order entry retailers.
The “Created date” field represents the
effective date of the Siebel data.
The “Last updt date” field represents the
latest date when the Siebel data was updated.
Set 8 contains data pulled from DISH’s
Production
Operational
Data
System
(“PODS”) which was DISH’s Operational
Data store…. This specific information came
from … data tables created … for use by the
Marketing
Department.
Those
tables
contained an association between phone
numbers and account numbers. For any
phone numbers … identified by the State
Plaintiffs that appeared within these tables,
DISH
used the associated account numbers to pull
address information from its Customer
Account data.
“Location begin date” reflects the date when
DISH received the location information. It is
the first date when the account was
associated with the address.
“Location end date” reflects the last date that
the account was associated with the address.
If the date is in the future, such as 2199-1231, then the address was currently associated

202a
with the account at the time that the
information was pulled.
Set 9 contains data from DISH’s Production
Operational
Data
System
(“PODS”)
(explained above), and specifically from
subscriber and address information from
DISH’s Billing System-CSG that had been
imported into this Production Operational
Data System.
Set
10
contains
TransUnion
data.
TransUnion data was only provided for phone
numbers that did not have any associated
addresses within DISH’s records….
Set 11 contains Speedeon data. Speedeon
data was only provided for phone numbers
that did not have any associated addresses
within DISH’s records or within TransUnion’s
data…
According to Speedeon, the “I” date represents
the date that the address record was created
at Speedeon and the “D” date represents a
date as of which Speedeon no longer
associated the telephone number with that
address.
June 22, 2016 Email, at 1-2 (emphasis in the
original).
On July 7, 2016, Plaintiffs’ expert Dr. Yoeli issued
his report. Dr. Yoeli relied on the 11 Address Data
Sets produced by Dish; the May 26, 2016 Email, the

203a
June 10, 2016 Email, and the June 22, 2016 Email,
and the information regarding the list of geographical
assignment of telephone area codes by the NANPA.
PX 1466, Yoeli July 7, 2016 Report, at 1; see T 710:99100 (Yoeli).
Dr. Yoeli made the following assumptions about
the time period when address information in any
Address Data Set was valid (Valid Address). If the
Address Data Set included a type of beginning date
and ending date (e.g., the location_begin date and
location_end date in Address Data Set 1), then the
association of the telephone number with the address
was valid between the two dates. If the Address Data
Set included a beginning date, but no end date, then
the address was valid from the beginning date until
the present. If the Address Data Set had no date
information, then the address was always valid. PX
1466, Yoeli July 7, 2016 Report, at 3-4.
Dr. Yoeli did not consider the different
descriptions of the beginning and ending dates in the
Address Data Sets, such as location_begin and
location_end in Sets 1 and 1A, the Eff date and Exp
date in Set 6, or the “I” and “D” dates in Set 11. Dr.
Yoeli testified that those different descriptions were
not material to his analysis. See T 710: 145-48, 15253, 164 (Yoeli).
Dr. Yoeli also used seven sets of call records
admitted at the initial phase of the trial in January
and February 2016 (Call Record Sets). The Call
Record Sets contained records of telemarketing calls
that Dish made from September of 2007 through
March of 2010. The first two Call Record Sets made

204a
up the Yoeli July 2012 Call Set. The remaining Call
Record Sets were the calls records on which the Court
granted partial summary judgment as violations of
the TSR. The third, fourth, and fifth Call Record Sets
were the No English, Uncompleted, and Inquiry calls
records. The sixth Call Record Set, called Taylor,
contained the 501,650 call records identified by
Taylor in his October 2013 Report. The seventh set,
called AM Calls, contained Dish’s 98,054 Abandoned
Prerecorded Calls.
Dr. Yoeli identified the calls in the Call Records
made to telephone numbers with area codes assigned
to the Plaintiff States by the NANPA (Relevant State
Call Records). PX 1466, Yoeli July 7, 2016 Report, at
4.
Dr. Yoeli compared the telephone numbers in the
Relevant State Call Records with the Valid Addresses
associated with those telephone numbers at the times
of the calls to determine the extent to which the state
of residence in the Address Data Sets agreed with the
state assigned to the telephone numbers’ area codes
by NANPA. Dr. Yoeli identified the times that all
Valid Addresses in any of the Address Data Sets
matched the NANPA area code geographic
assignment (All States Match) and the times that at
least one Valid Address in any of the Address Data
Sets matched the NANPA area code geographic
assignment (Any States Match). The All States Match
showed NANPA assigned-state for area codes and
state of residency matched 82% to 98% of the time.
The Any States Match showed a match 97% to 100%
of the time. PX 1466, Yoeli July 7, 2016 Report,
Appendix E, Tables 2A-2G.

205a
Dr. Yoeli concluded, “My analysis shows that, for
all Call Sets and All Plaintiff States, the percentage
of calls to addresses in the Plaintiff State was at least
82%.” PX 1466, Yoeli July 7, 2016 Report, at 6; T 710:
100-02, 173-74 (Yoeli). Dr. Yoeli explained the
rationale behind his All State Match:
I looked at address data as is and allowed the
address to be used if DISH’s own records
indicate it should be. And because of the fact
there’s a variety of different data sets being
used and they are verifying each other, then I
have a lot of confidence in the fact that it
doesn’t matter if you change a particular
assumption, you're going to get very similar
results. And that these results are
conservative.
T 710: 179 (Yoeli).
Dr. Yoeli erroneously failed to analyze the data in
Address Data Set 1A in his Report. Dr. Yoeli testified
that Address Data Set 1A contained about a 10
percent increase in the new data not already included
in the other Address Data Sets. T 710:128-29 (Yoeli).
Dr. Yoeli assumed that Dish combined Address Data
Sets 1 and 1A before providing them to the Plaintiff
States. Yoeli testified that he subsequently reviewed
the information in Address Data Set 1A and
concluded that the data did not change his
conclusions materially. T 710:120-23 (Yoeli). Yoeli
testified that the change in the analysis was, “.2, .3
percent. Always less than .5.” T 710: 162 (Yoeli).

206a
Dr. Yoeli also testified that the Address Data Sets
contained multiple addresses for the same telephone
number, but the addresses were generally all in one
state, “[T]he bulk of the data are for people who never
move out-of-state.” T 710:149 (Yoeli). Dr. Yoeli
testified that the percentage of cases in which that
data showed that people moved from one state to
another state was 13 percent. T 710:120 (Yoeli).
The Court credits Dr. Yoeli’s All State Match
analysis as probative of the connection between area
code and states of residence. The analysis crosschecked states of residency against all the Address
Data Sets and only counted as matches those calling
records in which the state and area code matched in
every Valid Addresses that appeared in all Address
Data Sets. The cross-checking meant that the
information in the various Address Data States
corroborated each other. The corroboration confirmed
that the match of state of residency and area code was
more likely than not accurate. The All States Match
analysis supports Dr. Yoeli’s opinion that Call Sets
and All Plaintiff States, the percentage of calls to
addresses in the Plaintiff State was at least 82%.
The conclusion is further supported by Dr. Yoeli’s
observation that almost all of the consumers who had
the telephone numbers in the Call Sets simply did not
change states of residence. Only 13 percent of them
changed states of residence. Dr. Yoeli’s observation is
further supported by U.S. Census data that 5.6
percent of the American population moved to a
different state during the five-year period from 2005
to 2010, an average of 1.1 percent per year. PX 2093,
U.S. Census, Geographic Mobility: 2005 to 2010, at 2

207a
(December 2012). The vast majority of consumers did
not port their telephone numbers across state lines
because they did not move out of state. This fact
further supports the inference that area codes agreed
with a call recipient’s state of residence at least 82
percent of the time.
Dish presented the expert opinions of Rebecca
Kirk Fair. Kirk Fair holds an MBA in finance and
applied economics. She is an expert with more than
20 years of experience in analyzing large data sets.
She opined that Dr. Yoeli should have considered the
purpose for which the address data was collected and
maintained in each of the 11 Address Data Sets, the
purpose of the dates in the Address Data Sets, and the
purpose of the calls made to numbers in the various
Call Record Sets. She opined that Dr. Yoeli’s analysis
was unreasonable and unreliable because of these
failings. See T 711: 456-65, 494-97 (Kirk Fair); DTX
1096, Revised Responsive Expert Report of Rebecca
Kirk Fair (Kirk Fair Report), at 5-6, 44-45. Kirk Fair
did not quantify her opinion of the extent to which Dr.
Yoeli’s errors affected the validity of his opinions. See
T 711: 511, 528 (Kirk Fair).
Much of Kirk Fair’s opinions are speculative and
not based on her expertise in analyzing large data
sets. She based much of her opinions on the relative
reliability of the address information in the 11
Address Data Sets. Kirk Fair opined on the reliability
of each Address Data Set based on the descriptions in
the June 22, 2016 Email. See Kirk Fair Report, at 913. Kirk Fair is not an expert in the relative reliability
of customer account records, billing data, marketing
data from marketing companies such as Speedeon, or

208a
any of the other types of information in the Address
Data Sets. See T 711: 530, 519-20, 527, 533-35 (Kirk
Fair) (no knowledge of the purpose of the various
Address Data Sets, and no knowledge of whether
information in various Address Data Sets was
maintained or kept current). Her speculation of the
relative reliability of these different sets of data is not
an expert opinion and has no probative value.
Kirk Fair also criticized Dr. Yoeli’s use of dates in
the Address Data Sets to decide when the address
information in a particular call record was valid. Her
criticisms have some validity. In particular, Kirk
Fair is correct to question Dr. Yoeli’s assumption that
addresses are valid indefinitely if the Address Data
set has no end date of any kind. See T 711: 484-85
(Kirk Fair); Kirk Fair Report, at 8-14. The Court,
however, finds that the All State Match
accommodates for this weakness in Dr. Yoeli’s
analysis by requiring that the area code and state of
residency must match in all Address Data Sets in
which it appears at the time of the call.
Kirk Fair also criticized Dr. Yoeli for failing to
consider the types of calls and their relationships to
data sets. See T 711:465 (Kirk Fair). Kirk Fair relied
on Dish witness Joey Montano’s trial testimony
regarding the types of calling campaigns, including
the purposes of the campaigns and the intended call
recipients. Kirk Fair opined that “the purpose and
date of the call can be used together to assess the
relevance and reliability of the addresses” found in
particular data sets. For example, she opined that the
addresses in current account Address Data Sets 1A
should be more relevant and reliable for calls the Dish

209a
intended to direct to current customers. Kirk Fair
Report, at 17-19; T 711:465 (Kirk Fair). Kirk Fair’s
observation makes some sense, but depends on her
underlying assumption about the relative reliability
of the address information in the Address Data Sets.
If the Address Data Sets were equally reliable, then
the relationship between the type of call and the type
of Address Data Set would not matter significantly.
Kirk Fair is not qualified to opine on the relative
reliability of the Address Data Sets.
Kirk Fair offered her own alternative analysis of
the data. She used a method she called
“triangulation.” Kirk Fair “triangulated” or looked for
logical consistencies and inconsistencies between the
data in light of her opinions of the purpose and
reliability of the data collection and the purpose of the
calling campaigns. For example, if a call to a
prospective customer in the Inquiry Call Record was
followed shortly by the placement of the call recipient
in the active accounts (Address Data Set 1A), Kirk
Fair inferred that the call recipient decided to
purchase Dish Network programming. If the
addresses in the Lead Tracking System Address Data
Sets 2 and 3 and the active account Address Data Set
1A agreed, then Kirk Fair opined that such a match
was a good indication that the address was the call
recipient’s address at the time of the call. Kirk Fair
opined that such consistencies between the purpose of
the calls and the relevant types of data sets
corroborated the address information in the Address
Data Sets. See T 711: 490-96 (Kirk Fair).
Kirk Fair prepared an alternative analysis of the
address data and call records using her triangulation

210a
method. Kirk Fair Report, 24-32 and Exhibit 11. Kirk
Fair divided the calls into ten categories with
differing degrees of reliability based on her
triangulation method. She also broke the call record
data into the seven different Call Records that Dr.
Yoeli used in his analysis. Kirk Fair’s triangulation
method, like her other opinions, is dependent on her
assumptions about the reliability of the Address Data
Sets. That opinion has no probative value, so the
triangulation analysis is not helpful. Kirk Fair also
did not offer any quantitative analysis or any
conclusions on the question at issue, whether it is
more likely than not that an area code indicates that
state of residency of the telephone subscriber with
that number.
One aspect of Kirk Fair’s triangulation analysis,
however, was helpful to the Court as the finder of fact.
Kirk Fair’s triangulation analysis showed only one
state of residence associated with a telephone
anywhere from 69 to 99 percent of the time,
depending on the Call Record. See T 712: 638-52 (Kirk
Fair); Kirk Fair Report, Revised Exhibit Table 11.59
This analysis did not consider the call records for
which the only address data were from TransUnion

In these instances, Kirk Fair stated that one or more of
her Groups of Dish internal Address Data Sets in her
triangulation method showed an address associated with the
phone number “with no contradictory state information in other
sources.” Kirk Fair Report, Revised Exhibit Table 11, n. 4-7. Kirk
Fair testified that her Groups A, B, and C in her triangulation
method had only one state of residence associated with the phone
number. T 712: 638-41 (Kirk Fair).
59

211a
and Speedeon. Kirk Fair Report, 31-32, Revised Table
11 Group I.
Kirk Fair agreed that when a person initially
received a residential telephone number, the NANPA
geographic assignment of the area code in the number
would agree with the subscriber’s residency. T 712:
712 (Kirk Fair). Her triangulation analysis showed
that the owners of the telephone numbers in the
Address Data Sets rarely changed the state of
residency. All the addresses were in one state 69 to 99
percent of the time. This finding is consistent with Dr.
Yoeli’s finding that only 13 percent of the telephone
numbers in the Call Records had more than one state
of residency. These two findings are also consistent
with the U.S. Census data that showed that people
changed states of residency at a low rate of 1.1 percent
per year. Together, this evidence proves that it is
more likely than not that an area code of residential
telephone subscribers indicates state of residency of
the intended recipients of telemarketing calls by Dish
and the Telemarketing Vendors.
The preponderance of the evidence also proves
that area codes indicate the states of residency of the
residential telephone subscribers to whom Order
Entry Retailers Star Satellite and JSR initiated
illegal calls at issue in this case. Dish’s expert Taylor
agreed that prior to November 2008 area codes
accurately indicated the states of residency 97 percent
of the time. Star Satellite and JSR made all of their
illegal calls before 2008. Star Satellite made its calls
in 2005, and JSR made its calls in 2006 and 2007. Star
Satellite and JSR also did not call wireless numbers;
rather, both of these telemarketers called residential

212a
numbers in published white pages directories.
Published telephone directories contain highly
accurate address information about the numbers
included in the directories. See T 616: 20-21
(Stauffer). The preponderance of the evidence shows
that area codes establish the state of residence of JSR
and Star Satellite’s intended call recipients.
The Plaintiff States also argue area codes show
the residency of the intended recipients of Satellite
Systems telemarketing calls at issue in this case. The
Plaintiff States rely on Taylor’s spreadsheet of the
381,811 illegal Registry Calls initiated by Order
Entry Retailer Satellite Systems. DTX 906, Taylor
Satellite Systems Spreadsheet. The Taylor Satellite
Systems Spreadsheet contained addresses including
state of residency and area code data in 214,376 of the
381,811 call records. Of the 214,376 call records:


24,243 call records had California area
codes;



10,145 had Illinois area codes;



7,414 had North Carolina area codes; and



12,900 had Ohio area codes.

Almost all of these records had corresponding
addresses in the respective Plaintiff States addresses:


24,100 of the 24,243 call records with
California area codes also had California
addresses, or 99.4%;

213a


10,048 of the 10,145 call records with
Illinois area codes had Illinois addresses,
or 99%;



7,290 of the 7,414 call records with North
Carolina area codes had North Carolina
addresses, or 98.3%; and



12,803 of the 12,900 call records with
Ohio area codes had Ohio addresses, or
99.2%.

The Court finds that the Plaintiff States have
failed to show that this calculation can be applied to
remaining calls in the 381,811 call records. The
Plaintiff States presented no evidence that the
214,376 call records that had addresses were either a
random sample or otherwise representative sample of
the 381,811 call records. The Plaintiff States needed
expert testimony or some other competent evidence to
show that the information about the 214,376 call
records could be applied generally to all of the 381,811
call records.
The address information in the Taylor Satellite
Systems Spreadsheet is sufficient to establish by a
preponderance of the evidence the states of residency
for holders of the telephone numbers with specific
records that included addresses. The Plaintiffs have
failed to present necessary to show that anything
more can be drawn from this information.

214a
Taylor Analyses Related to Civil Penalties
Dish presented testimony by Taylor regarding the
1,707,713 Dish telemarketing calls from 2007-2010 on
which the Court granted partial summary judgment.
Dish presented this testimony for the limited purpose
of addressing the appropriate amount of civil
penalties. Dish’s culpability is a relevant factor in
awarding civil penalties under at least the TSR. See
FTC Act § 5(m) (1)(C), 15 U.S.C. § 45(m)(1)(C).60 The
Court makes the following findings regarding Taylor’s
trial testimony for the limited purpose of addressing
the appropriate amount of monetary remedies. The
Court also makes additional findings regarding
Taylor October 14, 2013 Report because the Report
contains significant additional information relevant
to Dish’s culpability. The Court addresses the October
14, 2013 Report first because the findings about this
Report provides useful background for the findings
related to Taylor’s testimony.
A. Taylor October 14, 2013 Report
Taylor prepared the October 14, 2013 Report in
response to Dr. Yoeli’s December 14, 2012 Revised
Report. PX 16, (Taylor October 2013 Report). Taylor
performed his own separate analysis of Dish’s calling
records and Telemarketing Vendor eCreek’s calling
records for the years 2007-2010. Dish provided Taylor
with 371,161,704 Dish call records and 85,144,857
eCreek call records for the period from 2007 to 2010.
The Court addresses the applicability of equitable factors
in assessing the appropriate amount of statutory damage under
the TCPA and applicable state laws later in Conclusions of Law.
60

215a
Taylor removed duplicate records and records with
invalid telephone numbers, which resulted in a net
total of 406,831,605 call records. Taylor eliminated
records associated with non-telemarketing calling
campaigns. Taylor then compared the remaining calls
against the Registry historic database. Taylor found
52,190,030 Registry Calls to numbers that were on
the Registry for at least 31 days at the time of the
calls. Taylor eliminated 1,317,872 Dish prerecorded
telemarketing calls which were not answered by the
call recipients. The result was 50,872,178 Registry
Calls. Taylor October 2013 Report, at 6.
Taylor then eliminated calls that were made
within 558 days of the latter of the last payment date
or the activation date. A total of 18,643,695 Registry
calls remained. Taylor found that with respect to
these calls: (1) Dish had no record of any payments or
activations associated with the intended recipients of
these calls; or (2) Dish’s records showed that the last
payments (or activations if Dish had no subsequent
payment records) were more than 558 days before the
dates of these calls. Taylor October 2013 Report, at 6.
Taylor then eliminated 943,240 calls that were on
Lead Tracking System calling campaigns. Taylor
again relied on representations from Dish personnel
that the Lead Tracking System calling campaigns
were calls to inquiry leads made within a day or two
of the inquiry. See T 633: 3258 (Taylor). The
remaining Registry calls totaled 17,700,455. Taylor
October 2013 Report, at 6-7.
Taylor then eliminated 532,261 calls because the
disposition codes indicated that the telephones of the

216a
intended recipients did not ring. The remaining
Registry calls totaled 17,168,194. Taylor October 2013
Report, at 7.
Taylor then eliminated 41,417 calls because the
disposition codes indicated that the calls were calls to
businesses or were non-telemarketing calls, such as
related to payment reminders. The remaining
Registry Calls totaled 17,126,777. Taylor October
2013 Report, at 7.
Taylor then eliminated 76,740 calls because the
disposition codes stated wrong number or no English.
The remaining Registry Calls totaled 17,050,037.
Taylor October 2013 Report, at 7.
Taylor then eliminated 13,792,511 calls because
the campaigns “were only dialed to current customers
or former customers within 558 days after their last
transaction with DISH.” Taylor did not rely on
records of transactions to make this statement in the
October 2013 Report. He had already eliminated calls
based on transaction data to reduce the number of
possible violations from 50,872,178 Registry Calls to
18,643,695 Registry Calls. Taylor relied on a
spreadsheet containing a list of calling campaigns to
identify by campaign name or code the campaigns
that Dish intended to direct to current and former
customers with disconnect dates within 18 months of
the date of the calls. Taylor October 14, 2013 Report,
at 7; see T 633: 3298-99 (Taylor). After eliminating
13,792,511 calls on this basis, the remaining Registry
Calls totaled 3,257,526.

217a
Taylor then eliminated 2,755,876 calls because
“Quality Assurance testing” found that the calls were
part of non-telemarketing campaigns. The resulting
Registry calls totaled 501,650. Taylor opined that he
had no basis that these 501,650 Registry Calls were
permitted under the Do-Not-Call Laws. The Court
granted partial summary judgment on the 501,650
Registry Calls from Taylor’s analysis in this October
2013 Report. Opinion 445, at 158-67, 231-32.
A number of Taylor’s opinions for excluding calls
from the set of calls that violated the Do-Not-Call
Laws are legally incorrect or are not supported by any
evidence in the record. Taylor excluded 532,261 calls
which did not ring the intended recipients’ phones,
and 76,740 calls that were wrong numbers or to
individuals who did not speak English. The Court
rejected similar opinions by Taylor at summary
judgment. See Opinion 445, at 167-168. The TSR and
FCC Rule prohibit initiating Registry Calls
regardless of whether the calls go through. TSR 16
C.F.R. § 310.4(b)(1)(iii); 47 C.F.R. § 64.1200(c)(2). The
532,261 calls and the 76,740 calls were initiated as
telemarketing calls, Taylors’ opinions regarding these
calls have no probative value.
Taylor excluded 943,240 calls on Lead Tracking
System calling campaigns. This opinion is premised
on Dish’s representations to Taylor that Lead
Tracking System calling campaigns are calls to
inquiry leads within a day or two of the inquiry. See
T 633: 3258 (Taylor). As the Court discussed above,
Dish has failed to present competent evidence
regarding the make-up of the Lead Tracking System.
Dish, therefore, failed to show that the Lead Tracking

218a
System in fact consisted of contact information of
individuals who inquired about Dish Network
programming. Taylor’s opinion regarding the Lead
Tracking System calls is not supported by competent
evidence. The opinion has no probative value.
Taylor excluded 13,792,511calls because those
calls were part of Dish calling campaigns with codes
that indicated that the campaigns directed toward
current customers or customers who made a payment
within 18 months (558 days) of the dates of the calls.
As the Court has already explained, calling campaign
codes and names are not a reliable method of
determining whether Dish had a Transaction-based
Established Business Relationship with a customer.
Taylor’s October 2013 Report demonstrates the lack
of reliability of calling campaign names. Taylor
identified 18,643,695 telemarketing calls directed to
individuals for whom Dish had either: (1) no records
of activations or payments, or (2) Dish’s records
showed that the last payments or activations
associated with those records were more than 558
days (or 18 months) before the dates of the calls.
Taylor October 2013 Report, at 6. The 13,792,511 calls
were a subset of those 18,643,695 calls. Thus, Dish
had no record that any of the intended recipients of
the 13,792,511 calls either activated Dish Network
programming or paid for Dish Network programming
for at least 18 months before the date of the calls.
Taylor’s opinion that Dish had Transaction-based
Established Business Relationships with the
intended calls recipients based on calling campaign
names has no probative value.

219a
After eliminating Taylor’s opinions that have no
probative value, Taylor’s October 2013 Report
supports the finding that from 2007 to 2010, Dish
made at least 15,846,402 Registry Calls to individuals
with whom Dish had not shown that the calls were
made either within three months of inquiries about
Dish Network programming, or within 18 months of
the intended recipients’ last transactions with Dish.61
Dish, therefore, did not show that it had an
Established Business Relationship with the intended
recipients of an additional 15,846,402 Registry Calls
from 2007-2010. The Court notes that this conclusion
has some similarity to Dr. Yoeli’s finding in his
December 14, 2012 Report that 2007-2010 Calling
Records contained 18,039,631 Registry Calls.62 The
Court will not impose liability for these calls because
the Plaintiffs do not seek liability for these calls. The
The Court does not address the 1,317,872 prerecorded
calls that were not answered or the 2,755,876 calls that were
excluded by an undefined “Quality Assurance” process. The
1,317,872 calls were still initiated to numbers on the Registry
even if they were not answered by a person. The answering
requirement only relates to call abandonment. The Court does
not include them because Taylor eliminated them before he
analyzed whether call recipients paid Dish for programming and
services within 18 months of the call. These calls, therefore,
might be subject to an Established Business Relationship
exception. The Court did not include the 2,755,876 calls because
the parties presented no evidence on the Quality Assurance
process cited by Taylor, and the purpose of these findings is
limited to weighing the factors related to the appropriate
amount of monetary relief, rather than the number of calls for
which Dish should be held liable.
62 Taylor’s calculations would actually exceed Dr. Yoeli’s
findings if the Court included the 1,317,872 prerecorded calls
that were not answered or the 2,755,876 calls that were excluded
by an undefined “Quality Assurance” process.
61

220a
Court will only consider this finding with respect to
factors used to determine appropriate monetary
relief.
B. Taylor Trial Testimony
1. Taylor’s Revised Opinions
At trial, Taylor revised his opinions from the
September 20, 2012 Report (PX 26). The Plaintiffs
submitted Taylor’s opinions to the Court at summary
judgment, and the Court relied on those opinions
when it entered partial summary judgment against
Dish on 1,707,713 calls in the records of Dish’s
telemarketing calls in the years 2007-2010. See
Opinion 445, at 167, 75 F.Supp.3d at 1010.
Taylor opined in the September 20, 2012 Report
that certain of the 3,342,415 calls that Dr. Yoeli found
to illegal Registry Calls were not violations for
various reasons. When Taylor opined that a portion of
the 3,342,415 calls were not illegal Registry Calls for
a particular reason, he removed or “eliminated” them
from the total. Taylor testified that he used a
“waterfall” analysis in his assessment. Taylor
testified that the waterfall method meant that when
he eliminated a set of calls for one reason, he
subtracted those calls from the total calls before he
considered other reasons for eliminating calls. In this
case, Taylor eliminated 309,931 calls because the
phones of the intended recipients of the calls did not
ring. He subtracted the 309,931 calls from the
3,342,415 calls in the Yoeli July 2012 Call Set to
produce a remainder of 3,032,484 calls. He followed
this method with each reason on which he opined that

221a
calls should be excluded. He subtracted from the
3,032,484 calls the 12,552 calls that were to wrong
numbers or because the call recipient did not speak
English. This left a remainder of 3,019,932 calls. He
continued this waterfall method of subtraction and
evaluation of the remainder of calls until he found
765,531 calls for which he could not find a basis to say
that the calls did not violate the TSR or the TCPA. T
633: 3253-59 (Taylor); see PX 26, September 20, 2012
Report, at 3-8.
Taylor did not consider whether a call could be
eliminated for more than one reason. The Court
rejected Taylor’s opinions that telemarketing calls
were not illegal Registry Calls if the intended
recipients’ telephones did not ring, if the recipient of
the call did not speak English, if the call was
intrastate, or if call was part of a Lead Tracking
System campaign (collectively Rejected Reasons). See
Opinion 445, at 167-68, 75 F.Supp.3d at 1010. Taylor
testified at trial that some calls that were eliminated
in early parts of the waterfall analysis for these
Rejected Reasons should have been eliminated at
later points in the analysis for other valid reasons. See
T 633: 3255, 3266-67 (Taylor).
Taylor testified that if he had considered multiple
reasons for excluding calls, many more calls would
have been eliminated. Taylor opined at trial that the
following numbers of calls that he eliminated for
Rejected Reasons would also have been eliminated for
alternative reasons:


65,451 calls were Lead Tracking System
calls;

222a


26,077 calls were directed to individuals
who opted to receive information about
home services on a website called EP
Homes (Dish witness Montano testified
Dish received lead from the EP Homes
website. T 629: 3120-21 (Montano));



16,107 calls were non-telemarketing work
orders based on the calling campaign
codes (These campaign codes were codes
that Montano initially identified as
telemarketing campaigns, but later
changed his opinion.);



4,280 calls that were non-telemarketing
calls based on the calling campaign code
(These campaign codes were codes that
Montano
initially
identified
as
telemarketing campaigns, but later
changed his opinion.);



106,781 calls were calls to current
customers based on calling campaign
codes;



3,559 were calls to current customers to
convince them not to terminate service,
based again on campaign codes; and



78,947 calls were calls to former
customers
within 18
months
of
disconnection based on campaign codes.

T 633: 3269-73 (Taylor).

223a
Taylor’s opinions regarding the 16,107 calls for
work orders and the 4,280 calls for other nontelemarketing reasons may have some merit.
Montano’s trial testimony that he changed his mind
may provide some basis to consider a lesser degree of
culpability by Dish for these calls. Dish did not
present Montano’s revision of his opinions regarding
calling codes at summary judgment, however, so any
argument to avoid liability based on Montano’s trial
testimony is waived.
Taylor’s other revised opinions have no probative
value. Dish failed to present competent evidence
regarding the formation and scrubbing of the Lead
Tracking System calling lists. Dish, therefore, failed
to present any evidence to show an Inquiry-based
Established Business Relationship with any of the
recipients of these calls.
The evidence regarding 26,077 calls to leads Dish
received from the EP Homes website does not
establish the dates that consumers made any
inquiries or opt-ins on the EP Homes website. The
evidence, therefore, does not show that the
telemarketing calls were within three months of the
inquiries.
Taylor opined that the recipients of the remaining
sets of 106,708 calls, 3,559 calls, and 78,947 calls all
had
Transaction-based
Established
Business
Relationships with Dish because the calls were part
of certain calling campaigns. As discussed above, Dish
calling campaign names were not a reliable indicator
a
Transaction-based
Established
Business
Relationship. Taylor’s October 2013 Report showed

224a
that Dish made at least 13,792,511 calls to people who
had not purchased Dish Network programming for at
least 18 months, but who were erroneously included
in calling campaigns with names that indicated that
Dish had Transaction-based Established Business
Relationships with them.63 Taylor’s opinions of Dish’s
Established Business Relationships with intended
call recipients of these calls have no probative value.
Taylor also again offered at trial his opinion that
873,551 of the calls from the 2007-2010 calls for which
Dish was liable at summary judgment were not illegal
because the calls were made as part of Lead Tracking
System calling campaigns. T 633: 3268-69 (Taylor).
Dish presented no competent evidence of the makeup
of the Lead Tracking System or the process to scrub
calling lists derived from that system. Dish, therefore,
presented no competent evidence that it had Inquirybased Established Business Relationships with the
intended recipients of these calls. Taylor’s opinions
regarding these calls still lack a factual basis and still
have no probative value.
Taylor’s opinions about the effect of his waterfall
analysis technique and his use of Rejected Reasons,
at best, show that the 1,707,713 Registry calls for
which Dish was found liable may have included
16,107 work order calls and 4,280 non-telemarketing
calls. Taylor’s waterfall analysis did not affect the
accuracy of his conclusions with respect to the
The 13,792,511 figure does not include the 1,317,872
prerecorded calls that were not answered or the 2,755,876 calls
that were excluded by an undefined “Quality Assurance”
process.
63

225a
remaining 1,687,326 calls. The Court will only
consider this analysis for purposes of determining the
appropriate amount of monetary relief.
2. Taylor’s Additional Opinions that Relate to
Culpability
Taylor also testified about a detailed analysis of
the 501,650 illegal Registry Calls found at summary
judgment based on his October 2013 Report. Dish
provided Taylor with the calls records of all the
campaigns in which the 501,650 calls were made.
Taylor broke down the 501,650 illegal Registry Calls
into the number made in each specific campaign.
Taylor calculated the percentage of the calls in each
campaign that were found to be part of the 501,650
illegal calls. T 633: 3262-66 (Taylor); DTX 626A,
626B, 626C, and 626D, Summary of Campaigns with
Violations (Taylor’s Tables). Taylor testified that this
analysis showed:


334,836 of the 501,650 calls were Registry
Calls to persons who had not done
business with Dish for at least 18 months
before the dates of the calls;



125,838 of the 501,650 calls were made in
cold calling campaigns and comprised less
than 5% of all calls made in those
campaigns; and



14,579 of the 501,650 calls were made in
other campaigns and comprised less than
5% of all calls made in those campaigns.

226a
T 633: 3276-78 (Taylor).64 Taylor opined that if the
percentage of violations from a particular calling
campaign list was less than 5%, then that list was
scrubbed to remove numbers on the Registry. T
633:3277 (Taylor).
Taylor’s Tables have no probative value. Taylor’s
Tables only considered the 501,650 calls from his
October 2013 Report found to be violations at
summary judgment. Taylor did not include in his
calculations the 15,846,402 Registry Calls in his
October 2013 Report that he erroneously excluded.
Taylor’s Tables, therefore, are not probative of the
percentage of Registry Calls in any particular
campaign.
Dish Financial Evidence
Dish’s financial condition is relevant to the
determination of appropriate monetary relief. The
Court must consider Dish’s ability to pay and its
ability to continue operating when determining an
appropriate civil penalty under § 5 of the FTC Act in
Counts I-IV. 15 U.S.C. § 45(m)(1) (C). The Court must
further consider whether an award would be
excessive in violation of due process. See St. Louis I.M.
& S. Ry. Co. v. Williams, 251 U.S. 63, 66-67 (1919).65

Taylor offered no opinions regarding 57,707 of the illegal
Registry Calls found at summary judgment.
65 The Court will address the specific applicability of Dish’s
financial information to each claim in the Conclusions of Law
below.
64

227a
The Court, therefore, finds the following facts about
Dish’s financial situation.66
Dish’s Annual Report for the period ending
December 31, 2016, shows that Dish’s parent holding
company, Dish Network Corporation (Dish Corp.) had
a net worth of approximately $28 billion
($28,091,847,000.00); and for 2016, Dish Corp. had
total gross revenues of approximately $15 billion
($15,094,562,000.00) and net after-tax income of
approximately $1.4 billion ($1,449,853,000.00), or
$3.12 per share. DTX 1109, Form 10-K Annual Report
Filed February 22, 2017 for the Period Ending
December 31, 2016 (2016 10K), at F-3, F-4.
Dish Corp. also had cash and cash equivalents
(cash)
of
approximately
$5.3
billion
($5,323,7255,000.00) as of December 31, 2016. 2016
10K, at F-3. On June 13, 2016, Dish Corp. secured $2
billion ($2,000,000,000.00) from a bond issue made by
a wholly owned subsidiary of Dish Corp. called Dish
DBS Corp. The bonds are unsecured, are due in June
2026, and carry an interest rate of 7.75 %. Id. at F-36,
38, Note 9, Long Term Debt.

Counsel for the United States stated at one point in the
trial, “I just want to point out that we don’t agree that the ability
to pay in the statute necessarily means current day ability to
pay. And that the Court could actually look at different time
periods ability to pay to calculate the civil penalties figure. But
for the purposes of today I don’t think that matters.” T 621: 1458
(DeFranco) (Attorney Runkle speaking). The United States has
not developed this argument or identified a different relevant
period of time. The argument, therefore, is waived. The United
States also relied on Dish’s most recent public filing regarding
its financial situation.
66

228a
On August 8, 2016, Dish Corp. completed a
private unregistered offering of $3 billion
($3,000,000,000.00) of convertible notes due in 2026.
The notes carry an interest rate of 3.375%. DTX 1085,
Form 8-K dated August 8, 2016. Dish Corp. received
net proceeds of approximately $2.7 billion
($2,723,000,000.00) from this transaction. Dish Corp.
stated in the notice of this private offering that the
proceeds would be used for “strategic transactions,
which may include wireless and spectrum-related
strategic transactions, and for other general corporate
purposes.” Id.
As of December 31, 2015, Dish Corp. had a net
worth
of
approximately
$22.9
billion
($22,886,710,000.00), and had total revenues for 2015
of approximately $15 billion ($15,068,901,000.00) and
net after-tax income of approximately $747 million
($747,092,000.00). PX 1440, Dish Corp. Annual
Report Form 10K filed February 18, 2016 for the
Period ending December 31, 2015 (2015 10K), at F-3,
F-4. Dish Corp. had approximately $1 billion
($1,053,158,000.00) in cash as of the end of 2015. 2015
10K, at F-3.
The 2015 annual income reflected a payment of a
penalty
of
approximately
$516
million
($515,555,000.00) to the FCC because two affiliates of
Dish Corp., Northstar Wireless and SNR Wireless,
failed to complete the purchase of a portion of wireless
spectrum for which the two affiliates were the
successful bidders at an FCC auction. Dish Corp.
owned an 85% interest in Northstar Wireless and
SNR Wireless. 2015 10K, at F-4 (“FCC auction
expense”), and at F-50 through F-53 (Note 15,

229a
Commitments and Contingencies); see T 621: 1462-64
(DeFranco). Dish’s annual after-tax income would
have
been
approximately
$1.2
billion
($1,262,647,000.00), but for this one-time payment for
the affiliates’ failure to perform on their bids with the
FCC.
Dish had net after-tax income of approximately
$1.5 billion ($1,515,907,000.00) in 2011; $945 million
($944,693,000.00) in 2013; and $807 million
($807,492,000.00) in 2014. PX 1092, Dish Corp.
Annual Report Form 10K filed February 23, 2012 for
the Period ending December 31, 2011 (2011 10K), at
F-5; 2015 10K, at F-4. For the first six months of 2012,
Dish had net after-tax income of approximately $586
million ($586,042,000.00). PX 1088, Dish Corp. Form
10Q Quarterly Report, filed August 8, 2012, for the
period ending June 30, 2012 (June 2012 10Q), at 2.
The evidence does not show Dish Corp.’s annual net
after-tax income for 2012.
As of the time of trial, Dish had approximately $1
billion ($1,000,000,000.00) per month in operating
expenses. T 621: 1539-40 (DeFranco); see 2016 10K, at
F-4 (total costs and expenses for 2016 were
approximately $12.9 billion ($12,883,453,000.00),
including
approximately
$950
million
($953,146,000.00) in depreciation and amortization.).
Dish made several large one-time payments in the
last five years. In 2015, Dish paid $515,555,000.00 to
the FCC discussed above. In 2012, Dish paid $700
million ($700,000,000.00) to a company called Voom
HD Holding, LLC (Voom), to settle a contract dispute.
PX 1440, 2015 10K, at 93 ¶10.47 (referencing

230a
Confidential Settlement Agreement and release
dated October 21, 2012); T 621: 1455 (DeFranco). In
2011, Dish agreed to pay TiVo, Inc., a total of $500
million ($500,000,000.00), to settle a patent dispute.
Dish agreed to make an initial payment of $300
million ($300,000,000.00) in 2011 and to pay the
remaining $200 million ($200,000,000.00) in six equal
annual installments in 2012 through 2017. PX 1440,
2015 10K, at F-78.
Injunctive Relief
The Court bifurcated the trial in this proceeding.
The Court continued the trial on issues regarding
injunctive relief to the October and November 2016
trial dates. Both parties attempted to present
evidence regarding Dish’s current operations. Dish
attempted to submit evidence of its current practices
to show that it is complying with the Do-Not-Call
Laws. The Court excluded this evidence because Dish
did not properly disclose the evidence in discovery.
The Court gave Dish the option of using the new
evidence at trial if it agreed to reopen discovery at its
expense. See Opinion entered January 4, 2006 (d/e
575). Dish decided not to reopen discovery. Notice of
Defendant Dish Network L.L.C. Declining Additional
Discovery (d/e 650). The Court prohibited all parties
from submitting new evidence not produced in
discovery without leave of court. See Opinion entered
October 12, 2016, (d/e 697), at 7-9.
The Plaintiffs sought to produce evidence of new
consumer complaints. The Court barred this evidence
because the Plaintiffs did not seek leave of Court and
the prejudice to Dish from the late disclosure.

231a
The Plaintiffs presented the testimony of David
Torok. At the time of trial, Torok had recently retired
from the FTC. Before his retirement, Torok was an
Associate Director of the FTC’s Bureau of Consumer
Protection. Torok participated in the launch of the
Registry and in the original TSR rulemaking
proceeding. Torok later managed the division that
ran the Registry and the Consumer Sentinel database
of consumer complaints. T 710: 21-23 (Torok).
Torok testified that prior to the launch of the
Registry, consumers were clamoring for help because
of unwanted telemarketing calls. Internal Do-NotCall Lists did not work because even if consumers told
one telemarketer not to call, another would. State
registries were uneven in their effectiveness. T 710:
35 (Torok).
The FTC staff was surprised by consumer
response to the launch of the Registry in 2003. Fifteen
million consumers registered telephone numbers in
the first five days. Within two months of the launch,
40 million consumers had registered their telephone
numbers. Currently, 226 million numbers are
registered on the Registry. The number of registered
telephone numbers has grown every month. About
100 consumers per month remove their telephone
numbers from the Registry. T 710: 35-37 (Torok).
The FTC continues to receive complaints about
illegal telemarketing calls. The FTC receives 200,000
to 300,000 complaints on the Registry complaint
system every month. Torok opined that these
complaints are the just tip of the iceberg, that the
total violations are much higher. Torok testified that

232a
consumers are particularly upset about the
proliferation of Prerecorded Calls, which he called
robocalls. T 710: 38-42 (Torok).
Torok opined that Registry enforcement,
including injunctive relief, was critical. Torok opined
that enforcement actions stopped the violator, sent a
message to other violators to deter similar practices,
and sent a message to consumers that the
government was responsive to their complaints and
problems. Torok opined that failure to grant
injunctive relief would defeat these law enforcement
goals and send a bad message to consumers. T 701:
44-47 (Torok).
Dish witnesses opined on the likely impact of the
Plaintiffs’ proposed injunction on Dish and its
Retailers. The Plaintiff United States submitted a
proposed injunction in its pretrial submissions. DTX
1097, [Proposed] Judgment and Order for Permanent
Injunction filed October 3, 2016 (Proposed Injunction).
The Dish witnesses gave lay opinions on the effect of
five provisions of the Proposed Injunction: (1) a fiveyear ban on outbound telemarketing by Dish or any
Retailer (Proposed Injunction, § I); (2) a ban on taking
orders from any Retailer that was authorized to place
order on the Order Entry Tool or a successor system
at any time from 2003 to the present (Proposed
Injunction § II); (3) a requirement that Dish must
terminate any Retailer who violated the Do-Not-Call
Laws (Proposed Injunction § V); (4) a requirement
that
Plaintiffs could perform
unannounced
inspections of Dish and its Retailers at any time
without prior notice (Proposed Injunction § III); and
(5) an order directing Dish to hire a telemarketing a

233a
compliance expert that had no prior role with Dish or
involvement in this case to perform the following
tasks: (a) prepare a compliance plan to be
implemented once the 5-year ban was over, (b)
monitor compliance, and (c) provide regular status
reports on compliance (Proposed Injunction, § II A.
and B). The last provision would mean that
PossibleNOW could not be the compliance expert
because of its prior role with Dish and its involvement
in this case.
The Dish employees opined that these proposed
injunctive provisions would cause Dish to lose all of
its Retailers and many customers and would impair
Dish’s ability to get new customers. Under Proposed
Injunction § II, Dish could not take any orders from
any Retailer because all TVRO and Order Entry
Retailers have for several years used the same
computer system called Axiom to place orders. E.g., T
710: 195 (DeFranco); T 711: 353 (Mills); see Opinion
445, at 59 (“All retailers now use the Axiom system as
the order entry tool.”).
Also, several Dish witnesses testified the ban on
telemarketing in Proposed Injunction § I would harm
all Retailers, not just Order Entry Retailers. These
witnesses testified that TVRO Retailers commonly
call customers on the phone. TVRO Retailers return
messages from existing and prospective customers
inquiring about Dish Network programming.
Existing customers contact TVRO Retailers about
upgrades or changes in service. Prospective
customers leave messages about purchasing Dish
Network programming. The ban on all telemarketing
would prohibit TVRO Retailers from calling these

234a
people back. The Dish witnesses testified that the ban
on telemarketing would harm these TVRO Retailers’
ability to maintain and develop customers. Several
Dish employees opined that the TVRO Retailers
would stop selling Dish Network programming and
might go out of business, depending on whether the
companies could stay in business marketing other
products and services. See e.g., T 710: 203-04
(DeFranco); T 711: 289-93 (Van Emst).
Dish employees testified that the Order Entry
Retailers would stop selling Dish Network
programming if the telemarketing ban went into
effect. Dish employees opined that many of those
Order Entry Retailers would go out of business. E.g.,
T 711: 329-30, 334-35 (Mills).
Joshua Slater, a senior vice president of an Order
Entry Retailer, Infinity Sales Group, testified that the
proposed injunction would put Infinity Sales Group
out of business. He testified that Dish sales were 85
percent of Infinity Sales Group’s business. He
testified that 400 people at Infinity Sales Group
would lose their jobs. T 712: 567 (Slater).
Slater said that Infinity Sales Group would be
affected by a ban on telemarketing even though
Infinity Sales Group engaged inbound telemarketing.
Customers may call to inquire about Dish Network,
but want to think about the available programming
before making a decision. Customers may also call
and leave a message requesting a callback. Slater
testified that inbound telemarketers, such as Infinity
Sales Group, need to be able to call the prospective

235a
customer back. Such calls would be telemarketing
calls. T 712: 570-71 (Slater).
Dish employees also opined that Proposed
Injunction § V would unfairly force Dish to fire a
Retailer if it made one mistake that violated a DoNot-Call Law. Dish employees opined that Retailers
would again not work with Dish under those
conditions. E.g., T 711: 302-03 (Van Emst); T 711: 344
(Mills).
Dish employees further opined that Retailers
would not work with Dish if they were subject to
unannounced inspections by federal government
officials pursuant to Proposed Injunction § III. Dish
employees opined that such inspections would be
intimidating and would hurt the reputation of the
business under inspection. E.g., T 711: 302 (Van
Emst); T 711: 343 (Mills);
Dish employees opined that large numbers of
people would lose their jobs if these provisions of the
Proposed Injunction were put in effect. Dish
employees estimated that TVRO Retailers accounted
for 20 percent of Dish’s business, and Order Entry
Retailers accounted for 25 percent of Dish’s
activations. T 710: 197-200 (DeFranco); T 711: 288
(Van Emst); T 711: 331 (Mills). Dish employees opined
that many Retailer employees would lose their jobs.
Dish employees opined that many Dish employees
would also lose their jobs, including those directly
involved in telemarketing and those who would be
terminated because Dish lost business generally. See
e.g., T 710: 188, 201 (DeFranco). Consumers would be
injured because Dish could not offer the same level of

236a
services and products if it lost such a large percentage
of its business and retail outlets. T 710: 208-09
(DeFranco); T 711: 300 (Van Emst); T 711: 335-37
(Mills); T 711: 404-05 (Montano).
Finally, CompliancePoint Senior Vice President
and General Manager Kenneth Sponsler testified
that PossibleNOW and its wholly-owned subsidiary
CompliancePoint could perform these telemarketing
compliance expert services called for in Proposed
Injunction § II A. and B. Sponsler testified that he felt
that provision sought to punish PossibleNOW for
some reason. He testified that another company
would need to invest large amounts of time gaining
the necessary expertise to perform the services called
for in the Proposed Injunction. See T 715: 77-84
(Sponsler). On questioning by the Plaintiff United
States, Sponsler agreed that under the terms of the
Proposed Injunction, PossibleNOW could perform the
expert services as a subcontractor of some other
provider that acted as the telemarketing compliance
expert. T 715; 803-04 (Sponsler).
The testimony from the Dish witnesses regarding
the possible effects of the Proposed Injunction was
speculative, and the witnesses had some bias. Most of
the witnesses are Dish employees involved in
marketing or Outbound Operations. Witness
DeFranco is the co-founder and currently Director
and Executive Vice President and, so, has a personal
interest the protecting Dish from any restrictive
injunction.
Still, some of the Dish witnesses’ testimony has
some merit. A total telemarketing ban would prohibit

237a
anyone in Dish or a Retailer from returning phone
calls about purchasing or upgrading Dish Network
programming. The ban on taking orders from any
Retailer that used the Order Entry Tool’s successor
Axiom would effectively terminate all Dish Retailers.
The requirement to fire any Retailer that made on
violation of any Do-Not-Call Laws could be harsh in
some circumstances.
Dish witnesses DeFranco and Montano also
testified about their attitudes toward illegal
telemarketing and the effect on consumers. DeFranco
testified that Dish understood the importance of
complying with the Do-Not-Call Laws:
Q. There’s been a claim here, Mr.
DeFranco, the Government’s put in papers to
the Court, stating that DISH doesn’t get it,
that DISH is indifferent to the telemarketing
laws. Much of your life has been devoted to
DISH. Can you address this for the Court,
please?
A. DISH definitely gets it. This has been
a very—a very serious thing both to the senior
management
of
DISH,
and
we’ve
communicated that down through the ranks
to anybody that has anything to do with
telemarketing. We take it very seriously. You
know, many of these violations—we have
made mistakes. The retailers made mistakes.
Many of these violations occurred ten years
ago. They were hidden from us by certain
retailers. When we discovered it, we
terminated those retailers. And the people at

238a
DISH, the men and women who work at
DISH, are good people. We want to do the
right thing. We’re trying to continually
improve, we have improved over the years,
and we expect to improve on a going forward
basis.
T 710: 226-27 (DeFranco).
Dish’s Outbound Operations Manager Montano,
however, testified that illegal telemarketing calls in
violation of the Do-Not-Call Laws do not harm
consumers:
Q. … Now, you talked about how there—
how consumers or customers get a benefit
from receiving win-back and up-sales;
correct?
A. Yes. There’s a potential up side for the
consumer.
Q. But there’s also a group of people who
are harmed by these calls. Namely, those
consumers who don’t want them and have
asked the national government as well as
DISH Network not to call?
A. I wouldn’t say that they are harmed.
Certainly, if any consumer, regardless of
whether it’s a current DISH customer or
former DISH customer, communicates to
DISH that they don’t want to receive calls
from our organization, we’ll absolutely do
everything in our power to abide by that.

239a
Q. But DISH has, in fact, made millions of
calls to these consumers, some who have
repeatedly told DISH Network not to call
them. You would say those consumers weren’t
harmed?
A. So we talked about that in great detail
the last time I was here.
Q. I know we did. My question is are they
not harmed?
.…
A. I don’t know whether they were
harmed or not. All I can say, once again, is I
apologize for any inconvenience that may
have been caused to the consumer. Certainly,
it is not our intention to call any consumer
that does not wish to receive a phone call from
DISH Network.
T 712: 432-34 (Montano). The Court finds that Dish
management in 2017 takes Do-Not-Call Law
violations seriously as a result of the multistate
investigations leading to this action and the July 2009
Assurance of Voluntary Compliance with 46 states, as
well as other private lawsuits. The Court also finds
that at least some Dish managers involved in
telemarketing, such as Outbound Operations
Manager Montano, believe that millions and millions
of illegal telephone calls may have caused some
inconvenience, but no real harm to anyone.

240a
Additional Expert Testimony
The parties presented the testimony of three
additional experts, Kenneth Sponsler, Debra Green,
and Dr. Avery Abernethy, Ph.D. The Court makes the
following findings regarding these opinions.
A. Debra Green
Green opined that Dish’s practices did not meet
industry standards with respect to Dish’s handling of
consumer complaints about Order Entry Retailers. T
625: 1978 (Green). The Court finds that Green is
qualified to render expert opinions on operating call
centers. T 625: 1940 (Green). She is not an expert in
compliance with Do-Not-Call Laws. The Court finds
that her opinions regarding Dish’s handling of Order
Entry Retailers represented her opinion based on her
general experience. See e.g., T 625: `980-88 (Green).
Green did not rely on any empirical research or any
recognized or published set of industry standards.
Green did not opine on whether Dish complied with
the Do-Not-Call Laws, but only whether Dish’s
practices complied with industry standards. Her
opinions about whether Dish’s practices meet
industry standards have limited probative value. The
issue is whether Dish violated the Do-Not-Call Laws.
B. Kenneth Sponsler
In addition to testifying as a fact witness in the
injunctive phase of the trial, Kenneth Sponsler also
testified as an expert witness. Sponsler is an expert

241a
on the telemarketing industry standards.67 Sponsler
opined that Dish acted reasonably in its handling of
Order Entry Retailers. T 633: 3400-06, 3419, 3223-25,
3429-32, 3452, 3481, 3502-04 (Sponsler). Like Green,
Sponsler’s opinions were based on his general
experience and not on any empirical research or
recognized or published industry standards. Like
Green, Sponsler did not opine on whether Dish
complied with the Do-Not-Call Laws, but only
whether Dish acted reasonably. Like Green, his
opinions about Dish’s practices with respect to Order
Entry Retailers have limited probative value. Again,
the issue is not whether Dish complied with industry
standards. The issue is whether Dish violated the law.
Sponsler also testified about an audit he
conducted of Dish’s direct marketing practices in May
2010. Dish did not disclose any expert opinions of
Sponsler regarding this audit in discovery. The audit
itself, however, was admitted into evidence at trial
without objection. PX 33, Email from Sponsler to Dish
Corporate Counsel Brett Kitei dated July 8, 2010,
attached Compliance Certification Audit dated July 8,
2010 (2010 Audit). Sponsler visited Dish for two days
on May 3-4, 2010 in order to prepare the audit. PX 33,
2010 Audit, at 1. Sponsler’s findings in the audit were
limited to Dish’s practices at the time of the audit in
May 2010. T 633: 3452 (Sponsler). The audit says
nothing about Dish’s practices before May 2010.
Dish’s telemarketing calls at issue were all made
before March 12, 2010.

Sponsler is an employee of CompliancePoint, a wholly
owned subsidiary of PossibleNOW.
67

242a
Sponsler’s audit may say something about Dish’s
practices after May 2010. The audit, however, was
superficial and was based in large part on hearsay
interviews with Dish employees. T 633: 3371, 3379
(Sponsler). Sponsler did not review or audit any call
records. As such, Sponsler’s conclusions have very
little factual support. His opinions in this audit have
little probative value.
Sponsler also mentioned in his testimony that
some sellers who currently engage telemarketing
firms are limiting their monitoring or supervising of
telemarketers
to
avoid
findings that
the
telemarketers are the sellers’ agents. T 715:817
(Sponsler); see T 715: 815-20 (Sponsler). This
testimony is credible. Sponsler is knowledgeable of
developments in the telemarketing industry
generally.
C. Dr. Avery Abernethy, Ph.D.
Dr. Abernethy is an economist who has studied
the telemarketing industry and the impact of Do-NotCall Laws on that industry. Dr. Abernethy opined
that the Registry is over-inclusive because the FTC
Improvements Act of 2007 required the FTC to keep
telephone numbers on the Registry until the numbers
are both disconnected and reassigned. T 628: 2844-48
(Abernethy). Dr. Abernethy opined that this overinclusiveness resulted in injury to consumers who
would have benefited from receiving telemarketing
calls, but who do not receive the calls. Telemarketers
did not call these consumers because these
consumers’ numbers were improperly required to

243a
remain on the Registry too long. T 628: 2859-60
(Abernethy).
The Court finds that Dr. Abernethy’s opinion is of
little or no probative value. The portion of this case
related to the Registry is concerns calls made to
persons whose numbers were on the Registry. Dr.
Abernethy did not offer any opinion at trial regarding
telemarketing calls made to persons whose numbers
are on the Registry; he only opined on the injury that
may result from calls that were not made.68
CONCLUSIONS OF LAW
The Plaintiffs allege twelve Counts against Dish.
The Court first makes conclusions of law regarding
liability for each Count. The Court then makes
conclusions of law regarding Dish’s liability for
monetary relief. The Court finally makes conclusions
of law regarding the Plaintiffs’ requests for a
permanent injunction.
Liability
A. Count I
The Plaintiff United States alleges in Count I:
In numerous instances, in connection with
telemarketing, Defendant DISH Network
Dr. Abernethy’s opinion is also purely qualitative. He did
not opine on the magnitude of any injury to people who want to
be called by telemarketers, but are not being called because of
the statutory requirement to keep numbers on the Registry until
the numbers are both disconnected and reconnected.
68

244a
engaged in or caused a telemarketer to engage
in initiating an outbound telephone call to a
person’s telephone number on the National
Do Not Call Registry in violation of the TSR,
16 C.F.R. § 310.4(b)(1)(iii)(B).
Third Amended Complaint, ¶ 66. Count I contains
two parts: (1) Dish initiated outbound telemarketing
telephone calls to persons whose numbers were on the
Registry; and (2) Dish caused telemarketers to
initiate outbound telemarketing telephone calls to
persons whose telephone numbers were on the
Registry.
1. First Amendment Challenge
Dish asserts that all claims based on the Registry
are unenforceable because “the Registry violates the
First Amendment, both facially, and as applied to
Dish.” Dish Network, L.L.C.’s Proposed Post-Trial
Conclusions of Law (d/e 666) (Dish Conclusions of
Law), at 44 ¶ 144. Dish cannot make a facial
challenge because the Registry only affects
commercial speech. Dish may only make an asapplied challenge. Commodity Trend Services, Inc. v.
Commodity Futures Trading Comm’n, 149 F.3d 679,
683 (7th Cir. 1998).
The Seventh Circuit has held that Do-Not-Call
Registry laws do not violate the First Amendment.
National Coalition of Prayer, Inc. v Carter, 455 F.3d
783, 792 (7th Cir. 2006). The Seventh Circuit ruled on
the validity of the Indiana Telephone Privacy Act
(Indiana Act). The Indiana Act established a state DoNot-Call List that is substantially similar to the

245a
Registry. The Indiana Act prohibited making
telemarketing calls to persons who registered their
telephone numbers with the state of Indiana. The
Seventh Circuit held that such registry laws did not
violate the First Amendment. The Court finds the
holding in National Coalition of Prayer is controlling
in this case. Should this matter be appealed, Dish
may ask the Seven Circuit to reconsider, but this
Court will follow the Seventh Circuit’s instructions
that Do-Not-Call registries do not violate the First
Amendment. See also, Patriotic Veterans, Inc. v.
Zoeller, 845 F.3d 303, 306 (7th Cir. 2017) (Registry
has
been
“sustained
against
constitutional
challenge.”) (citing Mainstream Marketing Services,
Inc. v. FTC, 358 F.3d 1228 (10th Cir. 2004)).
Dish argues that the Seventh Circuit did not
consider the gist of Dish’s First Amendment asapplied challenge. Dish argues that its First
Amendment rights were violated because “the
Registry was not effectively cleaned.” Dish
Conclusions of Law, at 46 ¶ 189. The FTC
Improvements Act of 2007 directed the FTC to check
national databases and remove numbers from the
Registry that have been disconnected and reassigned:
The Federal Trade Commission shall
periodically check telephone numbers
registered on the national “do-not-call”
registry against national or other appropriate
databases and shall remove from such
registry those telephone numbers that have
been disconnected and reassigned. Nothing in
this section prohibits the Federal Trade

246a
Commission from removing invalid telephone
numbers from the registry at any time.
15 U.S.C. § 6155. Dish argues that the FTC’s
subcontractor PossibleNOW is not removing from the
Registry disconnected and reassigned wireless
numbers because the national databases do not
include directory information about wireless
numbers. Furthermore, Dish argues that the national
databases do not include directory information for 25
percent or more of the VoIP telephone lines. As a
result, PossibleNOW is not removing from the
Registry many disconnected and reassigned VoIP
telephone numbers.
Dish argues that, “the Registry and its
implementing regulations are not narrowly tailored
because the Registry was not properly cleaned of
numbers that DISH and other commercial entities
had a right to contact.” Dish Conclusions of Law, at
46 ¶ 190. Dish concludes that “the Registry is
overbroad.” Id. ¶ 191.
The Court still concludes that the Seventh
Circuit’s decision in National Coalition of Prayer and
is controlling even in the face of Dish’s new argument.
The Seventh Circuit found that Do-Not-Call registries
are constitutional. The Seventh Circuit specifically
noted in Patriotic Veterans that the Tenth Circuit
found that the Registry was constitutional. The Court
will follow the Seventh Circuit.
Moreover, even assuming that National Coalition
of Prayer and Patriotic Veterans were not controlling,
Dish failed to demonstrate a violation of the First

247a
Amendment as applied to Dish. Dish must show that
the Registry was unconstitutionally applied to Dish to
prevail in an as-applied challenge. See e.g., United
States v. Phillips, 645 F.3d 859, 863 (7th Cir. 2011).
Dish did not present any evidence that any call at
issue was made to a telephone number that was
improperly on the Registry at the time of the call. As
a result, Dish’s as-applied First Amendment
argument fails for a lack of evidence even if National
Coalition of Prayer and Patriotic Veterans were not
controlling. The statutes and regulations establishing
and implementing the Registry do not violate the
First Amendment, and the FTC’s maintenance of the
Registry did not violate Dish’s First Amendment
rights to commercial speech.
2. Registry Calls by Dish
To establish the first claim in Count I, the United
States must prove that Dish initiated outbound
telemarketing Registry Calls. To establish the second
claim in Count I, the United States must prove the
additional element that Dish caused a telemarketer
to initiate outbound Registry Calls. Dish agrees that
it is responsible for the actions of its Telemarketing
Vendors eCreek and EPLDT, but denies that Dish
caused the actions of any Retailer.
The Court determined at summary judgment that
the undisputed facts established that Dish and its
Telemarketing Vendors made 1,707,713 illegal
Registry Calls reflected in the 2007-2010 Calling
Records. Opinion 445, at 231-32, 75 F.Supp.3d at
1032. At trial, the United States presented evidence
to prove Dish’s liability for additional calls made by

248a
Dish and its Telemarketing Vendors. The United
States sought to prove liability for Registry Calls
recorded in the 2003-2007 Calling Records, and
additional calls recorded in the 2007-2010 Calling
Records.
a. The 2003-2007 Calling Records
The Plaintiffs presented evidence at trial that
Dish made millions of calls to persons whose
telephone numbers were on the Registry from October
2003 to September 2007. The 2003-2007 Calling
Records contain 501,513,302 telemarketing call
records, and 94,804,008 of the telemarketing calls
reflected in those records were made to persons whose
numbers were on the Registry for at least 31 days at
the times of the calls. The statute of limitations for
the United States’ claims is five years. The case was
filed on March 25, 2009, so the statute extends back
to March 25, 2004. Opinion 445, at 153. Of the
94,804,008 call records, 90,033,575 of the records
show telemarketing calls were made to persons whose
numbers were on the Registry within the five-year
statute.
Dish argues that the 2003-2007 Calling Records
do not accurately indicate the total number of calls
because the 2003-2007 Calling Records contain
duplicate records of the same calls. The Court agrees.
The June 2005 InterImage Hits Files contained
duplicate records of the same call to the same number
on the same day at the same time. T 615: 542 (L.
Steele); PX 772, June 2005 Hits File.

249a
The June 2005 Hits File showed duplicates
because that particular Hits File showed the date and
times of the calls. Most of the InterImage Hits Files
included the dates of the calls, but did not include the
times. The InterImage Hits Files contained many
instances of multiple calls to the same number on the
same date. See e.g., PX 792, February 2006 Hits File;
PX 793, March-April 2006 Hits List; PX 794, May
2006 Hits List; PX 799, December 2006 Hits Files. The
multiple call records on the same day in the
InterImage Hits Files could indicate several calls on
the same day to the same number or duplicate records
of the same call. The 2003-2007 Calling Records
contained the dates and the times of the calls. The
United States did not direct Dr. Yoeli to compare the
InterImage Hits Files with the 2003-2007 Calling
Records to identify hits that were duplicate records of
the same call. Instead, Dr. Yoeli treated multiple hits
to the same number on the same day as one violation,
or one call. The Court finds that Dr. Yoeli’s
assumption meets the United States’ burden of proof.
The assumption probably undercounts the number of
violations, but the calls counted under this
assumption are more likely than not Registry Calls.
Dr. Yoeli, however, did not opine on the number
of calls in the InterImage Hits Files when counted
under the assumption that all hits on one day to the
same number were one violation. Dr. Yoeli opined on
the number of calls that were both hits in the
InterImage His files and hits on Dish’s internal donot-call lists. Dr. Yoeli opined that there were
3,022,355 such calls on both the Registry and Dish’s
Internal Do-Not-Call Lists. Dr. Yoeli opined that
2,919,321 of those calls occurred within the statute of

250a
limitations after March 25, 2004. PX 38, Yoeli
Declaration, Appendix D, Yoeli October 14, 2013
Report, Appendix A, at PX 0038-125. Dr. Yoeli was not
offering any opinions at trial regarding the 2003-2007
Calling Records. T 614: 376-77 (Yoeli). The United
States relied on the InterImage analysis, and the
Plaintiff States relied on Taylor’s analysis, discussed
below. See State Plaintiffs’ Additional Post-Trial
Proposed Findings of Fact, at 8-9 ¶¶ 73-80 (Plaintiff
States relying on Taylor); United States Amended
Proposed Findings of Fact (d/e 667), at 5-7 ¶ 16
(Plaintiff United States relying on Leslie Steele’s
InterImage analysis).
Taylor opined that from March 2004 to August
2007 Dish made 3,632,468 calls were made to persons
whose numbers were on the Registry after
disregarding his opinions that had no probative value.
Taylor worked from a slightly different call set than
the 2003-2007 Call Records produced in response to
the FTC Demand. Taylor also did not identify the
number of calls after March 25, 2004, to persons on
the Registry.
Dish did not present any evidence to show that it
had an Established Business Relationship with any of
the call recipients from October 2003 to September
2007. The Established Business Relationship
exception is an affirmative defense, and Dish has the
burden of proof on this issue. Opinion 445, at 162-63.
The Court concludes that it is more likely than not
that from March 25, 2004 to August 31, 2007, Dish
made millions illegal Registry Calls in violation of the
TSR, but the United States failed to prove the number

251a
of calls with sufficient certainty to impose an civil
penalties for specific calls. Dish did not prove that it
had an Established Business Relationship with the
recipients of any of these calls.
b. The 2007-2010 Calling Records
The 2007-2010 Calling Records show that, in
addition to the 1,707,713 illegal calls determined at
summary judgment, Dish made an additional
1,433,207 illegal Registry Calls in violation of the
TSR. Dr. Yoeli opined that the Yoeli July 2012 Call
Set of 3,342,415 calls in the 2007-2010 Calling
Records were Registry Calls to persons who did not
have an Established Business Relationship with
Dish. The Court entered summary judgment on
1,707,713 calls made by Dish and its Telemarketing
Vendors from September 2007 to March 2010. The
United States stipulated that the maximum number
of additional violations in Count I for this time period
was 1,634,702. The stipulated number of 1,634,702
calls was the remaining calls after subtracting the
1,707,713 calls from the Yoeli July 2012 Call Set of
3,342,415 calls.
The United States conceded that 96,100 of the
1,634,702 calls were made to persons who activated
service with Dish within 18 months of the dates of the
calls. As such, Dish had an Established Business
Relationship with these call recipients. These calls
were not violations.
Dr. Yoeli opined that the remaining 1,538,602
calls were all telemarketing calls made to persons
whose numbers were on the Registry. Dish presented

252a
evidence that 105,395 of the 1,538,602 calls were nontelemarketing calls. The calling campaign codes or
the disposition codes showed that these calls were
calls to businesses, collection calls, scheduling calls,
or informational calls. In light of this evidence, the
United States failed to prove that the 105,395 calls
were telemarketing calls.
Dr. Yoeli opined that the remaining 1,433,207
were all telemarketing calls made to persons whose
numbers were on the Registry. Dish presented no
evidence to contradict Dr. Yoeli’s opinion with respect
to these calls. Therefore, the 1,433,207 calls were
illegal Registry Calls in violation of the TSR.
Dish attempted to prove that 1,265,359 of these
calls were made to persons who had an Established
Business Relationship with Dish. Dish failed to meet
its burden on this defense. Taylor opined that Dish
had a Transaction-based Established Business
Relationship with these calls recipients because the
calls were on current customer calling campaigns or
because Dish had no disconnect date. These factors
are not reliable evidence of a Transaction-based
Established Business Relationship for the reasons
stated in the Findings of Fact. Dish had the burden to
prove the Established Business Relationship
exception. Opinion 445, at 162-63. Dish did not meet
its burden of proof. The United States proved that the
1,433,207 calls violated the TSR as calls to persons
whose numbers were on the Registry at the time of
the calls. Dish is liable for making these illegal
Registry Calls.

253a
The United States presented evidence that Dish
made an additional 2,386,386 illegal calls to numbers
in the 2007-2010 Calling Records because the call
recipients’ telephone numbers were also on the
Internal Do-Not-Call Lists of Dish, its Telemarketing
Vendors, or one of its Order Entry Retailers. A seller
or telemarketer may not call a person who has stated
that he did not wish to be called even if the seller or
telemarketer
has
an
Established
Business
Relationship with the person. TSR 16 C.F.R.
§§ 310.4(iii)(A) and (B). The 2,386,386 calls are also
included in Count II because the calls violated both
the probation against Registry Calls and Internal List
Calls. See Lary v. Trinity Physician Financial &
Insurance Services, 780 F.3d 1101, 1105 (11th Cir.
2015) (A single action can constitute two separate
violations if the action violates more than one part of
a regulation (in Lary, the TCPA)).
Dish is liable for a total of 5,527,306
telemarketing calls (1,707,713 plus 1,433,207 plus
2,386,386) to persons whose numbers were on the
Registry at the times of the calls in violation of the
TSR from September 1, 2007 to March 12, 2010. The
2,386,386 calls also are included in Count II totals
below. The court in its equitable discretion, will not
impose a double recovery of civil penalties for
violation of the TSR in Counts I and II for the
2,386,386 calls.
3. Registry Calls by Order Entry Retailers
The United States must show that the Order
Entry Retailers made telemarketing Registry Calls
and that Dish caused the Order Entry Retailers to

254a
make those calls. To prove the latter element, the
United States must show that (1) Dish retained the
Order Entry Retailers, (2) Dish authorized the Order
Entry Retailers to market Dish products and services,
and (3) the Order Entry Retailers violated the TSR by
initiating Dish telemarketing calls to numbers on the
Registry. Opinion 445, at 176; see Opinion entered
November 4, 2009 (Opinion 20), at 15, United States
v. Dish Network, LLC, 667 F.Supp.2d 952, 959-60
(C.D. Ill. 2009) (Scott, J., retired).
The Court found at summary judgment that the
undisputed evidence showed that Dish was liable for
causing JSR to make 2,349,031 Registry Calls, and for
causing Satellite Systems to make 381,811 Registry
Calls. Opinion 445, at 176, 232.
The Court finds that Dish caused JSR to make
3,315,242 additional Registry Calls in violation of the
TSR. Taylor’s analysis of the call records show that
JSR made these calls from January 2007 through
March 2007. The evidence shows that JSR made these
calls as an Order Entry Retailer until Dish
terminated JSR on February 14, 2007. Thereafter
JSR made these calls as an affiliate of another Order
Entry Retailer. Goodale testified that JSR continued
to operate after February 14, 2007 by using the login
of another Order Entry Retailer. Goodale did not
identify the other Order Entry Retailer. T 622:189394 (Goodale). Regardless, Dish caused the Order
Entry Retailer through which JSR worked to make
telemarketing calls for Dish. The Order Entry
Retailer authorized JSR to market Dish Network
programming. The call records show that JSR made
the calls. Goodale testified that the calls were made

255a
to market Dish Network programming. The Court
finds that Dish thereby caused JSR to make the calls
after February 14, 2007 for purposes of the TSR. Dish
is liable for causing JSR to make a total of 5,664,273
(2,349,031 plus 3,315,242) Registry Calls in violation
of the TSR.
The United States claims that Dish is liable for
causing Order Entry Retailer Dish Nation to make
the same 5,664,273 calls that Dish caused JSR to
make. However, the United States failed to show that
Dish Nation caused all of these calls. The evidence
shows that JSR worked through Dish Nation before
August 10, 2006, when JSR became an Order Entry
Retailer. PX 239, September 2006 Spreadsheet. The
fact that JSR worked through Dish Nation before
becoming an Order Entry Retailer in August 2006
does not prove that JSR worked through Dish Nation
thereafter. Dish terminated JSR on February 14,
2007. Goodale did not identify the Order Entry
Retailer through which JSR worked after February
14, 2007, and no other evidence identifies the Order
Entry Retailer that JSR worked through at that time.
Yet, the United States has established Dish caused
Dish Nation to make illegal Registry Calls through
JSR in July through August 10, 2006. The United
States, nonetheless, did not present evidence of the
number of illegal Registry Calls that Dish Nation and
JSR made before August 10, 2006.
4. Summary
In summary, Dish is liable for the following
violations of the TSR in Count I:

256a
2003-2007:

Millions of calls, but
specific number was
unproven

September 1, 2007, to
March 12, 2010

5,527,306 calls

JSR calls caused by
Dish

5,664,273 calls

Satellite System Calls
caused by Dish
Total

381,811 calls
11,573,390 calls

As noted above, the Court, in its discretion, will not
impose a double penalty under the TSR in Counts I
and II for 2,386,386 of the calls that are subject to
liability in both Counts.
B. Count II
The United States alleges in Count II:
In numerous instances, in connection with
telemarketing, DISH Network has engaged in
or caused other telemarketers to engage in
initiating an outbound telephone call to a
person who has previously stated that he or
she does not wish to receive such a call made
by or on behalf of DISH Network, in violation
of the TSR, 16 C.F.R § 310.4(b)(1)(iii)(A).
Third Amended Complaint, ¶ 67. Count II also
contains two parts: Dish initiated outbound Internal
List Calls to a person who previously stated that he

257a
or she does not wish to receive calls made by or on
behalf of Dish; and (2) Dish caused Order Entry
Retailers to initiate outbound Internal List calls to
persons who previously stated that they did not wish
to receive calls made by or on behalf of Dish.
1. Dish Internal Calls
To establish the first claim in Count II, the United
States must prove that Dish initiated outbound
telemarketing telephone calls to persons who
previously stated that they did not wish to be called
by or on behalf of Dish. To establish the second claim
in Count II, United States must prove that Dish
caused an Order Entry Retailer to initiate an
outbound telemarketing telephone call to persons
who previously stated that they did not wish to be
called by or on behalf of Dish. Dish again agrees that
it is responsible for the actions of its Telemarketing
Vendors eCreek and EPLDT.
The undisputed evidence at summary judgment
showed that Dish made 903,246 Internal List Calls to
persons who told Dish or its Telemarketing Vendors
that they did not wish to be called by or on behalf of
Dish. The Court further found that the undisputed
evidence showed that Dish was liable for 140,349
Internal List Calls made to persons who told eCreek
that they did not wish to be called by or on behalf of
Dish. Opinion 445, at 232.
The United States seeks to prove that Dish is
liable for 7,321,163 additional Internal List Calls that
Dish made to persons who told one or more Order
Entry Retailers that they did not wish to be called by

258a
or on behalf of Dish. The Court found at summary
judgment that the United States needed to show that
Dish had an agency relationship with the Order Entry
Retailers in order to establish liability for these calls.
The Court found that issues of fact remained on this
issue. Opinion 445, at 181-84.
The United States asks for reconsideration of the
Court’s determination that the United States must
show an agency relationship with the Order Entry
Retailers in this Count. The Court denies that
request. The TSR states that the seller is liable for a
call made to a person when, “[t]hat person previously
has stated that he or she does not wish to receive an
outbound telephone call made by or on behalf of the
seller whose goods or services are being offered ….” 16
C.F.R. § 310.4(b)(1)(iii)(A). The TSR does not define to
whom the statement must be made. The FTC,
however, stated that a do-not-call request was
“company-specific” and that the FTC intended
§ 310.4(b)(1)(iii)(A) to track the approach of the FCC
Rule. Opinion 445, at 182 (citing Notice of Proposed
Rule Making, Amendments to the Telemarketing Sales
Rule, 67 Fed. Reg. 4492, 4516 (January 30, 2002)).
The FCC held that the similar “on behalf of” language
in the FCC Rule required finding an agency
relationship. FCC May 9, 2013 Order, 28 FCC Rcd. at
6574. This Court found that this interpretation
should apply here given the FTC’s explanation in the
2002 Notice of Proposed Rulemaking. Opinion 445, at
183.
The Court further noted at summary judgment
that the United States relied on an FCC
interpretation of the “on behalf of” language to

259a
support its interpretation of § 310.4(b)(1)(iii)(A).
Opinion 445, at 183-84; see Plaintiffs’ Motion for
Summary Judgment (d/e 341), at 91-92(citing Rules
and Regulations Implementing the Telephone
Consumer Protection Act (TCPA) of 1991, 68 Fed. Reg.
44,144, 44,156 (July 25, 2003) (2003 FCC Statement);
Plaintiffs’ Opposition to Defendant’s Motion for
Summary Judgment (d/e 378), at 196-97 (citing 2003
FCC Statement); Plaintiffs’ Reply in Support of Their
Motion for Summary Judgment (d/e 389), at 61
(citing 2003 FCC Statement).
The United States no longer relies on the 2003
FCC Statement, but it now asserts a new
interpretation of § 310.4(b) (1)(iii)(A) based on
complaints filed in four cases, including this one.
United States Proposed Conclusions of Law (d/e 668),
at 14-16. The United States argues that this
interpretation is entitled to deference under Auer v.
Robbins, 519 U.S. 452 (1997). The United States made
this change in position for purposes of litigation. As
such, the interpretation is not entitled to deference.
Christopher v. SmithKline Beecham Corp., 567
U.S.142, 132 S.Ct. 2156, 2166-67 (2012). The January
30, 2002 FTC statement that do-not-call requests are
company-specific and that the interpretation of this
section should track the FCC approach is a far more
accurate representation of the FTC interpretation of
this section. The Court will not reconsider its
interpretation of §310.4(b)(iii)(A).
The United States has proven that Dish had an
agency relationship with the Order Entry Retailers to
telemarket Dish Network programming. The Court
discussed agency principles in the summary

260a
judgment opinion. See Opinion 445, at 185-91. As this
Court noted, “Federal law, Illinois law, and the
Restatement all agree on general agency legal
principles. NECA-IBEW Rockford Local Union 364
Health and Welfare Fund v. A & A Drug Co., 736 F.3d
1054, 1058 (7th Cir. 2013).” Opinion 445, at 185.
This Court set forth the applicable legal principles
of express agency:
The Restatement defines
follows:

agency

as

Agency is the fiduciary relationship that
arises when one person (a “principal”)
manifests assent to another person (an
“agent”) that the agent shall act on the
principal’s behalf and subject to the
principal’s control, and the agent
manifests assent or otherwise consents so
to act.
Restatement (Third) of Agency, § 1.01 (2006).
The Restatement definition contains two key
aspects: (1) the principal and agent agree that
the agent acts for the principal; and (2) the
agent is subject to the control of the principal.
See also In re Aquilar, 511 B.R. 507, 513
(Bankr. N.D. Ill. 2014). The principal need
only have the right to control the agent; the
agency exists even if the principal does not
exercise that right. See Schutz v. Arrow Fin.
Servs., LLC, 465 F.Supp.2d 872, 877 (N.D. Ill.
2006). The determination of whether an
agency exists is a factual issue. See Spitz v.

261a
Proven Winners of North America LLC, 759
F.3d 724 (7th Cir. 2014); Chemtool, Inc. v.
Lubrication Technologies, Inc., 148 F.3d 742,
746 (7th Cir. 1998).
Opinion 445, at 185-86. Both written agreements and
the actual practices of the parties are relevant to
determine whether an agency exists. See M&J
Partners Restaurant Ltd. Partnership v. Zadikoff, 10
F.Supp.2d 922, 932 (N.D. Ill. 1998).
In this case, Dish and the Order Entry Retailers
agreed that the Order Entry Retailers would act for
Dish to market Dish Network programming
nationwide. The standard Retailer Agreement
authorized Order Entry Retailers to market Dish
Network programming and present offers to purchase
to Dish for Dish’s approval. PX 152, Retailer
Agreement §§ 3.1, 3.2, 7.2. The Order Entry Retailers
marketed Dish Network programming and submitted
customer offers to purchase on the Order Entry Tool,
and Dish reviewed and decided whether to approve
the sale. The Order Entry Retailers used Dish’s logo
with the added phrase “authorized dealer.” Dish and
Order Entry Retailers agreed that the Order Entry
Retailers acted for Dish to market Dish Network
programming.
Dish also retained extensive authority to control
the marketing of its programming and services by
Order Entry Retailers. Section 7.3 of the Retailer
Agreement gave Dish the authority to control all
aspects of marketing of Dish Network programming.

262a
Dish began exerting that control in 2008 and
2009. Dish required Order Entry Retailers to provide
their Internal Do-Not-Call Lists to PossibleNOW to be
included in a combined Order Entry Retailer Internal
Do-Not-Call List. Dish also required certain Order
Entry Retailers to use PossibleNOW’s scrubbing
services. In later part of 2008 and the first part of
2009, Dish fired 40 Retailers for fraud and making
misrepresentations to customers. In 2009, Dish fired
over half of the Order Entry Retailers for fraud and
high churn and required the rest to comply with the
more extensive Quality Assurance program or be
terminated. Dish’s Compliance Manager Musso
stated that the Quality Assurance program was
authorized by § 7.3 of the Retailer Agreement. PX
553, Email thread between Musso and Sales Manager
Mason dated October 25, 2011.
Thereafter, Dish increased the monitoring and
control of Order Entry telemarketing. Field
Representatives and Account Managers visited Order
Entry Retailers on a weekly basis and monitored
telemarketing calls. Dish scored Order Entry Retailer
telemarketing calls on 45 criteria. The criteria
included “right sizing” questions to determine the
Dish Network programming that they were to offer
the customer. Dish Field Representatives, Account
Managers, and Sales Managers required Order Entry
Retailers to change their telemarketing practices to
increase the Order Entry Retailers’ scores for the
Quality Assurance program.
Sales Managers on occasion: (1) coached Order
Entry Retailers on how to increase scores, (2) changed
Order Entry Retailer sales procedures, (3) revised

263a
sales scripts, and (3) prescribed the work flow of an
Order Entry Retailers that did not use a formal
telemarketing script. Sales Managers could discipline
Order Entry Retailers that did not comply. Sales
Managers could withhold Dish programming offers
and could restrict access to the Order Entry Tool.
Finally, Dish Sales Managers had the authority
to use the “absolute power” clause. That is, Dish Sales
Managers had the authority to tell Order Entry
Retailers what to do simply, “because I said so.” PX
553, Email thread between Musso and Sales Manager
Mason dated October 25, 2011; T. 620: 1289 (Musso).
The Court concludes under all the evidence that Dish
had the authority to exert control over the marketing
of Dish Network programming conducted by Order
Entry Retailers. The Court concludes that Dish had
an agency relationship with the Order Entry
Retailers with respect to marketing Dish Network
programming.
Dish argues that Dish did not control marketing
methods by Order Entry Retailers because Order
Entry Retailers wrote their own scripts and secured
their own leads. The evidence shows, however, that
Dish representatives revised scripts and required
Order Entry Retailers to follow the revisions. Dish
also on rare occasions provided scripts and also
provided lead lists to Order Entry Retailers. This
evidence shows that Dish had the authority to provide
leads and to provide scripts. The fact that Dish may
rarely have exercised these indicia of authority to
control does not matter. The issue for purposes of
agency analysis is the existence of the authority, not
the actual use of the authority. Schultz v. Arrow

264a
Financial Services, LLC, 465 F.Supp.2d 465, 477
(N.D. Ill. 2006) (citing Restatement (Third) of Agency
§ 1.01 comment c).
Dish argues that § 7.3 of the Retailer Agreement
did not give Dish the authority to control the Order
Entry Retailers’ marketing of Dish Network
programming. The Court disagrees. Section 7.3 states
that Order Entry Retailers “shall take all actions and
refrain from taking any action, as requested by
EchoStar in connection with the marketing,
advertisement, promotion and/or solicitation of orders
for Programming and the sale of DISH DBS Systems.”
Musso cited § 7.3 as authority for the Quality
Assurance program. Dish exerted extensive control
over Order Entry Retailers through the Quality
Assurance program. The plain language of § 7.3 and
the Dish’s actions beginning in September 2006 and
especially after 2008 show that Dish had extensive
authority to control the Order Entry Retailers’
marketing of Dish Network programming. The afterthe-fact, self-serving testimony by several Dish
witnesses to the contrary is not credible and does not
disprove the actual control exerted by Dish.
Dish also argues that Order Entry Retailers were
completely separate companies and as such were
independent contractors. Dish cites § 11 of the
Retailer Agreement that stated that Order Entry
Retailers were independent contractors. Dish also
relies on numerous statements by Dish employee
witnesses and principles of Order Entry Retailers
such as Goodale and Myers to show that Order Entry
Retailers ran their own businesses independently
from Dish.

265a
The Court agrees that the Order Entry Retailers
were separate, independent companies. An
independent company, however, can be an agent with
respect to work performed for a principal. See
Bridgeview Health Care Center, Ltd. v. Clark, 816
F.3d 935, 938-39 (7th Cir. 2016); Lawlor v. North
American Corp. of Illinois, 2012 IL. 112530, ¶43, 983
N.E.2d 414, 427 (Ill. 2012). Telemarketing Vendor
eCreek was a separate independent business, yet
Dish concedes that eCreek was its agent for
telemarketing. Dish’s authorization to Order Entry
Retailers to sell Dish Network programming and
Dish’s authority to control the marketing of Dish
Network programming by Order Entry Retailers are
the relevant questions. Dish authorized Order Entry
Retailers to market Dish Network programming
nationwide. Dish had the authority to control the
Order Entry Retailers’ marketing of Dish Network
programming. The Order Entry Retailers were
marketing agents of Dish. Dish, therefore, was
obligated to honor the Do-Not-Call requests made to
Order Entry Retailers, just as it was obligated to
honor such requests made to Dish’s telemarketing
agent eCreek.
Dish argues that even if the Order Entry
Retailers were marketing agents, their illegal
telemarketing practices were not within the scope of
their authority. The Court again disagrees. The
concept of scope of authority is broad. An agent has
authority to act to further the principal’s objectives,
“as the agent reasonably understands the principal’s
manifestations and objectives.” Restatement (Third)
of Agency, § 2.02(1). The principal is liable for the acts
of the agent to further the principal’s purposes unless

266a
the agent acts entirely for the agent’s benefit only.
Hartmann v. Prudential Insurance Co. of America, 9
F.3d 1207, 1210 (7th Cir. 1993). The Order Entry
Retailers marketed Dish Network programming.
They acted at least partially for Dish’s benefit. They
did not act entirely for their own benefit.
Dish cites Bridgeview Care Center for the
proposition that Dish is not liable for unauthorized
marketing activities. In Bridgeview Care Center, a
hearing aid company authorized a telemarketer to
send 100 faxed advertisements within a 20 mile
radius of Terre Haute, Indiana. The telemarketer
sent almost 5,000 faxed advertisements across
Indiana, Illinois, and Ohio. The Seventh Circuit
determined that the hearing aid company was liable
under the TCPA for the 100 faxes it authorized, but
not the others. Bridgeview Care Center, 816 F.3d at
937, 939. In this case, Dish authorized the Order
Entry Retailers to market Dish Network
programming
nationally
through
outbound
telemarketing. The telemarketing was done to benefit
Dish. The acts were within the scope of authority.
Dish argues that it could not have honored the
Order Entry Retailers’ Internal Do-Not-Call Lists
because it did not have the lists until 2008 when it
began requiring certain Order Entry Retailers to give
their Internal Do-Not-Call Lists to PossibleNOW.
This argument proves too much. If Dish had the
authority to require Order Entry Retailers to give
Dish access to their Internal Do-Not-Call Lists in
2008, then Dish had the authority to secure access to
the Lists in 2003 and 2004 when the Order Entry
program began. Dish should have done so. Dish’s

267a
failure to secure the Internal Do-Not-Call Lists before
2008 does not absolve Dish from responsibility. The
Court finds that Dish is liable for 7,321,163 illegal
Internal List Calls made to persons who told Order
Entry Retailers that they did not wish to receive
telemarketing calls on behalf of Dish.
Dish’s expert Taylor testified that the set of
7,321,163 Internal List calls overlapped with the
903,246 Internal List calls for which the Court found
Dish liable at summary judgment. Taylor provided no
explanation of the evidentiary basis of this comment
regarding a claimed overlap. Further, Dish does not
point to any portion of any of Taylor’s reports that
mentioned or discussed this claimed overlap. As such,
Taylor’s comment on the stand about an overlap is
unexplained and unsupported by the evidence. The
statement has no probative value. Dish is liable for
both the 7,321,163 Internal List Calls and the 903,246
Internal List Calls found at summary judgment.
2. Order Entry Retailer Internal List Calls
a. Internal List Calls By JSR to Persons
Who Stated to Dish or a Telemarketing
Vendor that They Did Not Wish to be
Called by or on Behalf of Dish
From August 2006 through December 2006, JSR
made 418,228 Internal List Calls to persons who
stated to Dish or the Telemarketing Vendors that
they did not wish to receive telemarketing calls by or
on behalf of Dish. From January through March 2007,
JSR made 768,696 Internal List Calls to persons who
stated to Dish or the Telemarketing Vendors that

268a
they did not wish to receive telemarketing calls by or
on behalf of Dish. The United States proved that Dish
caused these calls to be made. JSR made the calls
before August 10, 2006, through Order Entry Retailer
Dish Nation. JSR made the calls as an Order Entry
Retailer from August 10, 2006, until Dish terminated
JSR on February 14, 2007. Thereafter, JSR made the
calls through another Order Entry Retailer
authorized by Dish to market Dish Network
programming.
JSR made some of these calls as an agent of Dish.
JSR was an agent of Dish as an Order Entry Retailer
from August 10, 2006, until Dish terminated JSR on
February 14, 2007. Prior to August 10, 2006, JSR
made the calls through Dish Nation. JSR acted as a
subagent of a Dish Order Entry Retailer when it made
the calls prior to August 10, 2006. Dish can be held
liable for the acts of a subagent. See Lawlor, 983
N.E.2d at 427-28.
However, Dish disputes that JSR was a subagent
of Dish. The Retailer Agreement, § 7.2, did not allow
Order Entry Retailers to use third party affiliates or
subagents without Dish’s prior approval. Dish
personnel, however, knew that JSR worked through
Dish Nation before becoming an Order Entry
Retailer. Dish was also aware that Dish Nation used
third-party affiliates. Dish personnel referred to
“Dish Nation’s affiliate program” and to JSR working
under “Dish Nation’s umbrella.” PX 239, September
2006 Spreadsheet. Under these facts, Dish Nation
reasonably believed that it had Dish’s permission to
use third party affiliates as subagents despite the
language in § 7.2 of the Retailer Agreement. “An

269a
agent has actual authority to create a relationship of
subagency when the agent reasonably believes, based
on a manifestation from the principal, that the
principal consents to the appointment of the
subagent.” Restatement (Third) of Agency, § 3.15(2).
The Court finds that Dish Nation had actual
authority to retain JSR as a subagent prior to August
10, 2006. Dish is therefore liable for 418,228 Internal
List Calls that JSR made from August through
December 2006 to persons who stated to Dish or a
Telemarketing Vendor that they did not wish to
receive telemarketing calls by or on behalf of Dish.
The evidence does not establish that Dish allowed
JSR to work as subagent from February 14, 2007
through March 2007. Dish terminated JSR on
February 14, 2007. JSR thereafter worked for an
unidentified Order Entry Retailer into March 2007.
By February 2007, Dish began taking steps to
discourage Order Entry Retailers’ use of third-party
affiliates. In October 2006, Dish surveyed the 11
biggest Order Entry Retailers to see how many used
affiliates. In November and December 2006, Dish told
JSR to stop using affiliates in the Philippines. At
some point, Musso started requiring Order Entry
Retailer to secure prior approval before hiring
affiliates. In light of this evidence, it is not clear that,
in 2007, Dish generally allowed Order Entry Retailers
to use affiliates without prior authorization. As such,
it is not clear that Dish authorized the unidentified
Order Entry Retailer to use JSR as a subagent after
February 14, 2007. The United States has failed to
prove that JSR worked as a subagent of Dish after
February 14, 2007. The United States has also failed
to prove how many of the 768,696 Internal List Calls

270a
in 2007 were made before Dish terminated JSR on
February 14, 2007. While Dish is liable for causing
JSR to make hundreds of thousands of Internal List
Calls in 2007, the number of such calls has not been
proven.
b. Internal List Calls By JSR to People Who
Stated to other Order Entry Retailers that
They Did Not Wish to be Called by or on
Behalf of Dish
Dish is liable for calls made by Dish or its agents
to persons who previously told Dish or its agents that
they did not wish to receive such calls. Opinion 445,
at 183. From August 2006 through December 2006,
JSR made 267,439 Internal List Calls to persons who
previously told another Dish Order Entry Retailer
that they did not wish to receive such calls. JSR was
an agent or subagent of Dish during this time period,
and the other Order Entry Retailers were also agents
of Dish. Dish is liable for these illegal Internal List
Calls. From January through March 2007, JSR made
526,956 Internal List Calls to persons who previously
told another Dish Order Entry Retailer that they did
not wish to receive such calls. The United States did
not prove the number of these calls that were made
from January through February 14, 2007, when the
United States proved that JSR acted as Dish’s agent
or subagent. As such, the United States proved that
Dish caused JSR to make hundreds of thousands of
Internal List Calls in 2007 to persons who previously
told another Dish Order Entry Retailer that they did
not wish to receive such calls, but the United States
did not prove the specific number of violations.

271a
c.

Calls by Satellite Systems

In 2010 and 2011, Satellite Systems made 22,946
Internal List Calls to persons who previously told
Dish that they did not wish to receive such calls.
Satellite Systems was Dish’s agent for purposes of
marketing Dish Network programming at the time.
Dish is liable for causing Satellite Systems to make
these calls in violation of the TSR.
In 2010 and 2011, Satellite Systems made 42,990
Internal List Calls to persons who previously told an
Order Entry Retailer that they did not wish to receive
such calls. Satellite Systems and the other Order
Entry Retailers were Dish’s agents for purposes of
marketing Dish Network programming at the time.
Dish is liable for causing Satellite Systems to make
these calls in violation of the TSR.
3. Summary
In summary, Dish is liable for Dish is liable for
the following violations of the TSR in Count II:
Dish Calls on Dish Internal List

903,246 calls

Dish Calls on eCreek DNC List

140,349 calls

Dish Calls on Order Entry Lists

7,321,163 calls

JSR 2006 Calls on Dish Internal
List

418,228 calls

JSR 2006 Calls on Order Entry
Lists

267,439 calls

272a
Satellite Systems Calls on Dish
Internal List

22,946 calls

Satellite Systems Calls on Order
Entry Lists

42,990 calls

Total

9,116,361 calls

Dish is also liable for a portion of the 1,295,652
(768,696 plus 526,956) Internal List calls that JSR
made in 2007, but the Plaintiffs did not prove the
number of those calls made before February 14, 2007,
while JSR was an agent of Dish. In addition, the
Court, in its discretion, will not impose a double
penalty under the TSR in Counts I and II for the
2,386,386 calls that are subject to liability in both
Counts. The total violations are so large and the
amount of the potential civil penalty is so high that
the Court finds that one penalty for each call is
sufficient in this case.
C. Count III
Count III alleges:
In numerous instances, in connection with
telemarketing, Defendant DISH Network has
abandoned or caused telemarketers to
abandon an outbound telephone call by failing
to connect the call to a sales representative
within two (2) seconds of the completed
greeting of the person answering the call, in
violation of the TSR, 16 C.F.R. §
310.4(b)(1)(iv).

273a
Third Amended Complaint, ¶ 68. Count III contains
two claims: (1) Dish abandoned outbound
telemarketing telephone calls; and (2) Dish caused
Order Entry Retailers to abandon outbound
telemarketing telephone calls. In both cases, the
abandonment occurred because Dish or the
telemarketer made Abandoned Prerecorded Calls.
The calls became abandoned because Dish or the
telemarketer failed to connect the Prerecorded Call to
a sales representative within two seconds of the
completed greeting by the recipient of the call.
1. Calls Abandoned by Dish
The Court found at summary judgment that Dish
was liable for making 98,054 Abandoned Prerecorded
Calls in violation of the TSR. Opinion 445, at 193-94.
The United States did not seek to prove that Dish
made any additional abandoned telemarketing calls
at trial.
2. Calls Abandoned by Order Entry Retailers
The Court found at summary judgment that Dish
was liable for causing: (1) Star Satellite to make
43,100,876 Abandoned Prerecorded Calls in violation
of the TSR; (2) Dish TV Now to make 6,637,196
Abandoned Prerecorded Calls in violation of the TSR;
and (3) American Satellite for making one Abandoned
Prerecorded Call in violation of the TSR. Opinion 445,
at 193-95.
The United States has also proven that JSR
initiated 12,853,478 Prerecorded Calls. These calls
only became abandoned calls in violation of the TSR

274a
if a person answered and was not connected to a live
representative within two seconds of answering. 16
C.F.R. § 310.4(b)(1)(iv). Goodale estimated that 4 out
of 10 calls were answered. Dexter estimated that a
person answered 16 to 17 percent of Dish’s
telemarketing calls. Montano estimated that a person
answered 30 percent of Dish’s telemarketing calls.
Taylor opined that 1 in 10 telemarketing calls are
answered by individuals. Given all this evidence, the
Court finds that it is more likely than not that at least
10 percent of JSR’s prerecorded telemarketing calls
were answered by individuals and became Abandoned
Prerecorded Calls.
Dish caused JSR to make these Abandoned
Prerecorded Calls for the same reasons Dish caused
JSR to make the Registry Calls proven in Count I. The
United States is not required to prove an agency
relationship to establish liability for abandoned calls.
The United States must only prove that Dish caused
JSR to make the abandoned calls. TSR 16 C.F.R. §
310.4(b)(iv). Dish authorized Dish Nation to make
calls and to use JSR to make calls before August 10,
2006. Dish authorized JSR to make calls from August
10, 2006 until February 14, 2007. Dish authorized the
unidentified Order Entry Retailer to make calls and
thereby to use JSR to make these abandoned calls
from February 14, 2007, until JSR stopped operating
in March 2007. The Court finds that Dish is liable for
causing JSR to make 1,285,379 abandoned calls in
violation of the TSR.
The United States argues that Goodale’s estimate
supports
liability
for
5,141,391
Abandoned
Prerecorded Calls. However, the testimony from

275a
Montano, Dexter and Taylor, however, indicates that
Goodale’s estimate may overstate the number of
completed calls. Given the disagreement, the Court
finds that the most conservative estimate meets the
preponderance standard on this issue. All four
witnesses agreed that at least 10 percent of the calls
would have been answered. The Court, therefore,
finds that Dish is liable for the conservative number
of 1,285,379 Abandoned Prerecorded Calls.
The United States also seeks to prove that Dish
caused Order Entry Retailer Dish Nation to make the
same 1,285,379 abandoned calls that JSR made. The
United States has proven that Order Entry Retailer
Dish Nation acted with JSR to make the abandoned
calls before August 10, 2006. JSR made calls through
Dish Nation before JSR became an Order Entry
Retailer. The United States failed to prove that JSR
continued to work through Dish Nation after it
became an Order Entry Retailer or after February 14,
2007, when Dish terminated JSR’s Retailer
Agreement. The United States has established that
Dish caused Dish Nation to make many abandoned
calls through JSR. The United States, however, has
not proven the number of abandoned calls Dish
caused Dish Nation to make through JSR before
August 10, 2006.
The United States proved at summary judgment
that Dish caused American Satellite to make one
Abandoned Prerecorded Call. Opinion 445, at 194-95,
233. The United States also proved that Dish caused
American Satellite to make many Abandoned
Prerecorded Calls in violation of the TSR. The
testimony of Manuel Castillo established this fact. He

276a
operated American Satellites’ automatic dialer that
made the Prerecorded Calls. Castillo also informed
Dish personnel of American Satellite’s practices.
Dish’s investigator was interested in American
Satellite’s practices that defrauded Dish, but he had
little interest in Do-Not-Call Law violations. Dish is
liable for causing American Satellite to make many
prerecorded calls that were abandoned in violation of
the TSR.
3. Summary
In summary, Dish is liable for the following
abandoned calls in violation of the TSR:
Dish AM calls

98,054 calls

Star Satellite calls

43,100,876 calls

Dish TV Now calls

6,637,196 calls

American Satellite call
JSR calls
Total

1 call
1,285,379 calls
51,121,506 calls

In addition, Dish caused American Satellite to make
more abandoned calls, but the number of such calls
has not been proven. The 43,100,876 Star Satellite
calls also are subject to liability under the TSR in
Count IV. The Court, in its discretion, will not impose
a double penalty under the TSR in Counts III and IV
for these calls. The total violations are so large and
the amount of the potential civil penalty is so high

277a
that the Court finds that one penalty for each call is
sufficient in this case.
D. Count IV
Count IV alleges
Defendant DISH Network has provided
substantial assistance or support to Star
Satellite and/or Dish TV Now even though
Defendant
DISH
Network
knew
or
consciously avoided knowing Defendant Star
Satellite and/or Dish TV Now abandoned
outbound telephone calls in violation of §
310.4(b)(1)(iv) of the TSR. Defendant DISH
Network, therefore, has violated 16 C.F.R. §
310.3(b).
Third Amended Complaint, ¶ 69. Section 310.3(b) of
the TSR prohibits providing substantial assistance or
support to telemarketers when that person knows or
consciously avoids knowing that the seller or
telemarketer is engaged in any act or practice that
violates the TSR.
To establish the claims in Count IV, the United
States must prove “(1) that the [Order Entry
Retailers] were violating the TSR; and (2) Dish knew
or consciously avoided knowing that the [Order Entry
Retailers] were violating the TSR, but still kept
paying the Dealers to continue the violations.”
Opinion entered February 4, 2010 (d/e 32) (Opinion
32), at 9 n.1, 2010 WL 376774, at *3 (citing Opinion
20, at 20, 667 F.Supp.2d, at 961) (Scott, J. retired).

278a
The Court entered partial summary judgment in
favor of Dish on the United States’ claim that Dish
provided substantial assistance to Dish TV Now.
Opinion 445, at 195-99. The claim against Dish for
providing substantial assistance to Star Satellite
remained for trial.
The United States has established that Star
Satellite violated the TSR by making prerecorded
calls that were answered and abandoned in violation
of the TSR, 16 C.F.R. § 310.4(b)(1)(iv). The evidence
also proves that it is more likely than not that Dish
knew about Star Satellite’s use of prerecorded calls,
or consciously avoided knowing about such use, and
kept paying Star Satellite to continue the violations.
Dish was repeatedly put on notice that Star
Satellite was making prerecorded telemarketing
calls. The most telling evidence is that Dish’s
Outbound Operations’ Manager Bangert knew about
Star Satellite’s prerecorded calls. Bangert relayed the
message through Dish employee Mark Duffy to the
Retail Services Escalations Department. Jeff Medina
of the Retail Services Escalations Department
commented to Margot Williams of Retail Services
Escalations, “Are these your boys again?” Retail
Services Escalations did nothing. The activations
kept coming, and Dish Sales Department employees
kept meeting their quotas and getting their bonuses,
and Dish kept paying Star Satellite to keep making
prerecorded calls that were abandoned when
answered. The Court finds that the United States has
proven that Dish violated TSR § 310.3(b) by providing
substantial assistance to Star Satellite even though
Dish knew or consciously avoided knowing that Star

279a
Satellite was making abandoned telemarketing calls
in violation of TSR § 310.4(b)(1)(iv).
Dish argues that Star Satellite hid its use of
prerecorded calls from Dish. The evidence shows that
Star Satellite’s principal Myers tried to hide Star
Satellite’s use of prerecorded calls. Myer, however,
believed that Dish knew about the use of prerecorded
calls. The evidence also shows that Dish knew of the
practice anyway and did nothing about it.
Dish argues that the United States improperly
seeks to impose liability on Dish in Count IV for the
same 43,100,876 calls for which the Court found Dish
liable in Count III at summary judgment. The Court
disagrees. Dish’s actions violated both sections of the
TSR, and the United States is entitled to bring claims
under both sections. See Lary, 780 F.3d at 1105 (11th
Cir. 2015). The Court, in the exercise of its equitable
authority, will limit the United States to one possible
civil penalty award for each of these 43,100,876
abandoned calls under the circumstances of this case.
Dish’s double recovery argument, however, is not a
defense to liability.
E. Dish’s Liability for Civil Penalties to the
United States
The United States asks the Court to impose civil
penalties for Dish’s violations of the TSR. Dish’s
violations of the TSR are treated as violations of a rule
promulgated under the FTC Act regarding unfair or
deceptive acts or practices. 15 U.S.C. § 6102(c)(1). A
violation of such a rule promulgated under the FTC
Act is considered an unfair or deceptive act or practice

280a
in violation of § 5 of the FTC Act. 15 U.S.C. §§ 45(a)
and 57a(1)(B). The United States is entitled to seek
civil penalties for violation of such a rule committed
“with actual knowledge or knowledge fairly implied
on the basis of objective circumstances that such act
is unfair or deceptive and is prohibited by such rule.”
FTC Act § 5(m)(1)(A), 15 U.S.C. § 45(m)(1)(A).
This Court previously stated, “A person also
commits a knowing violation if, under the
circumstances, a reasonable, prudent person would
have known of the existence of the rule and that his
or her acts or omissions violated the rule.” Opinion
445, at 226 (citing United States v. National Financial
Services, Inc., 98 F.3d 131, 139 (4th Cir. 1996) (“A
defendant is responsible where a reasonable person
under the circumstances would have known of the
existence of the provision and that the action charged
violated that provision.”); and S. Conf. Rep. 93-1408,
93d Cong., 2d Sess., 7772 (1974)). The United States
must show “‘knowledge fairly implied on the basis of
objective circumstances’ that the conduct was
prohibited.” Jerman v. Carlisle, McNellie, Rini,
Kramer & Ulrich, LPA, 559 U.S. 573, 584 (2010).
To establish actual knowledge or knowledge fairly
implied, the United States must show that, “the
defendant or its agent have some knowledge, actual
or constructive, of the requirements of the [rule] such
that it can be concluded that the defendant or its
agent knew or should have known that his conduct
was unlawful.” United States v. ACB Sales & Service,
Inc., 590 F. Supp. 561, 575 (D. Ariz. 1984); see FTC v.
Bonnie & Co. Fashions, Inc., No. 90-4454, 1992 WL
314007, at *7 (D.N.J. 1992).

281a
The maximum civil penalty is $11,000 for each
violation before February 9, 2009, and $16,000 for
each violation after that date. Federal Civil Penalties
Inflation Adjustment Act, 28 U.S.C. § 2461 note, 74
Fed. Reg. 857-01 (January 9, 2009). The evidence that
Dish acted with knowledge or knowledge fairly
implied is specific to the particular calls at issue.
1. Count I
a. Registry Calls by Dish
i. Dish Direct Telemarketing
Dish personnel knew that the Registry and the
TSR prohibited Registry Calls unless Dish had
Established Business Relationships with the
intended call recipients. Dish went to great lengths to
prepare for the launch of the Registry. Dish developed
a scrubbing process for Account Number Campaigns
to limit Registry Calls.
Dish personnel also knew from as early as 2004
that Dish direct telemarketing was making illegal
Registry Calls. Beginning in 2004, Dish received
numerous consumer complaints about illegal Registry
Calls. Dish conducted audits in 2007 and 2009 and
found in three-month periods in 2005 and 2008, Dish
made thousands of illegal Registry Calls. Dish
personnel further knew that eCreek’s scrubbing
process did not work correctly sometimes. Dish,
therefore, knew that Registry Calls were generally
prohibited by the TSR and knew that its outbound
telemarketing procedures resulted in Registry Calls
in violation of the TSR.

282a
In addition, Dish used ineffective methods to
determine whether it had a Transaction-based
Established Business Relationship with current and
former customers. Dish knew that the TSR provided
that a Transaction-based Established Business
Relationship existed if the call recipient purchased
goods or services from Dish within the 18 months
immediately preceding the date of the call. 16 C.F.R.
§ 310.2(o). Dish personnel did not follow the clear
language of the TSR. Dish personnel did not check the
dates that intended call recipients paid Dish for Dish
Network programming to determine if Dish had
Transaction-based
Established
Business
Relationships. Dish personnel looked to lists of
current customers and disconnect dates. According to
Taylor’s analysis of Dish’s calling records from 20072010, Dish thereby made over 15 million illegal
Registry Calls to persons who had not paid Dish for
more than 18 months. Dish did not have Transactionbased Established Business Relationships with these
individuals.
Dish is a sophisticated multi-billion dollar
business operation. Dish personnel knew the TSR
definition of an Established Business Relationship.
The definition set the 18-month period from the date
of the last purchase or financial transaction. Such an
enterprise would have known to determine whether a
call recipient purchased goods or services from it
within the last 18 months by checking the last date a
call recipient paid for goods or services. Dish,
however, did not. An enterprise in Dish’s position
would have known that it was improperly calculating
whether it had Transaction-based Established
Business Relationships with current and former

283a
customers. Such an enterprise under the
circumstances would have known that improperly
determining the existence of Established Business
Relationships would result in making illegal
telemarketing calls to persons whose numbers were
on the Registry. Dish, therefore, acted with
knowledge fairly implied when it made these illegal
calls.
Dish personnel also knew that Dish could not call
persons on the Lead Tracking System if the telephone
number was on the Registry. Dish had the burden to
show that it had an Inquiry-based Established
Business Relationship to avoid liability. Dish failed to
meet its burden of proof. Dish failed to present
competent evidence of how it formulated the Lead
Tracking System calling campaigns.
Moreover, the scant evidence about the Lead
Tracking System indicates that the Lead Tracking
System included contact information for any persons
who provided such information to Dish for almost any
reason. PX117, Email thread regarding Dish Taking
a DTV Sale dated August 11, 2004, at PX117-001,
005-006. The Lead Tracking System apparently
included contact information for people who started to
buy online but did not, and people who already
received a telemarketing call but decided not to buy.
Id. The TSR stated that an Inquiry-based Established
Business Relationship is with individuals who
inquired or applied for a product or service offered by
the seller within three months of the date of the
telemarketing call. 16 C.F.R. § 310.2(o). People who
decided not to buy Dish Network programming did
not inquire about Dish Network programming. Dish

284a
failed to meet its burden of proof for the Established
Business Relationship exception for the Lead
Tracking System calls. Dish is liable for civil penalties
for making the Lead Tracking System Registry Calls.
Dish, therefore, made the millions of illegal
Registry Calls from March 25, 2004 to September
2007, and 3,140,920 illegal Registry Calls recorded
from September 2007 to March 2010 with knowledge
or knowledge fairly implied that it was making calls
in violation of the TSR. Dish made an additional
2,386,386 Registry Calls that were also illegal
Internal List Calls. The Court will discuss liability for
these calls in connection with Count II.
Dish presented numerous witnesses who testified
that Dish acted in good faith and never intentionally
made an illegal call. Dish’s expert Kenneth Sponsler
further opined that Dish met industry standards.
Neither good faith nor compliance with industry
standard is a defense. The issue is whether Dish knew
the requirements of the TSR and knew or should have
known that its outbound telemarketing practices
resulted in illegal Registry Calls. The evidence shows
that Dish knew the terms of the TSR and knew or
should have known that their outbound calling
procedures resulted in Registry Calls to persons who
did not have Established Business Relationships with
Dish. The fact that Dish employees acted in good faith
when they knowingly made such calls or that industry
standards would allow such illegal calls is not a
defense.
The only applicable defense is the TSR safe
harbor defense. Dish’s expert Sponsler acknowledged

285a
as much in his testimony. See T 633:3451, 3507-08
(Sponsler). Dish did not comply with the TSR safe
harbor provisions. Dish did not have written
procedures to prevent calling persons whose numbers
were on the Registry in Account Number Campaigns.
Dish did not maintain records to document the use of
such a process. Dish further did not present
competent material evidence concerning any
procedures, written or unwritten, that Database
Marketing may have used to ensure that the Lead
Tracking System and Cold Call calling campaigns
complied with the TSR. 16 C.F.R. § 310.4(b)(1)(iii);
Opinion 445, at 163-65 75 Dish knew that some of its
calls were illegally made to numbers on the Registry,
and Dish did not comply with the safe harbor
provisions to avoid liability for such calls. Dish made
millions of Registry Calls in the 2003-2007 Calling
Records from March 25, 2004 to August 2007, and
3,140,920 Registry Calls from September 2007 to
March 2010 with knowledge or knowledge fairly
implied that it was making calls in violation of the
TSR. Dish is liable for civil penalties for these calls.
ii. Calls by Order Entry Retailers to
Persons Whose Numbers Were on the
Registry
Dish knew the TSR prohibited causing
telemarketers to make Registry Calls, Internal List
Calls, and abandoned calls. 16 C.F.R. §310.4(b)(1).
Dish also had knowledge fairly implied under
objective circumstances it could be held liable under
the TSR for causing the actions of telemarketers that
it authorized to sell its programming and services
through telemarketing. Dish was a sophisticated

286a
enterprise with knowledgeable counsel. Dish put
together the Working Group a year ahead of time to
prepare for the TSR. Under these objective
circumstances, Dish would have known that it would
be liable for telemarketers’ actions. In 2004, the FTC
published a Guide for complying with the TSR which
alerted Dish to its responsibility for its Order Entry
Retailers:
The FTC published a guide to help sellers
comply with the TSR. Plaintiffs’ Response,
(Guide). The Guide discussed the seller’s
liability for the telemarketer’s actions:
What happens if a consumer is called
after he or she has asked not to be
called? If a seller or telemarketer calls a
consumer who has:


placed his number on the National
Registry [the List]



not given written and signed permission
to call



either
no
established
business
relationship with the seller, or has asked
to get no more calls from or on behalf of
that seller…

the seller and telemarketer may be liable for
a Rule violation. If an investigation reveals
that neither the seller nor the telemarketer
had written Do Not Call procedures in place,
both will be liable for the Rule violation. If the

287a
seller had written Do Not Call procedures, but
the telemarketer ignored them, the
telemarketer will be liable for the Rule
violation; the seller also might be liable,
unless it could demonstrate that it monitored
and enforced Do Not Call compliance and
otherwise
implemented
its
written
procedures. Ultimately, a seller is responsible
for keeping a current entity-specific Do Not
Call list, either through a telemarketing
service it hires or its own efforts.
Under the FTC interpretation of the TSR, a
seller “causes” the telemarketing activity of a
telemarketer by retaining the telemarketer
and authorizing the telemarketer to market
the seller’s products and services. According
to the Guide, the seller is liable for the
telemarketer’s violations of the TSR unless
the safe harbor provisions apply.
Opinion 20, at 13-15, (quoting excerpts from FTC
Guide, Complying with the Telemarketing Sales Rule
(January 2004) (FTC Guide) (emphasis in the
original)).
A sophisticated enterprise in Dish’s position with
Dish’s legal staff would have known that the FTC
Guide stated that the seller was ultimately
responsible for the actions of its telemarketers,
“unless it could demonstrate that it monitored and
enforced Do Not Call compliance and otherwise
implemented its written procedures.” FTC Guide.
Dish knew that it did not enforce Do-Not-Call
compliance on its Order Entry Retailers and did not

288a
require Order Entry Retailers to implement any
written procedures. Dish’s only written procedures,
the Quality Assurance Program, did not concern or
monitor Do-Not-Call Law compliance. Under these
circumstances, a person in Dish’s position would have
known that it was responsible for causing the Order
Entry Retailers’ violations.
Dish argues that it should not be held vicariously
liable for actions of Order Entry Retailers because
they were independent contractors. However, Dish’s
liability for causing the acts of its Order Entry
Retailers is not vicarious liability. Rather, sellers
cause telemarketers to make Registry Calls, Internal
List Calls, and abandoned calls by retaining and
authorizing Retailers to market the sellers’ products.
Opinion 20, at 13-15. Sellers that employ
telemarketers direct liability for causing the
telemarketers’ illegal Registry Calls, Internal List
Calls, and abandoned calls.
Vicarious liability, however, may be an alternate
basis for imposing liability on sellers such as Dish for
the acts of agents. See ACB Sales & Service, Inc., 590
F. Supp. at 575 n.11 (principal may be liable if agent
had knowledge of the law and knowledge that the acts
violated the law). Dish, for example, has conceded
that it is responsible under the TSR for the acts its
agents, Telemarketing Vendors eCreek and EPLDT.
Dish is similarly responsible for the actions of the
Order Entry Retailers that were also its agents. As
discussed above, the Order Entry Retailers were
acting within the scope of their agency when they
made the illegal Registry Calls, Internal List Calls,
and Abandoned Prerecorded Calls.

289a
The TSR civil penalty provisions require not only
proof of the illegal acts, but proof of knowledge or
knowledge
fairly
implied
under
objective
circumstances that the acts violated the TSR. The
knowledge of the agent about a matter material to an
agent’s duties is imputed to the principal unless the
agent is acting adversely to the principal. National
Product Workers Union Insurance Trust v. Cigna
Corporation, 665 F.3d 897, 903 (7th Cir. 2011); Pekin
Life Insurance Co. v. Schmid Family Irrevocable
Trust, 359 Ill. App. 3d 674, 681, 834 N.E.2d 531, 53637 (Ill. App. 1st Dist. 2005); Restatement (Third) of
Agency, § 5.03. An agent acts adversely to the
principal when the agent intends to act solely for the
agent’s own purposes or those of another person.
Restatement (Third) of Agency, § 5.04; see Hartman v.
Prudential Ins. Co. of America, 9 F.3d 1207, 1210 (7th
Cir. 1993). In this case, the Order Entry Retailers
were Dish’s agents authorized to market Dish
Network programming. The manner in which they
conducted telemarketing was material to their duties
as marketing agents. The Order Entry Retailers’
knowledge of telemarketing activities is therefore
imputed to Dish.
Dish argues that the Order Entry Retailers were
acting adversely to Dish because they were using
illegal methods and because they had high churn
rates. See Dish Network, L.L.C.’s Proposed Post-Trial
Conclusions of Law (d/e 666), at 31 (citing United
States v. One Parcel of Land Located at 7326 Highway
45 North, Three Lakes, Onieda County, Wis., 965 F.2d
311, 317 (7th Cir. 1992)). The Court disagrees. In the
case cited by Dish, One Parcel of Land, the agent
acted adversely because he sold illegal drugs on the

290a
principal’s property solely for his own benefit. Id. The
Order Entry Retailers were acting at least in part for
the benefit of Dish because they were selling Dish
Network programming. The Order Entry Retailers
may have used illegal means and may or may not
have been effective, but they were not acting solely for
their own benefit. The knowledge of the Order Entry
Retailers about the conduct of telemarketing is
imputed to Dish.
Dish also cites a case involving an employeremployee relationship to argue that the United States
must prove that Order Entry Retailers received the
knowledge of their illegal acts while acting within the
scope of authority and that they had a duty to speak
to Dish. Dish Conclusions of Law (d/e 666), at
31(citing
Juarez
v.
Ameritech
Mobile
Communications, Inc., 957 F.2d 317, 321 (7th Cir.
1992). The Juarez opinion described principles of
imputed
knowledge
in
employer-employee
relationships. This case does not involve employment
relationships. The general principles of agency apply.
Under general agency principles, the knowledge of
Order Entry Retailers about the subject of the agency,
the marketing of Dish Network programming, is
imputed to Dish.
General agency principles do not apply to impose
vicarious liability for punitive damages on the
principal for the acts of its agents done within the
scope of the agency. Under the agency law of the
United States and the Plaintiff States, a principal is
vicariously liable for punitive damages awarded for
the actions of its agents if the principal or a manager
of a corporate principal knew of the actions or later

291a
ratified the actions. See City of Chicago v.
Matchmaker Real Estate Sales Center, Inc., 982 F.2d
1086, 100 (7th Cir. 1992) (applying federal law);
accord Jannotta v. Subway Sandwich Shops, Inc., 125
F.3d 503, 514 (7th Cir. 1997) (applying Illinois law);
Cal. Civ. Code § 3294(b); N.C. Gen. Stat. § 1D-15(c))
Ohio Rev. Code Ann. § 2315.21(C)(1); Restatement
(Third) of Agency, § 7.03 comment e (2006) (citing
with approval Restatement (Second) of Torts, § 909).
Restatement (Third) of Agency § 7.03 comment e
states that with respect to a statute that authorizes a
penalty, “unless the language of the statute itself
resolves the question, the determination should
reflect the purpose of the statute.” The Court directed
the parties to submit supplemental briefing to
address whether agency law regarding a principal’s
liability for punitive damages for the actions applied
to the claims for monetary relief in this action.
Opinion entered February 9, 2017 (d/e 766) (Opinion
766).
Upon careful consideration of the parties’
supplemental submissions on this issue and the
Court’s research, the Court concludes that, in light of
the purpose of the FTC Act, the special agency rules
for punitive damages do not apply to liability for civil
penalties under § 5(m) of the FTC Act. The FTC Act
serves a markedly different purpose than punitive
damages. Punitive damages punish egregious or
outrageous conduct done with evil motive or reckless
disregard for the rights or interest of others. See
Restatement (Second) of Torts, § 908 (1979). Congress
authorized FTC Act civil penalties as part of an array

292a
of remedial tools to effectuate the purposes of the FTC
Act, not to punish outrageous or egregious conduct.
Congress enacted the FTC Act to establish an
expert administrative body to stop unfair and
deceptive practices in the marketplace. Section 5 of
the FTC Act originally prohibited unfair methods of
competition and authorized the FTC to issue orders to
cease and desist such practices. See FTC Act, § 5, 38
Stat. 717, 719, codified at 15 U.S.C. § 5; H.R. CONF.
REP. NO. 1142, 63d Cong., 2d Sess. 19 (1914). In
1938, Congress amended Section 5 the FTC Act to
also prohibit unfair and deceptive acts and practices.
See Act of March 21, 1938, ch. 49 § 3, 52 Stat. at 11112 (Wheeler-Lea Amendments) (amending FTC Act,
§ 5(a)). Congress also authorized civil penalties for
violations of cease and desist orders. Wheeler-Lea
Amendments § 5(l), 52 Stat. 111, 114, codified as 15
U.S.C. § 45(l). Congress subsequently authorized civil
penalties for violations of FTC rules done “with actual
knowledge or knowledge fairly implied on the basis of
objective circumstances” that the acts violated the
rule. Magnuson-Moss Warranty—Federal Trade
Commission Improvement Act of 1975, Pub. L. No. 93637, tit. II § 205, 88 Stat. 2183, 2193, codified at 15
U.S.C. § 45(m).
Congress added civil penalties to ensure
compliance with FTC cease and desist orders and FTC
regulations, not to punish egregious or outrageous
conduct. Section 5(m) does not require proof of
outrageous or egregious violations. That section only
requires knowledge or knowledge fairly implied under
objective circumstances that the acts in question
violated the applicable rule. Congress made

293a
culpability a factor in determining the amount of
penalties, but not to determining liability for
penalties.
Applying agency punitive damages principles to
FTC Act § 5(m) civil penalties would interfere with
the Congressional goals of effective enforcement.
Sellers would have incentives to avoid monitoring
telemarketers so that they could assert a defense of
no actual knowledge to TSR and FTC Act claims for
civil penalties. The TCPA requirement to show an
agency relationship between seller and telemarketer
has already discouraged some sellers from monitoring
telemarketers.
These
sellers
have
avoided
implementing
Do-Not-Call
monitoring
or
enforcement procedures over telemarketers in order
to assert a defense of no agency to TCPA claims. T
715: 817 (Sponsler). Applying punitive damages
principles to TSR civil penalties would create
additional incentives to avoid implementing Do-NotCall Law compliance policies and procedures for
telemarketers. This result is directly contrary to
Congressional purposes of FTC Act § 5(m) civil
penalties. The civil penalties exist to enforce
compliance with the TSR, not discourage compliance.
The Supreme Court has determined in the context
of Title VII of the Civil Rights Act of 1964 that agency
law principles do not apply to statutory claims when
the agency law would frustrate Congressional
purposes. The Supreme Court stated that applying
common law agency principles in Title VII punitive
damages “would reduce incentives for employers to
implement
antidiscrimination
programs.…
Dissuading employers from implementing programs

294a
or policies to prevent discrimination in the workplace
is directly contrary to the purposes underlying Title
VII.”). Kolstad v. American Dental Association, 527
U.S. 526, 544-46 (1999). Similarly here, applying
agency rules for punitive damages to FTC Act § 5(m)
civil penalties would frustrate the purpose of the FTC
Act. See Id.; Restatement (Third) of Agency § 7.03
comment e, (The applicability of the punitive damages
rules to statutory penalties “should reflect the
purposes of the statute.”). The agency principles for
vicarious liability for punitive damages, therefore, do
not apply to FTC Act § 5(m) civil penalties.
Dish may be liable for civil penalties directly for
causing Order Entry Retailers to make Registry
Calls, Internal List Calls, and Abandoned
Prerecorded Calls; and, alternatively, may be liable
vicariously for civil penalties for the actions of their
agents done within the scope of the agency, including
the Order Entry Retailers who violated the TSR by
making Registry Calls, Internal List Calls, and
Abandoned Prerecorded Calls, when done with the
requisite knowledge or knowledge fairly implied
under objective circumstances.
Pursuant to these legal principles, Dish acted
with knowledge fairly implied when it caused JSR to
make 2,349,031 illegal Registry Calls in 2006. Dish
retained JSR as an Order Entry Retailer to market
Dish Network programming. Dish authorized JSR to
conduct telemarketing. Under the objective
circumstances of this case, Dish knew or should have
known that it was liable under the TSR for causing
JSR’s illegal Registry Calls. Dish did not provide JSR
with written Do-Not-Call compliance procedures.

295a
Dish is liable for civil penalties for causing JSR to
make these illegal Registry Calls.
Alternatively, Dish is liable because JSR was
Dish’s agent or subagent for telemarketing Dish
Network programming in 2006. Dish was liable for
JSR’s actions within the scope of the agency. JSR’s
Registry Calls were within the scope of the agency.
Dish and JSR knew that making telemarketing calls
to persons whose numbers were on the Registry
violated the TSR. One of JSR’s partners, Goodale,
knew JSR was making illegal Registry Calls. Goodale
knew that his partners did not scrub calling lists to
remove numbers on the Registry. This knowledge is
imputed to Dish. Furthermore, Dish received
consumer complaints that JSR was making Registry
Calls. Dish acted with knowledge fairly implied under
objective circumstances when its agent JSR made
2,349,031 illegal Registry Calls in 2006.
Dish acted with knowledge fairly implied when it
caused JSR to make 3,315,242 illegal Registry Calls
in 2007. Dish retained JSR as an Order Entry
Retailer to market Dish Network programming. Dish
authorized JSR to conduct telemarketing through
February 14, 2007. Dish retained the other Order
Entry Retailer through which JSR conducted
telemarketing after February 15 and March 2007.
Under the objective circumstances of this, case Dish
knew or should have known that it was liable under
the TSR for causing JSR’s illegal Registry Calls either
directly as an Order Entry Retailer or through the
other Order Entry Retailer. Dish did not provide any
Order Entry Retailer with written Do-Not-Call
compliance procedures. Dish is liable for civil

296a
penalties for causing JSR to make these illegal
Registry Calls.
Dish is vicariously liable for the millions of calls
that JSR made as Dish’s agent until Dish terminated
JSR as an Order Entry Retailer on February 14, 2007.
JSR knew it was making Registry Calls and that such
calls were illegal. This knowledge is imputed to Dish.
Thereafter, JSR made the calls through March 2007
through an Order Entry Retailer. The United States
has not shown that Dish had knowledge of these calls
or authorized JSR to act as a sub agent when it made
these calls. The United States has proven that Dish
vicariously liable under agency principles when it
acted with knowledge fairly implied through its agent
JSR to make millions of Registry calls in 2007, but the
United States has not proven the number of calls.
Dish acted with actual knowledge or knowledge
fairly implied when it caused Satellite Systems to
make 381,811 Registry Calls between May 2010 and
August 2011. Dish retained Satellite Systems as an
Order Entry Retailer to market Dish Network
programming. Dish authorized Satellite Systems to
conduct telemarketing. Under the objective
circumstances of this, case Dish knew or should have
known that it was liable under the Satellite Systems
for causing Satellite Systems’ illegal Registry Calls.
Dish did not provide Satellite Systems with written
Do-Not-Call compliance procedures. Moreover, Dish
personnel knew that Satellite Systems was making
Registry Calls. Dish was receiving so many
complaints about these calls that Dish’s legal
department had developed a standard “go after
Satellite Systems” letter to send to complaining

297a
individuals. The evidence shows that Dish knew
about these calls and decided to keep Satellite
Systems as an Order Entry Retailer. Dish knew that
it was causing Satellite Systems to make these
381,811 Registry Calls. Dish is liable for civil
penalties for these calls.
Alternatively, Dish is vicariously liable for its
agent Satellite Systems’ 381,811 illegal Registry
Calls. Dish knew Registry Calls violated the TSR.
Dish further knew that Satellite Systems was making
these illegal calls. Dish consciously decided to do
nothing about it. Dish told injured consumers to go
after Satellite Systems. Dish therefore is liable for
civil penalties for these calls.
2. Count II
a. Internal List Calls to Persons Who Stated
to Dish and the Telemarketing Vendors
That They did not Wish to Receive Calls
by or on Behalf of Dish
Dish acted with knowledge or knowledge fairly
implied under objective circumstances when Dish and
its Telemarketing Vendors made 903,246 Internal
List Calls between September 2007 and March 2010
to persons who previously stated to Dish or one of the
Telemarketing Vendors that they did not wish to
receive telemarketing calls by or on behalf of Dish.
Dish personnel clearly knew that it was not supposed
to call individuals who told Dish or its Telemarketing
Vendor that they did not wish to receive
telemarketing calls by or on behalf of Dish. Dish has
maintained an Internal Do-Not-Call List since 1998.

298a
Dish further required its Telemarketing Vendor
eCreek provide Dish with its Do-Not-Call requests.
Telemarketing Vendor EPLDT used Dish’s dialers
and put its Do-Not-Call requests onto Dish’s Internal
Do-Not-Call List directly. Dish personnel also knew
from its investigations of consumer complaints and its
internal audits that it made calls to persons on
Internal Do-Not-Call Lists. The Court finds that a
person in Dish’s position would have known that it
was making these illegal calls.
Dish acted with knowledge or knowledge fairly
implied under objective circumstances when Dish
made 140,349 Internal List Calls between September
2007 and March 2010 to persons who previously
stated to Dish’s Telemarketing Vendor eCreek that
they did not wish to receive telemarketing calls by or
on behalf of Dish. Again, Dish personnel knew that
Dish was not supposed to call individuals who told its
Telemarketing Vendor that he or she did not wish to
receive telemarketing calls by or on behalf of Dish.
Dish further had eCreek provide Dish with Do-NotCall requests made to eCreek. Dish personnel also
knew from its investigations of consumer complaints
that it made calls to persons on Internal Do-Not-Call
Lists. The Court finds that a person in Dish’s position
would have known that it was making these calls.
Dish acted with knowledge or knowledge fairly
implied under objective circumstances when Dish and
the Telemarketing Vendors made 7,321,163 Internal
List Calls between September 2007 and March 2010
to persons who previously stated to Dish Order Entry
Retailers that they did not wish to receive
telemarketing calls by or on behalf of Dish. Dish knew

299a
that it was required to honor do-not-call requests
made to its marketing agents. Dish, in fact, honored
the do-not-call requests made to eCreek and EPLDT.
The Order Entry Retailers were Dish’s marketing
agents. Under these objective circumstances, a person
in Dish’s position would have known to honor do-notcall requests made to Order Entry Retailers. Dish
made no attempt to honor do-not-call requests to
Order Entry Retailers prior to April 2008. Dish did
not collect Order Entry Retailers’ Internal Do-NotCall Lists until April 2008. Thereafter, Dish made the
illegal calls even with access to some of the Order
Entry Retailers’ Internal Do-Not-Call Lists. Dish’s
investigation of consumer complaints showed that it
was making calls to people on Internal Do-Not-Call
Lists. The Court finds that under the objective
circumstances in this case, a person in Dish’s position
would have known the requirements of the TSR and
known that these calls violated those requirements.
Dish argues that it should not be subject to civil
penalties for these calls because Dish could not have
known that this Court would find that it was
obligated to honor do-not-call requests made to Order
Entry Retailers. Dish argues that the question of
whether it had to honor do-not-call requests to Order
Entry Retailers was undecided until the Court made
these findings of fact and conclusions of law. Dish
argues that the fact that Plaintiffs had to prove an
agency relationship with Order Entry Retailers was
unknown until the Court entered partial summary
judgment. Dish argues that a person in its position in
2004 to 2010 would not have known that it had to
honor do-not-call requests to Order Entry Retailers.

300a
The Court disagrees. Dish knew that it had to
honor do-not-call requests made to its telemarketing
agents. Dish set up procedures to honor Do-Not-Call
requests made to its agents eCreek and EPLDT. The
Court’s conclusion that Order Entry Retailers were
Dish’s marketing agents was based on wellestablished principles of agency law. Under the
objective circumstances of this case, a reasonable
person in Dish’s position would have known that
Order Entry Retailers were marketing agents. Such a
person would have known not to call people who told
Order Entry Retailers not to make telemarketing
calls by or on behalf of Dish. Dish is liable for civil
penalties on these 7,321,163 calls.
b. Internal List Calls by Order Entry
Retailers
Dish acted with knowledge or knowledge fairly
implied when Dish caused JSR to make 418,228
Internal List Calls in 2006 to persons who stated to
Dish or the Telemarketing Vendors that they did not
wish to receive telemarketing calls by or on behalf of
Dish. JSR was Dish’s agent or subagent for
telemarketing Dish Network programming in 2006.
Dish knew that making telemarketing calls to
persons who stated that they did not wish to be called
by or on behalf of Dish violated the TSR. Dish further
knew that its agents had to honor Do-Not-Call
requests made to Dish.
Dish acted with knowledge or knowledge fairly
implied when Dish caused JSR to make hundreds of
thousands of Internal List Calls from January
through February 14, 2007, to persons who stated to

301a
Dish or the Telemarketing Vendors that they did not
wish to receive telemarketing calls by or on behalf of
Dish. JSR was Dish’s agent or subagent for
telemarketing Dish Network programming. Dish
knew that making telemarketing calls to persons who
stated that they did not wish to be called by or on
behalf of Dish violated the TSR. Dish further knew
that its agents had to honor Do-Not-Call requests
made to Dish. The United States proved that JSR
made 768,696 such calls from January through March
2007, but did not prove the number made while JSR
was an agent of Dish prior to February 14, 2007.
Dish acted with knowledge or knowledge fairly
implied when Dish caused JSR to make 267,439
Internal List Calls in 2006 to persons who stated to
Order Entry Retailers that they did not wish to
receive telemarketing calls by or on behalf of Dish.
JSR was Dish’s agent or subagent for telemarketing
Dish Network programming from July 2006 to
February 14, 2007. The other Order Entry Retailers
were also Dish’s marketing agents. Dish knew that
making telemarketing calls to persons who stated
that they did not wish to be called by or on behalf of
Dish violated the TSR. Dish further knew that its
agents had to honor Do-Not-Call requests made to
Dish or its other agents.
Dish acted with knowledge or knowledge fairly
implied when Dish caused JSR to make hundreds of
thousands of Internal List Calls from January
through February 14, 2007, to persons who stated to
Order Entry Retailers that they did not wish to
receive telemarketing calls by or on behalf of Dish.
JSR was Dish’s agent or subagent for telemarketing

302a
Dish Network programming from July 2006 to
February 14, 2007. Dish knew that making
telemarketing calls to persons who stated that they
did not wish to be called by or on behalf of Dish
violated the TSR. Dish further knew that its agents
had to honor do-not-call requests made to Dish or its
other agents. The United States proved that JSR
made 526,956 such calls from January through March
2007, but the United States did not prove the number
made while JSR was an agent of Dish prior to
February 14, 2007.
Dish acted with knowledge or knowledge fairly
implied when Dish caused Satellite Systems to make
22,946 telemarketing calls to persons who stated to
Dish that they did not wish to receive telemarketing
calls by or on behalf of Dish. Satellite Systems was
Dish’s agent for telemarketing Dish Network
programming. Dish knew that making telemarketing
calls to persons who stated that they did not wish to
be called by or on behalf of Dish violated the TSR.
Dish further knew that its agents had to honor do-notcall requests made to Dish or its other agents.
Dish acted with knowledge or knowledge fairly
implied when Dish caused Satellite Systems to make
42,990 telemarketing calls to persons who stated to
Dish that they did not wish to receive telemarketing
calls by or on behalf of Dish. Satellite Systems was
Dish’s agent for telemarketing Dish Network
programming. Dish knew that making telemarketing
calls to persons who stated that they did not wish to
be called by or on behalf of Dish violated the TSR.
Dish further knew that its agents had to honor do-notcall requests made to Dish or its other agents.

303a
3. Count III
a. Prerecorded Abandoned Calls Made by
Dish
Dish acted with knowledge or knowledge fairly
implied when it made 98,054 Abandoned Prerecorded
Calls that were answered by a person and abandoned
those calls in violation of TSR 16 C.F.R. §
310.4(b)(4)(iv) Dish personnel knew that Prerecorded
Calls were illegal. The FTC stated in 2003 and 2004
that Prerecorded Calls that were answered by a
person were abandoned calls in violation of the TSR.
2003 TSR Statement of Basis and Purpose, 68 Fed.
Reg. 4580, 4644 (January 29, 2003); 2004 Notice, 69
Fed. Reg. 67287 (November 17, 2004); see Opinion
445, at 21-23. The courts that have addressed this
issue all agreed that Prerecorded Calls were
abandoned calls. The Broadcast Team, Inc. v. F.T.C.,
429 F.Supp.2d 1292, 1300-01 (M.D. Fla. 2006); F.T.C.
v. Asia Pacific Telecom, Inc., 802 F.Supp.2d 925, 929
(N.D. Ill. 2011).
Dish argues that courts disagree on this issue.
Dish cites National Federation of the Blind v. F.T.C.,
420 F.3d 331, 341 (4th Cir. 2005). The National
Federation of the Blind case addressed the effect of
the abandonment provision on First Amendment
rights. The case did not mention Prerecorded Calls.
The cases that address Prerecorded Calls are not in
conflict. Prerecorded Calls that are answered are
abandoned calls that violate the TSR.
Dish also notes that the FTC stated in 2006 that
some individuals criticized the abandonment

304a
provision as ambiguous. Telemarketing Sales Rule,
Denial of Petition for Proposed Rulemaking, 71 Fed.
Reg. 58716, 58726 (October 4, 2006). The FTC stated,
however, that the provision was not ambiguous and
clearly covered Prerecorded Calls. “The Commission
continues to think that the plain language of the call
abandonment provision itself prohibits calls
delivering prerecorded messages when answered by a
consumer, a position it has repeatedly stated, and
that has been accepted by at least one
court.”(Footnotes omitted). Id. The FTC has
consistently interpreted § 310.4(b)(4)(iv) to cover
Prerecorded Calls that are answered.
A sophisticated business enterprise in Dish’s
situation with both in-house and outside counsel
would have known that Prerecorded Calls that were
answered were Abandoned Prerecorded Calls that
violated the TSR. The evidence also proves that Dish
personnel in fact knew that Prerecorded Calls were
illegal. Dish’s arguments to the contrary are not
persuasive.
With this knowledge, Dish made the Prerecorded
Calls, and 98,054 of the calls were answered. A person
in Dish’s position would have known that these calls
violated the TSR. Dish Outbound Operations
personnel knew such calls were prohibited. Dish is
liable for civil penalties for these calls. Dish acted
with knowledge and knowledge fairly implied under
objective circumstances.

305a
b. Abandoned Prerecorded Calls Made by
Order Entry Retailers
Dish acted with knowledge or knowledge fairly
implied based on objective circumstances when it
caused Dish TV Now to make 6,637,196 Abandoned
Prerecorded Calls that were answered by a person
and abandoned in violation of the TSR. Dish TV Now
was an Order Entry Retailer. Dish caused Dish TV
Now to engage in telemarketing because Dish
retained Dish TV Now as an Order Entry Retailers
and authorized Dish TV Now to engage in
telemarketing Dish Network programming. Dish took
no step to enforce or monitor Do-Not-Call compliance.
Under the objective circumstances in this case, a
person in Dish’s position knew or should have known
that Prerecorded Calls that were answered by a
person were abandoned calls in violation of the TSR.
Dish is liable for civil penalties for these calls. Dish is,
therefore, liable for civil penalties for causing Dish TV
Now to make these illegal Abandoned Prerecorded
Calls.
Alternatively, Dish is liable for civil penalties for
the actions of its agent Dish TV Now. Dish’s agent
Dish TV Now made these Abandoned Prerecorded
Calls through Guardian. Dish TV Now’s knowledge of
these Abandoned Prerecorded Calls is imputed to
Dish. Under these circumstances Dish is alternatively
liable for its agents’ illegal calls.
Dish acted with actual knowledge when it caused
Star Satellite to make 43,100,876 Abandoned
Prerecorded Calls that were answered by a person
and abandoned in violation of the TSR. Dish caused

306a
Star Satellite to engage in telemarketing because
Dish retained Star Satellite as an Order Entry
Retailers and authorized Star Satellite to engage in
telemarketing Dish Network programming. Dish had
actual knowledge that Star Satellite was making
Prerecorded Calls. Dish received repeated consumer
complaints beginning in late 2004 or early 2005 that
Star Satellite was making Prerecorded Calls. Dish
Outbound Operations Manager Bangert further knew
that Star Satellite was making prerecorded calls.
Bangert sent notice of Star Satellite’s practices to
Dish’s Retail Escalations Department. Dish personnel
did nothing about Star Satellite’s Prerecorded Calls.
Under the objective circumstances, a person in Dish’s
position would have known that Star Satellite was
making Prerecorded Calls to sell Dish Network
programming and, that when individuals answered
such calls, the calls would become Abandoned
Prerecorded Calls in violation of the TSR.
Alternatively Dish is liable for civil penalties for
the actions of its agent Star Satellite. Star Satellite
was an agent of Dish when it had Guardian make
these Prerecorded Calls. As Dish’s agent, Star
Satellite knew that Guardian was making
Prerecorded Calls on its behalf. Dish also knew that
Star Satellite made these Prerecorded Calls. Dish
knew or reasonably should have known that
Prerecorded Calls that were answered by a person
were abandoned calls in violation of the TSR. Dish is,
alternatively, liable for civil penalties for these
actions of its agent Star Satellite.
Dish acted with actual knowledge or knowledge
fairly implied when it caused JSR to make 1,285,379

307a
Prerecorded Calls that were answered by a person
and Abandoned Prerecorded Calls in violation of the
TSR. Dish caused JSR and the other Order Entry
Retailers through which JSR worked to engage in
telemarketing because Dish retained them as Order
Entry Retailers and authorized them to engage in
telemarketing Dish Network programming. Dish had
actual knowledge that Star Satellite was making
Prerecorded Calls. Vice President Mills, Regional
Sales Manager Oberbillig, and Dish Representative
Tchang knew from the beginning that JSR was
making “press 1” prerecorded telemarketing calls.
Dish, therefore, knew that JSR was making
Prerecorded Calls to sell Dish Network programming.
A person in Dish’s position would have known that
when individuals answered those calls, the calls
would become Abandoned Prerecorded Calls in
violation of the TSR. Dish is liable for civil penalties
for these calls.
Alternatively, Dish is liable for the Abandoned
Prerecorded Calls that JSR made as Dish’s agent.
JSR was an agent or subagent of Dish when it made
many of these Prerecorded Calls prior to February 14,
2007. Dish personnel knew its agent JSR was making
Prerecorded Calls. Dish knew or reasonably should
have known that Prerecorded Calls that were
answered by a person were Abandoned Prerecorded
Calls in violation of the TSR. The United States,
however, did not prove the number of calls that were
made before February 14, 2007. Under the agency
analysis, Dish is liable for penalties for these
Abandoned Prerecorded Calls, but the number of calls
that JSR made while Dish’s agent has not been
proven.

308a
Dish acted with knowledge or knowledge fairly
implied when it caused American Satellite to make
the one Abandoned Prerecorded Call proven at
summary judgment, and also, many more Abandoned
Prerecorded Calls that were answered and abandoned
in violation of the TSR. American Satellite was an
Order Entry Retailer. Dish caused American Satellite
to engage in telemarketing because Dish retained
American Satellite as an Order Entry Retailer and
authorized American Satellite to engage in
telemarketing Dish Network programming. Under
the objective circumstances in this case, a person in
Dish’s position knew or should have known that
Prerecorded Calls that were answered by a person
were abandoned calls in violation of the TSR. Dish is
liable for civil penalties for the one call.
Dish also acted with actual knowledge when it
caused American Satellite to make many more
Abandoned Prerecorded Calls. Castillo told Musso
and Eichhorn that American Satellite was making
Prerecorded Calls. Dish knew or reasonably should
have known that Prerecorded Calls that were
answered by a person were Abandoned Prerecorded
Calls in violation of the TSR. The United States has
not proven the number of such Abandoned
Prerecorded Calls that it caused American Satellite to
make.
Alternatively, Dish is liable for civil penalties for
the actions of its agent American Satellite. American
Satellite was an Order Entry Retailer and, so, an
agent of Dish. As Dish’s agent, American Satellite
knew that it was making Prerecorded Calls, including
the one call proven at summary judgment. This

309a
knowledge is imputed to Dish. Under the objective
circumstances, a person in Dish’s position knew or
should have known that the call was an Abandoned
Prerecorded Call in violation of the TSR. Dish is liable
for civil penalties for this action of its agent American
Satellite. Dish is also liable for civil penalties for the
many more abandoned calls that American Satellite
made, but the number of such calls has not been
proven.
4. Count IV
Dish acted with knowledge when it provided
substantial assistance to Star Satellite after it knew
that Star Satellite was using Prerecorded Abandoned
Calls to sell Dish Network programming and
continued to pay them and do business with them as
an Order Entry Retailer. Dish is liable for civil
penalties for providing substantial assistance to Star
Satellite to make the 43,100,876 Abandoned
Prerecorded Calls in violation of the TSR 16 C.F.R. §
310.3(b). The Court, however, determines that it will
impose only one civil penalty for these calls even
though the United States proved liability in both
Count III and Count IV. The total violations are so
large and the amount of the potential civil penalty is
so high that the Court finds that one penalty for each
call is sufficient in this case.
5. Continual Violations
Dish argues, alternatively, that the violations
should be counted as one continual refusal to comply
with the TSR rather than separate violations for each
call. In cases of a continual refusal to comply with an

310a
FTC rule, the FTC Act authorizes a penalty of up to
$11,000.00 per day before February 9, 2009, and
$16,000.00 per day thereafter. 15 U.S.C.
§ 45(m)(1)(C). The continual violation provision may
apply when a party continues to violate the FTC Rule
but the number of violations is unclear. See F.T.C. v.
Hughes, 710 F.Supp. at 1529. The FTC Act, however,
also authorizes a penalty of up to $11,000.00 before
February 9, 2009, and $16,000.00 thereafter for each
violation of an FTC rule. 15 U.S.C. § 45(m)(1)(A). The
TSR, states that causing an illegal call is a violation.
TSR 16 C.F.R. § 310.4(b). The United States has
proven millions of calls. Each call proven is a separate
violation and, so, Dish may be liable for a separate
penalty for each such call. A per violation approach is
appropriate in this case for the number of proven
illegal calls that Dish caused with knowledge or
knowledge fairly implied.
The daily penalty may be appropriate for the
millions of illegal calls that Dish made or caused with
knowledge or knowledge fairly implied under
objective circumstances of this case, but the number
of which the United States did not prove with
sufficient certainty. The United States, however, did
not ask for such an additional penalty so the Court
will not award such a sum. The maximum possible
penalty for the proven calls is so large that an
additional daily penalty is not necessary to serve the
interests of justice.
The FTC Act directs the Court to consider several
factors when determining the appropriate penalty,
including the ability to pay and to continue to do
business. 15 U.S.C. § 45(m)(1)(C). Dish’s ability to pay

311a
and to continue to do business will depend, in part, on
the amount of penalties and statutory damages that
are appropriate under the other Counts in this case.
The Court determines the appropriate amount of the
penalties or statutory damages for all Counts below
after determining liability generally and liability for
penalties or statutory damages in the remaining
Counts.
F. Counts V and VI Plaintiff States TCPA
Claims
1.

Count V

Count V is the first of two claims brought by
the Plaintiff States for violations of TCPA.
Count V alleges in pertinent part:
DISH Network, either directly or indirectly as
a result of a third party acting on its behalf,
has violated 47 C.F.R. § 64.1200(c)(2) and 47
U.S.C. § 227(c), by engaging in a pattern or
practice of initiating telephone solicitations to
residential telephone subscribers, including
subscribers in California, Illinois, North
Carolina, and Ohio whose telephone numbers
were listed on the National Do Not Call
Registry.
Third Amended Complaint, ¶ 72. The Plaintiff States
further allege that Dish’s violations were willful and
knowing. Third Amended Complaint, ¶ 73.
Count V contains two parts: (1) Dish allegedly
engaged in a pattern or practice of making

312a
telemarketing calls to residents of the Plaintiff States
who registered their residential telephone numbers
on the Registry; and (2) Retailers acting on Dish’s
behalf allegedly engaged in a pattern or practice of
making telemarketing calls to residents of the
Plaintiff States who registered their residential
telephone numbers on the Registry. The statute of
limitations is four years under the TCPA, and so, the
period of liability extends back to March 25, 2005. 28
U.S.C. § 1658; Sawyer v. Atlas Heating & Sheet Metal
Works, Inc., 642 F.3d 560, 561 (7th Cir. 2011).
Dish again agrees that the Telemarketing
Vendors were acting on its behalf. Dish disputes that
the Order Entry Retailers were acting on its behalf.
a. The 2003-2007 Calling Records
In 2006 and 2007, Dish made the following
Registry Calls to telephone numbers with area codes
associated with the Plaintiff States:


266,514 calls to California area codes;



112,769 calls to Illinois area codes;



85,093 calls to North Carolina area codes;
and



98,207 calls to Ohio area codes.

The Plaintiff States rely on Taylor’s analysis for these
numbers. The numbers are less than the numbers of
Registry Calls Dr. Yoeli found were made to numbers
with Plaintiff States’ area codes after March 25, 2005.
See PX 38, Yoeli Declaration, Appendix D, Yoeli

313a
October 14, 2013 Report, Appendix A, at PX 0038-125.
Based on all this evidence, it is more likely than not
that Dish made at least the number of Registry Calls
to Plaintiff States area codes set forth above within
the statute of limitations.
The preponderance of the evidence established
that the intended call recipients Registry Calls were
residential telephone subscribers and residents of the
respective Plaintiff States associated with the
respective area codes. Dish is liable for these Registry
Calls in Count V for violation of the FCC Rule and the
TCPA.
b. The 2007-2010 Calling Records
i. 1,707,713 Summary Judgment Calls
The Court found at summary judgment that Dish
was liable for making 1,707,713 Registry Calls for
which Dish did not prove an Established Business
Relationship exception. The portion of the 1,707,713
calls made to telephone numbers associated with the
Plaintiff States were:


216,867 calls to California area codes;



83,895 calls to Illinois area codes;



52,961 calls to North Carolina area codes;
and



77,991 calls to Ohio area codes.

The preponderance of the evidence established
that the intended call recipients Registry Calls were

314a
residential telephone subscribers and residents of the
respective Plaintiff States associated with the
respective area codes. Dish is liable for these Registry
Calls in Count V for violation of the FCC Rule and the
TCPA.
ii. 2,386,382 Registry Calls and Internal
List Calls
The Court found in Count I above that Dish made
an additional 2,386,386 Registry Calls that were also
Internal List Calls. As explained above, the Order
Entry Retailers were agents of Dish for telemarketing
purposes. Dish, therefore, is liable for failing to honor
the Internal Lists of the Order Entry Retailers as well
as its own Internal List and eCreek’s Internal List. As
a result, Dish could not have an Established Business
Relationship exception for any of these Registry Calls.
The portion of the 2,386,386 calls made to Plaintiff
States area codes were:


302,983 calls to California area codes;



118,289 calls to Illinois area codes;



97,785 calls to North Carolina area codes;
and



95,275 calls to Ohio area codes.

The preponderance of the evidence established
that the intended call recipients Registry Calls were
residential telephone subscribers and residents of the
respective Plaintiff States associated with the
respective area codes. These Registry Calls violated

315a
the FCC Rule and the TCPA and Dish is liable for
them as alleged in Count V.
The Plaintiff States, unlike the United States, do
not seek to impose liability for these calls separately
as Internal List Calls. The Court therefore will award
statutory damages for these violations in this Count
because the award would not result in a double
recovery by the Plaintiff States for these calls under
the FCC Rule and the TCPA.
iii. 2,475,432 Calls found by Dr. Yoeli
The Plaintiff States failed to prove the source of
the set of 4,075,766 calls records which they provided
Dr. Yoeli to perform his analysis on this point. The
Plaintiff States failed to prove that Dish was liable for
those calls in the 2,475,432 call records made to
Plaintiff States’ area codes. This set of calls was
subject to the parties’ stipulation to proportionately
reduce the number of calls for which Dish would be
liable from the Yoeli July 2012 Call Set. Because no
calls were proven, the proportional reduction issue is
moot.
c.

Order Entry Retailer Registry Calls
i. JSR

This Court entered partial summary judgment
that Dish caused JSR made 2,349,031 Registry Calls
in 2006 in violation of the TSR. Opinion 445, at 176.
The portions of the 2,349,031 calls made to telephone
numbers with Plaintiff States’ area codes were:


473,102 calls to California area codes;

316a


369,384 calls to Illinois area codes;



18,250 calls to North Carolina area codes;
and



129,004 calls to Ohio area codes.

PX 28, Taylor November 6, 2013 Report, at 13. For the
reasons stated above, JSR was Dish’s agent or
subagent when it made these calls. The
preponderance of the evidence also establishes that
the intended call recipients were residential
telephone subscribers and residents of the Plaintiff
States associated with each call recipient’s area code.
These Registry Calls violated the FCC Rule and the
TCPA, and Dish is liable for them as alleged in Count
V.
JSR also made 3,315,242 Registry Calls from
January through March 2007. For the reasons stated
above, the Plaintiffs failed to show that JSR was an
agent or subagent of Dish after Dish terminated JSR
on February 14, 2007, and failed to prove the number
of Registry calls made before February 14, 2007. The
Plaintiff States, therefore, proved that JSR made
illegal Registry Calls as an agent of Dish in 2007, and
made some of those calls to residential telephone
subscribers in the Plaintiff States, but they failed to
prove the number of violations for which Dish would
be liable.

317a
ii. Satellite Systems
This Court entered partial summary judgment
that Dish caused Satellite Systems made 381,811
Registry Calls in 2010 and
2011 in violation of the TSR. Opinion 445, at 176.
The portions of these 381,811 calls proven to be made
to residents of the Plaintiff States were:


24,100 calls made to California area
codes;



10,048 calls made to Illinois area codes;



7,290 calls made to North Carolina area
codes; and



12,803 calls made to Ohio area codes.

The preponderance of the evidence showed that of
these calls the number of calls made to residential
telephone subscribers of the respective Plaintiff
States.
d. Summary
In summary, Dish is liable to the Plaintiff States
for Registry Calls in violations of the FCC Rule and
TCPA in Count V as follows:
California
2003-2007 Calling Records

266,514 calls

318a
1,707,713 TSR Summary
Judgment Calls

216,867 calls

2,386,386 Registry and Internal
List Calls

302,983 calls

JSR Calls

473,102 calls

Satellite Systems Calls
Total

24,100 calls
1,283,566 calls

Illinois
2003-2007 Calling Records

112,116 calls

1,707,713 TSR Summary
Judgment Calls

83,895 calls

2,386,386 Registry and Internal
List Calls

118,289calls

JSR Calls

369,384calls

Satellite Systems Calls

10,048 calls

Total

693,732 calls

North Carolina
2003-2007 Calling Records

85,093 calls

1,707,713 TSR Summary
Judgment Calls

52,961 calls

319a
2,386,386 Registry and Internal
List Calls

97,785 calls

JSR Calls

18,250 calls

Satellite Systems Calls
Total

7,290 calls
261,379 calls

Ohio
2003-2007 Calling Records

98,207 calls

1,707,713 TSR Summary
Judgment Calls

77,991 calls

2,386,386 Registry and Internal
List Calls

95,275 calls

JSR Calls
Satellite Systems Calls
Total

129,004 calls
12,803 calls
413,280 calls

Grand Total for all Registry Call Violations in
Count V
California

1,283,566 calls

Illinois

693,732 calls

North Carolina

261,379 calls

Ohio

413,280 calls

320a
Grand Total for Count V

2,651,957 calls

2. Count VI
Count VI alleges, in pertinent part:
DISH Network, either directly or indirectly as
a result of a third party acting on its behalf,
has violated 47 C.F.R. § 64.1200(a)(2) and 47
U.S.C. § 227(b)(1)(B), by engaging in a pattern
or practice of initiating telephone solicitations
to residential telephone lines, including lines
in California, Illinois, North Carolina, and
Ohio, using artificial or prerecorded voices to
deliver a message without the prior express
consent of the called party and where the call
was not initiated for emergency purposes or
exempted by rule or order of the Federal
Communications Commission under 47
U.S.C. § 227(b)(2)(B).
Third Amended Complaint, ¶ 76. The Plaintiff States
further alleged that Dish’s violations were willful and
knowing. Third Amended Complaint, ¶ 77. Count VI
contains two parts: (1) Dish allegedly engaged in a
pattern or practice of making Prerecorded Calls to
residents of the Plaintiff States; and (2) Order Entry
Retailers acting on Dish’s behalf allegedly engaged in
a pattern or practice of making Prerecorded Calls to
residents of the Plaintiff States. The statute of
limitations is four years under the TCPA, and, so, the
period of liability extends back to March 25, 2005. All
of the prerecorded calls at issue were placed after
March 25, 2005.

321a
a. Dish and the Telemarketing Vendors
The Court entered partial summary judgment
that Dish and its Telemarketing Vendors made
98,054 Abandoned Prerecorded Calls in that were
answered by persons, and so, were abandoned calls in
violation of the TSR. See Opinion 445, at 193-94, 233.
The portion of the 98,054 calls made to telephone
numbers with Plaintiff States area codes were:


23,020 calls made to California area
codes;



5,830 calls made to Illinois area codes;



2,283 calls made to North Carolina area
codes; and



1,759 calls made to Ohio area codes.

These were Prerecorded Calls and the preponderance
of the evidence shows that the intended recipients
were residential telephone subscribers of the
respective Plaintiff States. The Plaintiff States have
established a prima facie case for liability for these
calls for violation of the FCC Rule and TCPA as
alleged in Count VI.
Dish asserts that the Prerecorded Calls did not
violate the FCC Rule or TCPA because Dish had a
Transaction-based
Established
Business
Relationship with the intended recipients. Dish has
the burden to prove this exception to liability. Dish’s
only evidence is the translations of the transcripts of
the recorded messages. The prerecorded messages
were all in different foreign languages. The

322a
translations show that the prerecorded messages
were directed to Dish customers. Dish, however, must
show that the intended recipient purchased goods or
services from Dish within 18 months of the call to
establish a Transaction-based Established Business
Relationship. FCC Rule 47 C.F.R. § 64.1200(f)(5). The
translations of the messages do not provide any
evidence of last dates of purchase of Dish Network
programming. The translations, therefore, do not
prove the Transaction-based Established Business
Relationship exception. Dish is liable for these calls
for violation of the FCC Rule and TCPA as alleged in
Count VI.
b. Order Entry Retailers Star Satellite and
JSR
The Court entered partial summary judgment
that Dish was liable for causing Order Entry Retailers
Dish TV Now, Star Satellite, JSR, and American
Satellite to make Abandoned Prerecorded Calls that
were answered and became abandoned calls in
violation of the TSR. See Opinion 445, at 176, 194-95,
233. The Plaintiff States presented evidence of the
number of Prerecorded Calls Star Satellite made to
Plaintiff States area codes, but not Dish TV Now or
American Satellite. The Plaintiff States proved that
Dish TV Now and JSR made millions of prerecorded
calls nationwide, some of which were directed to
residential telephone subscribers in the Plaintiff
States; however, the Plaintiff States have not
presented evidence of the number of calls made to
residents of the Plaintiff States either by number of
calls to Plaintiff States area codes or otherwise. The
Plaintiff States also proved that American Satellite

323a
made numerous prerecorded telephone calls, but the
Plaintiff States did not present evidence of the
number of calls made. The Plaintiffs proved American
Satellite made one prerecorded call during a Dish
sting operation, but the call recipient did not reside in
a Plaintiff State.
The Court found at summary judgment that Dish
caused Star Satellite to make 43,100,876 Abandoned
Prerecorded Calls between July and November 2005.
The portion of the 43,100,876 calls that Star Satellite
made to telephone numbers with Plaintiff States area
codes were:


5,727,417 calls made to California area
codes;



2,660,066 calls made to Illinois area
codes;



1,716,457 calls made to North Carolina
area codes; and



3,419,175 calls made to Ohio area codes.

For the reasons stated above, the preponderance
of the evidence shows that Star Satellite was Dish’s
agent for telemarketing when it made these calls, the
intended recipients of the calls were residential
telephone subscribers, and the intended recipients
resided in the Plaintiff States associated with the
recipients’ respective area codes. Dish is liable for
these calls made in violation of the FCC Rule and the
TCPA, as alleged in Count VI.

324a
c.

Summary

Dish is liable for Prerecorded Calls made in
violation of the FCC Rule and TCPA in Count VI as
follows:
California
Dish and Telemarketing Vendor
Calls

23,020 calls

Star Satellite Calls

5,727,417 calls

Total

5,750,437 calls

Illinois
Dish and Telemarketing Vendor
Calls

5,830 calls

Star Satellite Calls

2,660,066 calls

Total

2,665,896 calls

North Carolina
Dish and Telemarketing Vendor
Calls

2,283 calls

Star Satellite Calls

1,716,457 calls

Total

1,718,740 calls

Ohio

325a
Dish and Telemarketing Vendor
Calls

1,759 calls

Star Satellite Calls

3,419,175 calls

Total

3,420,934 calls

Grand Total for violations in
Count VI
California

5,750,437 calls

Illinois

2,665,896 calls

North Carolina

1,718,740 calls

Ohio

3,420,934 calls

Grand Total

13,556,007 calls

3. Liability for Statutory Damages for TCPA
Violations
The TCPA authorizes the Plaintiff States to
recover $500 per violation. 227 U.S.C. § 227(g). Each
illegal call is a separate violation, and if a call violates
two or more subsections of the TCPA, the call
constitutes two or more violations, one for each
subsection violated. Charvat v. NMP, LLC, 656 F.3d
440, 448-49 (6th Cir. 2011). The $500 amount is a
compensatory award fixed by Congress and does not
require proof of intent or motive. See Alea London
Ltd. v. American Home Services, Inc., 638 F.3d 768,
776 (11th Cir. 2011); Penzer v. Transportation
Insurance Co., 545 F.3d 1303, 1311 (5th Cir. 2008);
Universal Underwriters Ins. Co. Lou Fusz Auto.

326a
Network, Inc., 401 F.3d 876, 881 (8th Cir. 2005); see
also Ira Holtzman, C.P.A. v. Turza, 728 F.3d 682, 684
(7th Cir. 2013). Dish argues that the award is
punitive. The Court disagrees. The $500 is much
more in the nature of a liquidated damage amount in
circumstances where the actual harm would be hard
to calculate. See Universal Underwriters, 401 F.3d at
881. As a result, the special agency rules regarding
punitive damages awards for the acts of agents is not
relevant to the $500 per violation awards under the
TCPA.
Dish argues that the Court should interpret the
TCPA to allow an award “up to” $500 per violation the
Plaintiff States. At least one district court has
accepted this argument. Texas v. American Blastfax,
Inc., 164 F.Supp.2d 892, 900-01 (W.D. Tex. 2001).
This Court respectfully disagrees. The statute
authorizes actions to recover of “actual monetary loss
or $500 in damages for each violation, or both such
actions.” 47 U.S.C. § 227(g)(1). Congress authorized
private parties to sue under the TCPA for actual
monetary loss or damages “up to $500,” whichever is
greater. 47 U.S.C. §§ 227(c)(5)(B). Congress also did
not include the “up to” language in the statutory
damages that states could recover. Congress
distinguished between awards for various violations
and between awards to private individuals and
awards to the states. The Court must honor this
language.
The Plaintiff States have proven the following
TCPA violations by Dish and its agents Star Satellite
and JSR for each Plaintiff

327a
State:
California:

1,283,566 illegal calls in Count V
5,750,437 illegal calls in Count VI

Illinois:

693,732 illegal calls in Count V
2,665,896 illegal calls in Count VI

North Carolina:

261,379 illegal calls in Count V
1,718,740 illegal calls in Count VI

Ohio:

413,280 illegal calls in Count V
3,420,934 illegal calls in Count VI

Total:

16,207,964 illegal calls in Count VI

At $500 per call, the award would be approximately
$8.1 billion ($8,103,982,000.00).
An award of $8.1 billion would be excessive and in
violation of due process. A statutory award violates
due process “only where the penalty prescribed is so
severe and oppressive at to be wholly disproportioned
to the offense and obviously unreasonable.” St. Louis
I.M. & S. Ry. Co. v. Williams, 251 U.S. 63, 66-67,
(1919); see Maryland v. Universal Elections, Inc., 826
F.Supp.2d 457, 465-66 (D. Md. 2012); Pasco v. Protus
IP Solutions, Inc., 865 F.Supp.2d 825, 834 (D. Md.
2011). An $8.1 billion award would represent more
than 25 percent of Dish’s capital value and more than
five years’ net after tax profits. That amount is wholly
disproportionate to the offense and obviously

328a
unreasonable and might put Dish out of business.
That award also does not consider the effect of any
monetary awards to the United States in Counts I-IV
or to the Plaintiff States in the Counts VII-XII. The
Court will exercise its discretion and reduce the
award to an amount that is proportionate and
reasonable under the circumstances. See Universal
Elections, 862 F.Supp.2d at 466. The proportionate
and reasonable amount depends on the awards in the
other Counts. The Court will address the appropriate
amount in light of all the Counts after discussing
liability for civil penalties in the remaining Counts.
The Plaintiff States argue that the Court should
order a remittitur prior to entertaining a due process
challenge. The Court disagrees. A remittitur is a
procedure used in jury trials. The remittitur offers the
plaintiff the choice of accepting a lower damage
amount that the one awarded by a jury or a new trial
on damages. See Sony BMG Music Entertainment v.
Tenenbaum, 660 F.3d 487, 511 (1st Cir. 2011). This is
a bench trial, not a jury trial. Moreover, the damages
are a straightforward calculation of $500 per
violation. A new trial on damages would not change
that number. A remittitur is not appropriate in this
case.
The Plaintiff States argue in the alternative that
the Court should first entertain the Plaintiff States’
voluntary offer to remit the damages award before
entertaining the constitutional issues. The case cited
by the Plaintiff States involved a situation in which
the district court erred by ordering no civil penalties
in the circumstances in which the statutory amount
was excessive. United States ex rel. Bunk v. Gosselin

329a
World Wide Moving, N.V., 741 F.3d 390, 406 (4th Cir.
2013). The Fourth Circuit stated that the district
court should have entertained the plaintiff’s offer to
remit the penalty. The primary error, though, was
awarding no penalty at all.
Furthermore, the Fourth Circuit did not address
a situation in which the plaintiff did not offer to remit
the statutory amount. The Plaintiff States have not
offered to remit the statutory damage award in
Counts V and VI. Plaintiffs North Carolina offered to
remit the amounts in Counts IX and X. State
Plaintiffs’ Post-Trial Proposed Conclusions of Law
(664), at 39-40. No such offer is included in the
Plaintiff States’ proposed conclusions of Law for
Counts V and VI. The Plaintiff States mentioned the
figure of $1 billion in their closing statement, but did
not offer to remit any damage award to a specific
amount. See State Plaintiffs’ Closing Statement (d/e
639), at 20 (“In light of Dish’s ability to pay …, the
millions of violations, and the extended period over
which the violations continued to occur, any damages
award less than one billion dollars would not raise
constitutional concerns.”). The question of a voluntary
remittance of the damage award is, therefore, moot.
In this case, the statutory damages calculation in
Counts V and VI exceeds $8.1billion. That is “wholly
disproportionate to the offense and obviously
unreasonable.” Williams, 251 U.S. at 66-67. No offer
to remit that amount has been made. The Court will
exercise its discretion to award an amount that is
proportionate and reasonable under the facts and
circumstances of this case. See Universal Elections,
862 F.Supp.2d at 466

330a
The TCPA provides that the Court may increase
the damage award up to $1,500 per violation for a
knowing violation. 47 U.S.C. § 227(g)(1). Because the
award in excess of $8.1 billion violates due process,
the Court will not exercise its discretionary authority
to increase the award. The Court, therefore, will not
address the split of authority on the requirements to
prove knowing violations (see e.g., Lary v. Trinity
Physician Financial & Insurance Services, 780 F.3d
1101, 1106-07 (11th Cir. 2015) (must prove actual
knowledge that the act violated the TCPA); contra
e.g., Sengenberger v. Credit Control Services, Inc.,
2010 WL 1791270, at *6 (N.D. Ill. May, 2010) (must
only prove the act was intentional, not accidental)) or
whether the enhanced award would constitute
punitive damages (see Alea London Ltd. v. American
Home Services, Inc., 638 F.3d 768, 778 (11th Cir.
2011) (enhanced awards up to $1,500 under the TCPA
were more compensatory than punitive).
G. Counts VII and VII California Claims
1. Count VII
Count VII alleges a claim under the California Do
Not Call Law. Cal. Bus. & Prof. Code § 17592(c).
Section 17592(c) provides, in relevant part, “no
telephone solicitor shall call any telephone number”
on the California do-not-call list. The California DoNot-Call List consists of the California numbers on
the Registry. A copy of the California Do-Not-Call List
is current if it was obtained from the FTC no more
than three months prior to the date of the call. Cal.
Bus. & Prof. Code §17592(a)(2). California’s
Established Business Relationship exception tracks

331a
the TSR and FCC Rule’s requirement that such
relationships exist for 18 months after the last
purchase. Cal. Bus. & Prof. Code § 17592(e)(4). Count
VII alleges in pertinent part:
DISH Network, either directly or indirectly as
a result of a third party acting on its behalf, is
a telephone solicitor pursuant to California
Business & Professions Code section
17592(a)(1), and has violated Section
17592(c)(1) by making or causing to be made
telephone calls to California telephone
numbers listed on the National Do Not Call
Registry and seeking to rent, sell, promote, or
lease goods or services during those calls.
Third Amended Complaint, ¶ 80. The statute of
limitations for Count VII is three years. Cal. Civ. Code
§ 338(h); see Opinion 445, at 216-17. The claims in
Count VII extend back to calls made on or after March
25, 2006, three years before the case was filed.
Dish argues that this claim, and any claim
brought by the Plaintiff States that relies on calls
made to numbers on the Registry, fails because the
Registry violates the First Amendment for the
reasons Dish raised in connection with the United
States’ claims in Count I. The Court rejects this
argument for the reasons given above in connection
with Count I.
Dish and its Telemarketing Vendors made the
following illegal Registry Calls to telephone numbers
with California area codes more than 93 days (i.e.

332a
more than three months) after registration on the
Registry:
2007-2010 Calls:
Yoeli set of 2,386,386 calls;

296,640 calls

Taylor’s set of 501,650 calls;

42,019 calls

Taylor’s set of not completed
calls;

33,970 calls

Taylor’s set of wrong number, no
English calls;
Total

1,955 calls
374,584 calls

The “not completed calls” and “wrong number, no
English calls” are the calls with California area codes
that Taylor erroneously eliminated from the Yoeli
July 2012 Call Set.
The preponderance of the evidence shows that the
intended recipients of these calls were California
residents. Dish is liable for making 374,584 Registry
Calls in violation of Cal. Bus. & Prof. Code § 17592(c)
as alleged in Count VII.
The Plaintiff States did not present evidence on
the number of Registry Calls made by Order Entry
Retailers JSR and Satellite Systems that were more
than three months after the telephone numbers with
California area codes were registered on the Registry.
The Plaintiffs, therefore, did not prove the number of
calls made by JSR and Satellite Systems for which
Dish would be liable under Count VII.

333a
California law provides a safe harbor affirmative
defense:
It shall be an affirmative defense to any
action brought under this article that the
violation was accidental and in violation of
the telephone solicitor’s policies and
procedures and telemarketer instruction and
training.
Cal. Bus. & Prof. Code § 17593(d). Dish failed to prove
this affirmative defense. Dish failed to present
sufficient competent evidence of the procedures used
to formulate or scrub Lead Tracking System calling
lists and, so, failed to show any illegal Registry calls
were accidental or violated procedures. Furthermore,
Dish failed to use the last dates of purchase to
calculate Transaction-based Established Business
Relationships for the Account Number Campaigns. As
a result, Dish did not use proper procedures to
formulate these calling lists and called millions of
numbers on the Registry illegally. Those illegal calls
were not accidental. Finally, Dish failed to identify
any particular calls that were accidentally made.
Some Dish witnesses testified in generalities that
accidents happen, and some witnesses indicated that
some problems arose when Dish transferred all
Account Number Campaign scrubbing to its
headquarters in Colorado, but no witness testified
that certain calls were accidentally made. Dish failed
to prove this affirmative defense. Dish is liable for at
least 374,584 calls that violated § 17952 of the
California Business & Professions Code.

334a
2. Count VIII
Count VIII alleges a claim for unfair competition
under California Business and Professions Code §
17200,
Section 17200 defines unfair competition as
practices that are “unlawful, or unfair, or
fraudulent.” Acts that violate some other law
are “unlawful” and so violate § 17200. See
Davis v. HSBS Bank Nevada, N.A., 691 F.3d
1152, 1168 (9th Cir. 2012). The other statutes
violated are referred to as “borrowed”
statutes. Id.”
Opinion 445, at 217. The California Attorney General
can bring an action for civil penalties for violations of
§ 17200. Cal. Bus. & Prof. Code § 17206. The penalties
available under § 17206, “are cumulative to each
other and to the remedies or penalties available under
all other laws of this state.” Cal. Bus. & Prof. Code §
17205. Thus, if an act that violates two borrowed
statutes, that act constitutes two violations of § 17200
and is subject to two civil penalties.
In this case, Plaintiff California borrowed from
the TCPA violations in Counts V and VI, the
violations of § 17592(c) in Count VIII, and also
violations of California Civil Code § 1770(a)(22)(A).
Section 1770(a)(22)(A) prohibits making Prerecorded
Calls “without an unrecorded, natural voice first
informing the person answering the telephone of the
name of the caller or the organization being
represented, and either the address or telephone
number of the caller, and without obtaining the

335a
consent of that person to listen to the prerecorded
message.”
Count VII alleges, in pertinent part:
Beginning at an exact date unknown to plaintiff
and continuing to the present, Defendant DISH
Network has engaged in and continues to engage in
unfair competition as defined in California Business
& Professions Code section 17200.
Defendant’s
acts of unfair competition include, but are not limited
to, the following:
(a) DISH Network, either directly or
indirectly as a result of a third party acting on
its behalf, has violated the TCPA at 47 U.S.C.
§ 227(c) and its regulations at 47 C.F.R.
§ 64.1200(c)(2), by engaging in a pattern or
practice of initiating telephone solicitations to
residential telephone subscribers, including
subscribers in California, whose telephone
numbers were listed on the National Do Not
Call Registry.
(b) DISH Network, either directly or
indirectly as a result of a third party acting on
its behalf, has violated 47 C.F.R.
§ 64.1200(a)(2) and 47 U.S.C. § 227(b)(1)(B),
by engaging in a pattern or practice of
initiating
telephone
solicitations
to
residential telephone lines, including lines in
California, using artificial or prerecorded
voices to deliver a message without the prior
express consent of the called party and where
the call was not initiated for emergency

336a
purposes or exempted by rule or order of the
Federal Communications Commission under
47 U.S.C. § 227(b)(2)(B).
(c) DISH Network, either directly or indirectly
as a result of a third party acting on its behalf,
has
violated
California
Business
&
Professions Code section 17592(c)(1) by
making or causing to be made telephone calls
to California telephone numbers listed on the
National Do Not Call Registry and seeking to
rent, sell, promote, or lease goods or services
during those calls.
(d) DISH Network, either directly or
indirectly as a result of a third party acting on
its behalf, has violated California Civil Code
section 1770(a)(22)(A), which makes it an
unfair method of competition and unfair or
deceptive act or practice to disseminate an
unsolicited prerecorded message by telephone
without an unrecorded, natural voice first
informing the person answering the
telephone of the name of the caller or the
organization being represented, and either
the address or telephone number of the caller,
and without obtaining the consent of that
person to listen to the prerecorded message.
Third Amended Complaint, ¶ 82. The statute of
limitations is four years. Cal. Bus. & Prof. Code
§ 17208; see Opinion 445, at 218. The claim in Count
VIII extends back to March 25, 2005, four years before
the filing of the Complaint.

337a
Dish is liable for making, either directly or
through its agents the Telemarketing Vendors and
JSR, 1,283,566 Registry Calls in violation of the
TCPA, as proven in Count V. Dish is liable for
making, either directly or through its agents the
Telemarketing Vendors and Star Satellite, 5,750,437
prerecorded telemarketing calls in violation of the
TCPA, as proven in Count VI. Dish is liable for
making, either directly or through its agents
Telemarketing Vendors, 374,584 Registry Calls as
proven in Count VII.
Dish is also liable under § 17200 for the violations
of § 1770(a)(22)(A). California proved that Dish or its
agents Telemarketing Vendors eCreek and EPLDT
and Order Entry Retailers Star Satellite and JSR
made these Prerecorded Calls in violation of
§ 1770(a)(22)(A). The penalties for violation § 17200
are cumulative to each other. Thus, Dish may be
liable twice under § 17200 for Prerecorded Calls if the
calls violated both § 1770(a)(22)(A) and the TCPA and
FCC Rule.
Dish argues that § 1770(a)(22)(A) does not impose
liability for the acts of Order Entry Retailers. Dish
argues that § 1770(a)(23) specifically authorizes
liability for third parties, but § 1770(a)(22)(A) does
not. Dish argues that § 1770(a)(22)(A), therefore, is
limited to Dish’s actions. The Court disagrees. Section
1770(a)(23)(B) establishes an affirmative defense for
a third party unless the person who violated §
1770(a)(23)(A) was an agent of the third party or the
third party knew of the illegal act. Section 1770(a)(22)
contains no similar defense to third party liability.
Businesses are liable for the unlawful acts of their

338a
agents. See Ford Dealers Association v. Department of
Motor Vehicles, 650 P.2d 328, 336 (Cal. 1982); People
v. Toomey, 203 Cal.Rptr. 642, 650-51 (Cal. App. 1984).
Dish argues that it is entitled to an Established
Business Relationship defense under § 1770(a)(22) for
the 23,020 calls that it made directly or through the
Telemarketing Vendors. Section 1770(a)(22)(B)
provides for such a defense:
(B) This subdivision does not apply to a
message disseminated to a business associate,
customer, or other person having an
established relationship with the person or
organization making the call.…
Cal. Civ. Code § 1770(a)(22)(B). This defense requires
proof that the intended call recipient was a customer
or had an established relationship with Dish. This
portion of the California Civil Code does not define
either “customer” or “established relationship.” See
Cal. Civ. Code § 1761, Definitions. The statute does
not require proof of a purchase within 18 months of
the call like the TSR and the FCC Rule.
Dish argues that the translations of the sales
scripts show that the intended recipients were
customers. The translations show that the calls
offered new foreign language programming packages
to existing customers. This evidence tends to show
that the calls were made to individuals who were at
some time customers of Dish. That evidence was not
sufficient proof under Count VI because the FCC Rule
requires a call to be within 18 months of the last
purchase, and the script text did not prove the last

339a
purchase date. California section 1761 does not
require that the call to be within any certain time
period since the last transaction, only that the person
be a customer. Given the language of § 1761, the
Court finds that Dish has a valid defense under §
1770(a)(22)(B) for these 23,020 calls.69 Dish, however,
is liable under § 17200 for the 5,727,417 calls that
Dish’s agent Star Satellite made in violation of §
1770(a)(22)(A).
In summary, Dish is liable for unfair competition
by committing the following illegal calls in violation
of California Business & Professions Code section
17200:
Violation of TCPA proven in
Count V

1,283,566 calls

Violation of TCPA proven in
Count VI

5,750,437 calls

Violation of Cal. Bus. & Prof.
Code § 17592(c) proven in Count
VII
Violation of Cal. Civ. Code §§
1770(a)(22)(A)

374,584 calls
5,727,417 calls

Dish also argues that it is entitled to an unintentional
bona fide error defense for the 23,020 calls under California Civil
Code § 1784. Dish’s foreign language marketing division
intended to place these Prerecorded Calls. This division of Dish
did not unintentionally record sales pitches or prepare calling
lists for these campaigns. The defense does not apply. Dish,
however, proved the other affirmative defense under §
1770(a)(22)(B).
69

340a
Total

13,136,004 calls

Dish is liable for making directly or through its agents
13,136,004 calls in violation of § 17200 in Count VIII.
3. Civil Penalties under California State Claims
in Counts VII and VIII
Pursuant to California Business & Professions
Code § 17593(a)(2), California may recover for each
violation proven under Count VII a civil penalty up to
the penalties available under § 5(m) of the FTC Act,
up to a maximum of $11,000 per violation for each
violation before February 9, 2009, and $16,000 for
each violation thereafter. In addition, California may
recover a separate penalty of up to $2,500.00 for each
violation. Cal. Bus. & Prof. Code §§ 17200, 17536(b).
California may recover for each violation proven
under Count VIII a civil penalty of up to $2,500.00.
Cal. Bus. & Prof. Code § 17206(b). The penalties are
cumulative. Cal. Bus. & Prof. Code §§ 17205 and
1734.5. A defendant is subject to multiple penalties if
he or she violates multiple statutes that authorize
such penalties. See People v. Toomey, 203 Cal.Rptr.
642, 656 (Cal. Ct. App. 1984). Dish erroneously refers
to some or all of the civil penalties authorized under
these statutes as damages. See e.g., Dish Network
L.L.C.’s Proposed Post-Trial Conclusions of Law (d/e
666), at 94-95. Dish is incorrect. These statutes
authorize civil penalties.
These statutes also impose strict liability without
any proof of intent. Community Assisting Recovery,
Inc. v. Aegis Security Ins. Co., 112 Cal.Rptr.2d 304,
308 (Cal. Ct. App. 2001). Issues related to culpability

341a
are relevant to the amount of the penalty, but not to
liability for a penalty. See Cal. Bus. & Prof. Code §§
17206 and 17536 (willfulness a factor in the amount
of the penalty), and § 17593(a) (civil penalties subject
to the same considerations as those set forth in FCT
Act § 5(m)).
California courts have determined that these civil
penalties are not akin to punitive damages. People v.
Fremont Life Ins. Co., 128 Cal. Rptr.2d 463, 473-74
(Ct. App. 2002). Moreover, the Supreme Court of
California has held in other contexts that civil
penalties are not akin to punitive damages under
California law. Kizer v. County of San Mateo, 806 P.2d
1353, 1356-60 (Cal. 1991). The California Supreme
Court explained that civil penalties are “designed to
ensure compliance with a detailed regulatory scheme”
and are not akin to punitive damages “even though
they may have a punitive effect.” Id. at 1357. In
addition, civil penalties do not require a showing of
actual harm and are “imposed without regard to
motive and require no showing of malfeasance or
intent to injure.” Like the FTC Act § 5(m) penalties,
the primary purpose of California civil penalties are
to enforce regulations. Id. at 1358.
In light of the Fremont decision and the California
Supreme Court’s discussion of civil penalties in Kizer,
the Court finds under California law that the civil
penalties at issue in this case are not akin to punitive
damages. The special rules of agency law limiting a
principal’s liability for punitive damages for the acts
of its agent simply do not apply.

342a
California has proven 374,584 violations of Count
VII and 13,136,004 violations of Count VIII. The
maximum possible penalties for Count VII would be
$11,000 per violation prior to February 9, 2009, and
$16,000 thereafter; plus $2,500 per violation. The
maximum possible penalties for Count VIII would be
$2,500 per violation. The total maximum possible civil
penalty exceeds $37.8 billion ($37,896,894,000.00).70
California suggests a civil penalty of $100 million
($100,000,000.00).
State Plaintiffs’
Post-Trial
Proposed Conclusions of Law (d/e 664), at 33. The
Court will address the appropriate amount to impose
below in conjunction with the amounts to be awarded
for all of the claims for monetary relief.71
H. Counts IX and X North Carolina Claims
1.

Count IX

Plaintiff North Carolina alleges violations of the
North Carolina Do-Not-Call Law that prohibits
Registry Calls to North Carolina residents whose

(374,584 x $11,000) + (374,584 x $2,500) + (13,136,004 x
$2,500) = $37,896,894,000.00. This calculation assumes $11,000
as the maximum possible penalty for the violations proven under
§17593.
71 Dish states that California sought restitution in its
proposed conclusions of law in the Final Pretrial Order. Dish
Network L.L.C.’s Proposed Post-Trial Conclusions of Law (d/e
666), at 99-100. The Court could not find such a claim for
restitution. See Final Pretrial Order (d/e 564), at 6, and
Attachment F, Plaintiffs Proposed Conclusions of Law, ¶¶ 35971. Regardless, California did not pursue restitution at trial.
Restitution is not an issue.
70

343a
telephone numbers were on the Registry. Count IX
alleges in part:
85. DISH Network, and/or third parties acting
on DISH Network’s behalf, has violated N.C.
Gen. Stat. § 75-102(a) by making telephone
solicitations to the telephone numbers of
North Carolina telephone subscribers when
those numbers were in the pertinent edition
of the National Do Not Call Registry.
86. DISH Network also violated N.C. Gen.
Stat. § 75-102(d) by failing to monitor and
enforce compliance by its employees, agents,
and independent contractors in that, as set
forth above, those persons made numerous
telephone solicitations to the telephone
numbers of North Carolina telephone
subscribers when those numbers were in the
pertinent edition of the National Do Not Call
Registry.
87. DISH Network willfully engaged in the
actions and practices described above.
Third Amended Complaint, ¶¶ 85-87.
The Court previously explained the structure of
the North Carolina statute,
North Carolina’s Do-Not-Call Law …
prohibits a telephone solicitor from making a
telemarketing call to a telephone subscriber’s
telephone number that appears on the
Registry. N.C. Gen.Stat. § 75-102(a). The

344a
term “telephone solicitor” means an
individual or entity that makes telemarketing
calls “directly or through salespersons or
agents.” N.C. Gen.Stat. § 75-101(10). The
term “telephone subscriber” means an
individual who subscribes for residential
telephone service from a carrier, including a
wireless carrier. N.C. Gen.Stat. § 75-101(11).
Section 75-102 also requires telephone
solicitors to implement systems and written
procedures to prevent making telemarketing
calls to numbers on the Registry. N.C.
Gen.Stat. § 75-102(d). Count IX alleges a
violation of this provision also.
Opinion 445, at 218-19. Thus, North Carolina must
show that Dish or its agents made Registry Calls to
North Carolina residents who were residential
telephone subscribers. The statute of limitations on
claims under § 75-102 is four years, and extends back
to calls made after March 25, 2005. N.C. Gen. Stat. §
75-16.2. The four-year statute is that same as the
limitations period under the TCPA.
For the reasons stated in the Court’s discussion of
Count V, North Carolina proved that Dish and its
agents JSR and Satellite Systems made 261,379
Registry Calls to numbers with North Carolina area
codes after March 25, 2005. The preponderance of the
evidence further establishes that intended recipients
were residential telephone subscribers and residents
North Carolina. The 261,379 calls violated § 75-102.
Section 75-102(d) also requires telemarketers to
“implement systems and written procedures to

345a
prevent further telephone solicitations to any
telephone subscriber … whose telephone number
appears in the “Do Not Call” Registry.” Dish did not
have written procedures for scrubbing Account
Number Campaigns to remove from its calling lists
telephone numbers on the Registry. Dish, therefore,
also violated § 75-102(d).72
Dish argues that it is entitled to Transactionbased and Inquiry-based Established Business
Relationship defenses to these calls. The North
Carolina uses the same definitions of Transactionbased and Inquiry-based Established Business
Relationships as the TCPA and TSR, with the same
18-month and three month time periods respectively.
N.C. Gen. Stat. § 75-101(5). The analysis in the Count
V TCPA Registry call claims, therefore, applies here,
and Dish is not entitled to either Established
Business Relationship defense for any of these
261,379 Registry Calls.
2. Count X
North Carolina alleges a claim in Count X for
violation of it Do-Not-Call Law that prohibits use of
an automatic dialer to place unsolicited prerecorded
calls. N.C. Gen. Stat. § 75-104. Count X alleges in
part:
89. DISH Network, and/or third parties acting
on DISH Network’s behalf, has violated N.C.
Gen. Stat. § 75-104 by using automatic dialing
The parties presented no competent evidence of Dish’s
procedures, written or otherwise, used to process its Lead
Tracking System calling lists or Cold Call calling lists.
72

346a
and recorded message players to make
unsolicited telephone calls to North Carolina
telephone subscribers without first having
live operators inform the telephone
subscribers of the nature and length of the
recorded message and asking for and
obtaining permission to play the message
from the person receiving the call, and
otherwise not complying with any of the
exceptions set forth in N.C. Gen. Stat. § 75104.
90. DISH Network willfully engaged in the
practices described above.
Third Amended Complaint, ¶¶ 89-90. Liability under
§ 75-104 extends to calls made by agents. Opinion
445, at 220-22. The intended recipients must be
residential telephone subscribers because the North
Carolina statute defines the term “telephone
subscriber” to mean residential telephone subscriber.
Opinion 445, at 220; N.C. Gen. Stat. § 75-101(11). The
statute of limitation is four years, extending back to
calls made after March 25, 2005. N.C. Gen. Stat. § 7516.2.
For the reasons stated in the Court’s discussion of
Count VI, North Carolina proved that Dish and its
agent Star Satellite made 1,718,740 Prerecorded
Calls to numbers with North Carolina area codes. The
preponderance of the evidence further establishes
that the intended recipients were residential
telephone subscribers and residents North Carolina.
The 1,718,740 calls violated § 75-104.

347a
3. Civil Penalties for North Carolina under
Counts IX and X
North Carolina authorizes civil penalties for the
violations in Counts IX and X as follows: “Five
hundred dollars ($500) for the first violation, one
thousand dollars ($1,000) for the second violation, and
five thousand dollars ($5,000) for the third and any
other violation that occurs within two years of the
first violation.” N.C. Gen. Stat. § 75-105(a)(2). North
Carolina established that Dish is liable for 261,379
Registry Calls in violation of N.C. Gen. Stats § 75-102
in Count IX, and 1,718,740 Prerecorded Calls in
violation of N.C. Gen. Stat. § 75-104 in Count X.
Under § 75-105(a)(2), the statutory penalty applies to
violations that occurred within two years of the first
violation.
In Count IX, the Registry Calls in the 2003-2007
Calling Records would be subject to civil penalties if
the calls were made within the first two years within
the statute of limitations, from March 25, 2005 to no
later than March 24, 2007. North Carolina used
Taylor’s analysis to show that Dish made 85,093 calls
between January 2006 and August 2007. These calls
are within the two-year window for civil penalties
authorized by the § 75-105. This number does not
include the Dish direct marketing Registry Calls
made during the remainder of 2007, but this is the
only number proven with reasonable certainty. North
Carolina is also entitled to recover civil penalties on
the 18,250 Registry Calls that Dish’s agent JSR made
to North Carolina residents in 2006 and 2007. These
calls were also within the two-year window for civil

348a
penalties. North Carolina is entitled to recover civil
penalties on 103,343 Registry Calls in Count IX.
All of the Star Satellite 1,716,457 Prerecorded
Calls to North Carolina residents were made from
July to November 2005. All of these calls were within
the statute of limitations and within two years of each
other. North Carolina is entitled to recover civil
penalties on all these calls. Dish presented evidence
at summary judgment that Dish’s Prerecorded Calls
to North Carolina area codes occurred between
September 2007 and March 2008. See Opinion 445, at
127-28; see Defendant Dish Network L.L.C.’s
Memorandum of Law in Support of its Motion for
Summary Judgment (d/e 349), at 168-69; Defendant
Dish Network L.L.C.’s Opposition to Plaintiffs’ Motion
for Summary Judgment (d/e 374), at 50-51. North
Carolina has failed to establish that it is entitled to
recover civil penalties on the 2,283 Dish Prerecorded
Calls to North Carolina residents.
Section 75-105 states that the penalty would be
reduced to $100.00 for each violation within two years
of the first violation if Dish “can show that that the
violations are the result of a mistake and … [Dish]
complied with” § 75-102(d). Section 75-102(d) requires
telephone solicitors to implement “systems and
written procedures” to prevent Registry Calls and
Internal List Calls, to train its own sales staff, to
monitor and enforce compliance by its own sales staff
and by independent contractors, to record consumers’
do-not-call requests, and to maintain Internal DoNot-Call Lists. N.C. Gen. Stat. 75-102(d). Dish did not
have written procedures to scrub Account Number
Campaign calling lists to prevent Registry Calls or

349a
Internal List Calls. Dish presented no competent
evidence on the procedures Dish’s Database
Marketing used to scrub Lead Tracking System and
Cold Call calling lists. Dish, therefore, is not entitled
to this reduction in the penalty under § 75-102(d).
Section 75-105 imposes the penalty on telephone
solicitors. The definition of telephone solicitor means:
Any individual, business establishment,
business, or other legal entity doing business
in this State that, directly or through
salespersons or agents, makes or attempts to
make telephone solicitations or causes
telephone
solicitations
to
be
made.
“Telephone solicitor” also includes any party
defined as a “telemarketer” under the
Telemarketing Sales Rule.
N.C. Gen. Stat. Ann. § 75-101(10). Dish’s liability as
a telephone solicitor extends by this definition to
telemarketing performed by its agents. Because the
statute extends liability to the actions of agents,
special rules limiting a principal’s liability for
punitive damages do not apply. See Restatement
(Third) of Agency § 7.03 comment e (liability for
statutory penalty first depends on the language of the
statute).
The calculated amount of civil penalties under §
75-105(a)(1) is $516.7 million ($516,706,500.00) for
Count IX and $8.6 billion ($8,582,276,500.00) for
Count
X,
for
a
total
of
$9.1
billion

350a
($9,098,938,500.00).73 Civil penalties of $9.1 billion
are “wholly disproportionate to the offense and
obviously unreasonable” for the same reasons
discussed in regarding that calculated $8.1 billion
statutory damages in Counts V and VI above. See
Williams, 251 U.S. at 66-67. Recognizing this fact,
North Carolina has offered to remit its claim for civil
penalties to $100 per call. State Plaintiffs’ Post-trial
Proposed Conclusions of Law (d/e 664), at 39, 42; see
Gosselin World Wide Moving, N.V., 741 F.3d at 406.
The offer to remit would reduce the civil penalties to
approximately $182 million ($181,980,000.00).74
North Carolina’s offer to remit still fails to meet the
due process requirements of Williams. A $182 million
penalty for the North Carolina state law violations is
disproportionate and unreasonable in light of the
violations in North Carolina and Dish’s total liability
in all of the Counts. The Court will determine a
reasonable and appropriate penalty for Counts IX and
X below in conjunction with the amounts to be
awarded for all of the claims for monetary relief.
I.

Count XI Illinois Claim

Plaintiff Illinois alleges a claim for violation of the
Illinois Automatic Telephone Dialers Act (IATDA),
815 ILCS 505/2Z. Count XI alleges in part:

The calculated civil penalties for Count IX are $500 +
$1,000 + (103,341 X $5,000) = $516,706,500.00. The calculated
civil penalties for Count X are $500 + $1,000 + (1,716,455 X
$5,000) = $8,582,276,500.00. The total calculated civil penalties
for these two Counts are $516,706,500.00 + $8,582,276,500.00 =
$9,098,938,500.00.
74 (103,343 + 1,716,457) X $100 = $181,980,000.00.
73

351a
93. The Defendant, and/or third parties acting
on its behalf, has violated 815 ILCS 305/30(b)
and 815 ILCS 505/2Z by knowingly playing or
causing to be played prerecorded messages
placed by an autodialer without the consent of
the called party.
Third Amended Complaint, ¶ 93.
Section 505/2Z prohibits playing or causing to be
played a prerecorded message by an autodailer
without prior consent. Illinois only seeks liability for
the 5,830 Prerecorded Calls that Dish or its
Telemarketing Vendors placed to telephone numbers
with Illinois area codes. Dish concedes that it is
responsible for calls made by Telemarketing Vendors.
The Court, therefore, does not need to decide the
meaning of “cause” under the IATDA.
For the reasons stated in Count VI above, Illinois
proved a prima facie case that 5,830 prerecorded
telemarketing calls to numbers with Illinois area
codes. The preponderance of the evidence further
establishes that intended recipients were residential
telephone subscribers and residents Illinois.
The IATDA contains an Established Business
Relationship exception. The prohibition against
autodialer Prerecorded Calls “shall not apply” to
“calls made to any person with whom the telephone
solicitor has a prior or existing business relationship.”
815 ILCS 305/20(a)(2). The IATDA does not define the
term “existing business relationship.” See 815 ILCS
305/5 Definitions. The Court gives the exception its
ordinary meaning. The exception contains no time

352a
limit, such as the 18-month limit in the TSR and the
TCPA and FCC Rule. The IATDA exception would
apply to any current Dish customer or any prior Dish
customer no matter when the person was a customer.
Dish argues that the translations of the sales
scripts show that the intended recipients were Dish
customers. The translations show that the calls
offered new foreign language programming packages
to existing customers. This evidence tends to show
that the calls were made to individuals who were at
some time customers of Dish. The evidence was not
sufficient proof under Count VI because the FCC Rule
requires a call to be within 18 months of the last
purchase and the script text did not prove the last
purchase date. The IATDA defense in § 305/20(a)(2)
does not require that the call to be within any certain
time period since the last transaction, only that the
person be a customer or have a relationship. Given
the language of § 305/20(a)(2), the Court finds that
Dish has a valid defense for these 5,830 calls under
815 ILCS 305/20(a)(2) of the IATDA. Dish is entitled
to judgment on Illinois’s claims in Count XI.
J. Count XII
1. Liability for Violations
Plaintiff Ohio alleges a claim in Count XII under
the Ohio Consumer Sales Practice Act (OCSPA), Ohio
Rev. Code § 1345.01 et seq. Count XII alleges in part:
95. Defendant, either directly or as a result of
a third party acting on its behalf, violated
Ohio Revised Code Sections 1345.02(A) and

353a
1345.03(A) by engaging in a pattern or
practice of initiating telephone solicitations to
residential telephone subscribers in the State
of Ohio, whose telephone numbers were listed
on the National Do Not Call Registry in
violation of the TCPA, 47 U.S.C. § 227(c), and
47 C.F.R. 64.1200(c)(2) and/or in violation of
the Telemarketing Sales Rule, 16 C.F.R. §
310.4(b)(1)(iii)(B).
96. Defendant, either directly or indirectly as
a result of a third party acting on its behalf,
violated Ohio Revised Code Sections
1345.02(A) and 1345.03(A) by engaging in a
pattern or practice of initiating telephone
calls to residential telephone lines using
artificial or prerecorded voices to deliver a
message without the prior express consent of
the called party and without falling within
specified exemptions delineated within the
TCPA in violation of the TCPA, 47 U.S.C.
227(B)(1)(b) and 47 C.F.R. 64.1200(a)(2).
Third Amended Complaint, ¶¶ 95-96.
In addition, the Final Pretrial Order provides that
Ohio also alleges:
437. Failing to record a do-not-call request on
an internal do-not-call list, and failing to
honor a prior do-not-call request, are unfair
and deceptive practices in violation of the
OCSPA. Opinion 445 at 224-225.
.…

354a
471. Dish is liable for 120,809 violations of the
Ohio Consumer Sales Practices Act for which
a civil penalty may be imposed because it
called consumers on the Registry as well as
consumers who asked not to be called. These
are Dish calls and are not contingent on an
agency analysis.
Final Pretrial Order (d/e 564), Attachment F,
Plaintiffs’ Conclusions of Law, ¶¶ 437, 471. Ohio
referenced Opinion 445 in which the Court stated:
Ohio Courts have held that failing to record a
do-not-call request on an internal do-not-call
list and failing to honor a prior do-not-call
request were unfair and deceptive practices in
violation of the Ohio Act. Charvat v. NMP,
LLC., 656 F.3d 440, 451 (6th Cir. 2011) and
cases cited therein.
Opinion 445, at 224-25.
Dish did not challenge in the Final Pretrial Order
Ohio’s additional claim based on Internal List Calls
on the grounds that the theory was beyond the
matters alleged in the Third Amended Complaint.
Rather, Dish addressed the substance of the
additional basis for the claim:
285. This Court has held that “failing to
record a do-not-call request on an internal donot-call list and failing to honor a prior do-not
call request” may constitute a violation of the
OCSPA. Opinion 445 at 224-25.

355a
286. Thus, pursuant to the Court’s
interpretation of Ohio law, Plaintiff Ohio will
have to establish for each telephone call for
which it seeks to hold DISH liable that the
call recipient previously made a do-not-call
request to DISH which DISH failed to honor.
287. In that regard, DISH is not obligated to
honor internal do-not-call requests made to
the Retailers unless those Retailers are
agents of DISH, and vice versa. See Opinion
445 at 227. Plaintiff Ohio cannot meet its
burden to prove that an agency relationship
existed as between DISH and the Retailers at
issue.
Final Pretrial Order, Attachment G, Dish’s
Conclusions of Law, ¶¶ 285-87. The Final Pretrial
Order controls the claims at issue at trial. Fed. R. Civ.
P. 16(d); Gorlikowski v. Tolbert, 52 F.3d 1439, 144344 (7th Cir. 1995). Both parties addressed the
substance of Ohio’s claims based on Internal List
Calls even though Ohio did not allege Internal List
Calls as a basis for its claim in Count XII in the Third
Amended Complaint. Ohio may proceed on the
Internal List Calls in Count XII, as well as the
Registry Calls and the prerecorded calls.
The OCSPA prohibits unfair and deceptive
practices in consumer transactions:
No supplier shall commit an unfair or
deceptive act or practice in connection with a
consumer transaction. Such an unfair or
deceptive act or practice by a supplier violates

356a
this section whether it occurs before, during,
or after the transaction.
Ohio Rev. Code § 1345.02(A). The OCSPA also
prohibits unconscionable acts or practices in
consumer transactions:
No supplier shall commit an unconscionable
act or practice in connection with a consumer
transaction. Such an unconscionable act or
practice by a supplier violates this section
whether it occurs before, during, or after the
transaction.
Ohio Rev. Code § 1345.03(A). The statute of
limitations is two years, and so, extends back to calls
made after March 25, 2007.
The OCSPA uses the terms “supplier” and
“consumer transaction.” A “consumer transaction”
includes both the solicitation and the sale of goods or
services “to an individual for purposes that are
primarily personal, family, or household….” Ohio Rev.
Code § 1345.01(A). The Retailers Agreements only
authorized Order Entry Retailers to sell Dish
Network programming to residential customers, and
the Order Entry Tool only could be used to place
orders for residential service. Further, Dish and its
Telemarketing Vendors almost always used outbound
telemarketing to sell Dish programming to
residential customers. Therefore, the solicitation and
sale of Dish Network programming by Dish, its
Telemarketing Vendors, and the Order Entry
Retailers were consumer transactions to Ohio

357a
residents were consumer transactions under the
OCSPA.
A “supplier” includes a person “in the business of
effecting or soliciting consumer transactions.” Ohio
Rev. Code § 1345.01(C). Dish, the Telemarketing
Vendors, and the Order Entry Retailers were
suppliers under the OCSPA when they made
outbound telemarketing calls to sell Dish Network
programming to Ohio residents.
Courts have held that failing to record a Do-NotCall request on an internal do-not-call list and failing
to honor a prior Do-Not Call request constitutes an
unfair or deceptive practice in violation of the OCSPA.
Charvat v. NMP, 656 F.3d 440, 451 (6th Cir. 2011)
(citing Charvat v. Continental Mortg. Services, Inc.,
No. 99CVH12-10225, 2002 WL 1270183, at *5 (Ohio
Ct. C.P. June 1, 2000) (Ohio Attorney General Public
Information File (PIF) no. 1882)). The Court finds
that these decisions are an accurate statement of Ohio
law. Pursuant to these holdings, Internal List Calls
made by Dish to persons who told Dish and its
Telemarketing Vendors that they did not want to
receive such calls violated the OCSPA. Dish made
41,788 such calls to telephone numbers with Ohio
area codes reflected in the 2007-2010 Calling Records.
T 633: 3282-83 (Taylor); PX 28, Taylor November 6,
2013 Report, at 11; T 613: 214-15 (Yoeli).75 The 2007-

The 41,788 calls consist of the 36,598 Internal List Calls
to Ohio area codes from the 903,246 calls found by Taylor, plus
5,190 Internal List Calls to Ohio area codes from the 140,349
Internal List Calls made to numbers marked DNC by eCreek, as
determined by Dr. Yoeli. T 633: 3282-83 (Taylor); PX 28, Taylor
75

358a
2010 Calling records contain calls beginning in
September 2007. The 41,788 calls were made after
March 25, 2007, and so, within the statute of
limitations.
For the reasons stated in Counts V and VI, the
preponderance of the evidence shows that the
intended recipients of 41,788 Internal List Calls were
Ohio residents and were residential telephone
subscribers. Dish is liable for these illegal calls under
Count XII in violation of the OCSPA.
Ohio also asks the Court to find that the 77,991
Registry Calls and 1,759 Prerecorded Calls made by
Dish and its Telemarketing Vendors to telephones
with Ohio area codes also were unfair, deceptive, or
unconscionable acts and practices in violation of the
OCSPA. Ohio only asks for a judgment on the
Registry Calls to Ohio residents that were included in
the 1,707,713 calls that the Court found violated the
TSR at summary judgment. Ohio does not seek relief
for any other calls made by Dish or any calls made by
Order Entry Retailers in Count XII. No issues related
to Dish’s liability for the acts of Order Entry Retailers
exist in Count XII.
A violation of the TCPA is not by itself proof of a
violation of the OCSPA. See NMP, 656 F.3d at 450;
Culbreath v. Golding Enterprises, L.L.C., 114 Ohio
St.3d 357, 872 N.E.2d 284, 291 (Ohio 2007). Ohio must
establish that the Registry Calls and Prerecorded

November 6, 2013 Report, at 11; T 613: 214-15 (Yoeli). The sum
of 36,598 plus 5,190 equals 41,788.

359a
Calls made Dish or its agents were unfair, deceptive,
or unconscionable.
The OCSPA does not define “unfair,” “deceptive,”
or “unconscionable.” The OCSPA includes a list of acts
that are deceptive but the list is not exhaustive or
exclusive. Ohio Rev. Code § 1345.02(B). The acts on
the non-exhaustive list involve situations in which
the consumer believes material facts about the
transaction are true, when in fact, they are not. E.g.,
Ohio Rev. Code § 1345.02(B)(1) (“the subject of a
consumer transaction has sponsorship, approval,
performance characteristics, accessories, uses, or
benefits that it does not have.”).
The scope of deceptive acts covered by the OCSPA
is broader than the non-exhaustive list. “The
boundaries of illegality under OCSPA must remain
flexible because it is impossible to list all methods by
which a consumer can be misled or deceived.” Fletcher
v. Don Foss of Cleveland, Inc., 90 Ohio App. 3d 82, 86,
628 N.E.2d 60, 62 (1993).
The OCSPA does not contain a list of acts that are
unfair. The OSCPA, however, directs the Court to
look to the FTC Act for guidance in interpreting §
1345.02(A) prohibition against unfair and deceptive
acts:
(C) In construing division (A) of this section,
the court shall give due consideration and
great weight to federal trade commission
orders, trade regulation rules and guides, and
the federal courts’ interpretations of
subsection 45 (a)(1) of the “Federal Trade

360a
Commission Act,” 38 Stat. 717 (1914), 15
U.S.C.A. 41, as amended.
Ohio Rev. Code Ann. § 1345.02(C).
The FTC Act provides that an act is not unfair
unless “[the act] is likely to cause substantial injury
to consumers which is not reasonably avoidable by
consumers themselves and not outweighed by
countervailing benefits to consumers or to
competition.” 15 U.S.C.A. § 45(n); see FTC v.
Wyndham Worldwide, Inc., 799 F.3d 236, 243 (3d Cir.
2015). The central focus of unfairness analysis is
consumer injury. Substantial consumer injury can be
established by “showing a small amount of harm to a
large number of people.” In the Matter of LabMD, Inc.,
2016-2 Trade Cases P 79708 (F.T.C.), 2016 WL
4128215 (July 28, 2016), at *8; see Wyndham
Worldwide, Inc., at 243. Unfair and deceptive acts do
not require proof of intent. Fletcher v. Don Foss of
Cleveland, Inc., 90 Ohio App. 3d 82, 86, 628 N.E.2d
60, 62 (1993).
The OCSPA includes a list of unconscionable acts,
but again, the list is not exhaustive or exclusive. Ohio
Rev. Code § 1345.03(B). The listed acts cover
situations in which the supplier has a marked
advantage over the consumer and takes advantage of
that unequal position to the consumer’s detriment.
E.g., Ohio Rev. Code § 1345.03(B)(1) (“[T]he supplier
has knowingly taken advantage of the inability of the
consumer reasonably to protect the consumer’s
interests because of the consumer’s physical or
mental infirmities, ignorance, illiteracy, or inability
to understand the language of an agreement.”).

361a
The listed unconscionable acts all must be done
knowingly. The implication is that a supplier must act
knowingly to commit an unconscionable act under the
OCSPA. To act knowingly, the supplier must know
the impact of his behavior on the consumer, or know
that his behavior was proscribed. Clayton v. McCary,
426 F.Supp. 248, 261 (N.D. Ohio 1976).
After careful review of the facts and applicable
law, the Court Concludes that Dish’s Registry Calls
were unfair acts. Registry Calls injure consumers
because the supplier calls a consumer who registered
his or her telephone number specifically because he or
she did not want such calls, and the seller is on notice
from the Registry that the consumer does not want
the call, but calls anyway. Every such unwanted call
causes some injury, “Every call uses some of the
phone owner’s time and mental energy, both of which
are precious.” Patriotic Veterans, Inc., v. Zoeller, 845
F.3d 303, 305-06 (7th Cir. 2017). The consumer cannot
reasonably avoid the injury because the supplier
controls whether to place the call. There is no
countervailing economic benefit because the
consumer did not want the call. Numerous Dish
witnesses testified that it made no business sense to
call people who did not want to be called.
The Court also concludes that the 1,759
Prerecorded Calls made by Dish and the
Telemarketing Vendors were unfair. Prerecorded
telemarketing calls injure consumers because there is
no live person on the other end of the line:
[M]any
recipients
telemarketing calls]

find
[prerecorded
obnoxious because

362a
there’s no live person at the other end of the
line. The lack of a live person makes the call
frustrating for the recipient but cheap for the
caller, which multiplies the number of these
aggravating calls in the absence of legal
controls.
Patriotic Veterans, Inc. v. Zoeller, 845 F.3d at 306.
Torok’s testimony confirms the accuracy of the
Seventh Circuit’s observation in Patriotic Veterans.
Prerecorded calls currently are the primary cause of
consumer
frustration
with
telemarketing.
Prerecorded Calls generate large numbers of Do-NotCall complaints to the FTC. T 710: 39 (Torok). The
FTC is actively working to come up with a solution
that would stop unwanted Prerecorded Calls. T 710:
80-83 (Torok).
The consumers could not reasonably avoid the
injury in this case because Dish controlled whether to
place the calls. The evidence before the Court shows
no countervailing economic benefit. Dish witness
Ahmed testified that these types of sales tactics did
not produce good customers and led to high churn
rates that cost Dish money. See T 626: 2323-28, 233334, 2418-19 (Ahmed). In this case, at least,
Prerecorded Calls were unfair.
Dish is liable for the 41,788 Internal List Calls,
77,991 Registry Calls, and 1,759 Prerecorded Calls
that Dish or its agents made to Ohio residents in
violation of the OCSPA.
2. Civil Penalties for Ohio under Count XII

363a
Ohio has established that Dish violated the
OCSPA when it made 41,788 Internal Calls from
September 2007 to March 2010. Each call was a
separate violation.
Under the OCSPA, the Court may assess civil
penalties as follows:
[I]f the violation is an act or practice that
was … determined by a court of this state to
violate section 1345.02 [or] 1345.03 of the
Revised Code and committed after the
decision containing the court’s determination
was made available for public inspection
pursuant to division (A)(3) of section 1345.05
of the Revised Code, the attorney general may
request and the court may impose a civil
penalty of not more than twenty-five
thousand dollars against the supplier.
Ohio Rev. Code § 1345.07(D). Section 1345.05(A)(3)
provides:
(A) The attorney general shall:
(3) Make available for public inspection all
rules and all other written statements of
policy or interpretations adopted or used by
the attorney general in the discharge of the
attorney general’s functions, together with all
judgments, including supporting opinions, by
courts of this state that determine the rights
of the parties and concerning which appellate
remedies have been exhausted, or lost by the
expiration of the time for appeal, determining

364a
that specific acts or practices violate section
1345.02, 1345.03, or 1345.031 of the Revised
Code;
Ohio Rev. Code § 1345.05.
The Attorney General made judgments available
as early as 2000 that stated that making calls to
people who previously stated that they did not want
to receive such calls was unfair and deceptive in
violation of Ohio Revised Code § 1345.02. Charvat v.
Cont’l Mortg. Servs,, Inc., No. 99CVH12-10225, 2002
WL 1270183, at *5 (Ohio Ct. C.P. June 1, 2000) (PIF
no. 1882); see Burdge v. Satellite Sys. Network, LLC.,
No. 2006 CV F 01279, at 3 (Fairfield, Ohio Mun. Ct.
March 2, 2007) (PIF No. 2535.); Ohio ex rel. Petro v.
Craftmatic Ord., Inc., No 05-CVH-06-06060, at 13
(Ohio Ct. C.P. July 25, 2005) (PIF No. 2347); Burdge
v. Satellite Sys. Network, LLC., No. 2005 CV F 00243,
at 2 (Fairfield, Ohio Mun. Ct. May 11, 2005) (PIF No.
2344.) Ohio ex rel. Fisher v. Wykle, No. 90-1395, at 4
(Ohio Ct. C.P. Apr 8, 1992) (PIF No. 1141). Ohio is
entitled to recover civil penalties for the 41,788
Internal List Calls that Dish and its Telemarketing
Vendors made from 2007 to September 2010. The
maximum civil penalty exceeds $1 billion (41,788 x
$25,000.00 = $1,044,700,000.00). Ohio suggests that 1
percent of this figure, or $10,447,000.00, would be an
appropriate penalty.
Dish claims that it is entitled to an affirmative
defense to civil penalties under Ohio Rev. Code §
1345.11. Section 1345.11 states that “no civil
penalties shall be imposed” if “a supplier shows by a
preponderance of the evidence that a violation

365a
resulted from a bona fide error notwithstanding the
maintenance of procedures reasonably adopted to
avoid the error.” Ohio Rev. Code § 1345.11(A). Ohio
objects to Dish raising this affirmative defense.
Plaintiffs’ Proposed Responsive Conclusions of Law
(d/e 682), at 5. Ohio objects because Dish did not raise
the defense in its Answer or in its proposed
conclusions of law in the Final Pretrial Order. Answer
to Third Amended Complaint and Affirmative
Defenses (d/e 484), at 19-22, Defenses; Final Pretrial
Order (d/e 564), Attachment G, Dish Network L.L.C.’s
Proposed Conclusions of Law, at 78-82.
The pretrial conference and pretrial order “are
vital parts of the procedural scheme created by the
Federal Rules of Civil Procedure.” SNA Nut Company
v. The Haagen-Dazs Company, Inc., 302 F.3d 725, 732
(7th Cir. 2002). As a result, “a defense not raised in
the pretrial order is deemed waived.” Id. Dish’s
possible affirmative defense under § 1345.11(A) is
waived.
Dish also argues that Ohio is only entitled to a
maximum penalty of $25,000.00. Dish cites two
opinions from the Ohio Courts of Common Pleas in
which the courts assessed penalties on companies
that engaged in years of unfair and deceptive
practices. These courts assessed one penalty of
$25,000.00 for each type of unlawful practice. State ex
rel. Fisher v. Gates, 1995 WL 901458, at *2 (Ohio Ct.
Common Pleas Mar. 21, 1995); State ex rel. Celebrezze
v. Erdil, 1992 WL 792930, at *1-2 (Ohio Ct. Common
Pleas Oct. 28, 1992). Section 1345.07(D) authorizes a
penalty for “an act or practice.”

366a
The OSCPA “is a remedial law designed to
provide various civil remedies to aggrieved consumers
and must be read liberally.” State ex rel. Celebrezze v.
Hughes, 569 N.E.2d 1059, 1062 (Ohio 1991); see
Motzer Dodge Jeep Eagle, Inc. v. Ohio Attorney
General, 642 N.E.2d 20, 25 (Ohio App. 1994). Read
liberally, § 1345.07(D) authorizes a penalty for either
an act or a practice. The Ohio Attorney General in
Erdil and Gates proved illegal practices, not a specific
number of illegal acts, and so, secured one penalty
each practice. In this case, Ohio proved a specific
41,788 unfair acts. Ohio is entitled under § 1345.07(D)
to secure a penalty for each act. The maximum
penalty proven under Count XI is not limited to
$25,000.00. The Court will address the appropriate
amount to impose below in conjunction with the
amounts to be awarded for all of the claims for
monetary relief.
K. Summary
In summary, Dish is liable for the calls set forth
in the tables below. The tables also list the number of
calls for which Dish is liable for monetary relief,
either civil penalties or statutory damages.
Table I: Count I: TSR Registry Calls
Calls by Dish from March 25,
2004 through August 31, 2007

Millions of calls,
but specific
number unproven

367a
Calls by Dish from September
1, 2007 through March 12,
2010

3,140,920

Calls by Dish Order Entry
Retailer and agent JSR in
2006

2,349,031

Additional Calls by Dish Order
Entry Retailer and agent JSR
from January 1, 2007 to
February 14, 2007

Millions of calls,
but specific
number unproven

Calls by Dish Order Entry
Retailer and agent Satellite
Systems

381,811

Table II: Count II: TSR Internal List Calls
Calls by Dish to persons on
Dish’s internal do-not-call list

903,246

Calls by Dish to persons on
eCreek’s internal do-not-call
list

140,349

Calls by Dish to persons on
Order Entry Retailers’ do-notcall lists
Calls by Dish Order Entry
Retailer and agent JSR in
2006 to persons on Dish’s
internal do-not-call list

7,321,163

418,228

368a
Calls by Dish Order Entry
Retailer and agent JSR from
January through February 14,
2007, to persons on Dish’s
internal do-not-call list

Millions of calls,
but specific
number unproven

Calls by Dish Order Entry
Retailer and agent JSR in 2006
to persons on Order Entry
Retailers’ internal do-not-call
lists
Calls by Dish Order Entry
Retailer and agent JSR from
January through February 14,
2007 to persons on Order
Entry Retailers’ internal donot-call lists

267,439

Thousands of
calls, but specific
number unproven

Calls by Dish Order Entry
Retailer and agent Satellite
Systems to persons on Dish’s
internal do-not-call list

22,946

Calls by Dish Order Entry
Retailer and agent Satellite
Systems to persons on Order
Entry Retailers’ internal donot-call lists

42,990

Calls by Dish Order Entry
Retailer and agent Dish Nation

Included in JSR
calls

Table III: Count III: TSR Abandoned Calls

369a
Abandoned calls by Dish

98,054

Abandoned calls by Dish Order
Entry Retailer and agent Dish
TV Now

6,637,196

Abandoned calls by Dish Order
Entry Retailer and agent Star
Satellite (calls counted once for
civil penalties)

43,100,876

Abandoned calls by Dish Order
Entry Retailer and agent JSR

1,285,379

Abandoned call by Dish Order
Entry Retailer and agent
American Satellite

1

Additional abandoned calls by
Dish Order Entry Retailer and
agent American Satellite

Many, but
specific number
unproven

Abandoned calls by Dish Order
Entry Retailer and agent Dish
Nation

Included in JSR
calls

Table IV: Count IV: TSR Substantial Assistance
Calls by Dish Order Entry
Retailer and agent Star
Satellite (calls counted once for
civil penalties)

43,100,876

370a
Total TSR Violations subject to
66,109,628 calls
76
monetary relief:
At $11,000.00 per violation, the maximum
amount of civil penalties would be over $727 billion
($ 727,205,908,000.00). The actual maximum penalty
is higher than this figure because some of the
violations occurred after February 9, 2009, when the
maximum penalty per violation was $16,000.00.77
Table V: Count V: TCPA Registry Calls
California
California calls in 2003-2007
Registry Calls

266,514

California calls in 1,707,713
TSR Summary Judgment
Registry Calls

216,867

California calls in 2,386,386
Registry and Internal List
Calls

302,983

The total includes the 43,100,876 calls that Dish caused
Star Satellite to make only once, and the 2,386,386 calls that
Dish made from September 2007 to March 2010 only once.
77 Even if the Court disregarded the Order Entry Retailers’
activities (including Dish’s calls to persons on the Order Entry
Retailers’ Internal Do-Not-Call Lists), Dish and its
Telemarketing Vendors made a total of 4,282,569 illegal calls in
violation of the TSR. At $11,000.00 per violation, the maximum
amount of civil penalties would still be over $47 billion
($47,108,259,000.00). This amount does not include the millions
of illegal calls made from March 25, 2004 through August 2007.
76

371a
California calls in JSR
Registry Calls
California calls in Satellite
Systems Registry Calls
California Total

473,102
24,100
1,283,566

Illinois
Illinois calls in 2003-2007
Registry Calls
Illinois calls in 1,707,713 TSR
Summary Judgment Registry
Calls

112,116
83,895

Illinois calls in 2,386,386
Registry and Internal List
Calls

118,289

Illinois calls in JSR Registry
Calls

369,384

Illinois calls in Satellite
Systems Registry Calls
Illinois Total

North Carolina

10,048
693,732

372a
North Carolina calls in 20032007 Registry Calls

85,093

North Carolina calls in
1,707,713 TSR Summary
Judgment Registry Calls

52,961

North Carolina calls in
2,386,386 Registry and
Internal List Calls

97,785

North Carolina calls in JSR
Registry Calls

18,250

North Carolina calls in
Satellite Systems Registry
Calls

7,290

North Carolina Total

261,379

Ohio
Ohio calls in 2003-2007
Registry Calls

98,207

Ohio calls in 1,707,713 TSR
Summary Judgment Registry
Calls

77,991

Ohio calls in 2,386,386
Registry and Internal List
Calls

95,275

373a
Ohio calls in JSR Registry
Calls

129,004

Ohio calls in Satellite Systems
Registry Calls
Ohio Total

12,803
413,280

Grand Total for Count V
California

1,283,566

Illinois

693,732

North Carolina

261,379

Ohio

413,280

Grant Total of Violations in
Count V

2,651,957

Table VI: Count VI: TCPA Prerecorded Calls
California
California calls in Dish and
Telemarketing Vendor
Prerecorded Calls
California calls in Star
Satellite Prerecorded Calls

23,020
5,727,417

374a
California Total

5,750,437

Illinois
Illinois calls in Dish and
Telemarketing Vendor
Prerecorded Calls
Illinois calls in Star Satellite
Calls
Illinois Total

5,830
2,660,066
2,665,896

North Carolina
North Carolina calls in Dish
and Telemarketing Vendor
Prerecorded Calls
North Carolina calls in Star
Satellite Calls
North Carolina Total

2,283
1,716,457
1,718,740

Ohio
Ohio calls in Dish and
Telemarketing Vendor
Prerecorded Calls
Ohio calls in Star Satellite
Calls

1,759
3,419,175

375a
Ohio Total

3,420,934

Grand Total for Count VI
California

5,750,437

Illinois

2,665,896

North Carolina

1,718,740

Ohio

3,420,934

Grand Total for Count VI
Violations

13,556,007

Total TCPA Violations

16,207,964

At $500.00 in statutory damages per violation for
knowing violations, the maximum statutory damages
award would be approximately $8.1 billion
($8,103,982,000.00).
Table VII: Violations of Cal. Bus. & Prof. Code §
17592(c)
2007-2010: Yoeli Set of
2,386,386 Registry Calls
2007-2010: Taylor’s Set of
501,650 Registry Calls
2007-2010: Taylor’s Set of Not
Completed Registry Calls

296,640
42,019
33,970

376a
2007-2010: Taylor’s Set of
Wrong Number, No English
Registry Calls
Total

1,955
374,584

Table VIII: Violations of Cal. Bus. & Prof. Code §
17200
Violations of TCPA Proven in
Count V
Violations of TCPA Proven in
Count VI

1,283,566

Violations of Cal. Bus. & Prof.
Code § 17592(c)
Violations of Cal. Civ. Code §
1770(a)(22)(A)
Total

374,584

5,750,437

5,727,417
13,136,004

The maximum possible penalties for Count VII
would be $11,000 per violation prior to February 9,
2009, and $16,000 thereafter; plus $2,500 per
violation. The maximum possible penalties for Count
VIII would be $2,500 per violation. The total
maximum possible civil penalty for California’s
claims in Counts VII and VIII exceeds $37.8 billion
($37,896,894,000.00).78 California suggests a penalty
of $100 million ($100,000,000.00).
(374,584 x $11,000) + (374,584 x $2,500) + (13,136,004 x
$2,500) = $37,896,894,000.00. This calculation assumes $11,000
78

377a
Table IX: Violations of N.C. Gen. Stat. § 75-102
North Carolina Registry Calls
103,343 Registry
within 2 years of the first
Calls subject to
violation proven
civil penalties
Table X: Violations of N.C. Gen. Stat. §75-104
North Carolina Prerecorded
Calls within 2 years of the first
violation proven

1,716,457
Prerecorded Calls
subject to civil
penalties

The civil penalties for the violations in Counts IX
and X are $500 for the first violation, $1,000 for the
second violation, and $5,000 for the third and any
other violation that occurs within two years of the
first violation. The calculated penalty would be
approximately $9.1 billion ($9,098,938,000.00). North
Carolina has offered to voluntarily remit the penalty
to $100 per violation or approximately $182 million
($182,980,000.00).
Table XI: Violations of Illinois Automatic
Telephone Dialers Act (IATDA), 815 ILCS 505/2Z
No Violations Proven

0

as the maximum possible penalty for the violations proven under
§17593.

378a
Table XII: Violations of Ohio Consumer Sales
Practice Act, Ohio Rev. Stat. Ohio Rev. Code §
1345.02(A)
Ohio Internal List Calls by
Dish and Telemarketing
Vendors

41,788 Violations
subject to civil
penalties.

The maximum civil penalty is $25,000.00 per
violation. The total possible penalty in Count XII
exceeds $1 billion (41,788 x $25,000.00 =
$1,044,700,000.00). Ohio suggests 1 percent of the
maximum, or $10.4 million ($10,447,000.00), as an
appropriate penalty.
Table XIII: Total Maximum Possible Monetary
Liability
Counts I-IV TSR Maximum
Civil Penalties
Counts V-VI TCPA
Calculated Statutory
Damages
Counts VII-VIII Maximum
Civil Penalties

$727,205,908,000.00
8,103,982,000.00

37,896,894,000.00

Counts IX-X Calculated
Civil Penalties

9,098,938,000.00

Count XI No Violations

0.00

379a
Count XII Maximum Civil
Penalties
Total Maximum Possible
Penalties and Statutory
Damages

Table XIV:
Liability

Plaintiffs’

1,044,700,000.00
$783,350,422,000.00

Suggested

Monetary

United States’ Suggested
Penalty for TSR Counts I-IV

$ 900,000,000.00

Plaintiff States’ Suggested
Statutory Damages for
TCPA Counts V-VI

1,000,000,000.00

California’s Suggested
Penalty for Counts VII-VIII

100,000,000.00

North Carolina’s Suggested
Penalty for Counts IX-X

182,980,000.00

Ohio’s Suggested Penalty for
Count XII

10,447,000.00

Total Suggested Penalties
and Statutory Damages

$ 2,193,427,000.00

Table XV: Defendant’s Testimony Regarding
Penalties

380a
DeFranco’s testimony that a
$20 million penalty would “be
a lot of money” and “more than
a slap on the wrist.” T
621:1548 (DeFranco).

$ 20,000,000.00

The Appropriate Amount of Monetary Relief
The appropriate amount of monetary relief in
each Count depends, in part, on the relief awarded in
the other Counts. The Court will address the factors
for determining the amount of relief in the Counts IX and XII and then determine the appropriate
amount of monetary relief for these Count.
A. Factors for TSR Violations in Counts I-IV
The FTC Act sets forth factors the Court must
consider in setting the appropriate amount of civil
penalties within the statutory maximum:
In determining the amount of such a civil
penalty, the court shall take into account the
degree of culpability, any history of prior such
conduct, ability to pay, effect on ability to
continue to do business, and such other
matters as justice may require.
15 U.S.C. § 45(m)(1)(C). The Court considers these
factors in order.
1. Culpability
Dish’s culpability is significant. Dish has some
level of culpability for its direct marketing and a

381a
significantly higher level of culpability for the illegal
calls made through its Order Entry program.
a. Dish Direct Marketing
Dish made efforts to follow the Do-Not-Call Laws
in its Account Number Campaigns. Dish set up a
system to scrub Account Number Campaigns through
the PDialer. In 2008, Dish started using
PossibleNOW’s services and software to provide an
additional scrub. These efforts weigh in favor of
finding that Dish had limited culpability for the calls
made in its Account Number Campaigns.
Dish, however, failed to prove that it made similar
efforts with its Lead Tracking System and Cold Call
campaigns. Dish claimed that it had an Inquiry-based
Established Business Relationship with the persons
whose numbers were on Lead Tracking System
campaigns because these individuals inquired about
Dish Network programming. Dish had the burden to
prove Established Business Relationship exceptions.
Dish failed to demonstrate that the Lead Tracking
System was limited to people who inquired about
Dish Network programming. Dish presented almost
no competent evidence regarding how Lead Tracking
System calling lists were formulated. Dish failed to
show that it had Established Business Relationships
with the persons on the Lead Tracking System.
Dish also failed to present competent evidence to
show how Lead Tracking System and Cold Call
calling lists were scrubbed. The lack of evidence
leaves the Court with no basis to conclude that Dish
made any efforts to remove numbers that were on the

382a
Registry or on Internal Do-Not-Call Lists from the
Lead Tracking System and Cold Call calling lists. The
failure of Dish to present competent evidence to show
effort to make its Lead Tracking System and Cold
Call campaigns comply with the TSR weigh in favor
of finding culpability for the illegal calls in these
campaigns.
In addition, Dish made millions of illegal calls in
Account Number Campaigns because Dish used an
unreliable method to determine whether it had
Transaction-based
Established
Business
Relationships with current and former customers.
The TSR definitions stated that a Transaction-based
Established Business Relationship existed for 18
months immediately after the customer’s last
payment or financial transaction. Dish’s expert
Sponsler testified that a Transaction-based
Established Business Relationship with a current or
former customer had to be calculated from the date of
the last transaction. Dish did not start using
transaction dates until approximately July 2010,
after all the calls at issue were made.
Dish’s failure to read and properly apply the TSR
definitions for Established Business Relationships
was a serious error that should have been avoided.
This error resulted in millions and millions of illegal
calls. Dish’s inability to read and follow the TSR
demonstrates a lack of care that weighs in favor of
finding some level of culpability for the Account
Number Campaign calls made by Dish and its
Telemarketing Vendors.

383a
Dish presented Taylor’s testimony at trial in an
attempt to show that it had little culpability for the
1,707,713 calls that the Court found were illegal calls
to numbers on the Registry at summary judgment. As
explained in the Finding of Facts, the vast majority of
these calls were violations. Taylor showed that, at
best, 20,387 canceled work order and other nontelemarketing calls may not have been violations.
In addition, Dish made many more illegal calls
than those on which the United States has sought
liability. Taylor concluded in his October 14, 2013
Report, PX 16, that Dish made 501,650 Registry calls
for which Taylor could not find a basis to exclude from
liability. The United States asked, and the Court
found liability for these calls. Taylor, however,
erroneously eliminated at least 15,846,402 calls from
liability for reasons that were not supported by the
evidence. These 15,846,402 illegal calls show that
Dish’s errors caused many more illegal calls than
those on which the United States secured a finding of
liability. The actual magnitude of the illegal conduct
speaks to more a significant level of culpability.
Dish further argues that violations as percentage
of all of Dish’s calls was very small. Dish relies on
Taylor’s Tables, DTX 626A through 626D, to show
that the vast majority of Dish’s calling campaigns had
very few illegal calls. Dish also relies on Taylor’s
opinion that an error rate of 5% or less indicated that
the calling list was properly scrubbed to remove
numbers that should not be called. Taylor’s Tables,
however, are only based on the 501,650 calls from his
October 14, 2013 Report on which the Court granted
summary judgment. Taylor’s Tables do not take into

384a
account the 15,846,402 additional calls in those
calling campaigns that violated the TSR. In light of
all these additional violations, Taylor’s Tables tell the
Court little or nothing about the percentage of all of
Dish’s calls that violated the TSR.
Dish also relies extensively on Sponsler’s 2010
audit. The audit says nothing about Dish’s
culpability. The violations occurred from March 2004
to March 2010. Sponsler only made findings in the
audit about Dish’s practices in May 2010. The audit
also says nothing about the process Database
Marketing used to process Lead Tracking System and
Cold Call calling lists to comply with the Do-Not-Call
Laws. The audit was also at a “high,” i.e. superficial,
level. Sponsler did not audit calling records to see the
rate of errors in Dish’s calling processes. The audit is
not probative of Dish’s culpability for the calls for
which Dish is liable.
The Court concludes that Dish’s handling of its
direct telemarketing requires a finding of some
culpability. Outbound Operations Department took
many steps to scrub Account Number Campaign
calling lists, but Dish failed to properly determine
whether Dish had Transaction-based Established
Business Relationships with current and former
customers. Dish presented no competent evidence of
Dish’s efforts to ensure that the Lead Tracking
System and Cold Call calling campaigns complied
with the TSR or other Do-Not-Call Laws. On balance,
the failure to read and apply the TSR Established
Business Relationship definition and the lack of
evidence on the formation and processing of Lead

385a
Tracking Systems calling lists merits a finding of
culpability for Dish’s direct marketing.
b. Order Entry Program
Dish bears significant culpability for the reckless
manner in which Dish operated the Order Entry
Program before August of 2006, and to a lesser extent
thereafter. Dish initially hired Order Entry Retailers
based on one factor, the ability to generate
activations. Dish cared about very little else. As a
result, Dish created a situation in which
unscrupulous sales persons used illegal practices to
sell Dish Network programming any way they could.
By 2006, Dish admitted it was overwhelmed with
consumer complaints about these operators. Dish
started to address the mess in the second half of 2006,
but by 2009, Dish’s own legal department still viewed
the Order Entry program as fraught with illegal and
shady practices. In late 2008 and early 2009, Dish
fired 40 Retailers for defrauding Dish and lying to
potential customers over the phone. As part of this
purge, in 2009, Dish cut the number of Order Entry
Retailers from 76 to 32. Dish sowed the wind and
reaped the whirlwind when it decided to hire anybody
that could get on the phone and bring in activations
by whatever means possible.
Part of that whirlwind was the millions and
millions of illegal calls in violation of the TSR. The
United States has proven that Dish TV Now, Star
Satellite, JSR, Satellite Systems, and American
Satellite made 54,505,896 illegal calls in violation of
the Do-Not-Call Law, including the TSR. The United
States has also proven that Order Entry Retailers

386a
JSR, American Satellite, Dish Nation, United
Satellite, Vision Satellite, LA Activations, and Atlas
Assets made many more illegal “press 1” prerecorded
telemarketing calls to sell Dish Network
programming. Based on the volume of Abandoned
Prerecorded Calls made by Star Satellite, Dish TV
Now, and JSR, the Court finds it more likely than not
that these other operators made hundreds of millions
more. Dish’s reckless decision to use anyone with a
call center without any vetting or meaningful
supervision demonstrates a disregard for the
consuming public.
2. History of Prior Conduct
The evidence shows some history of Do-Not-Call
Law violations before March 25, 2004. Dish made
calls to Oregon residents without scrubbing against
the Oregon state Do-Not-Call list. In 2003, Dish
entered into an Assurance of Voluntary Compliance
with Indiana to comply with Indiana Do-Not-Call
Laws, and Dish was sued by Missouri for Do-Not-Call
Law violations. The history shows that Dish had ongoing problems complying with Do-Not-Call Laws
even before the Registry launched. The history also
shows that Dish understood the potential penalties
for Do-Not-Call Law violations could be substantial.
3. Ability to Pay
The evidence also shows that Dish has a
significant ability to pay a penalty. Dish is worth $28
billion. Dish’s net after tax income, or profits, for 2016
was approximately $1.4 billion. Dish also has
consistently made net after tax income between $700

387a
million and $1.5 billion since 2011. Dish has the
ability to pay a significant percentage of its annual
profits as a penalty.
4. Ability to Continue Business
Dish would be able to pay a significant percentage
of its net after-tax income as a penalty and continue
operating. Dish has repeatedly demonstrated an
ability to make large one-time payments and still
maintain operations. In 2015, Dish paid over $515
million to the FCC because its affiliates bid on the
wireless spectrum, but they failed to complete the
purchase of some spectrum on which they bid. In
2011, Dish agreed to pay TiVo $500 million in
settlement of a patent suit. Dish paid a lump sum of
$300 million to TiVo as an initial payment on this
settlement. In 2012, Dish paid $700 million to Voom
to settle a contract dispute. Dish continued to operate
and continued to increase its profits while making
these payments. In light of this evidence, Dish can
pay a penalty of a significant percentage of its profits
and still continue operating.
Dish claims that it is cash-poor because it has
invested large portions of its net after tax profits in
wireless spectrum to keep the company competitive.
Dish’s plea of poverty borders on the preposterous.
Dish has made net after tax profits of $700 million to
1.5 billion annually for the past several years, and it
has had no problems paying the substantial penalties
and settlements discussed above. Dish cannot avoid
liability because its current business plan calls for
buying illiquid assets in the form of broadband

388a
spectrum. Dish has the assets and ability to pay the
appropriate penalty for its illegal conduct.
5. Other Matters that Justice May Require
Dish has presented evidence that the United
States, either directly or through FTC, entered into
numerous civil penalty settlements with various
companies for violations of the TSR. The United
States entered into a stipulated judgment against
Star Satellite in the amount of $4,373,768 for the
same 43,100,876 calls at issue here. The United
States entered into a stipulated judgment with
Guardian for $7,892,242 for the approximately
49,000,000 calls it made for Star Satellite and Dish
TV Now at issue here. The terms of the stipulated
judgment against Star Satellite suspended all but
$75,000 of the penalties. The terms of the stipulated
judgment against Guardian suspended all but
$150,000 of the penalties.
The FTC entered into a stipulated judgment
against Dish TVRO Retailer New Edge Satellite for
$570,000 in civil penalties, but suspended all of the
penalties. The FTC entered into a stipulated
judgment against Order Entry Retailer Planet Earth
Satellite in the amount of $7,094,354 but suspended
all but $20,000 of the penalties. The FTC entered into
a stipulated judgment against Caribbean Cruise Line,
Inc., for $7,730,000 in civil penalties for making 12 to
15 million illegal calls. The United States entered into
a stipulated judgment against Comcast Corporation
in the amount of $900,000 in civil penalties for TSR
violations. The United States alleged that Comcast
Corporation made over 900,000 illegal calls. The

389a
United States entered into a stipulated judgment
against DirecTV for $2,310,000.00 in civil penalties
for TSR violations. The United States alleged that
DirecTV was responsible for 1,050,007 calls. Dish
argues
that
fairness
requires
a
penalty
commensurate with the penalties awarded in these
cases.
These settlements are worth little or no
consideration in the calculations of civil penalties in
this case. Parties who settle negotiate a settlement
sum to avoid the time and costs of litigation. The
parties also negotiate a settlement to avoid the risk of
a judgment in a fully litigated matter. The plaintiff
avoids the risk of a judgment in favor of the
defendant, and the defendant avoids the risk of
liability from a large judgment in favor of the
plaintiff. Settling parties “forego the possibility of
fully vindicating their positions.” United States v.
Phelps Dodge Industries, Inc., 589 F.Supp. 1340, 1367
(S.D. N.Y. 1984). The settlements, therefore, say little
or nothing about the amount a court would have
entered in judgment if the matters had been fully
litigated. As a result, the settlements have little
probative value on the appropriate monetary relief in
this fully litigated case.
Assuming arguendo that settlements have some
probative value, the parties have not admitted any
details about the activities of any of the defendants in
these settled matters except Star Satellite and
Guardian. The Court, therefore, has no basis to
compare those cases to this one.

390a
The parties have presented evidence about Star
Satellite and Guardian. Dish argues that Star
Satellite and Guardian were more culpable that Dish.
The Court disagrees. Dish created the situation that
allowed Star Satellite and Guardian to act. If Dish
had not started the Order Entry program, or if Dish
had adequately monitored and supervised the Order
Entry program, Star Satellite and Guardian would
have never made millions and millions of illegal calls
to sell Dish Network programming. Dish’s creation of
the largely unsupervised Order Entry program and
its indifference to the consequences of its actions
makes Dish more culpable than either Star Satellite
or Guardian.
Dish also presents no evidence about Star
Satellite or Guardian’s ability to pay a penalty. The
ability to pay is a statutory factor that the Court must
consider. Dish, thereby, failed to present the
necessary evidence to compare these cases.
Dish notes that the FTC issued statements in
several of these cases indicating that the settlement
amount of civil penalties was the proper penalty
under the circumstances. However, the opinion of a
party in a case, even the FTC, is not controlling and
does not indicate the amount of penalties that a court
would have entered if the case had been fully
litigated.
Dish argues that it will be punished for exercising
its right to trial if the penalties exceed an amount that
is consistent with these settlements. This is incorrect.
Parties settle to avoid the possible results of full
litigation. The parties did not settle here. As a result,

391a
the Court must give both parties the right to try the
case to a fully litigated judgment. Dish is not being
punished for trying the case rather than settling.
6. Res Judicata
Dish argues that an award of civil penalties for
the 43,100,876 Prerecorded Calls by Star Satellite
and the 6,637,196 Prerecorded Calls by Dish TV Now
is barred by the doctrine of res judicata. The doctrine
of res judicata holds that once a party has fully
litigated a claim, the party cannot litigate the claim
again against the same party or their privies. Res
judicata, however, does not bar separate actions
against joint wrongdoers. The claim against each
wrongdoer is a separate and distinct claim for
purposes of res judicata. See Minix v. Canarecci, 597
F.3d 824, 829-30 (7th Cir. 2010) (citing Restatement
(Second) of Judgments § 49 (1982) (“A judgment
against one person liable for a loss does not terminate
a claim that the injured party may have against
another person who may be liable therefor.”)).79 The
claim of the United States against Dish for these
illegal calls is separate from its claims against Star
Satellite and Guardian for purposes of res judicata.
The United States’ claim against Dish is not barred
by res judicata.
B. The TCPA Violations in Counts V and VI

The Illinois Supreme Court has agreed with the
Restatement (Second) of Judgments approach to res judicata.
See River Park, Inc. v. City of Highland Park, 184 Ill.2d 290, 31112, 703 N.E.2d 883, 893 (Ill. 1998).
79

392a
The calculated amount of more than $8.1 billion
in statutory damages under the TCPA is “wholly
disproportioned to the offense and obviously
unreasonable.” St. Louis I.M. & S. Ry. Co. v. Williams,
251 U.S. at 66-67. The TCPA does not list factors for
reducing this amount. The parties have at times
suggested applying the statutory factors in the FTC
Act § 5(m) discussed above. See Plaintiffs’ Motion for
Summary Judgment (d/e 402), at 167; Dish Network,
L.L.C.’s Proposed Post-Trial Conclusions of Law (d/e
666), at 82. The Court agrees that these factors
provide a framework for assessing a proportionate
and reasonable penalty that would consistent with
the requirements of due process. Therefore, The
Plaintiff States are entitled to significant amount of
statutory damages for the reasons discussed with
respect to Counts I-IV.
Dish renews its arguments that one call may not
be subject to multiple statutory damages and
penalties even if the call violates multiple statutes
and rules. Dish is again incorrect. An act that violates
multiple statutes may be liable for multiple awards of
statutory damages and penalties. Lary, 780 F.3d at
1105-06.
The Plaintiff States again argue for a remittitur
or a voluntary reduction by them. As discussed above
a remittitur is not appropriate because this is not a
jury trial, and the Plaintiff States did not offer a
voluntary reduction. The relevant factors used in the
FTC Act § 5(m) support the awarding of a significant
penalty.

393a
C. California Civil Penalties in Counts VII and
VIII
The amount of civil penalties for Count VII is
governed by California Business and Professions
Code §§ 17536 and 17592(c). The amount of civil
penalties for Count VIII is governed by California
Business and Professions Code § 17206. Section
17592(c) states that the amount civil penalties under
that provision is governed by the same factors as the
penalties under FTC Act § 5(m) discussed in Counts
I-IV above. The California Business and Professions
Code §§ 17536 and 17206 set forth the same factors
for setting the appropriate penalties:
(b) The court shall impose a civil penalty for
each violation of this chapter. In assessing the
amount of the civil penalty, the court shall
consider any one or more of the relevant
circumstances presented by any of the parties
to the case, including, but not limited to, the
following: the nature and seriousness of the
misconduct, the number of violations, the
persistence of the misconduct, the length of
time over which the misconduct occurred, the
willfulness of the defendant’s misconduct, and
the defendant’s assets, liabilities, and net
worth.
Cal. Bus. & Prof. Code §§ 17206(b) and 17536(b)
(statutory language is identical in each).
The statutory factors in §§ 17206(b) and 17536(b)
weigh in favor of a significant penalty. Dish’s
persistent misconduct was serious, and the number of

394a
violations in California was enormous. From 2003 to
2010, Dish called hundreds of thousands of California
consumers who registered their phones on the
Registry. The message was clear: these consumers did
not want to be annoyed and bothered by incessant
telemarketing calls, but Dish made over hundreds of
thousands of such calls anyway. The cumulative
injury of hundreds of thousands of calls over a sevenyear period was substantial.
Dish also hired Star Satellite as its telemarketing
agent.
Star Satellite
bombarded California
households with over 5.7 million Prerecorded Calls
“that many recipients find obnoxious because there’s
no live person at the other end of the line.” Patriotic
Veterans, Inc. v. Zoeller, 845 F.3d at 306.80 The
cumulative injury caused by millions of illegal
telemarketing calls also weighs in favor of a
significant penalty.
Dish’s disregard for Star Satellite’s telemarketing
practices also contributed to the millions of illegal
calls. By spring 2005, Dish knew that Star Satellite
was making Prerecorded Calls to market Dish
Network
programming.
Several
consumers
complained about these calls. Dish’s dialing
operations manager Bangert knew. He reported the
The actual number of Prerecorded Calls made to
California residents was much larger. Many of Dish’s agents
made press 1 Prerecorded Calls, including Dish TV Now, Star
Satellite, JSR, Satellite Systems, American Satellite, United
Satellite, Vision Satellite, LA Activations, Atlas Assets, and Dish
Nation. The combination of autodialers and recorded messaging
enabled each of these telemarketers to make hundreds of
thousands of calls a day to consumers nationally.
80

395a
matter to Retail Services. Jeff Medina in Dish’s Retail
Escalations forwarded the email to Margot Williams
in Retail Escalations. Medina joked, “Are these your
boys again?” Retail Services was already well aware
of Star Satellite’s practices. Dish did nothing to stop
the practice. In August 2005, Dish was sued because
of Star Satellite’s Prerecorded Calls. Dish did
nothing. Dish could have prevented millions of illegal
calls, but did nothing. This failure to act demonstrates
a disregard consumers and the law that merits a
significant penalty.
Finally, Dish has significant net worth in excess
of $28 billion, and net after tax profits of more than
$1.4 billion in 2016. Dish has a track record of net
after tax profits in this range. Dish’s pleas of being
cash poor are not persuasive. A significant penalty is
appropriate under the statutory factors in §§ 17206
and 17536. Dish’s arguments to the contrary are not
persuasive.
D. North Carolina Civil Penalties in Counts IX
and X
North Carolina also does not set forth statutory
factors for setting the level of civil penalties. The
amount of civil penalties under the statutory
calculations is approximately $9.1 billion. As
explained
above
this
amount
is
wholly
“disproportioned and obviously unreasonable” under
the circumstances in violation of due process.
Williams, 251 U.S. at 66-67. North Carolina offers to
reduce the penalty to $100 per violation, or
$175,967,600.00.

396a
The Court will again apply the statutory factors
for civil penalties under the FTC Act § 5(m) as a
meaningful framework for assessing penalties in
these Counts. For the reasons stated above regarding
these factors in Counts I-IV, a significant penalty is
appropriate. The amount of the penalty will be set
below along with the other claims.
E. Ohio Civil Penalties in Count XII
Ohio does not set forth statutory factors for
determining the amount of civil penalties. See Ohio
Rev. Code § 1345.07(D). The Court will apply the
statutory factors for penalties under FTC Act § 5(m).
Again, for the reasons stated above regarding these
factors in Counts I-IV, a significant penalty is
appropriate.
II. Amount of Statutory Damages and Penalties
After careful consideration of all the relevant
factors, a total award of civil penalties and statutory
damages
of
$280,000,000.00,
representing
approximately 20 percent of Dish’s 2016 after-tax
profits of $1.4 billion, is appropriate and
constitutionally proportionate, reasonable, and
consistent with due process.
The amount represents a significant penalty for
the millions and millions of Do-Not-Call Law
violations caused by Dish over years and years of
careless and reckless conduct. The amount reflects
Dish’s culpability for failing to read and follow the
TSR and TCPA in its direct telemarketing and for
enabling unscrupulous telemarketers in its Order

397a
Entry program to violate Do-Not-Call Laws on a
massive scale and injure enormous numbers of
consumers.
A total award of 20 percent of Dish’s annual 2016
profits, is a small percentage of the $2.1 billion
requested by the Plaintiffs and a miniscule fraction of
maximum possible penalties and damages. The Court
limited the monetary relief because Dish made some
efforts to avoid violations in its direct marketing and
took some actions after mid-2006, and particularly in
2009 when this suit was filed, to monitor its Order
Entry Retailers,. The $280,000,000.00 award is
consistent with all the relevant circumstances.
The total award is not onerous. Payment of the
award will not unreasonably affect Dish’s ability to
operate. Dish pays operating expenses approximately
$1 billion a month, $12 billion annually. The award of
$280,000,000.00 will constitute a one-time 2.3 percent
increase in those annual expenses. Dish also will
retain 80 percent of its annual profits for payment of
principal of any indebtedness or for investment into
its ongoing operations. As noted above, Dish paid
substantially higher penalties and settlements in the
recent past, including more than $515 million to the
FCC in 2015. Dish has been able to pay such sums
and maintain operations. Dish’s pleas of poverty and
lack of cash are unpersuasive in light of these facts.
The Plaintiffs ask for $2.1 billion in penalties and
statutory damages, or approximately 150 percent of
Dish’s annual profits. This amount could materially
affect Dish’s ability to continue operations. Such an
award would not put Dish out of business, but could

398a
adversely affect the many individuals who work for
Dish and other companies that do business with Dish.
A total monetary award of $280,000,000.00 is also
appropriate in light of other matters that justice may
require. Dish caused millions and millions of
violations of the Do-Not-Call Laws, and Dish has
minimized the significance of its own errors in direct
telemarketing
and
steadfastly
denied
any
responsibility for the actions of its Order Entry
Retailers. The injury to consumers, the disregard for
the law, and the steadfast refusal to accept
responsibility require a significant and substantial
monetary award. The total award of $280,000,000.00
meets these requirements.
The Court hereby imposes penalties against Dish
and in favor of the Plaintiffs United States,
California, and Ohio; and awards statutory damages
to Plaintiffs States and North Carolina and against
Dish, as follows: 60 percent of the total monetary
award, or $168,000,000.00, to the United States as
civil penalties in Counts I-IV; 30 percent, or
$84,000,000.00, to the Plaintiff States as
proportionate and reasonable statutory damages in
Counts V and VI; 6 percent, or $16,800,000.00, to
California as civil penalties in Counts VII and VIII; 3
percent, or $8,400,000.00, to North Carolina as
proportionate and reasonable statutory damages in
Counts IX and X; and 1 percent, or $2,800,000.00, to
Ohio as civil penalties in Count XII. The Court
apportioned the majority of the award to the United
States because the United States’ claims address the
injuries to consumers nationally. The Court
apportioned the second largest award to the TCPA

399a
claims because of the large number of illegal calls
proven in those claims and to vindicate federal law
and to recognize the joint effort of all the Plaintiff
States to bring this action. The Court apportioned the
remaining portions to California, North Carolina, and
Ohio to reflect the different numbers of illegal calls for
which each state sought monetary relief.
Dish is jointly and severally liable to the Plaintiff
States for the reasonable and proportionate statutory
damages of $84,000,000.00 in Counts V and VI. The
Plaintiff States shall divide the statutory damages in
Counts V and VI proportionately to the number of
violations in each state: 43.4 percent or
$36,456,000.00 to California; 20.7 percent or
$17,388,000.00 to Illinois; 12.2 percent or
$10,248,000.00 to North Carolina; and 23.7 percent or
$19,908,000.00 to Ohio.
Injunctive Relief
The Plaintiffs asks for a permanent injunction
pursuant to FTC Act § 13(b), 15 U.S.C. § 53(b), TCPA
47 U.S.C. § 227(g)(2); Cal Bus. & Prof. Code §§ 17204
and 17593; N.C. Gen. Stat. § 75-105(a) and 7-14; and
OCSPA Ohio Rev. Code § 1345.07(A)(2). The parties
focus their arguments primarily on whether the
United States is entitled to a permanent injunction.
The United States seeks an injunction pursuant
to the proviso in the FTC Act § 13(b) which states:
“Provided further, That in proper cases the
Commission may seek, and after proper proof, the
court may issue, a permanent injunction.” FTC Act
§ 13(b),15 U.S.C. § 53(b) (emphasis in the original)

400a
(Permanent Injunction Proviso). Violations of the
TSR are considered violations of a rule promulgated
under the FTC Act. Violations of such rules are unfair
and deceptive acts or practices in violation of FTC Act
§ 5(a). 15 U.S.C. §§ 45(a), 57a(1)(B) and 6102(c)(1).
The United States may pursue the remedies available
under the FTC Act for these violations, including
injunctive relief under the Permanent Injunction
Proviso. See F.T.C. v. World Media Brokers, Inc., 415
F.3d 758, 764-66 (7th Cir. 2005).
The Permanent Injunction Proviso authorizes the
Court to issue a permanent injunction in a “proper
case.” United States v. JS & A Group, Inc., 716 F.2d
451, 455-57 (7th Cir. 1983). A proper case “is a
straightforward violation of section 5 [of the FTC Act]
that required no application of the FTC’s expertise to
a novel regulatory issue through administrative
proceedings.” F.T.C. v. World Travel Vacation
Brokers, Inc., 861 F.2d 1020, 1028 (7th Cir. 1988).
Dish’s TSR violations are straightforward and do not
present a novel regulatory issue that required FTC
expertise. This is a proper case under the Permanent
Injunction Proviso.
To establish a right to a permanent injunction,
the United States must meet the “public interest” test
for injunctive relief. This standard applies to actions
by the federal government to enjoin violations of
federal statutes in the public interest. World Travel
Vacation Brokers, 861 F.2d at 1028-29. To meet the
public interest test for a permanent injunction, the
FTC must prove a violation of the TSR and a
reasonable likelihood of future violations. Commodity
Futures Trading Commission v. Hunt, 591 F.2d 1211,

401a
1220 (7th Cir. 1979). The Court must also consider a
balance of the equities; however, “public equities
must receive far greater weight.” World Vacation
Brokers, 861 F.2d at 1029.
Factors that indicate a likelihood of future
violations include “the gravity of harm caused by the
offense; the extent of the defendant’s participation…;
the isolated or recurrent nature of the infraction and
the likelihood that the defendant’s customary
business activities might again involve him in such
transactions; the defendant’s recognition of his own
culpability; and the sincerity of his assurances
against future violations.” S.E.C. v. Holschuh, 694
F.2d 130, 144 (7th Cir. 1982). Proof of past misconduct
is “highly suggestive of the likelihood of future
violations.” Hunt, 591 F.2d at 1220 (quoting S.E.C. v.
Management Dynamics, Inc., 515 F.2d 801, 807 (2d
Cir. 1975). Evidence that the violator “continued to
maintain that his conduct was blameless” has been
considered indicative of a need for an injunction to
prevent future violations. Hunt, 591 F.2d at 1220.
Dish argues that the Plaintiffs also must prove
scienter in order to secure an injunction. The
Holschuh opinion mentioned scienter as a factor.
Holschuh, 694 F.2d at 144. The Holschuh case was a
securities fraud case. Securities laws require proof of
scienter to secure an injunction. Aaron v. S.E.C., 446
U.S. 680, 701 (1980). Scienter is not an element for
establishing liability in the applicable Do-Not-Call
Laws.
Dish argues that the traditional four-part test for
injunctive relief in private actions of irreparable

402a
harm, no adequate remedy at law, success on the
merits, and a balance of the equities applies to the
United States’ claim for a permanent injunction. This
is incorrect. The Seventh Circuit specifically held in
World Travel Vacation Brokers that the public
interest test applies to actions for injunctive relief
under the Permanent Injunction Proviso.
Dish appeals to other language in FTC Act § 13(b)
which authorizes temporary injunctive relief during
pending administrative proceedings. The temporary
injunctive relief provision in § 13(b) does not apply
because the Permanent Injunction Proviso is a
separate and distinct authorization for permanent
injunctive that is independent of the temporary relief
provisions. JS & A Group, Inc., 716 F.2d at 456-57;
see World Travel Vacation Brokers, 861 F.2d at 102526.
Dish also cites Weinberger v. Romero-Barcelo, 456
U.S. 305, 313-14 (1982) for the proposition that the
Court should apply the traditional four-part test for
private injunction actions. However, the Weinberger
v. Romero-Barcelo decision did not concern an action
brought by the federal government to enforce a
federal statute. In this case, Congress determined
that the FTC should be able to secure injunctive relief
for clear violations of the FTC Act without should be
subject to “the requirements imposed by the
traditional equity standard which common law
applies to private litigants.” H.R. Conf. Rept. No. 624,
93d Cong., 1st Sess., reprinted in 1973 U.S. Code
Cong. & Admin News, at 2533. See FTC v. Warner
Communications, Inc., 724 F.2d 1156, 1159 (9th Cir.
1984); FTC v. Weyehauser Co., 665 F.2d 1072, 1082

403a
(D.C. Cir. 1981). The Weinberger v. Romero-Barcelo
decision therefore does not apply. In addition, the
Seventh Circuit decided World Travel Vacation
Brokers in 1988, six years after the Romero-Barcelo
decision. This Seventh Circuit was aware of RomeroBarcelo when it made its decision in World Travel
Vacation Brokers. The Seventh Circuit agreed with
the
other
Circuit’s
decision
in
Warner
Communications and Weyehauser Co. that the public
interest test should apply. World Travel Vacation
Brokers, 861 F.2d at 1028-29. This Court will follow
the Seventh Circuit’s decision in World Travel
Vacation Brokers and apply the public interest test.
The Plaintiff States seek an injunction under the
TCPA 47 U.S.C. § 227(g)(2). Section 227(g)(2) contains
language very similar to the Permanent Injunction
Proviso, “Upon a proper showing, a permanent or
temporary injunction … shall be granted without
bond.” 47 U.S.C. § 227(g)(2). Both statutes authorize
the government to secure an injunction to in the
public interest. The similar language and purpose
supports the inference the TCPA authorizes the
Plaintiff States to secure an injunction under the
public interest test. See Minnesota ex rel. Hatch v.
Sunbelt Communications and Marketing, 282
F.Supp.2d 976, 979 (D. Minn. 2002); Bank v.
Caribbean Cruise Line, Inc., 2014 WL 1883586, at *1
and cases cited therein (E.D. N.Y. May 12, 2014),
vacated on other grounds, 606 Fed.Appx., 28, 29 (2d
Cir. 2015).
The public interest test is also the appropriate
standard for injunctive relief under California
Business & Professions Code §§ 17204 and 17593;

404a
North Carolina General Statutes §§ 17-105(a) and 1714; and Ohio Revised Code § 1345.07(A)(2). See
California Service Station & Automobile Repair
Association v. Union Oil Co., 282 Cal. Rptr. 279, 285
(Cal. App. 1st Dist. 1991); State ex rel. Morgan v. Dare
To Be Great, Inc., 189 S.E.2d 802, 803 (N.C. App.
1972); Ohio Rev. Code § 1345.07(A)(2); Celebrezze v.
Hughes, 479 N.E.2d at 888-89; State ex rel. Fisher v.
Warren Star Theater, 616 N.E.2d 1192, 1198 (Ohio
App. 1992).81
The Plaintiffs have established that Dish, its
Telemarketing Vendors, and its Order Entry
Retailers violated the applicable Do-Not-Call Laws
millions and millions of times. The Plaintiffs have
also proven millions more violations, although have
not proven the specific amount for these additional
violations. The additional violations include Dish’s
Registry Calls in the 2003-2007 Calling Records. Dr.
Yoeli found 2,919,321 calls that were both Registry
Calls and Internal List Calls after March 25, 2004.
Dr. Yoeli assumed all calls in one day on the calling
records were one violation. This was a very
conservative assumption. Some of those records
reflected multiple illegal calls. The additional Do-NotCall Law violations also include the millions of calls
that JSR made between January 1, 2007 and the day
Dish terminated it on February 14, 2007. In addition,
many Order Entry Retailers made illegal press 1
Abandoned Prerecorded Calls, including Satellite
Systems, LA Activations, United Satellite, American
The Court does not address the injunctive relief standard
in Illinois because Illinois did not establish liability for its Count
XI claim.
81

405a
Satellite, Vision Satellite, Dish Nation, and Atlas
Assets. This evidence shows that Dish and its agents
made many millions more illegal calls that the
specific calls proven. The vast quantity of illegal calls
provides substantial proof that a reasonable
likelihood of future illegal calls without an injunction.
In many cases, Dish knew Order Entry Retailers
were violating the Do-Not-Call Laws and did nothing.
Dish knew that Satellite Systems made prerecorded
abandoned calls as early as 2002. Dish knew Satellite
Systems was making Prerecorded Calls in 2004 and
made it an Order Entry Retailers anyway. Dish knew
in 2005 that Satellite Systems was continuing to
make Prerecorded Calls. Dish knew in August 2005
that United Satellite was making illegal Abandoned
Prerecorded Calls in August 2005 and allowed the
practice to continue for another year.
Dish’s Retail Sales managers showed little
concern for compliance with the Do-Not-Call Laws.
Prior to 2009, their primary concern was generating
activations. Their compensation was tied to
activations. They knew that numerous Order Entry
Retailers
were
making
illegal
Abandoned
Prerecorded Calls and did little or nothing about it.
Prior to August 2006, they did almost nothing to
address these problems. Paralegal Hargen in Dish’s
Legal Department in fact noted that the Order Entry
Retailers and the Marketing Department tried to get
around the rules.
In August 2006, Dish started the Compliance
Department to limit Dish’s exposure for liability from
Retailer practices. The Compliance Department

406a
systematically documented complaints and secured
responses. The Compliance Department apparently
had some success in reducing the use off-shore
affiliates to telemarket Dish Network. Dish’s actions
to discipline Order Entry Retailers for Do-Not-Call
Law violations, however, remained ad hoc and
inconsistent. By 2009, Dish’s Legal Department still
considered the Order Entry program to be rife with
shady, illegal activity.
Any real changes came in late 2008 and 2009.
Dish fired numerous Retailers, cut the number of
Order Entry Retailers, and instituted changes in the
Quality Assurance program. These changes
corresponded with mounting pressure from
investigations by the FTC and state consumer
protection officials. Ultimately, these investigations
led to this suit being filed in March 2009 and Dish
settling with the remaining 46 states in July 2009 by
entering into the Assurance of Voluntary Compliance
with them. This evidence shows that Dish reacted to
pressure from law enforcement. The evidence
supports the conclusion that the pressure needs to be
maintained to keep Dish’s marketing personnel from
reverting to their practice of trying to get around the
rules.
The Court is also seriously concerned with the
most recent evidence showed that Dish continued to
show little or no regard for consumer complaints
about Order Entry Retailers’ practices. The Satellite
System calling records showed that Satellite Systems
made 381,811 Registry Calls in 2010 and 2011. Dish
received so many complaints that the Legal
Department prepared a standard go after Satellite

407a
Systems letter. Dish’s response to these consumers
was essentially: go away, it’s not our problem, go after
Satellite Systems. Dish’s denial of responsibility and
lack of regard for consumers are deeply disturbing
and support the inference that it is reasonably likely
that Dish will allow future illegal calls absent
government pressure.
In contrast, Dish’s direct marketing channel did
not demonstrate such a disregard for the Do-Not-Call
Laws. The direct channel established the Working
Group to prepare for the launch of the Registry.
Outbound Operations scrubbed Account Number
Campaigns to avoid Do-Not-Call violations. The scant
competent evidence, however, failed to show what
Dish’s Database Marketing did to ensure that Lead
Tracking System and Cold Call calling campaigns
complied with the Do-Not-Call Laws. In 2008,
PossibleNOW began assisting Dish’s direct marketing
with Do-Not-Call Law compliance.
The evidence, however, shows that responsible
Dish personnel in direct telemarketing channel did
not read the TSR or FCC Rule carefully. There is no
evidence that the Working Group attempted to
establish the necessary documentation to comply with
the safe harbor provisions of either the TSR or the
FCC Rule. Dish personnel knew that Dish made
mistakes, but they did not try to comply with the safe
harbor provisions.
Dish personnel also did not read the Established
Business Relationship provisions carefully. Dish
personnel did not follow the language of the TSR and
FCC Rule and calculate Transaction-based

408a
Established Business Relationship exceptions from
the last date of purchase or other financial
transaction. Dish hired PossibleNOW in 2008 and
learned that its Transaction-based Established
Business Relationship procedures were flawed, but
Dish did not correct the problem for another two
years. This lack of care indicates that a reasonable
likelihood that future illegal calls will occur without
an injunction.
Finally, the Court is convinced that at least some
in Dish management do not believe that Dish really
did anything wrong or harmed anyone with these
millions and millions of illegal calls. Outbound
Operations Manager Montano stated that he did not
think anyone was really harmed by the millions of
illegal calls:
I wouldn’t say that they are harmed.
Certainly, if any consumer, regardless of
whether it’s a current DISH customer or
former DISH customer, communicates to
DISH that they don’t want to receive calls
from our organization, we’ll absolutely do
everything in our power to abide by that.
….
I don’t know whether they were harmed or
not. All I can say, once again, is I apologize for
any inconvenience that may have been caused
to the consumer. Certainly, it is not our
intention to call any consumer that does not
wish to receive a phone call from DISH
Network.

409a
T 712: 433-34 (Montano). Dish has even taken the
position the evidence did not show that the millions
and millions of illegal calls harmed anyone. Dish
Network L.L.C’s Proposed Conclusions of Law for the
Second Phase of Trial (d/e 737), at 37-38. Illegal
telemarketing calls clearly harm consumers. Every
unwanted illegal telemarketing call robs individuals
of the “time and mental energy, both of which are
precious.” Patriotic Veterans, 845 F.3d at 303.
True, DeFranco testified that Dish “gets it” and
now takes telemarketing laws very seriously. See T
710: 225-26 (DeFranco). The evidence shows that
Dish’s indirect channel, at least, began taking DoNot-Call Laws seriously only in response to pressure
from consumer complaints and law enforcement
investigation before. As late as 2011, Dish still did not
“get it” when Dish refused to acknowledge any
responsibility for Satellite Systems’ illegal practices.
Montano’s 2017 testimony further demonstrates that
some Dish managers do not seem to “get it.” Montano
did not believe that consumers were harmed by Dish’s
millions of illegal calls. T 712: 433-34 (Montano). This
fundamental lack of understanding is a cause for
concern about Dish’s future conduct. Absent an
injunction, Dish will be reasonably likely to make or
cause others to make illegal calls in the future in
violation of the Do-Not-Call Laws.
Dish presented extensive evidence and made
extensive arguments about the balance of the
equities. The arguments, however, address aspects of
the Plaintiffs’ proposed injunction rather than
whether to issue an injunction. The Court must give
great weight to the public equities. Congress

410a
determined that harassing unwanted telemarketing
calls injure consumers. The 15,000,000 Americans
who registered numbers on the Registry in the first
five days after the Registry opened, and the
40,000,000 who registered numbers in the first two
months, agreed with Congress. The 226 million who
have registered their telephone numbers also agree.
See T 710: 35, 37 (Torok). These equities clearly weigh
in favor of some type of injunction to prevent future
harm.
The Court may include appropriate prophylactic
provisions in an injunction to ensure that future
violations will not occur. See Porter v. Warner
Holding Co., 328 U.S. 395, 398 (1946); FTC v. Febre,
128 F.3d 530, 534 (7th Cir. 1997). The prophylactic
provisions may bar otherwise legal conduct. See FTC
v. Colgate-Palmolive Co., 380 U.S. 374, 394-95 (1965);
United States v. Lowe’s, Inc., 371 U.S. 38, 53 (1962),
abrogated in part on other grounds, Illinois Tool
Works, Inc. v. Independent Ink, Inc., 547 U.S. 28, 4243 (2006).
The Court will set the parameters of the
appropriate injunction, not the Plaintiffs or Dish. The
injunction must ensure that the illegal Registry Calls,
Internal List Calls, and Prerecorded Calls will not
happen in the future. The injunction will take into
account Dish’s concerns that certain of Plaintiffs’
proposed injunctive provisions will drive Dish or its
retailers out of business. The primary goal of the
injunction, however, is preventing future illegal
activity, not saving Dish from incidental or
consequential financial pain to achieve that goal.

411a
The Court will not impose an immediate ban on
Dish’s telemarketing as proposed by the Plaintiffs.
Rather, the Court will require Dish, its
Telemarketing Vendors, and major Retailers
(Primary Retailers) to comply with the safe harbor
provisions of the TSR and the FCC Rule. The Primary
Retailers shall consist of every Dish Retailer that,
during the calendar year 2016, or any subsequent
calendar year, has either (1) produced 600 activations
or (2) has directly or indirectly used automatic dialing
equipment. The safe harbor provisions are designed
to ensure compliance with the Do-Not-Call Laws and
to allow for inadvertent errors. Requiring compliance
with the safe harbor provisions, therefore, will meet
the Plaintiffs’ justified need for a mechanism to
ensure compliance and avoid the potentially dire
consequences of a complete telemarketing ban. If
Dish
cannot
demonstrate
that
Dish,
its
Telemarketing Vendors, and the Primary Retailer are
in compliance with the safe harbor provisions of the
TSR and FCC Rule, the Court will bar Dish from
accepting activations from the non-complying source.
Limiting the prophylactic aspects of the
injunction to Primary Retailers will address Dish’s
concern that the Injunction Order would affect every
Retailer’s call to return a customer’s call. The
prophylactic aspects of the Injunction Order will only
affect major Retailers or Retailers who use automatic
dialing equipment. The Injunction Order will also
prohibit any Retailer from violating the relevant DoNot-Call Laws.
The Court, further, will not include the Plaintiffs’
proposal to require Dish to terminate a Primary

412a
Retailer for a single mistake as long as the Primary
Retailer is complying with the TSR and FCC Rule safe
harbor provisions. Compliance with the safe harbor
provisions will minimize errors and, so, meet the
Plaintiffs’ desire for future compliance. The Plaintiff
United States’ counsel indicated that Dish would not
need to terminate a Retailer who made a mistake if
the retailer was complying with the safe harbor
provisions. See T 711: 346-47 (Mills) (Attorney Runkle
questioning). Compliance with the safe harbor
provisions will also meet the goal of limiting
violations while avoiding the uncertainty that could
exist if a Retailer knew it would be terminated for one
mistake.
The Court further will not include the Plaintiffs’
proposed provision that would bar Dish from
accepting orders from Retailers that previously used
the Axiom system to place orders with Dish. All
Retailers have used the Axiom system for several
years. The Plaintiffs’ proposed ban on accepting
orders from any Retailer that used the Axiom system
would effectively terminate all Retailers. The Court
sees no basis for barring 3,000 TVRO Retailers from
placing order with Dish when the Plaintiffs presented
no material evidence about their activities.
The Plaintiffs implied that Dish hid the fact that
all Retailers now used the Axiom system. See T
711:351-53 (Mills). This is incorrect. Dish informed
the Plaintiffs years ago that all Retailers used the
Axiom system. See Opinion 445, at 59 (citing DX 224,
Declaration of Michael Mills, dated January 27,
2014.). The Court will therefore not impose this bar.

413a
The Court will adopt the Plaintiffs’ proposed
requirement that Dish employ a telemarketing
compliance expert to formulate a long-term plan to
ensure compliance with the Do-Not-Call Laws and to
provide status reports. The reports will include an
updated list of Primary Retailers that made 600
activations in a calendar year or used automatic
dialing equipment in a calendar year. Such Retailers
will become Primary Retailers required to comply
with the safe harbor provisions of the TSR and FCC
Rule.
The Court, however, will not follow the Plaintiffs’
suggestion to bar PossibleNOW or CompliancePoint
from serving as the telemarketing compliance expert.
PossibleNOW performed services for both sides and
PossibleNOW representatives testified for both sides.
The Court is not convinced that these services tainted
PossibleNOW to make it unable to serve as a
telemarketing compliance expert. Moreover, the
Plaintiff United States’ counsel indicated in his crossexamination of Sponsler on this issue that the United
States would have no objection if PossibleNOW
performed this role as a subcontractor. T 715: 803-04
(Sponsler) (Attorney Runkle questioning). If
PossibleNOW can perform this role as a
subcontractor, there is no reason it cannot perform
this role directly. The Court will not include a
provision that only imposes form over substance.
Lastly, the Court will include a provision that any
Plaintiff make unannounced inspections of Dish, its
Telemarketing Vendors, or Primary Retailers, but
will require a prior ex parte application to this Court
and Court approval for such inspection. An ex parte

414a
application to inspect a Dish facility must
demonstrate
probable
cause
necessary
for
administrative warrants to believe that Dish is
violating the Injunction Order, the plan developed by
the telemarketing compliance expert, the TSR, TCPA,
FCC Rule, or any of the State statutes at issue. An ex
parte application to inspect a Telemarketing Vendor
or Primary Retailer must demonstrate probable cause
necessary for administrative warrants to believe that
the subject of the requested inspection is violating the
TSR, TCPA, FCC Rule, or any of the State statutes at
issue. The ex parte application must state with
reasonable specificity for administrative inspections
the location to be inspected and the information
sought from the inspection. Requiring prior
application alleviates any Fourth Amendment
concerns, or other concerns, regarding the
reasonableness of any inspection. See Marshall v.
Barlow’s, Inc., 436 U.S. 307, 324-25 (1978); NationalStandard Co. v. Adamkus, 881 F.2d 352, 361-63 (7th
Cir. 1989). Requiring an ex parte application and
approval also alleviates Dish’s concerns about
random, abusive searches. The searches will only
occur when a Plaintiff can demonstrate probable
cause to believe that a violation of law or the
Injunction Order.
Dish presented no evidence regarding any other
provision in the Plaintiffs’ proposed injunctions. The
Court has reviewed the provisions and has adopted
those provisions that the Court found to be reasonable
and appropriate to ensure Dish’s ongoing compliance
with the Do-Not-Call Laws at issue.
CONCLUSION

415a
THEREFORE this Court enters judgment in
favor of the Plaintiffs United States and the States of
California, Illinois, North Carolina, and Ohio and
against Defendant Dish Network L.L.C. on Counts I,
II, III, V, VI, VII, VIII, IX, X, and XII of the Third
Amended Complaint and judgment in favor of
Plaintiff United States and against Defendant Dish
Network L.L.C. on the claim that Defendant provided
substantial assistance to Star Satellite as alleged in
Count IV of the Third Amended Complaint, and
judgment in favor of Defendant Dish Network L.L.C.
and against the United States on the claim that Dish
Network, L.L.C. provided substantial assistance to
Dish TV Now as alleged in Count IV of the Third
Amended Complaint. The Court enters judgment in
favor of Defendant Dish Network L.L.C. and against
Plaintiff State of Illinois on Count XI of the Third
Amended Complaint.
The Court awards the following monetary relief in
favor of the Plaintiffs United States and the States of
California, Illinois, North Carolina, and Ohio and
against Defendant Dish Network L.L.C.:
1. Dish Network L.L.C. is hereby ordered to pay a
civil penalty to the United States in the sum of
$168,000,000.00 for Dish’s violation of the TSR
done with knowledge or knowledge fairly implied,
as alleged in Counts I, II, III, and IV.
2. Dish Network L.L.C. is hereby ordered to pay
statutory damages in the sum of $84,000,000.00
to the Plaintiff States of California, Illinois, North
Carolina, and Ohio in the following sums for
violations of the TCPA and FCC Rule as alleged

416a
in Counts V and VI, for which Dish shall be jointly
and severally liable to the Plaintiff States of
California, Illinois, North Carolina, and Ohio. The
statutory damages shall be divided as follows:
a. California is awarded statutory damages in
the sum of $36,456,000.00;
b. Illinois is awarded statutory damages in the
sum of $17,388,000.00;
c. North Carolina is awarded statutory damages
to in the sum of $10,248,000.00; and
d. Ohio is awarded statutory damages in the
sum of $19,908,000,00.
3. Dish Network L.L.C. is hereby ordered to pay a
civil penalty to Plaintiff State of California in the
sum of $16,800,000.00 for violation of California
Business and Professions Code §17200 and
175929(c) as alleged in Counts VII and VIII.
4. Dish Network L.L.C. is hereby ordered to pay a
civil penalty to Plaintiff State North Carolina in
the sum of $8,400,000.00 for violation of the North
Carolina General Statutes §§ 75-102 and 75-104,
as alleged in Counts IX and X.
5. Dish Network L.L.C. is hereby ordered to pay a
civil penalty to Plaintiff State Ohio in the sum of
$2,800,000.00 for violation of Ohio Consumer
Sales Protection Act, Ohio Revised Code §§
1345.02 and 1345.03, as alleged in Count XII.

417a
As additional necessary and appropriate relief,
the Court further hereby enters a Permanent
Injunction in favor of the Plaintiffs and against
Defendant Dish Network, L.L.C. in the manner set
forth in the separate Permanent Injunction Order
entered herewith.
All pending motions are denied as moot. This case
is closed, except to the extent that the Court retains
jurisdiction to enforce the Permanent Injunction.
Enter: June 5, 2017
/s Sue E. Myerscough
UNITED STATES DISTRICT JUDGE

418a
APPENDIX C
UNITED STATES COURT OF APPEALS
For the Seventh Circuit
Chicago, Illinois 60604
June 25, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge

No. 17-3111
UNITED STATES OF
AMERICA, et al.,
Plaintiffs-Appellees,
v.
DISH NETWORK L.L.C.,
Defendant-Appellant.

Appeal from the
United States
District Court for the
Central District of
Illinois.
No. 09-3073
Sue E. Myerscough,
Judge.

419a
Order
Defendant-Appellant filed a petition for rehearing
and rehearing en banc on June 10, 2020. No judge in
regular active service has requested a vote on the
petition for rehearing en banc,1 and all of the judges
on the panel have voted to deny rehearing. The
petition for rehearing is therefore DENIED.

Judge Rovner did not participate in the consideration of
this petition.
1

420a
APPENDIX D
The Telephone Consumer Protection Act (TCPA)
provides, in relevant part:
(b) Restrictions on use of automated telephone
equipment
(1) Prohibitions
It shall be unlawful for any person within the
United States, or any person outside the
United States if the recipient is within the
United States—
***
(B) to initiate any telephone call to any
residential telephone line using an
artificial or prerecorded voice to deliver a
message without the prior express
consent of the called party, unless the call
is initiated for emergency purposes, is
made solely pursuant to the collection of
a debt owed to or guaranteed by the
United States, or is exempted by rule or
order by the Commission under
paragraph (2)(B);
(c) Protection of subscriber privacy rights
(1) Rulemaking proceeding required
Within 120 days after December 20, 1991, the
Commission shall initiate a rulemaking
proceeding concerning the need to protect

421a
residential telephone subscribers’ privacy
rights
to
avoid receiving
telephone
solicitations to which they object. ***
47 U.S.C. § 227(b) & (c).
The regulations promulgated under the TCPA
provide, in relevant part:
(a) No person or entity may:
(1) Except as provided in paragraph (a)(2) of
this section, initiate any telephone call (other
than a call made for emergency purposes or is
made with the prior express consent of the
called party) using an automatic telephone
dialing system or an artificial or prerecorded
voice;
***
(iii) To any telephone number assigned to
a paging service, cellular telephone
service, specialized mobile radio service,
or other radio common carrier service, or
any service for which the called party is
charged for the call.
(2) Initiate, or cause to be initiated, any
telephone call that includes or introduces an
advertisement or constitutes telemarketing,
using an automatic telephone dialing system
or an artificial or prerecorded voice, to any of
the lines or telephone numbers described in
paragraphs (a)(1)(i) through (iii) of this
section ***

422a
(c) No person or entity shall initiate any telephone
solicitation to:
***
(2) A residential telephone subscriber who
has registered his or her telephone number
on the national do-not-call registry of persons
who do not wish to receive telephone
solicitations that is maintained by the
Federal Government. Such do-not-call
registrations must be honored indefinitely, or
until the registration is cancelled by the
consumer or the telephone number is
removed by the database administrator.
47 C.F.R. § 64.1200(a) & (c)
The Telemarketing Sales Rule provides, in
relevant part:
(b) Pattern of calls.
(1) It is an abusive telemarketing act or
practice and a violation of this Rule for a
telemarketer to engage in, or for a seller to
cause a telemarketer to engage in, the
following conduct:
***
(iii) Initiating any outbound telephone
call to a person when:
(A) That person previously has stated
that he or she does not wish to receive

423a
an outbound telephone call made by or
on behalf of the seller whose goods or
services are being offered …
(B) That person’s telephone number is
on
the
“do-not-call”
registry,
maintained by the Commission, of
persons who do not wish to receive
outbound telephone calls to induce the
purchase of goods or services unless
the seller or telemarketer:
***
(2) Can demonstrate that the
seller has an established business
relationship with such person,
and that person has not stated
that he or she does not wish to
receive outbound telephone calls
under paragraph (b)(1)(iii)(A) of
this section; or
(iv) Abandoning any outbound telephone
call. An outbound telephone call is
“abandoned” under this section if a
person answers it and the telemarketer
does not connect the call to a sales
representative within two (2) seconds of
the person’s completed greeting.
16 C.F.R. § 310.4(b).

